No. _____________________

IN THE
SUPREME COURT OF THE UNITED STATES
___________________________

JAMES R.W.MITCHELL—PETITIONER
VS.
MARCUS POLLARD, Warden of Richard J. Donovan Correctional Facility,
an individual —RESPONDENT

APPENDIX IN SUPPORT OF PETITION FOR WRIT OF CERTIORARI
TO THE CALIFORNIA COURT OF APPEAL,
FIRST APPELLATE DISTRICT, DIVISON ONE (VOL. 1)

Steven S. Lubliner (California State Bar No. 164143)
LAW OFFICES OF STEVEN S. LUBLINER
P.O. Box 750639
Petaluma, CA 94975
Phone: (707) 789-0516
e-mail: sslubliner@comcast.net
Attorney for Petitioner James R.W. Mitchell

INDEX TO APPENDIX
VOLUME 1-RELEVANT POST-CONVICTION PROCEEDINGS
Order of the Court of Appeal in In re James R.W. Mitchell, on Habeas Corpus,
California Court of Appeal, First Appellate District, No. A160759 Denying
Habeas Petition on McCoy Issues on the Merits
November 18, 2020 ...................................................................... 1
Order of the California Supreme Court in In re James R.W. Mitchell, on
Habeas Corpus, California Supreme Court No. S265812 Denying Petition for
Discretionary Review on McCoy iss+ues
January 13, 2021 ......................................................................... 3
Order of the Marin County Superior Court in In the Matter of James R.W.
Mitchell, on Habeas Corpus, Marin County Superior Court No. SC210551A
Denying Habeas Petition on McCoy Issues on the Merits
May 20, 2020 ................................................................................ 4
Petition for Discretionary Review on McCoy Issues in In re James R.W.
Mitchell, on Habeas Corpus, California Supreme Court No. S265812
November 30, 2020 .................................................................... 40
Petition for Writ of Habeas Corpus on McCoy Issues with Memorandum of
Points and Authorities in In re James R.W. Mitchell, on Habeas Corpus,
California Court of Appeal, First Appellate District, No. A160759
August 21, 2020 ......................................................................... 82
Opinion on Direct Appeal in People v. Mitchell, A133094
July 28, 2014 ............................................................................ 158
Order Denying Petition and Certificate of Appealability in Mitchell v. CSPCorcoran, Nor. Dist. No. 15-cv-4919
October 18, 2016 ...................................................................... 202
Petitioner’s Motion to Stay Habeas Appeal in Ninth Circuit Case 16-17057 to
Allow him to Pursue McCoy Issues in State Court
July 12, 2019 ............................................................................ 212

i

Ninth Circuit Order in Case 16-17057 Granting Motion to Stay Habeas
Appeal to Allow Petitioner to Pursue McCoy Issues in State Court
July 17, 2019 ............................................................................ 223
Order Appointing Petitioner Counsel in Ninth Circuit Case 16-17057
August 15, 2017 ....................................................................... 225
VOLUME 2-RELEVANT TRIAL COURT PROCEEDINGS
Hearing Where Defense Counsel Hanlon and Rief Substitute as Counsel for
Petitioner (Excepts)
September 1, 2010 .................................................................. 226
In Camera Hearing on Need for DNA Testing and Defense Counsel’s Strategy
January 20, 2011 ..................................................................... 251
Hearing on Petitioner’s Request that Public Defender Relieve Defense
Counsel
May 10, 2011 ............................................................................ 256
In Camera Hearing on Request for Investigative Funds and Defense
Counsel’s Strategy
May 25, 2011 ............................................................................ 264
Faretta Hearing on Petitioner’s Request to Represent Himself
June 10 & 13, 2011 .................................................................. 272
In Camera Hearing on Defense Counsel’s Motion to Withdraw after Denial of
Petitioner’s Faretta Request
June 13, 2011 ........................................................................... 304
Hearing on Petitioner’s Competency After Denial of Petitioner’s Faretta
Request and Defense Counsel’s Motion to Withdraw
June 13 & 14, 2011 .................................................................. 319
Defense Counsel’s Opening Statement at Trial
June 21, 2011 ........................................................................... 328
Trial Court Proceedings on Jury Instructions on Charge of First-Degree
Murder and Lesser Homicides
July 6 & 7, 2011 ....................................................................... 334
ii

Defense Counsel’s Closing Argument at Trial
July 7 & 8, 2011 ....................................................................... 344
In Camera Hearing on Petitioner’s Motion for New Counsel for Sentencing
and Possible New Trial Motion and Defense Counsel’s Related Motion to
Withdraw
August 16, 2011 ...................................................................... 411

iii

Court of Appeal, First Appellate District
Charles D. Johnson, Clerk/Executive Officer
Electronically FILED on 11/18/2020 by T. Nevils, Deputy Clerk

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION ONE

In re JAMES R. W. MITCHELL,
on Habeas Corpus.

A160759
(Marin County Super. Ct.
No. SC165475A)

BY THE COURT:
The petition for writ of habeas corpus is denied on the merits.
Petitioner's Sixth Amendment rights were not violated because his counsel
did not concede petitioner's guilt in closing argument. (McCoy v. Louisiana
(2018) 584 U.S. _ , _ , 138 S.Ct. 1500, 1509 ["When a client expressly
asserts that the objective of his defence' is to maintain innocence of the
charged criminal acts, his lawyer must abide by that objective and may not
override it by conceding guilt."]; id. at p. 1509 ["[Defense counsel] could not
interfere with McCoy's telling the jury 'I was not the murderer,' although
counsel could, if consistent with providing effective assistance, focus his own
collaboration on urging that McCoy's mental state weighed against
conviction."], italics added; People v. Franks (2019) 35 Cal.App.5th 883, 891
["McCoy makes clear, however, that for a Sixth Amendment violation to lie, a
defendant must make his intention to maintain innocence clear to his
counsel, and counsel must override that objective by conceding guilt."]; see
United States v. Rosemond (2d Cir. 2020) 958 F.3d 111, 119, 123 [no violation
of McCoy where counsel for defendant in murder-for-hire case admitted that
defendant had paid for the victim to be shot but argued that the government
failed to prove beyond a reasonable doubt that the defendant intended for the

1 App. 1

victim to be killed]; Merck v. State (Fla. 2020) 298 So.3d 1120, 1121 [counsel
for murder defendant did not violate McCoy by arguing the alternative
defenses of reasonable doubt as to the identity of the perpetrator and
voluntary intoxication]; Truelove v. State (N.D. 2020) 945 N.W.2d 272, 276
[counsel's admission that defendant charged with aggravated assault had
struck the victim was not "not necessarily a definitive statement of guilt as
was present in McCoy."]; see also People v. Maynard (N.Y. App. Div. 2019)
176 A.D.3d 512, 513-514, 112 N.Y.S.3d 706, 707 ["Rather-in light of
testimony by the defendant that was decisively contradicted by the evidence
and therefore transparently false-counsel made the permissible alternative
argument [citation] that, if the jury determined that defendant was the
perpetrator, it should still acquit him of the top count of burglary in the
second degree."].)

Date: 11/18/2020
_ _ _ _ _ _ _ _ _ _ _ P.J.
Before: Humes, P.J., Margulies, J., and Banke, J.

1 App. 2

SUPREME COURT

FILED
Court of Appeal, First Appellate District, Division One - No. A160759 JAN

13 2021

Jorge Navarrete Clerk

S265812

IN THE SUPREME COURT OF CALIFORNIA

Deputy

En Banc

In re JAMES R. W. MITCHELL on Habeas Corpus.

The requests for judicial notice are granted.
The petition for review is denied.

CANTIL-SAKAUYE
Chief Justice

1 App. 3

1

MAY ·20 2020

2
3
4

5
6
7

SUPERIOR COURT OF CALIFORNIA

8

COUNTY OF MARIN

9

10
11

IN THE MATTER OF

)

JAMES R.W. MITCHELL,

12
13

)
)
)
) CaseNo.: SC210551A

F-63367

)

~
)

Petitioner,

14
15

ORDER DENYING PETITION FOR WRIT
OF HABEAS CORPUS

)
FOR WRIT OF HABEAS CORPUS.

)
)

16

17
18

I.

INTRODUCTION

Pursuant to jury trial, Petitioner James R.W. Mitchell (hereafter, Petitioner or Mitchell) was

19

convicted of first-degree murder (Pen. Code § 187), corporal injury on a co-habitant (Pen. Code

20

§273 .5), child abduction (Pen. Code §278), child endangerment (Pen. Code §273a), and stalking (Pen.

21

Code §646.9). The jury also found that Mitchell personally used a deadly weapon in connection with

22

the murder and corporal injury counts, and that he personally inflicted great bodily injury upon his

23

victim. Briefly stated, the jury found that Mitchell, using an aluminum softball bat, beat to death the

24

mother of his then one-year old daughter, and thereafter carried the daughter away. The jury acquitted

25

Mitchell of a charge alleging felony-murder, finding the murder did not occur during the course of a

26

kidnapping. On August 16, 2011 Mitchell was sentenced to 35 years to life in prison.

27

28

The convictions were affirmed on appeal. Mitchell's subsequent petition for review to the
California Supreme Court was denied on October 15, 2014. The judgment against him became final

Decision on Petition for Writ of Habeas Corpus - I

1 App. 4

1

on January 14, 2015 (90 days after the petition for review was denied). (See Supreme Court Rule

2

13(1); People v. Vieira (2005) 35 Cal.4th 264, 306 [a judgment is not final until the time for

3

petitioning for a writ of certiorari in the United States Supreme Court has passed.])

4

Petitioner filed the instant Petition for writ of habeas corpus on October 3, 2019. Citing the

5

recent U.S. Supreme Court decision in McCoy v. Louisiana (2018) 138 S.Ct. 1500, Mitchell seeks an

6

order reversing his convictions based on a structural Sixth Amendment violation. Specifically he

7

argues that he was denied his Sixth Amendment right to dictate the ultimate objective of his defense, -

8

that trial counsel pursue only his preferred defense of total factual innocence. He contends that, over

9

his objections, trial counsel Stuart Hanlon wrongly refused to limit his closing argument to asserting

1O his claim of total innocence. Petitioner complains that Mr. Hanlon' s argument, that if the jury believes
11

that Mitchell committed the killing, they should only find him guilty of a lesser offense of either

12

second-degree murder or voluntary manslaughter, violated his Sixth Amendment right as announced in

13

McCoy.

14

This court issued an Order to Show Cause on November 21, 2019, directing the People

15

(hereafter, People or Respondent) to file a Return showing why the Petition should not be granted.

16

The People filed their Return on December 20, 2019. Petitioner filed his Denial to the Return on

17

April 27, 2020. All necessary and material evidence for the court's consideration is contained in the

18

exhibits submitted by the parties, and in the record of conviction. The Petition can be decided

19

without resolving any factual disputes. "'Where there are no disputed factual questions as to matters

20

outside the trial record, the merits of a habeas corpus petition can be decided without an evidentiary

21

hearing.' [Citations]" (People v. Duvall (1995) 9 Cal.4th 464, 478--479.) Here, an evidentiary

22

hearing is not necessary.

23

For the reasons stated below, the Petition is DENIED.

24

II

25

II

26

II

27

II

28

II

Decision on Petition for Writ of Habeas Corpus - 2

1 App. 5

II.

1

FACTUAL SUMMARY

2

A. The Prosecution's Evidence

3

Evidence of Mitchell's guilt was overwhelming. 1 As the Court of Appeal concluded in

4

affirming his conviction, "[A] trial strategy based solely on defendant's testimony was doomed."

5

(Petitioner's Exhibit (hereafter, "Ex.") L, p. 38) The evidence established the following:
Mitchell began his relationship with the victim D.K. after meeting in a San Francisco night club

6
7

in August 2007. They moved in tDgether in San Francisco two weeks later, and produced a child in

8

2008. During their brief relationship, Mitchell regularly used drugs, (principally marijuana and

9

methamphetamine) and often fought with D.K., when one or both of them was drinking or using drugs.

10

Mitchell committed several acts of domestic violence against D.K. during the course of their brief

11

relationship. In 2008 Mitchell pleaded guilty to a domestic violence offense perpetrated upon D.K.

12

He was placed on probation for that offense, and remained on probation at the time of the killing.
Even after being placed on probation, Mitchell continued to abuse D.K. D.K. obtained a

13

14

restraining order restraining Mitchell from contacting her. Mitchell violated that restraining order

15

which violation led to a revocation of his probation. After the violation, Petitioner moved briefly to

16

Canada. He and D.K. continued to speak over the phone. In March, 2009, D.K. obtained a

17

temporary restraining order against Petitioner from the Marin County Superior Court. Petitioner did

18

not appear at the hearing wherein the order was made permanent. Telephone records reveal that in

19

the weeks preceding D.K.'s death, Mitchell called D.K. incessantly. She did not answer any of his

20

calls through July 12, 2009, the date of her murder.

21

D.K. and her child moved into D.K.'s mother's home in June 2009. The three resided in the

22

top unit of a duplex located in Novato, California. An elderly couple, Bessie and Nick Tzafopoulos,

23

lived in the lower unit. Ms. Tzafopoulos testified that shortly before 7:00 p.m. on July 12, 2009 she

24

heard a scream and looked out her window. However, she did not see anything at that moment. Mr.

25

Tzafopoulos testified that he heard a "thumping sound" and went outside to investigate. Standing

26
27

1

The summary of trial evidence is taken from the Court of Appeal decision. (Ex. L 1-65)

28

Decision on Petition for Writ of Habeas Corpus - 3

1 App. 6

1

about 15 feet away, he saw a man repeatedly hitting D.K. in the head with a baseball bat as D.K. lay

2

on the ground. Mr. Tzafopoulos went back into his apartment and told his wife to call the police

3

"because he 's here." Ms. Tzafopoulos told the dispatcher that the child's father was beating D.K.

4

She then saw a man run past her window carrying the child. She said the man had a shaved head and

5

wore a black T-shirt and blue jeans. Mr. Tzafopoulos described the man as wearing a dark shirt and

6

carrying the child. He observed the man get into a vehicle with the child. Two other neighbors

7

described the man running from the scene as white, bald or having a shaved head, about six feet tall

8

and "built up" or "heavyset." This description matched defendant's physical appearance. (Ex. L pp.

9

4-5)

1O

The descriptions of the suspect' s clothing by the eyewitnesses were inconsistent. One

11

neighbor identified him as wearing a big, white T-shirt. That neighbor could not pick Mitchell out of

12

a photo lineup that night, but a week later identified Mitchell in a live line up as the perpetrator with

13

95% certainty. Mr. Tzafopoulos misidentified a different person (a police officer) out of a live

14

lineup, but later testified that the man he saw hitting D.K. was the same man who ran off with the

15

child. The neighbors testified to seeing only one man involved in the killing and the abduction. (Ex.

16

L, p. 5)

17

18

19

Upon arrival, the police found D.K. dead on the ground. They observed multiple head
wounds. Police found a blood-stained softball bat lying on the ground near D.K.
After the killing, Mitchell spoke to his brother and a cousin. Mitchell's cousin told him that

20

D.K. was dead. Mitchell responded that he knew she was dead. However, he did not admit, nor deny,

21

any involvement in her death. Mitchell appeared distraught and he cried. He stated that he was going

22

to Mexico with the minor. (Ex. L pp. 5-6)

23

Later, the same night, Mitchell was found in Citrus Heights, California with his daughter, who

24

was found in Mitchell's car, unharmed. Mitchell was arrested for the murder of D.K. At the time of

25

his arrest, Mitchell was wearing a red and navy striped shirt and blue jeans. (Id. at p. 6) Mitchell had

26

blood spatter on his jeans and shoes. Officers also found dried blood on the child's cheek. DNA

27

analysis revealed that the blood found on the front of Mitchell's pants, on the softball bat, and on the

28

child's face, was that of D.K. No blood was found on the back of defendant's pants or on the striped

Decision on Petition for Writ of Habeas Corpus - 4

1 App. 7

1

shirt he was wearing when he was arrested. Two prosecution experts concluded that based on the

2

blood spatter on Mitchell's pants, he had to be within five feet of D .K. at the time of the attack. (Ex.

3

L, p. 37) Additional DNA collected from the bat handle was consistent with Mitchell's DNA. A

4

latent fingerprint lifted from the barrel of the bat matched Mitchell's left index finger.

5

B. The Defense

6

Throughout the trial, Mitchell maintained his total innocence and claimed any identification of

7

him was a matter of mistaken identity. He asserted that two unidentified assailants beat D.K. and

8

attempted to kidnap their daughter. Defense counsel Stuart Hanlon presented evidence of mistaken

9

identity largely through the Mitchell's own testimony.

1O

Mitchell testified that on the day of the murder, July 12, 2009, he went to the home of his

11

estranged girlfriend D.K. to wish their daughter a happy birthday. He claimed that D.K. invited him

12

to visit, notwithstanding that he was subject to outstanding domestic violence restraining orders

13

preventing such contact. Mitchell stated that he and D.K. had previously reunited on several

14

occasions after the imposition of the restraining orders, sometimes at D .K.' s invitation. He testified

15

that he was wearing a red and blue striped shirt at the time of his visit.

16

He stated that upon his arrival, as he opened the front gate, he heard D.K. cry "Help." He was

17

immediately confronted by a man wearing a white shirt. The man hit Mitchell with a baseball bat,

18

knocking him to the ground. At that moment, Mitchell saw another man, who was wearing a black T-

19

shirt, run past him carrying his daughter. Mitchell got up from the ground and ran after the man and

20

grabbed his daughter away. As he started to walk back towards the house, he heard someone shout

21

"Call 9-1 -1." Aware he was violating a restraining order by being there, he took the girl and drove

22

north on Highway 101. He did not call D.K.'s house to check on her condition, stating he did not

23

want to talk to her while the police were there.

24

As he drove northbound on Highway U.S. 101 he spoke to his brother and a male cousin, and

25

told them he was driving to Mexico. He also spoke to his mother who informed him that D.K. was

26

dead and that he was the suspect. He testified that he stopped at a gas station in Auburn, California,

27

and coincidentally ran in to his long-time attorney. He was soon thereafter arrested in Citrus Heights.

28

(Ex. L p. 8)

Decision on Petition for Writ of Habeas Corpus - 5

1 App. 8

1

2
3
4

Mitchell further testified that he did not see anyone hit the victim. He could not explain how
D.K. 's blood got on his pants. (Ex. L p. 8)
D.K.'s mother testified that the bat may have been in the laundry room of her apartment prior
to the murder. (Ex. L p. 8)

5

C. Defense Counsel's Closing Argument

6

Consistent with Mitchell's testimony, defense counsel Hanlon spent much of his closing

7

argument contending that Mitchell was not the assailant. He stressed that the conflicting eyewitness

8

testimony, the physical evidence, the clothing, the testimony suggesting that Mitchell did not arrive

9

with the subject bat, and the fact he did not have supplies for the minor, all created a reasonable doubt

10
11

as to Mitchell's involvement in the killing. (Ex. J pp. 14-15, 25-26, 28-31, 39-47.)

Mr. Hanlon conceded that the blood on Mitchell's pants and shoes was D.K.'s blood, and that

12

Mitchell must have been near D.K. when she was beaten because of the blood spatter on his jeans.

13

(Ex. J, pp. 37, 47- 48) Mr. Hanlon argued that evidence of blood spatter on Mitchell's clothing is

14

consistent with Mitchell's testimony that he did not commit the killing, but was nearby. He argued

15

that Mitchell was not looking at D.K., but rather, was "locked in" to the assailant as they were

16

engaged in "hand to hand combat." (Ex. J, p. 54)

17

Near the end of his argument, Mr. Hanlon offered an alternative theory that if the jury did not

18

believe defendant's version of the events, and instead believed Mitchell was the assailant, the jury

19

should find the killing was not premediated. Mr. Hanlon argued that under those circumstances, the

20

jury should return a verdict of voluntary manslaughter. He argued that the evidence suggests the

21

killing was committed out of an "explosion of anger and loss of control." He theorized that the jury

22

could find that Mitchell went into a "rage" because D .K. told him he could not see the minor. (Ex. L,

23

pp. 58-62.)

24

Mitchell asserts that this alternative argument proffered by Mr. Hanlon crossed the line into

25

impermissibly conceding Mitchell's commission of the killing (the actus ret1s), as in McCoy, supra.

26

(MPA pp. 15-17 .) On this point, Mr. Hanlon argued to the jury,

27

28

I want to talk to you about an issue that's very difficult, not because it's difficult to talk
about, but because my job as an attorney is to be an advocate for my client. I'm also an
officer of the Court. And I see my job in closing argument as arguing what I believe the
evidence suggests and have you think about it.

Decision on Petition for Writ of Habeas Corpus - 6

1 App. 9

1

2
3

And I think even though you can tell from Mr. Mitchell's testimony, he would not agree
with me going to where I'm going to go, which is, if you don't believe him, what
occurred? If you don't believe what he testified to, if you believe he's a killer, what do
you then do with the facts?

4
5
6
7

8
9

And, I don't want you to take it to mean that I don't believe my client. As I pointed out
to you, what Mr. Cacciatore and I believe is irrelevant, we can't argue what we believe,
we can argue what the evidence shows.
And one of my concerns was, if I argued to you, what do you do if you were convinced
beyond a reasonable doubt that Mr. Mitchell is not telling the truth and did take the
hammer [sic] and did kill her? Then you will say, 'Well, this is where he talked about
honesty, being straightforward with us, and now he's going to talk out of two sides of his
mouth. "He's innocent, but if you don't think he's innocent, what's he guilty of?"'

10
11
12

[T]hat's why this is difficult, but it's something, as an officer of the Court and an
advocate for my client, I have to do, because there certainly is evidence on which you
could conclude, depending on how you understand the inferences for circumstantial
evidence, that Mr. Mitchell is not being totally honest with you about what happened.

13
14

So, I want to talk to you - what can we infer from the evidence, if you conclude that Mr.
Mitchell is the person who killed [D.K.]?

15

16
17

(Ex. J, pp. 56-57.)
Consistent with this alternate theory, Mr. Hanlon then argued that if the jury concludes from

18

the evidence that defendant attacked D.K. with the bat, the evidence that Mitchell did not bring the bat

19

to the residence shows that he did not harbor a deliberate and premeditated intention to kill. (Ex. J, p.

20

58) He argued,

21

22
23
24

25

26
27
28

I think the inferences of the facts are that Mr. Mitchell went there to see his daughter on
her birthday. Either he heard [D.K.] tell him he could come, or he inferred it from what
she said, but when he got there, she said 'no', she didn't want him to see the baby.
Something happened, and there was an explosion.
I don't think you can believe that someone just picks up a bat and beats someone, even
they don't know, but someone they've been intimate with and loved, it just doesn't
happen without an explosion of anger and loss of control. To do that more than once to
somebody you care about, while they're holding a child, ... there's nothing about Mr.
Mitchell that indicates he's capable of that without a loss of control.
And in that context, you have to answer the questions, what do we do with it? If that's
what you conclude - and I'm not saying Mr. Mitchell is guilty, I'm saying, I think we

Decision on Petition for Writ of Habeas Corpus - 7

1 App. 10

1

2
3
4

5
6
7

8
9

10
11

12
13

14
15

16
17
18
19
20

presented evidence to you and arguments to you that the inferences and circumstances - that the Government has not proved their case beyond a reasonable doubt.
(Ex. J, p. 58- 59)
Mr. Hanlon then circled back to Mitchell's claim of total innocence, at least in part, arguing,

You can never say 'I'm convinced he didn't do it,' but you can say, looking at this
evidence, and I've spent three hours arguing to you, that the inference of the evidence,
the circumstantial evidence is that they have not proved beyond a reasonable doubt that
he did this.
(Ex. J, p. 59)
Addressing the elements of Premeditated First Degree Murder, Mr. Hanlon argued,
That he acted in a cold, calculated manner in deciding to [kill] [D.K.] because of
whatever. I would say there is no evidence that supports that, that the nature of the
killing itself did not support that.
The nature of the explosion of rage that caused someone to do this is not a cold,
calculated decision. This is qualitatively so different than slapping someone in the face.
It is a rage. To do this to someone - - whoever did this to her was in a rage. And you saw
Mr. Mitchell - that's not a cold, calculated decision, weighing the pros and cons and then
acting, it's not possible.
You know - I mean you could say he made the decision really quickly, but his mind - if
he - if he did this, his mind is not act - acting in a calculated manner. Because you can't
do that - I mean, I - the evidence, I don't think supports that he went there to do it, that
he brought a weapon to do it, that he was planning to take the baby, all these things
you have to look at, in whatever theory you're going on. And when you look at
'em, they don't show a plan to do a criminal act.
(Ex. J, pp. 60-61)

21

22
23

24
25

26
27

Hanlon went on to argue that the evidence also did not support the People's alternate theory of
felony murder during a kidnapping.
So that, if something happened and Mr. Mitchell went in a rage and did this awful act, it
wasn't done to kidnap [the minor], it was something going on between him and [D.K.],
and at that point, he took the baby. There was no plan to do this, to take the baby.
There's nothing that supports that. And, again, you look at the circumstances of what
happened. Of getting ready, you know, there was no plan to do this.
(Ex. J, p. 61.)

28

Decision on Petition for Writ of Habeas Corpus - 8

1 App. 11

1

2

3
4
5

6
7
8
9

10
11
12

13

14
15
16
17
18

Mr. Hanlon continued by arguing that if the jury decided Mitchell did kill D.K., the evidence
supports a finding of manslaughter or at most second-degree murder. (Ex. J; p. 62)
[I]f you decide that Mr. Mitchell did this act, the provocation, ... is that she said no to
him, and he exploded- she said, ''No, I don't want you to have the baby today, I don't
want you to see her." And the question becomes, is that passion reasonable in the sense
that - not that you kill somebody, that's not the standard, the passion is, ... if you knew
what Mr. Mitchell knew and saw what he saw- and I disagree with [the prosecutor], I
think his tweaking on drugs, you're in his situation, I think you do consider that, you put
yourself in that situation of someone who is him, even though you talk to the ordinary,
reasonable person and he can argue the law and you'll decide what it means, but I think
you look at all the factors where he was, and decide if that type of explosion, when
someone said you can't see your baby on her birthday, would cause other people to
become - not to kill, it's not to kill, not to pick up a baseball bat, to have their judgment
affected by passion. That's the standard.
(Ex. J, pp. 62-63.)

Mr. Hanlon, in closing, put his alternative argument in context of Mitchell's claim of total
innocence. He argued,
So the question becomes, has the Government proved Mr. Mitchell is guilty beyond a
reasonable doubt? Have they proved his testimony is not only inconsistent with the facts,
but beyond a reasonable doubt - doubt is not true? I don't think they have. I don't think
the evidence has shown that. If you think they have, then you go to the next stage.
(Ex. J; p. 64)

Mr. Hanlon' s argument relating to the alternative theory discussed above was against

19

Mitchell's wishes and instructions. It is uncontradicted that during all phases of the trial (pre-trial,

20

guilt phase, and sentencing), Mitchell consistently maintained his innocence of the beating death of

21

D.K., and insisted that his counsel present only a mistaken identity defense. During several pre-trial

22

motions Mitchell repeatedly and consistently voiced his desire to maintain a defense seeking total

23

exoneration, and he rejected any proposed strategy to present a defense of mitigated culpability for

24

lesser included offenses of second-degree murder or voluntary manslaughter due to heat of passion.

25

(Ex. D, pp. 4-5 ["Mr. Mitchell has consistently told me [Hanlon] he would not go forward with the

26

[mental] defense. He didn't do it, he's going to testify he didn't do it."]; Ex. F, p. 9 ["I'm not going

27

to go with a manslaughter or with a provocation or with a heat of passion or with any other kind of

28

defense because I did not commit this crime."]; Appellate Opinion - Ex. L pp. 24, 30 ["The gist of

Decision on Petition for Writ of Habeas Corpus - 9

1 App. 12

1

defendant's complaint about Hanlon and Rief, as it ultimately emerged, was that he did not want

2

them to present a defense or an argument based on any theory other than pure innocence."] 30-33, 33-

3

34, 36.)

4

At his sentencing hearing, Mitchell made a motion to substitute counsel, asserting that Hanlon

5

refused to argue defendant's total innocence. (Ex. K, p. 3 ["I instructed him not to argue [a] heat of

6

passion case. I instructed him to maintain [a mistaken] identity defense because it is a fact I did not

7

kill [D .K.]. "].) Hanlon explained that he was not going to override defendant's position, again, by

8

arguing for a lesser sentence based on heat of passion or lack of premeditation, since to do so "flies in

9

the face of what he wants, and I - I made that decision once. I'm not going to do it again. [,r.] I'm not

10

prepared to do it again. I'm not prepared to fly in the face of what my client wants." (Ex. L p. 40-41)

11

He said,

12

13

14
15

16
17

[I]f you ask me to go forward at sentencing, I would probably submit it and not argue for
the reasons I'm saying because again, it's Mr. Mitchell's life. I mean, my job as a
professional goes only so far to do what I ought to do to the Court and to my client's
interest, and my client comes first. ... I'll be the lawyer. I'll be the body at sentencing,
and I'll submit it because I don't have an argument. To argue to the Court at sentencing
he didn't do it, given the jury verdict, is meaningless. And to argue anything else flies in
the face of what he wants, and I - I made that decision once. I'm not going to do it again.
[,r.] I thought the evidence was overwhelming, as it was from the beginning, and I felt I
had to do that to try to save him from life in prison without a chance of parole. That was
my choice.

18
19

20
21

22
23
24

Mr. Mitchell clearly expressed his desire that I not do it. I told him - I don't know when
that conversation first came up, whether it was before the trial or during the trial, that this
was an attorney's choice. The decision to testify as to what the truth was up to him, but
what to argue was up to me. And he argued with me about that. It's clear what he's
saying is true, but I made that decision based on what I saw the evidence to be and what
was in his best interests. And I tried to make it, you know, it - it was a difficult situation,
but, yes, there was a reason why I did it, and that's what it was.

(Ex. K, pp. 9-11.)

III.

POST CONVICTION PROCEDURAL SUMMARY

25

26

After his conviction and sentencing, Mitchell filed a direct appeal in the First District Court of

27

Appeal. In his direct appeal, Mitchell argued, inter alia, that in light of the irreconcilable breakdown

28

of the attorney/client relationship over his desire to maintain his innocence defense: (1) the trial court

Decision on Petition for Writ of Habeas Corpus - 10

1 App. 13

1

erred by refusing to allow defendant to represent himself on the eve of trial; (2) his retained attorneys

2

provided ineffective assistance of counsel before trial and at sentencing; and (3) the trial court erred

3

in refusing to permit defendant to appoint new counsel for purposes of a new trial motion and

4

sentencing. (Ex. L 1-2.)

5

O_n July 28, 2014 the Court of Appeal issued its unpublished opinion and rejected Mitchell's

6

arguments, concluding : "sharp disagreements as to strategy do not create an actual conflict", the

7

evidence of Mitchell's guilt was overwhelming, and "a trial strategy based solely on his testimony was

8

doomed." (Ex . L, pp. 31, 38.)

9

10

11

Being appropriately deferential to counsel's tactical decisions, we cannot say Hanlon's
reasoning was beyond the realm of competent lawyering. We conceive of counsel's
argument on heat of passion not as a contradictory theory, but rather a backup argument,
in recognition by counsel that the jurors would likely reject defendant's far-fetched
testimony.

12

13
14

15
16
17
18

Nor can we say Hanlon's strategic decision proved to be prejudicial under the second
prong of the Strickland test. Hanlon did not altogether abandon defendant's favored
theory of defense. In fact, he spent most of his closing argument attempting to support the
theory to which defense had testified. The problem that defendant fails to come to grips
with is that his testimony was wholly unbelievable in light of the other evidence, and the
evidence of guilt was, in fact, overwhelming. Based on this record, counsel's argument
on heat of passion clearly was aimed at making the best of a bad situation and cannot
fairly be deemed either incompetent or prejudicial.
(Ex. L, p. 40.)

19

On October 15, 2014, the California Supreme Court denied Mitchell's petition for review.

20

On March 13, 2017 Mitchell, representing himself, filed a state habeas petition challenging his

21

22

sentence only. The court denied this petition on March 22, 2017.
On October 26, 2015 Mitchell, representing himself, filed a federal habeas corpus petition

23

challenging the validity of his conviction and raising Sixth Amendment claims stemming from the

24

conflicting trial strategies between him and his trial counsel which he raised in his direct state appeal.

25

He asserted: ( 1) the trial court erred in denying his motion to replace his retained attorneys with the

26

public defender, in denying his motion to dismiss his attorneys and allow him to proceed in pro per;

27

and in denying his motion to allow his attorneys to withdraw; (2) his trial counsel rendered

28

ineffective assistance of counsel when counsel did not promptly inform Mitchell of the manslaughter

Decision on Petition for Writ of Habeas Corpus - 11

1 App. 14

1

defense he would argue at trial, and when counsel would not argue on his client's behalf at

2

sentencing; and (3) the trial court erred by denying Mitchell's motion to appoint new counsel to

3

submit a motion for a new trial and to represent him at sentencing. (Ex. Q p. 1.)

4

The Federal District Court denied the petition on October 18, 2016. The court stated, in part,
Counsel's decision to pursue a heat of passion defense in addition to Mitchell's
mistaken identity defense did not constitute ineffective assistance because defense
strategies are controlled by counsel, not by the client. See Brookhart v. Janis, 384 U.S.
1, 9 (1966) (attorney may properly make strategy decision about how to run a trial even
if client disapproves); ... "

5

6
7

8

[,i]

9

Counsel cannot be faulted for presenting both defenses, satisfying Mitchell by arguing
mistaken identity and presenting a backup mitigating defense because he believed the
evidence would not support a defense of mistaken identity. [Citation.] Furthermore,
because counsel presented Mitchell's desired mistaken identity defense, Mitchell cannot
show prejudice. [Citations.]

10

11

12
13

(Ex. Q, pp. 5-6, internal citations omitted.)

14

On June 9, 2017 the Ninth Circuit Court of Appeals granted Mitchell the right to appeal the

15

trial court's rulings, wherein Mitchell is asserting: (1) the trial court erred in denying his requests to

16

represent hin1self; and (2) the trial court erred in finding defense counsel did not render ineffective

17

assistance at sentencing. In his opening brief, Mitchell also argued an uncertified issue based on

18

McCoy - "Is Mitchell entitled to a new trial for structural error under the Sixth Amendment because

19

defendant refused to confine the defense case to a claim of complete innocence and argued in the

20

alternative that Mitchell was guilty of a mitigated homicide?" (Ex. T, pp. 11, 43, 59-60.)

21

After Respondents filed their brief in the Ninth Circuit (Ex. U), on July 19, 2019 the Ninth Circuit

22

granted Mitchell's request to stay the appeal so he could file the instant habeas corpus petition in state

23

court. (Ex. S.)

24
25

IV.

DISCUSSION

Petitioner contends that his convictions must be reversed because he was deprived of his Sixth

26

Amendment right to dictate his defense as described in McCoy v . Louisiana (2018) 13 8 S. Ct.1500,

27

and the California cases that follow. Specifically, Petitioner argues that his trial counsel committed

28

reversible constitutional error when, against Petitioner's wishes, he suggested to the jury that if they

Decision on Petition for Writ of Habeas Corpus - 12

1 App. 15

1

did not believe defendant's mistaken identity claim, they should reject any contention that the killing

2

was deliberate and premeditated.

3

Respondent contends that (1) McCoy does not apply retroactively to Petitioner, where the

4

judgment was long ago final; (2) even if McCoy did apply retroactively, the Petition still fails since

5

Petitioner's counsel did not concede that Mitchell committed the killing, but rather properly argued an

6

alternative theory applicable only if the jury rejected Petitioner's mistaken identity defense; and (3)

7

Petitioner's claim is procedurally barred because it was raised, or could have been raised, on direct

8

appeal and in his federal habeas corpus proceeding.

9

As discussed below, this court concludes that McCoy does not apply retroactively to

10

Petitioner. For that reason alone, the Petition must be denied. Further, even if McCoy were

11

applicable here, Mr. Hanlon's closing argument did not violate Petitioner's right to dictate his

12

defense. Finally, the court finds the claim is not procedurally barred.

13
14

15

16
17

18
19

20
21

22
23
24
25

26

A. Habeas Corpus Principles, Generally

The right to habeas corpus is guaranteed by the state Constitution and "may not be suspended
unless required by public safety in cases of rebellion or invasion." (Cal. Const., art. I, § 11.)
Frequently used to challenge criminal convictions already affirmed on appeal, the writ of
habeas corpus permits a person deprived of his or her freedom, such as a prisoner, to
bring before a court evidence from outside the trial or appellate record, and often
represents a prisoner's last chance to obtain judicial review. " ' "[H]abeas corpus cuts
through all forms and goes to the very tissue of the structure. It comes in from the outside
... and although every form may have been preserved opens the inquiry whether they
have been more than an empty shell." ' "(In re Harris, supra, 5 Cal.4th at p. 828, fn. 6,
21 Cal.Rptr.2d 373, 855 P.2d 391, quoting Frank v. Mangum (1915) 237 U.S. 309, 346,
35 S.Ct. 582, 59 L.Ed. 969.) "Historically, habeas corpus provided an avenue ofrelief for
only those criminal defendants confined by a judgment of a court that lacked fundamental
jurisdiction, that is, jurisdiction over the person or subject matter" (Harris, at p. 836, 21
Cal.Rptr.2d 373, 855 P.2d 391), but that view has evolved in modem times and habeas
corpus now "permit [s] judicial inquiry into a variety of constitutional and jurisdictional
issues" (People v. Duvall, supra, 9 Cal.4th at p. 476, 37 Cal.Rptr.2d 259, 886 P.2d 1252).
(In re Reno (2012) 55 Cal.4th 428, 449-450.)
Petitioner "bears the ultimate burden of proving the factual allegations that serve as the basis

27

for his or her request for habeas corpus relief. [Citations.]" (In re Serrano (1995) 10 Cal.4th 447,

28

456.) '"For purposes of collateral attack, all presumptions favor the truth, accuracy, and fairness of

Decision on Petition for Writ of Habeas Corpus - 13

1 App. 16

1

the conviction and sentence; defendant thus must undertake the burden of overturning them. Society's

2

interest in the finality of criminal proceedings so demands, and due process is not thereby

3

offended.'[Citation.]" (People v. Duvall (1995) 9 Cal.4th 464, 474.)

4

5

B. The McCoy Standard

The United States Supreme Court, in McCoy v. Louisiana, supra, established that a criminal

6

defendant has a Sixth Amendment right to dictate the ultimate goals of his defense. The defendant in

7

McCoy, accused of murdering three individuals, consistently maintained his factual innocence of the

8

crimes and testified at trial that he was out of state at the time of the killings. (McCoy, supra, 13 8

9

S.Ct. at 1506.) Notwithstanding the defendant's preferred defense of total factual innocence, and

1O over his vehement objections to any admission of guilt, defense counsel conceded in his opening
11

statement to the jury that the evidence is " 'unambiguous,' " and that" 'my client committed three

12

murders.' " (Id. at pp. 1506-1507.) In his closing argument, McCoy's counsel reiterated that McCoy

13

was the killer, telling the jury that he " 'took [the] burden off of [the prosecutor].' " (Ibid.) Counsel

14

made these concessions believing that conceding guilt was the best hope to avoid a death verdict in

15

the penalty phase based on counsel's argument of McCoy's serious mental and emotional issues. (Id.

16

at pp. 1506-1507 .) The jury returned death verdicts for each murder charge.

17

McCoy then argued unsuccessfully in a new trial motion that his attorney's concession violated

18

his constitutional rights. (Id., 138 S.Ct. at p. 1507.) The trial court's ruling denying that motion was

19

affirmed by the Louisiana Supreme Court on the ground that defense counsel had authority to concede

20

guilt "because counsel reasonably believed that admitting guilt afforded McCoy the best chance to

21

avoid a death sentence." (Ibid.) The United States Supreme Court granted certiorari to determine

22

"whether it is unconstitutional to allow defense counsel to concede guilt over the defendant's

23

intransigent and unambiguous objection." (Id., 138 S.Ct. at p. 1507.)

24

Justice Ginsburg wrote that the Sixth Amendment guarantees a defendant the right to choose

25

the objective of his defense, which includes the decision to maintain a defense of total innocence. (Id.

26

at pp. 1508-1510). "When a client expressly asserts that the objective of' his defense' is to maintain

27

innocence of the charged criminal acts, his lawyer must abide by that objective and may not override it

28

by conceding guilt. U.S. Const. Arndt. 6 (emphasis added); see ABA Model Rule of Professional

Decision on Petition for Writ of Habeas Corpus - 14

1 App. 17

1

Conduct 1.2(a) (2016) (a ' lawyer shall abide by a client's decisions concerning the objectives of the

2

representation')." (McCoy v. Louisiana, supra, 138 S.Ct. at pp. 1508-1509.)

3

The high Court held that an attorney must abide his client's expressed defense objective of

4

innocence, and shall not override defendant's express objection to the concession strategy, even if

5

pursuing a complete innocence defense is against that attorney's better judgment and experience. (Id.

6

138 S.Ct. at pp. 1504-1505, 1507- 1511.) The McCoy court explained that just as defendant has the

7

absolute right to plead guilty, waive the right to a jury trial, testify in one' s own behalf, and forgo an

8

appeal, the defendant also retains the:
[a]utonomy to decide that the objective of the defense is to assert innocence .... Just as a
defendant may steadfastly refuse to plead guilty in the face of overwhelming evidence
against her, or reject the assistance oflegal counsel despite the defendant's own
inexperience and lack of professional qualifications, so may she insist on maintaining her
innocence at the guilt phase of a capital trial. These are not strategic choices about how
best to achieve a client's objectives; they are choices about what the client's objectives in
fact are . See Weaver v. Massachusetts, 582 U.S.--,-- , 137 S.Ct. 1899, 1908, 198
L.Ed.2d 420 (2017) (self-representation will often increase the likelihood of an
unfavorable outcome but ' is based on the fundamental legal principle that a defendant
must be allowed to make his own choices about the proper way to protect his own
liberty.') ; Martinez v. Court ofAppeal of Cal., Fourth Appellate Dist. , 528 U.S. 152, 165,
120 S.Ct. 684, 145 L.Ed.2d 597 (2000) (Scalia, J., concurring in judgment) [" ' Our
system of laws generally presumes that the criminal defendant, after being fully
informed, knows his own best interests and does not need them dictated by the State.' "].)

9

10
11
12
13
14

15
16
17
18
19

(McCoy, supra, 138 S.Ct. at p.1508.)

The court went on to conclude that this Sixth Amendment violation was "structural" because it

20

affects the proceedings as a whole. Thus, the error was not subject to a harmless error analysis, and

21

required reversal of the convictions without the need to show prejudice. (McCoy, supra, 138 S.Ct. at

22

p.1511.)

23
24
25

26
27

28

Such an admission blocks the defendant's right to make the fundamental choices about
his own defense. And the effects of the admission would be immeasurable, because a jury
would almost certainly be swayed by a lawyer's concession of his client's guilt. McCoy
must therefore be accorded a new trial without any need first to show prejudice.
(McCoy v. Louisiana, supra, 138 S.Ct. at p. 1511.)

Two recent California appellate decisions, People v. Flores (2019) 34 Cal.App. 5th 270 and
People v. Eddy (2019) 33 Cal.App.5th 472, followed McCoy and reversed convictions when defense

Decision on Petition for Writ of Habeas Corpus - 15

1 App. 18

1

attorneys in those cases failed to heed their clients' wishes to assert a defense of complete innocence.

2

In both cases, defense counsel expressly conceded to the juries that their clie.l).ts committed the actus

3

reus of the charged crimes, while arguing the defendants should be found guilty of lesser included

4

offenses due to their lack of the requisite mental state.

5

In Flores, defendant was convicted in separate trials of attempted vehicular murder of a police

6

officer and of unlawful weapons possession. The evidence of his guilt of both charges was

7

overwhelming. In the attempted murder trial, over defendant's express desire to maintain his

8

innocence, trial counsel decided to pursue a lack-of-premeditation defense. In closing argument,

9

counsel conceded defendant was "acting in the spur of the moment" and was intoxicated when he

1O deliberately drove his car into the officer.
11

Defendant was represented by the same trial counsel in the illegal weapons prosecution. There,

12

counsel again conceded defendant's possession of the weapon while arguing that defendant did not

13

understand that the modifications that he made to the firearm converted it to an illegal assault weapon.

14

The Flores court held that despite counsel' s experience-based decision, counsel' s concessions that

15

defendant committed the actus reus of both offenses violated defendant's Sixth Amendment right to

16

maintain his defense of factual innocence, and thus required reversal under McCoy. (People v. Flores,

17

supra, 34 Cal.App.5th at p. 273.) Although counsel ' s approach may have been the only method of

18

achieving an acquittal on one or more charges in light of the overwhelming evidence of guilt, the court

19

concluded that the reasonableness of counsel's strategy, or counsel's competence, did not mitigate this

20

constitutional violation. (Id. at p. 281 .)

21

In Eddy, defendant was found to have fatally stabbed the victim outside of their friends'

22

apartment. He was convicted of first-degree murder. A neighbor observed the defendant and the

23

victim fighting outside an apartment. The neighbor saw the defendant apparently punch the victim in

24

the abdomen three times in a motion consistent with a stabbing. He heard the victim yell, "you stabbed

25

me," and he observed the victim fall to the ground. (Id. at pp. 475-476.) He further observed the

26

defendant reenter the apartment to grab a bag before running away. The witness did not see a weapon.

27
28

The police recovered a knife under the kitchen table inside the referenced apartment. DNA
analysis of the knife blade revealed presence of the victim's blood, but did not reveal the presence of

Decision on Petition for Writ of Habeas Corpus - 16

1 App. 19

1

defendant's DNA. Law enforcement did not perform a DNA analysis of the knife handle, and did not

2

identify any possible fingerprints on the knife.

3

Another occupant of the apartment (Carl) testified that after the initial fight, but before the

4

stabbing, he saw defendant grab something from the apartment. He could not determine whether it

5

was a knife. After defendant left the apartment, he heard the victim yell, "Ooo, you stabbed me." The

6

witness then found the victim lying on the ground, whereupon he called 911. (Id. , 33 Cal.App.5th at

7

p. 476.)

8

Defendant did not testify and no affirmative defense was presented.

9

Defendant maintained a defense of factual innocence, which counsel presented in his opening

1O statement. (Id. at pp. 478-479.) Counsel pointed out that there was no evidence that defendant ever
11

wielded the knife, let alone committed the stabbing. To the contrary, counsel emphasized that the

12

knife was used frequently by Carl, the second witness, who was present during the fight. (Id. at p.

13

477.) Trial counsel directed the attention away from defendant and argued that Carl's "evasive" and

14

"dishonest" behavior following the crime was designed to avoid "revealing his own involvement in the

15

stabbing." (Id. at p. 477.)

16

A day later, in his closing argument, trial counsel conceded that defendant "committed the

17

crime [of voluntary manslaughter] on April 23, 2016," but maintained that defendant was not guilty of

18

first or second degree murder. (Id. at p. 477.) The jury returned a verdict of first degree murder with a

19

weapons enhancement.

20

Relying on McCoy, the Eddy court ruled the Sixth Amendment affords a defendant "an

21

absolute right to decide the objective of his defense and to insist that his counsel refrain from

22

admitting guilt, even when counsel's experience-based view is that confessing guilt might yield the

23

best outcome at trial." (Eddy, supra, 33 Cal.App.5th at pp. 474-475.)

24

The court reversed the conviction without requiring a showing of prejudice. The court held

25

that "even in the face of counsel's better judgment and experience" defense counsel cannot override

26

the defendant's absolute autonomy to assert a defense of innocence by conceding defendant committed

27

the criminal acts. (Eddy, supra, 33 Cal.App .5th at p. 480.)

28

Decision on Petition for Writ of Habeas Corpus - 17

1 App. 20

1

In the present case, Petitioner asserts that his trial counsel committed similar constitutional,

2

structural error by failing to heed Petitioner's wish to seek total exoneration based on mistaken

3

identity. He argues that the wisdom or reason in counsel's argument does not mitigate the structural

4

Sixth Amendment violation of his right to seek total exoneration. Petitioner argues that McCoy applies

5

retroactively to his case, and demands the relief he seeks.

6
7

8
9

C. McCoy Does not Apply Retroactively to Convictions that are Final,
and Thus, does not Apply here.
"The jurisprudence of retroactivity is a labyrinthine edifice of both critical importance and

10

daunting complexity. It is located at one of those intersections of freedom, justice, and pragmatism

11

that are all too common in the criminal law, and make its practice a humbling experience." _(In re

12

Ruedas (2018) 23 Cal.App.5th 777, 782.) Perhaps in light of this complexity, "our Supreme Court

13

has not articulated a single test to determine when and under what circumstances a decision should be

14

given retroactive effect to convictions that are final on appeal." (In re Hansen (2014) 227

15

Cal.App.4th 906, 916.)

16

California courts have variously used the federal test articulated in Teague v. Lane (1989) 489

17

U.S. 288, the state test articulated in In re Johnson (1970) 3 Cal. 3d 404, and People v. Guerra (1984)

18

37 Cal.3d 385, or both. (Compare In re Moore (2005) 133 Cal.App.4th 68, 75-77 [applied federal

19

retroactivity standards to deny defendant's habeas corpus petition under the new procedural rule

20

announced in Crawford v. Washington (2004) 541 U.S. 36], In re Thomas (2018) 30 Cal.App.5th 744,

21

753-754 [rejected federal standards in favor of California's retroactivity rules in refusing to grant

22

retroactive effect to People v. Sanchez (2016) 63 Cal.4 th 665], and In re Ruedas (2018) 23 Cal.App.5th

23

777 [applied both state and federal standards to the retroactive applicability of Sanchez, supra].)

24

Petitioner argues that under both the federal standard (Teague) and California standard

25

(Johnson and Guerra), the McCoy decision must apply retroactively, notwithstanding that his

26

conviction was final on appeal at the time the McCoy case was decided. (MP A p. 17)

27

28

Under both federal and state authorities the threshold question in determining retroactivity of
a decision raising federal constitutional principles is whether the decision states a new rule.

Decision on Petition for Writ of Habe.;1s Corpus • 18

1 App. 21

1

"[N]ew rules generally should not be applied retroactively to cases in which the judgment was final

2

when the new rule was established." (In re Gomez (2009) 45 Cal.4th 650, 656.) This is so, because

3

the interests of comity and finality must also be considered in determining the proper scope of habeas

4

review. (Teague v. Lane, supra, 489 U.S. at p. 309.)

5

Where the decision announces a new rule, "the new rule may or may not be retroactive, ... ;

6

but if it does not [announce a new rule], 'no question of retroactivity arises,' because there is no

7

material change in the law.' [citations] ," and under ordinary principles of stare decisis the new decision

8

applies to cases on collateral review. (See People v. Guerra, supra, 37 Cal.3d at pp. 399 [citing federal

9

and state authorities]; Whorton v. Bockting (2007) 549 U.S. 406,416 [rules that are not new generally

1O apply to cases on collateral review] ; accord, In re Ruedas, supra, 23 Cal.App.5th at pp. 794, 799
11
12

[recognizing threshold issue under both federal and state retroactivity standards].)
As discussed below, the court concludes, pursuant to both the federal and state standards, that

13

McCoy announ·ced a new rule, and the new rule displaced a contrary rule or accepted practice. The

14

court further finds , based on examination of the new rule pursuant to the factors outlined in the

15

authorities below, that the rule may not be applied retroactively to the present case.

16

I.

17

Under the state retroactivity standard first announced in In re Johnson, supra, the court must

Th e California Standard

18

consider three factors in examining a new rule: (1) the purpose of the new rule of criminal procedure;

19

(2) the reliance placed by law enforcement authorities on the old rule; and (3) the effect retroactive

20

application would have on the administration of justice. (In re Johnson, supra, 3 Cal.3d at p. 41 O;

21

Guerra, supra, 37 Cal.3d at p. 401; In re Thomas (2018) 30 Cal.App.5 th 744, 760-761.) The Johnson

22

court borrowed that three-part standard from the then-prevailing federal retroactivity test announced in

23

Desist v. United States (1969) 394 U.S . 244, 249. (See In re Johnson, supra, 3 Cal.3d at p. 410.)

24

Of course, as noted above, before examining the above factors, the court must first determine whether

25

a new rule was established, and if so, whether the new rule displaced a previous contrary rule.

26

A judicial decision establishes a new rule under California law "when the decision (1)

27

explicitly overrules a precedent of this court, (2) disapproves a practice impliedly sanctioned by prior

28

decisions of this court, or (3) disapproves a longstanding and widespread practice expressly approved

Decision on P etiti on fo r Writ of Habeas Corpus - 19

1 App. 22

1

by a near-unanimous body oflower-court authorities." (Guerra, supra, 37 Cal.3d at p. 401, internal

2

citations and quotations omitted; In re Thomas, supra, 30 Cal.App.5th at p. 761 ; see also Ruedas,

3

supra, 23 Cal.App.5th at pp. 799-800.)

4

Conversely, the Supreme Court in Guerro explained that judicial decisions do not establish a

5

new rule of law if they: ( 1) simply explain or refine the holding of a prior case; (2) apply an existing

6

precedent to a different factual situation, even if the result may be said to "extend" the precedent; or

7

(3) draw a conclusion that was clearly implied in or anticipated by previous opinions. (Guerra, supra,

8

37 Cal.3d at p. 399; In re Thomas, supra, 30 Cal.App.5th at p. 762 [additionally, no new rule is

9

established if the decision "give[s] effect to a statutory rule or existing binding decision of the United

10

States Supreme Court."].) "In such cases, the rule in question already exists, and the case law merely

11

applies it or fills out its boundaries." (In re Thomas, supra, 30 Cal.App.5th at p. 762.)

12

Relying on the California standard, Petitioner argues the McCoy decision did not establish a

13

new rule because it "flowed directly and inevitably" from decisions in effect at the time his conviction

14

became final. Petitioner cites Faretta v. California (1975) 422 U.S. 806 and Florida v. Nixon (2004)

15

543 U.S. 175 as supportive of this conclusion. (MPA p. 18-19)

16

a. McCoy expanded the holdings in Faretta Nixon.

17

The principle announced in McCoy, while resting on Sixth Amendment principles as did the

18

decision in Faretta, did more than explain or refine the Faretta holding, apply Faretta to a different

19

factual situation, or draw a conclusion that was clearly implied or anticipated by Faretta .

20

While the McCoy court referenced Faretta, the decision did not flow "inevitably" from the

21

Faretta holding. The Faretta Court recognized that implicit in the criminal defendant's Sixth

22

Amendment right to the "assistance of counsel" is the defendant's personal right to mount his own

23

defense and to refuse that legal "assistance." (See McCoy, supra, 138 S.Ct. at pp. 1507-1508, citing

24

Faretta, supra, 422 U.S. at p. 834.) The Court held that under the Sixth and Fourteenth Amendments,

25

a state criminal defendant has an independent constitutional right of self-representation to conduct his

26

own defense when the trial court finds that he voluntarily and intelligently relinquished the right to

27

counsel. (Id. at 422 U.S at p. 835 .) The Court found the right of self-representation is implicit in the

28

other rights that the Sixth Amendment affords a criminal defendant to assure a full defense and fair

Decision on Petition for Wri t of Habeas Corpus - 20

1 App. 23

1

trial, and that this right is personal to the defendant. (Id. at pp. 819-821 ). "Although not stated in the

2

Amendment in so many words, the right to self-representation-to make one's own defense

3

personally-is thus necessarily implied by the structure of the Amendment. The right to defend is

4

given directly to the accused; for it is he who suffers the consequences if the defense fails." (Faretta,

5

supra, 422 U.S. at pp. 819-820.) Consistent with this fundamental right of self-representation, the

6

court concluded that a state cannot force a lawyer upon a defendant who intelligently and knowingly

7

elects to conduct his own defense. (Id. at p. 817 ["[F]orcing a lawyer upon an unwilling defendant is

8

contrary to his basic right to defend himself ifhe truly wants to do so."].) The court reasoned that the

9

defendant's constitutional right to the "assistance" of counsel contemplates the attorney will serve as

1O an "aid" to a willing defendant (id. at p. 820), and "implicitly embodies a 'correlative right to dispense
11

with a lawyer's help."' (Faretta, supra, at pp. 812-814.) To hold otherwise and "thrust counsel upon

12

the accused, against his considered wish, thus violates the logic of the Amendment. In such a case,

13

counsel is not an assistant, but a master; and the right to make a defense is stripped of the personal

14

character upon which the Amendment insists." (422 U.S. at p. 820.)

15

The Faretta comi made a point to distinguish the defendant's fundamental right to manage his

16

own defense when proceeding without counsel, from defense counsel's traditional "power to make

17

binding decisions of trial strategy in many areas" when the criminal defendant agrees to proceed to

18

trial with counsel as his representative. (Id. at pp. 820-821.) On this point the McCoy court expanded

19

Faretta beyond mere refinement or explanation. Similarly, the McCoy court did more than draw a

20

conclusion that Faretta implied or anticipated. The Faretta opinion certainly did not prescribe limits

21

to retained counsel's trial strategy when urging a jury to find lesser included offenses. Because of

22

these differences in fact and law, it cannot be said the conclusion in McCoy was "clearly implied in or

23

anticipated" by Faretta.

24

Similarly, McCoy did not simply explain, refine, or draw conclusions of a rule previously

25

announced in Florida v. Nixon, supra. Defendant Nixon was charged with a particularly gruesome

26

capital murder. His experienced defense counsel decided that the best strategy to avoid a death verdict

27

was to concede that the defendant had committed murder in the guilt phase of the capital trial, thereby

28

preserving his credibility in urging leniency during the penalty phase due to defendant's mental illness.

Decision on Petition for Writ of Habeas Corpus - 21

1 App. 24

1

(543 U.S. at p. 181 .) Counsel consulted with and informed the defendant that this strategy was the

2

best way to attempt to avoid a death sentence, but his client did not respond either affirmatively or

3

negatively, and so counsel proceeded with that strategy without the defendant's express consent. (Id.

4

atpp. 181-182.)

5

In his opening statement, defense counsel acknowledged Nixon' s guilt and urged the jury to

6

focus on the penalty phase. (Id., 543 U.S . at pp.182-183.) At trial, the People introduced

7

overwhelming evidence of defendant's guilt, including introduction of Nixon's taped confession.

8

During the People's case-in-chief, defense counsel cross-examined prosecution witnesses and objected

9

to the introduction of evidence. Otherwise, counsel did not put on a defense.

1O

In his closing argument, counsel again conceded Nixon's guilt and reminded the jury of the

11

importance ofthe penalty phase. (Id. 543 U.S . atp. 183.) The jury convicted Nixon of all counts.

12

At the penalty phase, counsel argued that because Nixon was afflicted with numerous organic,

13

intellectual, emotional and educational disabilities, he was not an "intact human being" and the death

14

penalty was not appropriate for someone like that. (Id. at pp . 183-184.) The jury convicted Nixon of

15

first degree murder and imposed death.

16

The N ixon court overturned the lower court' s reversal of the conviction, which treated the

17

concession as the equivalent of an involuntary guilty plea. The higher court ruled that when counsel

18

confers with defendant and defendant remains silent about the proposed concession trial strategy,

19

"counsel's strategic choice is not impeded by any blanket rule demanding the defendant's explicit

20

consent." (Id. 543 U.S . at p. 192; see McCoy, supra, 138 S.Ct. at p. 1505.)

21

The Nixon court held that a defense counsel typically has the authority to manage most aspects

22

of the defense without obtaining the client's approval, but that certain basic trial rights cannot be

23

relinquished without consulting with the defendant and obtaining the defendant's express consent.

24

Those basic rights include the decision to plead guilty, waive a jury, testify in his or her own behalf, or

25

take an appeal. (Id. 543 U.S. at p. 187.) The Nixon court rejected the lower court's holding that

26

defense counsel' s concession was the functional equivalent of an unauthorized guilty plea (id. at p.

27

188), emphasizing that Nixon retained all the rights accorded a defendant in a criminal trial. (Id. at pp.

28

188-189.)

Decision on Petiti on fo r Writ of Habeas Corpus - 22

1 App. 25

1

Importantly, the Nixon court reviewed defense counsel's concession strategy under the familiar

2

"ineffective assistance of counsel" standard in Strickland v. Washington (1984) 466 U.S. 668, 688-692

3

- which poses the questions whether counsel's performance was deficient, and if so, was the

4

deficiency prejudicial under the circumstances. (See Nixon, supra, 543 U.S. at pp. 186-187, 189-192.)

5

Applying Strickland, the court found that defense counsel's performance was not_deficient, since

6

counsel satisfied the obligation to explain the proposed concession strategy to Nixon, whereupon the

7

defendant made no remarks accepting or rejecting that approach. (Id. at pp. 189 ["Corin fulfilled his

8

duty of consultation by informing Nixon of counsel's proposed strategy and its potential benefits."].)

9

Under those circumstances, the Nixon court concluded that counsel's tactic of conceding guilt in order

1O to focus on the trial's penalty phase was reasonable and did not amount to ineffective assistance of
11

counsel pursuant to Strickland. (Id. at pp. 190-192.) The Nixon Court did not opine on what would

12

have been a hypothetical circumstance wherein a defendant affirmatively rejects a concession strategy.

13

The Court certainly did not hold that error would result from such a circumstance.

14

The Nixon court did not decide the issue present in McCoy and in this petition - whether

15

counsel may concede defendant's guilt as a rational trial strategy over defendant's objection to pursue

16

total factual innocence. At most, Nixon suggests that if trial counsel overrides his client's express

17

objections and deems it in the client's best interest to concede guilt, counsel's conduct must be

18

analyzed under the Strickland standard. (Nixon, supra, 543 U.S. at pp. 189-190 ["The Florida court

19

therefore did not hold Nixon to the standard prescribed in Strickland v. Washington, 466 U.S. 668

20

(1984) which would have required Nixon to show that counsel's concession strategy was

21

umeasonable. "].) By contrast, the McCoy court expressly dispensed with the Strickland analysis,

22

concluding that "a client's autonomy, not counsel's competence, is in issue" and the defendant need

23

not show prejudice to gain redress for this violation. (Id. at pp. 1510-1511.)

24

In light of the above discussion, the court finds that the Nixon court did not undertake to

25

recognize an additional right, implicit within the Sixth Amendment, to prevent counsel from pursuing

26

a concession strategy. It therefore cannot be said that the right announced in McCoy "inevitably

27

flowed" from Nixon. To the contrary, McCoy created a new rule of criminal procedure and fashioned

28

a new Sixth Amendment right from the criminal defendant's existing bundle of trial rights:

Decision on Petition for Writ of Habeas Corpus - 23

1 App. 26

1
2
3
4

Just as a defendant may steadfastly refuse to plead guilty in the face of overwhelming
evidence against her, or reject the assistance of legal counsel despite the defendant's own
inexperience and lack of professional qualifications, so may she insist on maintaining her
innocence at the guilt phase of a capital trial.
(McCoy, supra, 138 S.Ct. at p. 1508.)

5

Petitioner, perhaps inadvertently, seemingly concedes this point in his Traverse/Denial,

6

stating: "McCoy effected a sea change in the balance of power between client ilild counsel." (Denial,

7

p. 28:1-2, emphasis added.) Indeed this is the court's view. McCoy created a new procedural rule

8

that might be viewed as a sea change.

9

10
11

12

b. The principle announced in McCoy impliedly disapproved a longstanding and
widespread practice expressly approved by a near-unanimous body of lower-court
authorities.
Until McCoy, countless authorities upheld trial counsel strategy conceding a clients' guilt of a

13

greater offense against the client's wishes, to pursue a lesser offense and a better result. The McCoy

14

holding impliedly limited the California Supreme Court' s long-standing recognition that "good trial

15

tactics often demand complete candor with the jury, and that in light of the weight of the evidence

16

incriminating a defendant, an attorney may be more realistic and effective by avoiding sweeping

17

declarations of his or her client' s innocence. [Citation.] " (People v. Mitcham (1992) 1 Cal.4th 1027,

18

1060-1061.) Before and after Mitchell ' s conviction, the California Supreme Court repeatedly upheld

19

defense counsel's discretionary authority to pursue a trial strategy of conceding defendant 's guilt in

20

the face of overwhelming prosecution evidence. (E.g., People v. Gamache (2010) 48 Cal.4th 347,

21

391-393 ["We have repeatedly recognized that sensible concessions are an acceptable and often

22

necessary tactic."]; People v. Hart (1999) 20 Cal.4th 546, 631 [Concessions are appropriate where the

23

"surviving victim had testified in graphic detail regarding defendant's involvement in the charged

24

offenses."]; People v. Bolin (1998) 18 Cal.4th 297,334 ["Conceding some measure of culpability was

25

a valid tactical choice under these restrictive circumstances."] ; People v. Lucas (1995) 12 Cal.4th

26

415, 446-447 [admitting the defendant was at the scene was a competent tactical choice given the

27

state of the evidence]; People v. Jackson (1980) 28 Cal.3d 264,293 [" '[G]ood trial tactics demanded

28

Deci sion on Petition for Writ of Habeas Corpus - 24

1 App. 27

1

complete candor' with the jury."].) In none of those cases is it suggested that such a tactical decision,

2

made against the wishes of the client, would result in structural error.

3

In P eople v. McPeters (1992) 2 Cal.4th 1148, defendant was charged with murder and a

4

robbery special circumstance. Defendant testified to an alibi defense. The evidence of his guilt was

5

overwhelming. His fingerprints were on the murder weapon and five eyewitnesses identified him as

6

the murderer or being at the scene of the crime. In his closing argument, defense counsel conceded

7

the defendant' s presence at the scene of the murder (thereby undermining defendant's alibi defense) .

8

Counsel tried to explain defendant's contrary testimony as a failure ofrecollection. (2 Cal.3d at pp.

9

1186-1187.)

1O

In rejecting defendant's claim of ineffective assistance of counsel, the California Supreme

11

Court held that counsel "attempt[ ed] to make the best of a bad situation [citation]", and counsel's

12

concession was a " ' plausible tactical explanation' for the defense argument in this case." (Id. at pp.

13

1186-1187; also e.g. , People v. Freeman (1994) 8 Cal. 4th 450, 498 ["The decision of how to argue to

14

the jury after the presentation of evidence is inherently tactical; .. ."].) Again, there was no suggestion

15

that the conflict with the defendant' s preferred alibi defense created structural error.

16

In light of this history, the court finds that the holding in McCoy- declaring that a criminal

17

defendant has an absolute Sixth Amendment right to prevent counsel from conceding his guilt as a

18

valid trial tactic - "disapproves a practice impliedly sanctioned by prior decisions of [the California

19

Supreme Court]" (Guerra, supra,, 37 Cal.3d at p. 401), and establishes a new rule of criminal

20

procedure. (See McCoy, supra, 138 S.Ct. at p. 1512 [the majority of the Court announced a "newly

21

discovered fundamental right . ... ", Alito, J., dissenting.].)

22

Accordingly, this court finds that McCoy established a new rule and the new rule displaced a

23

previously existing contrary rule. Having found the McCoy court established a new rule of criminal

24

procedure, displacing a prior contrary rule or sanctioned practice, this court now must apply the test

25

in In re Johnson, supra, to determine whether the new rule should be retroactively applied to

26

Mitchell's case.

27

28

Decisio n on Petition fo r Writ of Habeas Corpus - 25

1 App. 28

1

2

c. McCoy is Not Retroactive Under In re Johnson
As noted above, the court must examine the new rule, considering the following factors: (1)

3

the purpose of the new rule of criminal procedure; (2) the reliance placed by law enforcement

4

authorities on the old rule, and (3) the effect retroactive application would have on the administration

5

of justice. (In re Johnson, supra, 3 Cal.3d at p. 410.)

6

The first factor, centering upon an examination of the purpose of the new rule, is said to be

7

controlling. "[T]he factors of reliance and burden on the administration of justice are of significant

8

relevance only when the question of retroactivity is a close one after the purpose of the new rule is

9

considered." (In re Johnson, supra, 3 Cal.3d at p. 410.) "When that purpose clearly favors

1O retroactivity or prospectivity, it will be given effect without regard to the weight of the remaining
11

factors. (Ibid.) In all such cases the test is essentially unipartite." (Guerra, supra, 37 Cal.3d at p.

12

402; accord. In re Ruedas, supra, 23 Cal.App.5th at p. 800 .)

13

California courts have held that "the more directly the new rule in question serves to preclude

14

the conviction of innocent persons, the more likely it is that the rule will be afforded retrospective

15

application. Similarly, if the rule relates to characteristics of the judicial system that are essential to

16

minimizing convictions of the innocent, it will apply retroactively regardless of the reliance of

17

prosecutors on former law, and regardless of the burden which retroactivity will place upon the

18

judicial system." (Johnson, at p. 413; accord. Guerra, supra, 37 Cal.3d at pp. 402-403 [where the

19

primary purpose of the new rule is to promote reliable determinations of guilt or innocence, that new

20

rule will be given retroactive effect without regard to the remaining factors].)

21

Conversely, retroactivity will likely be denied when the new rule is "seen as vindicating

22

interests which are collateral to or relatively far removed from the reliability of the fact-finding

23

process at trial." (In re Johnson, supra, 3 Cal.3d at pp. 411-412 [For example, new exclusionary

24

rules announced in search and seizure cases were not given retroactive effect under principle that

25

such cases have no bearing on guilt or the reliability of the truth-finding process at trial].)

26

The purpose of the Sixth Amendment right announced in McCoy is not to assure the integrity

27

of the fact-finding process or to prevent the defendant from an erroneous conviction. Instead, it is

28

intended to validate a different liberty interest - preserving defendant's autonomy to control the

Decision on Petition for Writ of Habeas Corpus - 26

1 App. 29

1

objective of the defense, even in the face of overwhelming evidence of his guilt. In fact, enforcement

2

of this right might well interfere in the search for truth since it will result in the exclusion of pertinent

3

factual information and increase the chances a defendant will be convicted of a greater offense.

4

Imposition of the rule may in fact bar counsel from introducing exculpatory evidence, presenting

5

mitigating evidence, or evidence negating the mental elements of the greater charged offense, and

6

may bar counsel from presenting the client's best closing argument.

7

In People v. McDaniel (1976) 16 Cal.3d 156 the California Supreme Court applied the state

8

standard articulated in In re Johnson to the principle announced in Faretta and concluded that Faretta

9

did not apply retroactively. The McDaniel Court found that this new rule was not intended to promote

10

11
12
13
14
15

the reliability of the fact-finding process, and will most likely have the opposite effect:
In considering the first of the criteria ofretroactivity of the Farretta rule, we discover
that it is readily apparent that the purpose of the rule is to secure to an accused the
personal freedom to choose how and by whom he will defend against a criminal charge.
It is manifest from those portions of the Farretta opinion quoted above that compliance
with the rule is not intended by the majority of the court in Farretta to enhance the
reliability of the truth-determining or fact-finding process, as the majority anticipate
and indeed concede, that such compliance will most likely have the directly opposite
effect.

16
17

18

(People v. McDaniel, supra, 16 Cal.3d at pp. 165-166.)
Having concluded that the new Farretta rule did not aid in the truth-determining process, the

19

McDaniel court prohibited retroactive application and dispensed with the need to balance the

20

remaining factors:

21

22
23
24

When implementation of the new rule does not in some significant degree aid in the
truth determining process, little or no weight is added to the balance in favor of
retroactive application as little or no prejudice in the trial itself is suffered by an
accused whose guilt was determined without benefit of the new rule. (Stovall v. Denno,
supra, 388 U.S. 293, 296-299 [18 L.Ed.2d 1199, 1203-1205]; Johnson v. New Jersey,
supra, 384 U.S. 719, 728-729 [16 L.Ed.2d 882, 889-890].)

25

26
27

28

(People v. McDaniel (1976) 16 Cal.3d 156, 166-167.)
The Court in McCoy likewise recognized that the purpose behind defendant's Sixth
Amendment right to autonomy was not to protect defendant from an erroneous conviction, but rather

Decision on Petition for Writ of Habeas Corpus - 27

1 App. 30

1

to protect a collateral interest removed from the determination of the truth - a defendant's right to

2

make his own choices, regardless of the wisdom of that choice:
An error may be ranked structural, we have explained, "if the right at issue is not
designed to protect the defendant from erroneous conviction but instead protects some
other interest," such as "the fundamental legal principle that a defendant must be
allowed to make his own choices about the proper way to protect his own liberty."
Weaver, 582 U.S., at - -, 137 S.Ct., at 1908 (citing Farretta, 422 U.S., at 834, 95
S.Ct. 2525).

3
4
5

6
7

(McCoy, supra, 138 S.Ct. at p. 1511, internal citations omitted.)

8
This court is persuaded that the right recognized in McCoy and asserted by Mitchell was not

9
10

intended to, and does not, promote the reliability of the fact-finding process, and for that reason no

11

purpose would be served in applying McCoy retroactively to Mitchell's conviction.
Accordingly, under the state standard, the Petition fails to establish retroactivity of the McCoy

12

13

rule.

14

2. The Federal Standard

15

The United States Supreme Court in Teague v. Lane, supra, 489 U.S . 288 adopted a more

16

restrictive test for use in determining the retroactive effect of any new rule announced by the high

17

Court to cases that are final. Where retroactive application of a new rule would result under the

18

federal standard, as a policy matter California courts will heed that conclusion and will not reweigh

19

the issue under In re Johnson. (Gomez, supra, 45 Cal.4 th at p . 655 ["As a matter of practical policy, it

20

would not make sense for our state courts to reject claims grounded upon [a new constitutional rule]

21

if those claims would be granted in the federal courts."].) Thus, notwithstanding the conclusion

22

reached based on application of the state standard, above, analysis under the federal standard is

23

appropriate.

24

25

26
27

28

.

a. McCoy is Not Retroactive Under Teague v. Lane (1989) 489 U.S. 288
Petitioner asserts the new rule announced in McCoy is retroactive pursuant to Teague v. Lane
(1989) 489 U.S. 288. (MPA p. 21 -22, Denial p. 26.) This court disagrees.
Under the Teague framework, an old rule applies both on direct and collateral review,
but a new rule is generally applicable only to cases that are still on direct review. See
Griffith v. Kentucky, 479 U.S. 314 (1987). A new rule applies retroactively in a
collateral proceeding only if (1) the rule is substantive or (2) the rule is a" 'watershed

Decision on Petition for Writ of Habeas Corpus - 28

1 App. 31

1
2

rul [e] of criminal procedure' implicating the fundamental fairness and accuracy of the
criminal proceeding." Saffle, supra, at 495, (quoting Teague, supra, at 311 (plurality
opinion).)

3
4

(Whorton v. Bockting, supra, 549 U.S. at p. 416; In re Ruedas, supra, 23 Cal.App.5th at p. 799 [the

5

federal retroactivity standard is narrower and thus is generally more difficult to meet than the state

6

standard].)

7

"A new rule is defined as 'a rule that ... was not "dictated by precedent existing at the time the

8

defendant's conviction became final."' [Citations.]" (Whorton v. Bockting, supra, 549 U.S. at p. 416;

9

In re Gomez, supra, 45 Cal.4th at p. 656.) "Therefore, unless reasonable jurists hearing petitioner's

10

claim at the time his conviction became final would have felt compelled by existing precedent to

11

apply the rule in question, the rule will be considered new and presumed not to apply on collateral

12

review. (Graham v. Collins (1993) 506 U.S. 461,468, italics added, quoting Saffle v. Parks (1990)

13

494 U.S. 484, 488.)" (In re Ruedas, supra, 23 Cal.App.5th at p. 794, internal citations omitted.)

14

As discussed in detail above, the result in McCoy was not "dictated" by the prior holdings in Farretta,

15

Nixon or any other authority. The McCoy court announced a new Sixth Amendment right that

16

restricted the historic discretion of trial counsel to concede defendant's guilt as a rational trial strategy

17

even where defendant insists on presenting a defense of factual innocence. The court finds that McCoy

18

stated a "new rule" under the federal standard. Thus, the court turns to the analysis described in

19

Teague, supra. That is, the court must determine whether either of the exceptions to the general

20

principle that the new rule is not applied retroactively, is present.

21

There is no dispute that the rule announced in McCoy is a rule of criminal procedure, and it

22

therefore does not fall within the fast exception in Teague for "substantive" rules. Here, Petitioner

23

contends that the McCoy rule falls within the second exception as being a "watershed rule of criminal

24

procedure." (Whorton v. Bockting, supra, 549 U.S. at p. 417.)

25

The Supreme Court has ruled that this exception is "extremely narrow" and observed "that it is

26

unlikely that any such rules have yet to emerge." (Whorton v. Bockting, supra, 549 U.S. at pp. 417-

27

418, internal citations omitted.) Since the Teague decision, the Supreme Court has rejected every

28

claim that a new rule satisfied the requirements for watershed status. (Ibid.). "In order to qualify as

Decision on Petition for Writ of Habeas Corpus - 29

1 App. 32

1

watershed, a new rule must meet two requirements. First, the rule must be necessary to prevent an

2

impermissibly large risk of an inaccurate conviction. [Citations.] Second, the rule must "alter our

3

understanding of the bedrock procedmal elements essential to the fairness of a proceeding." ( Whorton

4

v. Bockting, supra, 549 U.S . at pp. 417-418, internal citations omitted.)

5
6
7
8

The Supreme Court has created a high threshold to meet that first element:
"[i]t is ... not enough ... to say that [the] rule is aimed at improving the accuracy of
trial," Sawyer, 497 U.S., at 242, 110 S.Ct. 2822, or that the rule "is directed toward the
enhancement of reliability and accuracy in some sense," id. , at 243, 110 S.Ct. 2822.
Instead, the question is whether the new rule remedied "an ' "impermissibly large risk"
'" of an inaccurate conviction. Summerlin, supra, at 356, 124 S.Ct. 2519.

9

10
11

(Whorton, supra, 549 U.S. atp. 418.)

The opinion in Whorton illustrates how difficult it is for the new rule constitutional rule to be

12

deemed a "watershed" rule, even when t~at rule directly affects the admission of evidence of

13

defendant's guilt. In Whorton, petitioner was convicted of sexual assault on a six-year old minor, and

14

he sought a writ of habeas corpus based on the trial court's alleged violation of the Confrontation

15

Clause in allowing a detective and the minor's mother to testify to the minor's incriminating out-of-

16

court statements. The trial court's ruling was consistent with the controlling authority at the time of

17

trial, Ohio v. Roberts (1980) 448 U.S. 56, which held "the Confrontation Clause permitted the

18

admission of a hearsay statement made by a declarant who was unavailable to testify if the statement

19

bore sufficient indicia of reliability, either because the statement fell within a firmly rooted hearsay

20

exception or because there were 'particularized guarantees of trustworthiness' relating to the statement

21

in question." (Whorton, supra, 549 U.S. at pp. 412-413, citing Roberts, id. at p. 66.) Long after the

22

defendant's conviction was final, the Supreme Court issued its opinion in Crawford v. Washington

23

(2004) 541 U.S. 36, which overruled Roberts and held that" '[t]estimonial statements of witnesses

24

absent from trial' are admissible 'only where the declarant is unavailable, and only where the

25

defendant has had a prior opportunity to cross-examine [the witness].' 541 U.S., at 59. See also Davis

26

v. Washington, 547 U.S. 813 (2006)." (Whorton, supra, 549 U.S. at pp. 413-414.)

27

The Whorton court denied defendant's request for collateral relief and refused to retroactively

28

apply Crawford to his final conviction, concluding that the new rule of criminal procedure announced

Decision on Petition for Writ of Habeas Corpus - 30

1 App. 33

1

in Crawford was not a "watershed" rule. (Id. at p. 418.) It held that the Crawford rule did not satisfy

2

the first element since it did not lead "to an impermissibly large risk of an inaccurate conviction." (Id.

3

atp.418.)

4
5
6
7

8
9
10

"[T]he question is whether testimony admissible under Roberts is so much more
unreliable than that admissible under Crawford that the Crawford rule is ' one without
which the likelihood of an accurate conviction is seriously diminished.' "399 F.3d, at
1028 (Wallace, J., concurring and dissenting) (quoting Summerlin, 542 U.S., at 352,
124 S.Ct. 2519; internal quotation marks omitted; emphasis in original). Crawford did
not effect a change of this magnitude.

(Whorton v. Bockting, supra, 549 U.S. at p. 420.)
The present case does not involve a rule relating to the admission or exclusion of evidence,

11

and otherwise has no bearing on Petitioner's guilt or innocence. As discussed above_, the announced

12

purpose of the McCoy rule is to validate the defendant' s independent right to control the defense

13

theory and to prevent trial counsel from conceding defendant's guilt to the jury. That rule has little

14
15

impact on improving the accuracy of the fact-finding process, and certainly does not rise to the level
of preventing "an impermissibly large risk of an inaccurate conviction." As such, McCoy did not

l6

establish a watershed rule of criminal procedure.
Accordingly, Petitioner fails to establish that McCoy applies to his conviction retroactively,

17
l8

under the federal standard. Since Petitioner has failed to show that McCoy applies retroactively, under

19

either state or federal standards, his Petition resting on McCoy fails.

20

D. Even if McCoy Applied Retroactively, the Petition Fails on the Merits.

21

As discussed above, the United States Supreme Court in McCoy v. Louisiana, supra,

22

established that a criminal defendant has a Sixth Amendment right to dictate the ultimate goals of his

23

defense. The decision centered upon McCoy's counsel conceding his guilt over his steadfast

24

objection. The Court stated that "when a client expressly asserts that the objective of 'his defense' is

25

to maintain innocence of the charged criminal acts, his lawyer must abide by that objective and may

26

not override it by conceding guilt." (McCoy v. Louisiana, supra, 138 S.Ct. at 1509.)

27
28

Likewise, the decisions in People v. Eddy, supra, and People v. Flores, supra, centered upon
clear concessions of guilt. The Sixth Amendment violations in the three cases cited by Petitioner

Decision on Petition for Writ of Habeas Corpus - 31

1 App. 34

1

rested upon a clear and unequivocal concession of guilt by counsel, against the wishes of the client.

2

The courts in the above-cited decisions did not prohibit defense counsel from arguing an alternative

3

theory in the event the jury rejects the proffered alibi, or mistaken identity defense. In fact, the court

4

in McCoy seemingly endorsed such a strategy. On this subject, the McCoy Court stated

5
6
7

8
9

10
11
12

13
14
15

Preserving for the defendant the ability to decide whether to maintain his innocence
should not displace counsel's, or the court's, respective trial management roles. See
Gonzalez, 553 U.S., at 249, 128 S.Ct. 1765 ("[n]umerous choices affecting conduct of
the trial" do not require client consent, including "the objections to make, the witnesses
to call, and the arguments to advance"); cf. post, at 1515 - 1516. Counsel, in any case,
must still develop a trial strategy and discuss it with her client, see Nixon, 543 U.S., at
178, 125 S.Ct. 551, explaining why, in her view, conceding guilt would be the best
option. In this case, the court had determined that McCoy was competent to stand trial,
i.e., that McCoy had "sufficient present ability to consult with his lawyer with a
reasonable degree of rational understanding." Godinez v. Moran, 509 U.S. 389,396,
113 S.Ct. 2680, 125 L.Ed.2d 321 (1993) (quoting Dusky v. United States, 362 U.S. 402,
80 S.Ct. 788, 4 L.Ed.2d 824 (1960) (per curiam )).[footnote omitted] If, after
consultations with English concerning the management of the defense, McCoy
disagreed with English's proposal to concede McCoy committed three murders, it was
not open to English to override McCoy's objection. English could not interfere with
McCoy's telling the jury "I was not the murderer," although counsel could, if consistent
with providing effective assistance, focus his own collabo'ration on urging that McCoy's
mental state weighed against conviction.

16
17

18

(McCoy v. Louisiana (2018) 138 S.Ct. 1500, 1509 [emphasis added].)
Defense counsel's recognition that the jury might reject a defendant's alibi, or mistaken

19

identity defense does not amount to a concession of guilt. Similarly, counsel's decision to argue that

20

the evidence would not support a conviction for first degree murder in the event the jury might reject

21

the total innocence argument, does not amount to a concession of guilt. As pointed out by

22

Respondent, the 9 Circuit Court of Appeals recognized this nuance in Hovey v. Ayers (9 th Cir. 2006)

23

458 F.3d 892. The court stated,

24

25

26
27

28

th

Hovey contends that counsel conceded guilt of first degree murder when, referring to a
chart that compared the requirements for first degree premeditated murder with those
for second degree murder, he stated:
I submit to you that it's within the realm that there could be findings ... of willful,
deliberate and premeditated ... yet ... there may be some reasonable doubt.
I think under the law as it's presented by [the prosecutor] in this case, there are
theories that could support a second degree murder. In fact, absent willful,

Decision on Petition for Writ of Habeas Corpus - 32

1 App. 35

deliberate[ ] premeditation, it is second degree murder. I do think also it could be
first degree murder and I recognize it also could be special circumstance. I believe
that that is within your province to find as you see because you're the judges to
pass on the facts and you will.

1

2
3
4
5

Counsel did not concede premeditation with these words. Although he stated that "there
could be findings ... of willful, deliberate and premeditated," he made this point in the
context of weighing the jury's options.

6

7

8

(Hovey v. Ayers (9th Cir. 2006) 458 F.3d 892, 905-906)

In the present case, Mr. Hanlon did not concede Mitchell's guilt. Rather, after arguing

9

Mitchell's total innocence for the vast majority of his closing argument, he carefully presented an

10

alternative argument, in the event the jury rejected the claim of mistaken identity. He prefaced his

11

arguments in terms of proffering a sensible consideration that would flow in the event the jury rejected

12

the mistaken identity defense. As can be seen in the excerpts from Mr. Hanlon's closing argument

13

above, he routinely prefaced his alternative theory with reference to what the jury might find. ["If you

14

decide that Mr. Mitchell did this act ... ;" "If you don't believe him, what occurred?" "If you don't

15

believe what he testified to, if you believe he's a killer, what do you then do with the facts?" "What

16

do you do if you were convinced beyond a reasonable doubt that Mr. Mitchell is not telling the truth

17

and did take the hammer [sic] and did kill her?" "So, I want to talk to you - what can we infer from

18

the evidence, if you conclude that Mr. Mitchell is the person who killed [D.K.]?" "If you decide that

19

Mr. Mitchell did this act, the provocation, ... "]

20
21

22
23
24
25

26
27

Mr. Hanlon, in closing, put his alternative argument in the context of Mitchell's claim of total

innocence, and argued,
So the question becomes, has the Government proved Mr. Mitchell is guilty beyond a
reasonable doubt? Have they proved his testimony is not only inconsistent with the facts,
but beyond a reasonable doubt - doubt is not true? I don't think they have. I don't think
the evidence has shown that. If you think they have, then you go to the next stage.
(Ex. J; p. 64)

This court concludes that Mr. Hanlon did not concede guilt, but keenly provided defendant a
hope for a lesser offense in the event the jury rejected his testimony.

28

Decision on Petition for Writ of Habeas Corpus - 33

1 App. 36

1

Mr. Hanlon came closer to a concession of guilt by stating, "there certainly is evidence on

2

which you could conclude, depending on how you understand the inferences for circumstantial

3

evidence, that Mr. Mitchell is not being totally honest with you about what happened." (Ex. J, p. 57)

4

However, such recognition is not a concession, as recognized by the Court in Ayers, supra.

5

A careful review of Mr. Hanlon' s closing argument reveals to this court, as it did to Judge

6

Chhabria sitting on the United States District Court for the Northern District of California hearing

7

Petitioner's federal habeas petition, that Mr. Hanlon did not concede Mitchell's guilt. (See Ex. 1 to

8

Respondent's Return, p. 6) Rather, he provided Mitchell a life-line, in the form of a back-up argument

9

as a "next stage" in the event the jury rejects his primary defense.

10

Petitioner, seemingly recognizing that Mr. Hanlon did not actually concede Mitchell's guilt,

11

argues that under the circumstances here, the mere presentation of the alternative argument is

12

prohibited. Petitioner argues,

13
14
15

16
17
18
19

Mitchell's case is very different. There was no room for Hanlon to argue Mitchell's
innocence while also arguing that whoever committed this homicide lacked the required
intent or only committed manslaughter. The only person whose intent we had
circumstantial evidence of was Mitchell. The only person who could have committed
manslaughter 'because of a sudden quarrel or in the heat of passion' and because he
'acted rashly and under the influence of intense emotion that obscured his reasoning or
judgment' was Mitchell [citations] The only person about whom Hanlon could have
argued, 'What happened ... that led to a man beating in the brains of a woman he
loved?' was Mitchell [citation]. Hanlon's argument committed Mitchell to having
killed the mother of his child, an admission McCoy emphasized a defendant might not
wish to make and which Mitchell adamantly and consistently opposed."

20
21
22

(Petitioner's MPA, p. 16: 13 to 17: 2)
Petitioner's argument is not persuasive, and seemingly misses the point of the alternative

23

argument. The alternative argument, as presented by Mr. Hanlon, is only applicable if the jury finds

24

that the defendant is in fact the perpetrator over counsel's argument to the contrary. Defense counsel

25

does not concede guilt by asking the jury to consider mitigation circumstances or mental state, in the

26

event the jury concludes the defendant is the perpetrator. By asking the jury to consider the evidence

27

in the "next stage" (as Mr. Hanlon put it), the defense made clear the jury should do so only if it

28

Decision on Petition for Writ of Habeas Corpus - 34

1 App. 37

1

rejected the mistaken identity claim. In raising the alternative or back-up argument, Mr. Hanlon did

2

not concede guilt.

3

Petitioner's argument on this point, if accepted by the court, would lead to absurd results. That

4

is, in cases like the present, where the evidence of a defendant's commission of the act is strong, and

5

the claim of total innocence, alibi, or mistaken identity are doomed from the start (as the Court of

6

Appeal put it), skilled trial counsel would be prohibited from arguing to the jury any mitigation upon

7

the jury 's rejection of the defendant's claim. The more inevitable it is that the jury would reject the

8

total innocence claim, the less able is the attorney to seek a lesser offense. The stronger the evidence

9

of a defendant's participation in the act of killing, the more restricted would be counsel. The court is

1O not persuaded that the Sixth Amendment, or McCoy and its progeny, stand for such a principle.
11

Consequently, even if McCoy were to apply to the present case retrnactively, Mr. Hanlon's

12

conduct did not violate Petitioner's Sixth Amendment right pursuant to McCoy v. Louisiana.

13

Accordingly, the Petition fails on its merits.

14
15

E. This Petition is Not Procedurally Barred
Respondent asserts that the Petition is procedurally barred. Based on the findings above, the

16

court disagrees. Petitioner's current claim that the rule in McCoy requires a reversal of his convictions

17

and the granting of a new trial, was not raised and rejected in his prior direct appeal. As such, Mitchell

18

does not violate the rule in In re Waltreus (1965) 62 Cal.2d 218, 225 ["legal claims that have

19

previously been raised and rejected on direct appeal ordinarily cannot be reraised in a collateral attack

20

by filing a petition for a writ of habeas corpus."] (In re Reno, supra, 55 Cal.4th at pp. 476-477, citing

21

Waltreus, supra.)

22

In Mitchell's underlying appeal, the First District Court of Appeal rejected Mitchell's

23

contention based on his claim of ineffective assistance of counsel under Strickland, supra. This is not

24

the same issue decided in McCoy, which fashioned a new Sixth Amendment right of defendant's

25

autonomy, independent of the Strickland ineffective assistance of counsel claim. (McCoy, supra, at

26

pp. 1510-1511.) As articulated above, Mitchell alleges violation of a new fundamental right. It was

27

not before raised on appeal.

28

Decision on Petition for Writ of Habeas Corpus - 35

1 App. 38

1

For the same reason, the court rejects Respondents' argument that petitioner failed to exhaust

2

his appellate remedies. (Return pp. 41-42). " ' "[I]n the absence of special circumstances constituting

3

an excuse for failure to employ that remedy, the writ will not lie where the claimed errors could have

4

been, but were not, raised upon a timely appeal from a judgment of conviction." (In re Dixon, 41

5

Cal.2d 756, 759.)"' (In re Clark (1993) 5 Cal.4th 750, 765-766.)

6

The above finding, however, is based on the court's conclusions in this decision, that McCoy

7

announced a new rule and created a new application of the Sixth Amendment. It is worth noting that

8

Petitioner's claim that McCoy did not announce a new rule conflicts with his argument that he could

9

not have raised the issue on appeal, and thus is not barred from bringing this collateral attack. In this

1O court's view, if Petitioner were correct that McCoy simply refined or explained previously existing
11

law, and reached a conclusion that was anticipated and implied by Faretta or Nixon, the analysis as to

12

whether the claim is procedurally barred would be different.
V.

13

CONCLUSION

14
For the reasons stated above, the Petition for Writ of Habeas C rpus is denied.

15

16
17

Dated: May 20, 2020

18

,It-

r

PAUL'M. HAAKENSON

19

Judge of the Superio1Court

20
21
22

23

24

Cc:

Steven S. Lubliner
Warden, Donovan Correctional Facility, San Diego, CA
California Attorney General
Marin County District Attorney

25

26
27

28

Decision on Petition for Writ of Habeas Corpus• 36

1 App. 39

Supreme Court of California

Supreme Court of California

Jorge E. Navarrete, Clerk and Executive Officer of the Court

Jorge E. Navarrete, Clerk and Executive Officer of the Court

Electronically RECEIVED on 11/30/2020 at 8:10:00 AM

Electronically FILED on 11/30/2020 by M. Chang, Deputy Clerk

S265812

IN THE SUPREME COURT OF CALIFORNIA

)
)
)
)
)
)
vs.
)
)
)
RALPH M. DIAZ, Secretary,
)
California Department of
)
Corrections and Rehabilitation, )
an individual; and MARCUS )
POLLARD, Warden of Richard )
)
J. Donovan Correctional
)
Facility, an individual,
)
Respondents,
)
)
PEOPLE OF THE STATE OF )
CALIFORNIA, Real Party in )
)
Interest
In Re James R.W. Mitchell
JAMES R.W. MITCHELL,
Petitioner,

First District Court of Appeal
No. A160759
Marin County Superior Court
No. SC210551A (habeas case)
First District Court of Appeal,
No. A133094 (direct appeal)
Marin County Superior Court
No. SC165475A (case of
conviction)

PETITION FOR REVIEW
Following the Judgment of the Superior Court
of the State of California for the County of Marin
HONORABLE PAUL M. HAAKENSON, JUDGE
Steven S. Lubliner (State Bar No. 164143)
LAW OFFICES OF STEVEN S. LUBLINER
P.O. Box 750639
Petaluma, CA 94975
Phone: (707) 789-0516
e-mail: sslubliner@comcast.net
Attorney for Petitioner

1

1 App. 40

TABLE OF CONTENTS
PAGE
ISSUES PRESENTED FOR REVIEW

6

STATEMENT OF THE CASE

7

STATEMENT OF FACTS

12

I. Statement of Facts from Trial

12

II. Relevant Procedural History at Trial

16

A. Defense Counsel’s Closing Argument

16

B. Earlier Proceedings re Petitioner’s Requested
Defense
18
C. Proceedings at Sentencing re Petitioner’s
Requested Defense
ARGUMENT

20
22

I. Petitioner’s Sixth Amendment Right of Client
Autonomy, Which Allowed him to Insist on a
Defense of Complete Innocence and not Have
Defense Counsel Concede his Commission of the
Actus Reus of the Charged Crime, was Violated
When Defense Counsel, Knowing of Petitioner’s
Wishes and Knowingly Over his Objection,
Argued in the Alternative that he was Guilty of
Lesser Homicides, Primarily Voluntary
Manslaughter.
22
A. Introduction

22

B. Standard of Review

23

C. The Merits

23

1. McCoy and California Cases Granting
Relief Under it.

23

2

1 App. 41

TABLE OF CONTENTS (cont.)
PAGE
2. Defense Counsel Violated Petitioner’s
Right of Client Autonomy When,
Knowingly and Against Petitioner’s
Wishes, He Argued for a Manslaughter
Conviction.

29

3. Defense Counsel Conceded that Petitioner
Committed a Homicide.
31
4. The Authority Cited by the Court of
Appeal is Neither Binding nor
Persuasive.

34

5. This is an Appropriate Case in Which to
Reach these Issues.

36

CONCLUSION

37

CERTIFICATE OF COMPLIANCE

38

ORDER OF THE COURT OF APPEAL

3

1 App. 42

TABLE OF AUTHORITIES
CASES

Faretta v. California (1975) 422 U.S. 806 ................................ 9, 24
Harris v. New York (1971) 401 U.S. 222 ...................................... 24
In re Large (2007) 41 Cal. 4th 538 ................................................. 23
In re Resendiz (2001) 25 Cal. 4th 230 ............................................ 23
In re Smith (2020) 49 Cal. App. 5th 377 .............................. 6, 11, 36
Jones v. Barnes (1983) 463 U.S. 745 ............................................ 24
McCoy v. Louisiana (2018) 138 S.Ct. 1500, ........................... passim
Merck v. State (Fla. 2020) 298 So.3d 1120 ................................... 35
Nix v. Whiteside (1986) 475 U.S. 157 ........................................... 33
People v. Alvarado (2006) 141 Cal. App. 4th 1577 ........................ 33
People v. Eddy (2019) 33 Cal. App. 5th 472 ........................... passim
People v. Fierro (1991) 1 Cal.4th 173 ........................................... 33
People v. Flores (2019) 34 Cal. App. 5th 270 ..........................passim
People v. Franks (2019) 35 Cal. App. 5th 883 ............................... 36
People v. Maynard (N.Y. App. Div. 2019) 176 A.D. 3d 512 ......... 35
Robinson v. Lewis (2020) 9 Cal. 5th 883 ........................................ 23
Truelove v. State (N.D. 2020) 945 N.W. 2d 272 .................... 34, 35s
United States v. Rosemond (2d Cir. 2020) 958 F.3d 111 ............. 34
STATUTES
California Penal Code § 654 ............................................................ 7
RULES
California Rules of Court, Rule 8.500 ..................................... 22, 23

4

1 App. 43

CONSTITUTIONAL PROVISIONS
United States Constitution, 6th Amendment ......................... passim

5

1 App. 44

ISSUES PRESENTED FOR REVIEW
Under McCoy v. Louisiana (2018) 138 S.Ct. 1500, a
defendant has a right of autonomy under the Sixth Amendment
to insist that defense counsel present a defense of complete
innocence. (Id. at pp. 1507-1509.) In McCoy, and as McCoy was
applied by People v. Flores (2019) 34 Cal. App. 5th 270 and People

v. Eddy (2019) 33 Cal. App. 5th 472, defense counsel violated that
right when he conceded to the jury that the defendant committed
the actus reus of a charged crime. The error is structural. (McCoy

v. Louisiana, supra, 138 S.Ct. at p. 1511; People v. Flores, supra,
34 Cal. App. 5th at p. 283; People v. Eddy, supra, 33 Cal. App. 5th
at p. 483.) McCoy applies retroactively on collateral review to
cases like petitioner’s that are otherwise final. (In re Smith
(2020) 49 Cal. App. 5th 377, 391-392.) It is undisputed that, in
this murder case, defense counsel knew of petitioner’s insistence
on a defense of complete innocence and his refusal of a defense
based on mental state.
1. Regardless of whether defense counsel’s remarks
amounted to a concession of the actus reus of homicide, did
defense counsel’s alternative argument for voluntary
manslaughter in defiance of petitioner’s wishes violate
petitioner’s right of client autonomy as set out in McCoy?
2. If a concession is required, does defense counsel violate

McCoy when he impliedly or tacitly concedes a defendant’s guilt
of the actus reus of a charged crime? As applied here, did defense
counsel concede the actus reus of homicide when, after arguing
for an acquittal grounded substantially in petitioner’s testimony
6

1 App. 45

of third party culpability, he began his alternative argument for a
manslaughter conviction by saying petitioner would not approve
of it and by twice invoking his duties as an officer of the court to
tell the jury the evidence suggested petitioner lied on the stand?
STATEMENT OF THE CASE
In Marin County Superior Court case number SC165475A,
a jury convicted petitioner of first-degree murder, kidnapping of a
child, stalking, and related charges, with weapons use
enhancements. He was acquitted of a special circumstance that
the murder was committed for purposes of kidnapping. On
August 16, 2011, petitioner was sentenced to 35 years to life in
state prison. The sentence consisted of 25 to life on the murder
count, plus one consecutive year for the deadly weapon
enhancement, plus the upper term of eight consecutive years for
kidnapping, and one consecutive year for stalking. Punishment
on other counts was stayed pursuant to California Penal Code
section 654. (Exh. M, vol. 2, 347.)
Petitioner’s direct appeal was adjudicated in the First
District Court of Appeal, case number A133094. Among his
claims were several that revolved around his entitlement to
dictate a defense of complete innocence. He argued that because
defense counsel concealed their intention to argue for voluntary
manslaughter, petitioner lost the chance to replace them with
counsel who would follow his instructions, effectively denying
him counsel of his choice, a structural error. (Exh. L, vol. 2, 273287.) He argued that the trial court violated his Sixth
Amendment rights by, at points in the trial when petitioner had
7

1 App. 46

doubts that defense counsel would follow his instructions,
denying his requests to replace them with the Public Defender,
denying his request for self-representation, and denying counsel’s
requests to withdraw, errors which are also structural. (Exh. L,
vol. 2, 248-272.) He also argued that his Sixth Amendment right
to counsel was violated when the trial court let counsel refuse to
participate at sentencing because he did not want to argue
against petitioner’s wishes again. (Exh. L, vol. 2, 292-306.)
On July 28, 2014, the Court of Appeal filed an unpublished
opinion. Other than set aside a protective order as unauthorized,
the Court rejected all of petitioner’s claims and affirmed the
judgment. As the issue arose, the Court rejected the view that he
was entitled to dictate a defense of complete innocence. The
decision to concede guilt as appropriate was a strategic decision
left to defense counsel, to be reviewed for ineffective assistance,
which it was not. (Exh. M, vol. 2, 366-367, 369-370, 372, 376.)
Petitioner filed a petition for review in this Court on
August 27, 2014 on the claims from the Court of Appeal. (Exh. N,
vol. 2, 392-393.) This Court denied review on October 15, 2014 in
case number S220833. (Exh. O, vol. 2, 441.)
On March 13, 2017, petitioner filed a pro se habeas petition
in the First District Court of Appeal. In re James Mitchell,
A150765. The petition, which is unavailable to the undersigned,
apparently challenged his sentence. According to the online
docket, the Court denied the petition on March 22, 2017 as
procedurally defaulted and on the merits. (Exh. P, vol. 2, 442.)

8

1 App. 47

Petitioner did not file a habeas petition or petition for review in
this Court after the above denial.
On October 26, 2015, petitioner filed a pro se petition for
writ of habeas corpus in the Northern District of California.

Mitchell v. Davey, 15-cv-04919-VC. Petitioner pled all the claims
from his state appeal, including the claims concerning his
attorneys’ disregard of his wishes and the trial court’s handling of
issues concerning his representation. (Exh. Q, vol. 3, 444-450.)
On November 2, 2015, the district court issued an Order to Show
Cause to respondent. On February 19, 2016, respondent filed its
answer, supporting memorandum, and exhibits. On May 5, 2016,
petitioner filed a traverse. (Exh. S, vol. 3, 462-463.)
On October 18, 2016, the district court denied the petition
and ruled that petitioner was not entitled to a certificate of
appealability. It entered judgment for respondent that same day.
(Exh. R, vol. 3, 451-460.)
On June 9, 2017, in case number 16-17057, the U.S. Court
of Appeals for the Ninth Circuit granted a certificate of
appealability on the issues of “whether the state trial court
violated appellant’s constitutional rights when it (1) denied his
request for self-representation under Faretta v. California, 422
U.S. 806 (1975); and (2) denied his motion to dismiss retained
counsel at sentencing, including whether counsel rendered
ineffective assistance at sentencing.” (Exh. T, vol. 3, 465-466.)
The undersigned was appointed to represent petitioner in the
Ninth Circuit under the Criminal Justice Act.

9

1 App. 48

On July 23, 2018, the undersigned filed petitioner’s opening
brief in the Ninth Circuit. In addition to briefing the two certified
issues, the undersigned briefed two uncertified issues, as the
Rules of Court permit. The uncertified issues briefed were
“Mitchell’s Sixth Amendment Right to Counsel Was Violated by
Defense Counsel’s Overriding of His Decision Not to Concede
Guilt of Any Form of Homicide” and “The State Court of Appeal’s
Conclusion That Mitchell’s Request for New Counsel a Month
Before His Faretta Request Was Properly Denied Was
Unreasonable Because it Unreasonably Discounts Mitchell’s
Purpose of Seeking Counsel Who Would Limit His Defense to
Complete Innocence.” (Exh. U, vol. 3, 469-470.)
A central theme was petitioner’s entitlement to insist on a
defense of complete innocence. The brief argues, inter alia, that
in rebuffing petitioner’s attempts to replace Hanlon and Rief, the
trial court unreasonably failed to consider this important
interest. (Exh. U, vol. 3, 484-485, 504, 408-513, 525-526, 528529.) The opinion in McCoy v. Louisiana (2018) 138 S.Ct. 1500
and predecessor United States Supreme Court cases figure in the
argument as they do in the discussion of the uncertified claim
that petitioner’s Sixth Amendment rights were violated by the
concession of manslaughter. (Exh. U, vol. 3, 509, 525-526.)
Respondent filed the answering brief in the Ninth Circuit
on February 19, 2019. (Exh. V, vol. 3, 530-599.) As the rules
permit, respondent did not address the two uncertified claims.
Addressing McCoy, respondent argued that it could not justify
habeas relief because it post-dated petitioner’s state court appeal
10

1 App. 49

and that because it had not been presented to the state courts of
appeal, any discussion was unexhausted. Respondent also argued
that McCoy was distinguishable because Hanlon did not
expressly concede guilt; he simply presented an alternative
defense theory under which petitioner could be convicted of
manslaughter. (Exh. V, vol. 3, 579-584.)
On July 17, 2019, prior to the filing of a reply brief, the
Ninth Circuit granted petitioner’s motion to stay his appeal so
that he could seek state habeas relief premised on McCoy.
On October 3, 2019, petitioner, represented by the
undersigned, filed a petition for writ of habeas corpus in Marin
County Superior Court. (Exh. W, vol. 4, 601-628.) It was
accompanied by a memorandum of points and authorities (Exh.
X, vol. 4, 629-655.) and supporting documents. The petition was
assigned case number SC210551A. Petitioner sought relief based
on McCoy. The Superior Court issued an Order to Show Cause on
November 21, 2019 and appointed the undersigned to represent
petitioner. (Exh. Y, vol. 4, 657.) On May 20, 2020, after further
briefing, the Superior Court denied the petition. It ruled that

McCoy was not retroactive1 and that even if it was, petitioner
was not entitled to relief on the merits. The Court found no
procedural bars. (Exh. Y, vol. 4, 656-691).
On August 21, 2020, petitioner, represented by the
undersigned, filed a new habeas petition in the First District
The Superior Court so ruled prior to Division Two of the Fourth
District holding that McCoy was retroactive. (In re Smith (2020)
49 Cal. App. 5th 377, 391-392.)
1

11

1 App. 50

Court of Appeal in case A160759. At the Court’s request,
respondent filed an informal response and petitioner filed an
informal reply. In addition to disputing petitioner’s entitlement
to relief on the facts, respondent argued that McCoy was not
retroactive, the claim was procedurally defaulted because it could
have been raised on direct appeal, and the claim was untimely
when measured from the time of the direct appeal.
On November 18, 2020, the Court of Appeal issued an order
denying relief on the merits. The Court did not interpret defense
counsel’s argument as conceding petitioner’s guilt of the charged
crime. It did not address petitioner’s other argument that merely
arguing for a manslaughter conviction against petitioner’s wishes
violated McCoy. (Order at 1.) The Court did not question
retroactivity or impose any procedural bars in the alternative.
(Order at 1-2.)
STATEMENT OF FACTS
I. Statement of Facts from Trial2
The murder victim was petitioner’s girlfriend, D.K. The
kidnapping victim was petitioner’s daughter with her. Petitioner
began his relationship with D.K. in August 2007. They moved in
together two weeks later.
During the relationship, petitioner used drugs and
committed acts of domestic violence against D.K. Petitioner was
arrested several times, charges were filed, and restraining orders
were imposed. The couple reunited from time to time, sometimes
This Statement of Facts is derived from the state court of
appeal’s opinion. (Exh. M, vol. 2, 347-351.)
2

12

1 App. 51

at D.K.’s initiation. Beginning in March 2009, petitioner’s
threatening behavior and drug use increased. He would threaten
D.K., and he once threatened an officer who spoke to him on the
phone from her house. A restraining order against petitioner was
made permanent on July 7, 2009. Petitioner did not appear at
that hearing, and he denied having received the order before the
incident on July 12, 2009.
Phone records showed that petitioner made many, many
calls to D.K.’s phone in the weeks preceding her death. He also
called her best friend and said that he knew he had messed up
but would do anything to get back with D.K. and his daughter.
Between June 26 and July 12, he called D.K. 78 times, but she
never answered until July 12. Petitioner made no calls to her
after 6:42 p.m. that day.
Shortly before 7:00 p.m. on July 12, 2009, D.K.’s elderly
neighbors, Bessie and Nick, heard her scream. Nick went outside
to check and saw a man repeatedly hitting D.K. on the head with
a baseball bat. Nick went back in the apartment and told Bessie
to call the police “because he’s here.” Bessie called 911 and told
the dispatcher that the child’s father was beating D.K.
Bessie then saw a white man run past the window with a
screaming child. The man had a shaved head and wore a black tshirt and jeans. Other neighbors also saw the man and gave
descriptions consistent with petitioner’s—white, bald, heavy set.
There were inconsistencies in the description of the clothing, with
one neighbor saying the man wore a white t-shirt. The lineup
process was inconclusive. Nick picked somebody else out of a
13

1 App. 52

lineup. One neighbor could not pick anyone out of a photo lineup
with petitioner’s picture in it but did identify him with 95 percent
certainty at a live lineup a week later. Everyone was consistent
that only one person was involved in beating D.K. and carrying
away the child.
D.K. was dead at the scene when police arrived. A baseball
bat was found. The bat had petitioner’s left index fingerprint on it
near the grip. Petitioner is left-handed.
Both petitioner’s cousin, John Morgan, and his brother,
Justin Mitchell, got word that D.K. was dead. Both called
petitioner separately that evening. Morgan said that petitioner
was crying, and Justin said he was teary and distraught. They
could hear the child in the background. Morgan asked petitioner
if he knew D.K. was dead. Petitioner said he did. He never denied
killing her. He neither admitted nor denied the killing to Justin.
Morgan told petitioner to take the child somewhere safe.
Petitioner told both men that he would take the child to Mexico
rather than surrender her. Alternatively, petitioner told Justin
that he might take her to his mother’s house. Neither man knew
petitioner to possess a bat or to play baseball or softball.
By tracking petitioner’s cell phone, it was determined that
he was heading east on Interstate 80. His car was found parked
in Citrus Heights. When officers approached, they found the
minor, alone and unharmed, sleeping in the front seat. A red
substance on her cheek was later tested and determined to be
D.K.’s blood.

14

1 App. 53

Petitioner’s passport was in the center console of the car.
He was found walking around several blocks away and arrested
without incident. He was wearing a red and navy-blue striped
shirt and jeans.
Petitioner’s jeans had blood spatter on the front. The blood
was determined to be D.K.’s blood. Testimony suggested the
spatter pattern was consistent with beating D.K. on the head
from a few feet away while she was on the ground.
The bat was tested for trace DNA, i.e., DNA from a source
other than blood. D.K. was the primary contributor. There were
two other low-level contributors. Neither petitioner nor the child
could be excluded as sources.
Petitioner testified in his own defense, raising a defense of
mistaken identity. He testified that on July 12, 2009, D.K. invited
him over. He left his home in Pittsburg around 5:00 p.m. and
drove over. He was wearing a red and blue striped polo shirt and
jeans. He parked his car and walked towards D.K.’s duplex.
Passing through the gate, petitioner heard D.K. scream for
help. He encountered two men, one with a buzzed head wearing a
white shirt, and the other in a black t-shirt. Petitioner fought
with both men. The man in the black shirt hit him in the back
with a baseball bat. Petitioner tried to take it away. After more
fighting, petitioner chased the men. The man in the black t-shirt
disappeared. The man in the white shirt had the child. Petitioner
confronted him, punched and kicked him, and demanded the
child. The man let him take her and ran away.

15

1 App. 54

Petitioner went back up towards the duplex with the child.
He heard someone say to call 911. Remembering he had a
restraining order, he decided to leave before the police arrived.
Driving north on Highway 101, petitioner called his
cousins. He planned to go to a cousin’s house to wait to hear from
D.K. He did not want to call her while the police were there.
Petitioner’s mother called him and told him that D.K. was dead
and that it was being said that he killed her. Petitioner said he
needed to talk to his lawyer. By chance, he ran into his attorney,
Terence Hallinan, at a gas station.
Petitioner testified that he did not see anyone hit D.K. with
a bat. He had not known she was dead when he left with the
child. He could not explain how blood spatter got on his jeans. A
urine test done after he was arrested showed he had no alcohol in
his system and a small amount of methamphetamine, indicative
of use within the past five to seven days.
A softball coach testified that the bat might be used by a
high school player or small man or woman. D.K.’s mother said
she had never seen the bat near her home. Her other children
had played baseball and softball; their bats had all been given
away. The county coroner testified that D.K.’s mother had told
him that the bat may have been in the laundry room of the
complex before the murder.
II. Relevant Procedural History at Trial
A. Defense Counsel’s Closing Argument
The first part of Hanlon’s closing argument alluded
generally to petitioner’s innocence. He discussed petitioner’s
16

1 App. 55

likely state of mind as he drove to see his daughter, the lack of
proof that he brought the bat to the premises, the weakness of
the eyewitness identification, and the inconclusiveness of the
blood spatter evidence and the evidence that petitioner touched
the bat on the question of what petitioner actually did. (Exh. J,
vol. 1, 137-178.)
Hanlon argued that petitioner’s testimony about fighting
two men who really killed D.K. was consistent with the
inconsistent eyewitness testimony about whether the killer wore
a black or a white shirt. Hanlon did not otherwise advocate for
the credibility of petitioner’s testimony. He said that the
coincidence of petitioner coming upon two other men doing
violence to D.K. was one the jury would have to grapple with.
(Exh. J, vol. 1, 178-180.)
Hanlon then argued for a guilty verdict on a lesser
homicide, primarily manslaughter. (Exh. J, vol. 1, 180-190.) He
argued, “What happened . . . that led to a man beating in the
brains of a woman he loved?” (Exh. J, vol. 1, 183.) He prefaced
this by saying that his job was to advocate for his client even if,
impliedly, he disagreed with him. He said that petitioner would
not agree with the argument he was about to make. (Exh. J, vol.
1, 180-181.) He said that the jury should not conclude that he did
not believe his client. He believed, however, that the record
contained evidence that petitioner was lying. (Exh. J, vol. 1, 181182.) Hanlon told the jury, not once, but twice, that his duties as
“an officer of the court” required him to argue against petitioner’s

17

1 App. 56

wishes and inform the jury about the possible falsity of his
testimony. (Exh. J, vol. 1, 180-182.)
B. Earlier Proceedings re Petitioner’s Requested
Defense.
On September 1, 2010, the trial court granted a motion to
relieve petitioner’s counsel Douglas Horngrad. Attorneys Stuart
Hanlon and Sara Rief were appointed. (Exh. A, vol. 1, 8-32.)
On January 20, 2011, the court held an in camera3 hearing
with petitioner, Hanlon, and Rief. Hanlon represented that
rather than proceed on a heat-of-passion manslaughter theory,
they would present the defense petitioner wanted, which was
that he “did not commit this crime and that there were other
people who did.” Petitioner would so testify. (Exh. B, vol. 1, 34.)
Hanlon said that to pursue this credibly would require DNA
testing on the bat and petitioner’s clothes. (Exh. B, vol. 1, 34-37.)
On May 10, 2011, petitioner asked the court to relieve
Hanlon and Rief and appoint the Public Defender. Petitioner
believed Hanlon was not being honest with him about the defense
that he had been promised. Hanlon had made no public
statements about it. The court opined that one would expect
defense counsel to remain publicly non-committal about the

On December 10, 2012, in direct appeal case A133094, the Court
of Appeal granted respondent’s motion to unseal all in camera
proceedings. In December 2017, during the pendency of
petitioner’s Ninth Circuit habeas appeal, the Superior Court
granted his motion, filed by the undersigned, to unseal the in
camera documents for federal habeas purposes.
3

18

1 App. 57

defense theory. (Exh. C, vol. 1, 40.) It denied the motion. (Exh. C,
vol. 1, 44-45.)
On May 25, 2011, the court held an in camera hearing on
Hanlon’s request for additional defense funds. Hanlon said that
petitioner would be testifying that he did not commit the crime.
Whether Hanlon actually argued that would be up to him. (Exh.
D, vol. 1, 47.)
Hanlon said there was substantial evidence that petitioner
suffered from psychiatric problems. When he was getting
involved with the case, he was told that petitioner had agreed to
present a mitigating mental defense. That turned out not to be
the case. “Mr. Mitchell has consistently told me he would not go
forward with the [mental state] defense.” (Exh. D, vol. 1, 47-48.)
Hanlon said that his duties to petitioner extended beyond
just deferring to the defense he wanted to present. He was
uncertain if he could put on a defense that contradicted
petitioner’s testimony. However, it was necessary to investigate.
(Exh. D, vol. 1, 48-49.) He asked for $25,000 to $30,000. The court
understood that petitioner was insisting on a defense of complete
innocence, with which Hanlon disagreed. (Exh. D, vol. 1, 50-51.)
It refused to approve so much money for “a conflicting defense
that might not come into play in any event.” (Exh. D, vol. 1, 52.)
On Friday, June 10, 2011, petitioner asked that he be
granted his Faretta rights to represent himself at trial. He did
not trust or like Hanlon. Hanlon had lied to him, so he expected
him to lie to the jury. (Exh. E, vol. 1, 58.) If he received the files
that day or Saturday, he would be prepared to proceed the
19

1 App. 58

following Tuesday. He was already prepared to argue the motions
that had been filed. (Exh. E, vol. 1, 59-60.)
When petitioner appeared in court the following Monday
and asked for a continuance, the trial court denied his Faretta
request, deeming it untimely. (Exh. E, vol. 1, 79-82.)
Hanlon then moved to withdraw. (Exh. F, vol. 1, 83-84.)
The court held an in camera hearing with Hanlon, Rief, and
petitioner. Hanlon said he had recently received two threatening
letters from petitioner. (Exh. F, vol. 1, 87-90.)
Petitioner acknowledged he was angry because he was
fighting his lawyers, who insisted on a heat-of-passion defense.
After Hanlon and Rief embraced his desired defense, relations
improved. That did not stop him from writing rambling, spur-ofthe-moment letters that he sometimes regretted. (Exh. F, vol. 1,
92-98.) Hanlon said nothing. The court denied his motion to be
relieved. (Exh. F, vol. 1, 98-99.)
C. Proceedings at Sentencing re Petitioner’s Requested
Defense.
At sentencing on August 16, 2011, the court held an in

camera hearing on a mutual request that Hanlon and Rief not
represent petitioner at sentencing or in connection with a
possible motion for new trial. Petitioner was upset because
Hanlon had argued in the alternative at trial for a heat-ofpassion manslaughter verdict against his express instructions.
(Exh. K, vol. 1, 194.) This strategy had been sprung on him at the
last minute, leaving him no time to find new counsel. Petitioner
thought Hanlon planned it that way. (Exh. K, vol. 1, 194-197.)
20

1 App. 59

Although the issue at sentencing was concurrent vs.
consecutive sentences, Hanlon doubted that he could perform
competently the way he believed petitioner wanted. He believed
that petitioner still wanted him to argue that he did not commit
the murder. Although guilt was settled given the verdict, Hanlon
was still unwilling to argue against petitioner’s wishes. (Exh. K,
vol. 1, 198-201.) “I made that decision once. I’m not going to do it
again.” (Exh. K, vol. 1, 200.) If forced to argue, he would simply
submit the matter. (Exh. K, vol. 1, 200, 202.)
The court ordered Hanlon to explain why he argued for
manslaughter. Hanlon said that he thought it was the only
possible way to save petitioner from life in prison. He had told
petitioner at some point that petitioner had the right to testify
however he wished, but the decision of what to argue was his.
(Exh. K, vol. 1, 200-201.)
“Mr. Mitchell clearly expressed his desire that I not
do it. I told him—I don’t remember when that
conversation first came up, whether it was before
trial or during the trial, that this was an attorney’s
choice. The decision to testify as to what the truth
was was up to him, but what to argue was up to me.
And he argued with me about that. It’s clear what
he was saying is true, but I made that decision
based on what I saw the evidence to be and what
was in his best interests.” (Exh. K, vol. 1, 201.)4

The trial court declined to relieve Hanlon. At sentencing,
petitioner reasserted his innocence. Hanlon said nothing.
Petitioner was sentenced.
4

21

1 App. 60

ARGUMENT
I. Petitioner’s Sixth Amendment Right of Client
Autonomy, Which Allowed him to Insist on a Defense
of Complete Innocence and not Have Defense
Counsel Concede his Commission of the Actus Reus
of the Charged Crime, was Violated When Defense
Counsel, Knowing of Petitioner’s Wishes and
Knowingly Over his Objection, Argued in the
Alternative that he was Guilty of Lesser Homicides,
Primarily Voluntary Manslaughter.
A. Introduction
Under McCoy v. Louisiana (2018) 138 S.Ct. 1500, a
criminal defendant has a Sixth Amendment right to dictate the
ultimate goals of his defense. When defense counsel concedes
commission of a homicide knowing that the defendant wants a
defense of complete innocence, the defendant’s Sixth Amendment
rights have been violated. (Id. at pp. 1507-1509.) The error is
structural, requiring reversal without a showing of prejudice. ( Id.
at p. 1511.)
Focusing on the concession aspect of McCoy ignores a
critical aspect of the case, the client’s right to dictate the ultimate
goals of his defense. If the goal of a defendant charged with
murder is a defense of absolute innocence, the only way defense
counsel can honor this is to argue for a complete acquittal.
Defense counsel who argues for a verdict of mitigated homicide
violates McCoy. This is so regardless of how he phrases his
argument and whether or not he concedes the commission of a
homicide. Review should be granted to settle this important
question of law. (California Rules of Court, Rule 8.500, subd.
(b)(1).)
22

1 App. 61

If a concession is required, what must it look like? There
are many ways in law—and life—to assert something directly
without saying it explicitly. This case exemplifies that. Because
an attorney has many rhetorical arrows in his quiver, a McCoy
violation should not require the magic words, “Ladies and
Gentlemen of the Jury, I concede to you that the defendant did
X.” Rather, the likely impact of his argument on a reasonable
juror should be analyzed. The likely impact of Hanlon’s argument
was “Forget everything I just said about innocence. Focus on
manslaughter.” Review should be granted to settle this important
question of law. (California Rules of Court, Rule 8.500, subd.
(b)(1).)
B. Standard of Review
Facts entitling a petitioner to habeas relief must be proven
by a preponderance of the evidence. (In re Large (2007) 41 Cal.
4th 538, 549.) This Court reviews the legal issues in petitioner’s
habeas petition de novo. (Robinson v. Lewis (2020) 9 Cal. 5th 883,
895-896; In re Resendiz (2001) 25 Cal. 4th 230, 249, abrogated in

part on other grounds, Padilla v. Kentucky (2010) 559 U.S. 356,
370.)
C. The Merits
1. McCoy and California Cases Granting Relief
Under it.
The Sixth Amendment to the United States Constitution
provides, “In all criminal prosecutions, the accused shall enjoy
the right . . . to have the Assistance of Counsel for his defense.” A
defendant also has a Sixth Amendment right to forgo the

23

1 App. 62

assistance of counsel and represent himself. ( Faretta v. California
(1975) 422 U.S. 806, 807.) This is because “[t]he right to defend is
personal.” (Id. at p. 834.) “The Sixth Amendment does not provide
merely that a defense shall be made for the accused; it grants to
the accused personally the right to make his defense.” (Id. at p.
819.)
A defendant who appears with counsel cedes most trial
management decisions to the attorney. (McCoy v. Louisiana,

supra, 138 S.Ct. at p. 1508.) “Some decisions, however, are
reserved for the client—notably, whether to plead guilty, waive
the right to a jury trial, testify in one’s own behalf,[5] and forego
an appeal. See Jones v. Barnes (1983) 463 U.S. 745, 751.)” (Ibid.)
The question under review in McCoy was “whether it is
unconstitutional to allow defense counsel to concede guilt over
the defendant’s intransigent and unambiguous objection.” (Id. at
p. 1507.) In McCoy, the defendant was charged with capital
murder for killing three family members of his estranged wife.
(Id. at pp. 1505-1506.) McCoy was adamant about his innocence.
“Throughout the proceedings, he insistently maintained he was
out of State at the time of the killings and that corrupt police
killed the victims when a drug deal went wrong.” (Id. at p. 1506.)
Two weeks before trial, McCoy’s retained counsel, English,
told him that he intended to concede guilt. McCoy was furious
and told him not to do so. He demanded a defense of innocence. It
was undisputed that defense counsel was aware of McCoy’s

5

See Harris v. New York (1971) 401 U.S. 222, 225.
24

1 App. 63

wishes. Both McCoy and English sought to sever the relationship.
The trial court refused to relieve English, telling him that he was
the attorney and the choice of defense, if any, was his. (Ibid.)
During opening statement, English conceded that it was
indisputable that McCoy had caused the victims’ deaths. This
prompted an outburst from McCoy about being sold out for
having “murdered his family.” (Id. at p. 1506-1507.) McCoy
ultimately testified in his own defense, “maintaining his
innocence and pressing an alibi difficult to fathom.” ( Id. at p.
1507.) During closing argument, English again conceded that
McCoy was the killer. (Id. at p. 1507.) He argued against a
verdict of first-degree murder on the theory that McCoy lacked
the intent required for that crime. (Id. at p. 1512 [Alito, J.,
dissenting].) McCoy was convicted of first-degree murder and
ultimately sentenced to death. (Id. at p. 1507.)
The U.S. Supreme Court did not apply its ineffective
assistance jurisprudence because the issue was “client autonomy”
under the Sixth Amendment. (Id. at pp. 1510-1511.) Citing

Faretta, the Court emphasized that the right to make a defense
under the Sixth Amendment was “personal.” That is why the
Sixth Amendment speaks of the “assistance” of counsel. (Id. at
pp. 1507-1508.) While most trial management decisions are ceded
to defense counsel, the client retains exclusive control over
certain fundamental decisions. (Id. at p. 1508.)
These fundamental decisions included McCoy’s goal of
maintaining complete innocence.

25

1 App. 64

“Autonomy to decide that the objective of the defense
is to assert innocence belongs in this latter category.
Just as a defendant may steadfastly refuse to plead
guilty in the face of overwhelming evidence against
her, or reject the assistance of legal counsel despite
the defendant’s own inexperience and lack of
professional qualifications, so may she insist on
maintaining her innocence at the guilt phase of a
capital trial. These are not strategic choices about
how best to achieve a client’s objectives; they are
choices about what the client’s objectives in fact are.”
(Id. at p. 1508.)
These objectives may not necessarily be sound or realistic, but
that risk is as accepted in this context as it is when defendant
represents himself under Faretta. (Ibid.)
The defendant’s objectives also may not be strictly tethered
to the goal of avoiding a conviction.
“Counsel may reasonably assess a concession of guilt
as best suited to avoiding the death penalty, as
English did in this case. But the client may not share
that objective. He may wish to avoid, above all else,
the opprobrium that comes with admitting he killed
family members. Or he may hold life in prison not
worth living and prefer to risk death for any hope,
however small, of exoneration. (Ibid.)
Such decisions must be honored. “When a client expressly asserts
that the objective of ‘his defence’ is to maintain innocence of the
charged criminal acts, his lawyer must abide by that objective
and may not override it by conceding guilt.” (Id. at p. 1509
[emphasis in original].” Defense counsel’s failure to abide by the
client’s objectives was structural error. (Id. at p. 1511.)
In People v. Eddy (2019) 33 Cal. App. 5th 472, the defendant
was charged with first-degree murder. (Id. at p. 475.) Defense
26

1 App. 65

counsel urged the defendant’s innocence during opening
statement, focusing on the possibility that a third party present
at the scene stabbed the victim. There was no defense case. In his
closing argument, however, defense counsel conceded that Eddy
was guilty of voluntary manslaughter, but he urged his innocence
of first or second-degree murder. Eddy was convicted of firstdegree murder with a knife use enhancement. (Id. at p. 477.)
The trial court learned of the disagreement during a

Marsden hearing in connection with sentencing and a possible
motion for new trial. (Id. at pp. 477-478.) Defense counsel said he
knew of Eddy’s wishes prior to closing argument, though he said
Eddy had “waffled” a bit in insisting on a defense of complete
innocence. (Id. at p. 478.) Eddy was adamant that he had told
defense counsel not to argue for voluntary manslaughter. He also
said that defense counsel refused to let him testify. ( Id. at p. 478479.) Defense counsel ultimately admitted he had argued against
his client’s wishes because he thought it was the sounder
strategy. (Id. at p. 479.) The trial court denied the Marsden
motion. (Id. at p. 478.)
The Court of Appeal reversed.
“Here, defendant argues his counsel's concession
during closing arguments that he committed
manslaughter violated his Sixth Amendment right to
maintain his absolute innocence. We agree that
McCoy protects defendant's right to determine that
the objective of his defense is innocence and conclude,
on this record, that the rule announced in McCoy
applies here.” (Id. at p. 481.)

27

1 App. 66

It did not matter that defense counsel acted reasonably.
Authorities suggesting otherwise “miss the mark.” As McCoy had
held, the issue was the defendant’s Sixth Amendment right to
autonomy, not effective assistance. (Id. at p. 483.)

McCoy and Eddy were followed in People v. Flores (2019)
34 Cal. App. 5th 270, which involved two trials. In one case, Flores
was charged with attempted murder with a vehicle. Defense
counsel conceded over objection that Flores was driving but
argued there was no premeditation. (Id. at p. 272.) In the other
case, he was charged with manufacturing an assault weapon and
being a felon in possession of an assault weapon. Defense counsel
conceded, again over objection, that Flores possessed the weapon;
he argued that knowledge was not proven. (Id. at pp. 272-273.)
Flores’s wishes were apparent by the time of a pre-trial Marsden
hearing. (Id. at p. 275.) Flores was convicted of the greater
charges in both cases. (Id. at p. 276.)
In reversing under McCoy, Flores cited Eddy and an
Oregon case to hold that McCoy was not limited to capital cases.
(Id. at pp. 282-283.) It was also not limited to the Sixth
Amendment right to insist on a defense of innocence to the

charged crime. A defendant may insist on a defense that he did
not commit the actus reus of the charged crime. (Id. at pp. 273,
277, 279-281, 283.) This is so even if doing otherwise is a
reasonable strategy. (Id. at pp. 279-281, 283.) Flores noted that in

McCoy, defense counsel had conceded the actus reus, that McCoy
had killed his family, but had argued that McCoy lacked the
mental state required for conviction of first-degree murder. (Id. at
28

1 App. 67

p. 273.) In holding this impermissible, Flores emphasized the
rationale about a defendant not wanting to commit he had killed
his family, or, it necessarily follows, having committed other
serious criminal acts. (Id. at p. 282.)
2. Defense Counsel Violated Petitioner’s Right of
Client Autonomy When, Knowingly and Against
Petitioner’s Wishes, He Argued for a
Manslaughter Conviction.

McCoy holds that a defendant has a Sixth Amendment
right to insist on a defense of complete innocence. Eddy and

Flores emphasized this right as well. While the facts of McCoy
involved a concession of homicide, nothing in McCoy’s discussion
of client autonomy says that the right to dictate the ultimate
goals of the representation is limited to precluding explicit
concessions of guilt.
If a defendant wants to take an all-or-nothing approach to
acquittal and prevent defense counsel from arguing for a
conviction of mitigated homicide or some lesser offense, under

McCoy, he has that right. This is so regardless of whether counsel
intends to ground his argument in an explicit concession of the

actus reus or dance around the issue like respondent argued
Hanlon did. Indeed, allowing the defendant to set these
boundaries avoids such artful dodging situations where any
reasonable jury would inevitably understand that defense counsel
believes his client committed the actus reus.
Nothing in McCoy is to the contrary. The Court of Appeal
cited McCoy’s statement that defense counsel “could not interfere
with McCoy’s telling the jury ‘I was not the murderer,’ although
29

1 App. 68

counsel could, if consistent with providing effective assistance,
focus his own collaboration on urging that McCoy’s mental state
weighed against conviction.” (McCoy v. Louisiana, supra, 138
S.Ct. at 1509.) This language does not justify Hanlon’s
disobedience of petitioner’s wishes.
First, as noted above, McCoy held that what might be
sound strategy is irrelevant to the issue of client autonomy.
Second, the reference to the defendant’s telling the jury “I was
not the murderer” cannot merely refer, as Hanlon assumed, to
the client taking the stand to tell his story. That right may have
informed McCoy, but it long predated it and has nothing to do
with the question presented there. (Id. at pp. 1513, 1516.)
Rather, “I was not the murderer” must refer to defense
counsel arguing that to the jury on the client’s behalf. The
language that follows about arguing mental state can only be
harmonized with the core holding of McCoy if, unlike what
happened in McCoy, such argument does not undermine the
defendant’s claim of innocence of the actus reus. It is hard to
imagine how that tightrope might successfully be walked in most
cases. It certainly was not in petitioner’s.
This is not a case where, consistent with McCoy, defense
counsel could argue that whoever committed the crime was not
guilty of the charged crime because of a missing element, e.g., the
absence of force or fear in a petty theft charged as a robbery.
Such an argument would not concede the defendant’s guilt of any

actus reus. It would not link him to a crime against his will and
to his potential embarrassment.
30

1 App. 69

Petitioner’s case is very different. There was no room for
Hanlon to argue petitioner’s innocence while also arguing that

whoever committed this homicide lacked the required intent or
only committed manslaughter. The only person whose intent we
have circumstantial evidence of was petitioner. The only person
who could have committed manslaughter “because of a sudden
quarrel or in the heat of passion” and because he “acted rashly
and under the influence of intense emotion that obscured his
reasoning or judgment” was petitioner. (Exh. I, vol. 1, 124.) The
only person about whom Hanlon could have argued, “What
happened . . . that led to a man beating in the brains of a woman
he loved?” was petitioner. (Exh. J, vol. 1, 183.) Petitioner was
entitled to preclude this type of argument.
3. Defense Counsel Conceded that Petitioner
Committed a Homicide.
Hanlon never said, “Ladies and gentlemen of the jury, I
concede that Mr. Mitchell killed the victim.” Given what he did
say, he might as well have. Under McCoy, that should be enough.
Hanlon did not defend petitioner’s credibility. Rather, he
said petitioner’s testimony about third parties presented a
coincidence that the jury would have to grapple with. Beginning
his argument about manslaughter, he told the jury that
petitioner would object to his making it, remarks that told the
jury he did not know about the argument and had not authorized
it. He said the record supported the conclusion that petitioner
was lying. (Exh. J, vol. 1, 180-182.)

31

1 App. 70

Hanlon’s professed disavowal of not believing his client
actually told the jurors the exact opposite; it told them that they
should not belabor petitioner’s innocence defense but, rather,
focus on manslaughter.6 Nothing in McCoy suggests that defense
counsel may pay lip service to the defendant’s claims of absolute
innocence and then negate them in front of the jury because
doing so seems like the sounder strategy. Hanlon’s argument was
clearly impermissible.
Most damningly, Hanlon referred to himself as an officer of
the court. He did this not once, but twice.
“I want to talk to you about an issue that’s very
difficult, not because it’s difficult to talk about, but
because my job as an attorney is to be an advocate for
my client. I’m also an officer of the court. And I see
my job in closing argument as arguing what I believe
the evidence suggests and have you think about it. . .
.
I don’t—you know, I try never to do that, and that’s
why this is difficult, but it’s something, as an officer
of the court and an advocate for my client, I have to
do, because there certainly is evidence on which you
could conclude, depending on how you understand
the inferences for circumstantial evidence, that Mr.
Mitchell is not being totally honest with you about
what happened.” (Exh. J, vol. 1, 180-182.)
Even if the jury misunderstood Hanlon’s ultimate point
amidst his faux equivocal evasions, invoking his duties as an
officer of the court would have told the jury he knew petitioner
Hanlon’s argument involves two rhetorical devices. “Apophasis”
is the practice of bringing up a subject or asserting a point by
claiming not to mention it. “Paralipsis” is the device of
emphasizing a point by claiming it deserves little emphasis.
6

32

1 App. 71

had lied and that the jury should also so conclude. If a prosecutor
had invoked his duties and ethics to bolster the credibility of a
witness, any defendant would complain about prosecutorial
vouching. (People v. Fierro (1991) 1 Cal.4th 173, 211; People v.

Alvarado (2006) 141 Cal. App. 4th 1577, 1585.) Hanlon also
improperly vouched—for his own client’s guilt.
To Hanlon’s point that conceding petitioner’s guilt of
homicide was something “I have to do” as an officer of the court,
the response is, “No, you don’t.” Although a defendant’s
constitutional right to testify does not include the right to testify
falsely and his Sixth Amendment right to counsel does not
include having the knowing assistance of counsel in suborning
his perjury, (Nix v. Whiteside (1986) 475 U.S. 157, 173-176,)
nothing in the record shows that petitioner told Hanlon his
intended testimony was false.

McCoy distinguished the Louisiana Supreme Court’s
reliance on Whiteside on that basis. “But McCoy’s case does not
resemble Nix, where the defendant told his lawyer that he
intended to commit perjury. There was no such avowed perjury
here.” (McCoy v. Louisiana, supra, 138 S.Ct. at p. 1510.) Had
Hanlon so known, his duty would have been not to put petitioner
on the stand or to withdraw. (Ibid.) Hanlon had no business
putting him on the stand and then telling the jury that he lied.
(Ibid.)
Hanlon’s argument committed petitioner to having killed
the mother of his child, an admission McCoy emphasized a
defendant might not wish to make and which petitioner
33

1 App. 72

adamantly and consistently opposed. Hanlon may not have
conceded this expressly, but his meaning was crystal clear. This
Court should grant review and so hold.
4. The Authority Cited by the Court of Appeal is
Neither Binding nor Persuasive.
In denying relief, the Court of Appeal primarily cited sister
state and federal circuit cases that are either not on point or that
contradict McCoy and/or California’s interpretation of McCoy.
The case of United States v. Rosemond (2d Cir. 2020) 958 F.3d
111 held that McCoy was not violated when defense counsel
conceded that the defendant paid to have the victim shot but
disputed the element of intent to kill. (Id. at pp. 119, 123; Order
at 1-2.) The case is distinguishable.

Rosemond read McCoy as limited to cases where counsel
concedes every element of a charged crime. (Id. at p. 122.) This
contradicts both Flores, which expressly held that concession of
the actus reus of a charged crime violates McCoy, and Eddy, in
which that holding is necessarily implied. It is also inconsistent
with McCoy where, after conceding that defense counsel killed
the victims, defense counsel argued for a verdict of mitigated
homicide based on mental state.
The cited case of Truelove v. State (N.D. 2020) 945 N.W. 2d
272 is similarly distinguishable. (Order at 2.) It held that
counsel’s strategy that the defendant testify and admit striking
the victim did not violate McCoy because it was “not necessarily”
a complete concession of the charge of aggravated assault. (Id. at
pp. 275-276.) Again, this contradicts McCoy, Flores, and Eddy.
34

1 App. 73

Truelove is further distinguishable because the defendant there
never opposed counsel’s strategy or insisted on a defense of
complete innocence. (Id. at p. 276.)
The Court of Appeal cited Merck v. State (Fla. 2020) 298
So.3d 1120 for the proposition that arguing alternative defenses
of identity and voluntary intoxication does not violate McCoy.

Merck is a barebones dismissal in which the supposed alternative
argument of identity is not mentioned. The Court simply held
that arguing voluntary intoxication is not a concession of guilt.
(Id. at p. 1121.) The case lacks sufficient discussion to support the
denial of relief here. However, if the voluntary intoxication
argument was logically bound up with a concession over the
defendant’s objection that the defendant had committed the actus

reus of the charged murder, it would violate McCoy.
The cited case of People v. Maynard (N.Y. App. Div. 2019)
176 A.D. 3d 512 actually supports petitioner’s position. There, the
two issues were who robbed the victim and whether the victim
was robbed in a dwelling to make the case second-degree
burglary, a more serious charge. (Id. at p. 513.) Maynard held
that counsel’s emphasis on the stronger argument of where the
robbery occurred did not violate McCoy. (Id. at pp. 513-514.) This
is the kind of case alluded to above where defense counsel may
argue that whoever committed the crime was not guilty of the
charged crime because of a missing element. That is not the case
here because the only person who could have been guilty of
voluntary manslaughter was petitioner.

35

1 App. 74

The Court of Appeal cited one California case, People v.

Franks (2019) 35 Cal. App. 5th 883 for a general statement of
McCoy. (Id. at p. 891; Order at 1.) The facts of Franks, where the
defendant was convicted of voluntary manslaughter, do not
support the denial of relief. There, counsel admitted that the
defendant had been with the victim prior to her body being
discovered. He urged the jury to consider a verdict of involuntary
manslaughter. (Id. at p. 888.) On appeal, the defendant argued
that this “implicit concession” that he had caused the victim’s
death violated McCoy. (Id. at p. 889.) Relief was denied solely
because the defendant had not made his wishes for a defense of
absolute innocence known to counsel. (Id. at p. 891.)

Franks did not hold that concession of the actus reus of a
charged crime does not violate McCoy. More importantly, it did
not hold that an “implicit concession,” i.e., something other than
“Ladies and Gentlemen of the Jury, the defendant is guilty of X,”
but amounting to the same thing, can never violate McCoy. This
Court should decide that question in petitioner’s favor.
5. This is an Appropriate Case in Which to Reach
These Issues.
Although the issue arose in habeas, McCoy is retroactive to
cases on collateral review. (In re Smith (2020) 49 Cal. App. 5th
377, 391-392.) The Court of Appeal imposed no procedural
defaults in the alternative. This Court should reach the merits
and either grant petitioner relief or hold that an Order to Show
Cause should issue.

36

1 App. 75

CONCLUSION
For the foregoing reasons, the petition for review should be
granted.
Dated: November 30, 2020
s/Steven S. Lubliner
Steven S. Lubliner
P.O. Box 750639
Petaluma, CA 94975
Phone: (707) 789-0516
e-mail: ssubliner@comcast.net
Counsel for Petitioner
James R.W. Mitchell

37

1 App. 76

CERTIFICATE OF COMPLIANCE
Pursuant to Rules 8.504(d)(1) of the California Rules of
Court, I hereby certify that the foregoing petition is produced in a
proportional font (Century Schoolbook) of 13-point type and
utilizes 1.5 line spacing, except in footnotes and extended
quotations which are single-spaced. I further certify that,
according to the word count of the word processing system used
to prepare the brief, the brief includes 8,094 words (exclusive of
the table of contents, the table of authorities, the signature block,
the proof of service and this certificate).
Dated: November 30, 2020

/s/Steven S. Lubliner
STEVEN S. LUBLINER
Attorney for Petitioner
James R.W. Mitchell

38

1 App. 77

Court of Appeal, First Appellate District
Charles D. Johnson, Clerk/Executive Officer
Electronically FILED on 11/18/2020 by T. Nevils, Deputy Clerk

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION ONE

In re JAMES R. W. MITCHELL,
on Habeas Corpus.

A160759
(Marin County Super. Ct.
No. SC165475A)

BY THE COURT:
The petition for writ of habeas corpus is denied on the merits.
Petitioner's Sixth Amendment rights were not violated because his counsel
did not concede petitioner's guilt in closing argument. (McCoy v. Louisiana
(2018) 584 U.S. _ , _ , 138 S.Ct. 1500, 1509 ["When a client expressly
asserts that the objective of his defence' is to maintain innocence of the
charged criminal acts, his lawyer must abide by that objective and may not
override it by conceding guilt."]; id. at p. 1509 ["[Defense counsel] could not
interfere with McCoy's telling the jury 'I was not the murderer,' although
counsel could, if consistent with providing effective assistance, focus his own
collaboration on urging that McCoy's mental state weighed against
conviction."], italics added; People v. Franks (2019) 35 Cal.App.5th 883, 891
["McCoy makes clear, however, that for a Sixth Amendment violation to lie, a
defendant must make his intention to maintain innocence clear to his
counsel, and counsel must override that objective by conceding guilt."]; see
United States v. Rosemond (2d Cir. 2020) 958 F.3d 111, 119, 123 [no violation
of McCoy where counsel for defendant in murder-for-hire case admitted that
defendant had paid for the victim to be shot but argued that the government
failed to prove beyond a reasonable doubt that the defendant intended for the

1 App. 78

victim to be killed]; Merck v. State (Fla. 2020) 298 So.3d 1120, 1121 [counsel
for murder defendant did not violate McCoy by arguing the alternative
defenses of reasonable doubt as to the identity of the perpetrator and
voluntary intoxication]; Truelove v. State (N.D. 2020) 945 N.W.2d 272, 276
[counsel's admission that defendant charged with aggravated assault had
struck the victim was not "not necessarily a definitive statement of guilt as
was present in McCoy."]; see also People v. Maynard (N.Y. App. Div. 2019)
176 A.D.3d 512, 513-514, 112 N.Y.S.3d 706, 707 ["Rather-in light of
testimony by the defendant that was decisively contradicted by the evidence
and therefore transparently false-counsel made the permissible alternative
argument [citation] that, if the jury determined that defendant was the
perpetrator, it should still acquit him of the top count of burglary in the
second degree."].)

Date: 11/18/2020
_ _ _ _ _ _ _ _ _ _ _ P.J.
Before: Humes, P.J., Margulies, J., and Banke, J.

1 App. 79

PROOF OF SERVICE BY ELECTRONIC SERVICE
(Cal. Rules of Court, rules 2.251(i)(1)(A)-(D) & 8.71(f)(1)(A)-(D)
I, Steven S. Lubliner, declare I electronically served from
my electronic service address of sslubliner@comcast.net the
following documents:
PETITION FOR REVIEW
on November 30, 2020 at 8:00 a.m. to the following persons and
entities:
Office of the Attorney General
sfagdocketing@doj.ca.gov
Marin County District Attorney
DA_MagRoom@marincounty.org
First District Appellate Project
eservice@fdap.org
DECLARATION OF SERVICE
I, the undersigned, declare that I am over 18 years of age,
an attorney and a member in good standing of the State Bar of
California. I am not a party to the within cause. My business
address is P.O. Box 750639, Petaluma, CA 94975. My e-mail
address is sslubliner@comcast.net. I served a true copy of the
above-mentioned documents on the following, by placing same in
an envelope(s) addressed as follows
Marin County Superior Ct.
P.O. Box 4988
San Rafael, CA 94913-4988
James R.W. Mitchell, #AI4523
D17-121
R.J. Donovan Correctional Facility
480 Alta Road
San Diego, CA 92179

39

1 App. 80

Each said envelope was then sealed and deposited in the
United States mail at Petaluma, California, the county in which I
am employed, with the postage thereon fully prepaid.
I declare under penalty of perjury under the laws of the
State of California and the United States of America that the
foregoing is true and correct.
Executed on November 30, 2020 at Petaluma, California.
s/Steven S. Lubliner

40

1 App. 81

Court of Appeal, First Appellate District

Court of Appeal, First Appellate District

Charles D. Johnson, Clerk/Executive Officer

Charles D. Johnson, Clerk/Executive Officer

Electronically RECEIVED on 8/21/2020 on 4:16:35 PM

Electronically FILED on 8/21/2020 by R. Neeley, Deputy Clerk
CASE #: A160759, Div: 1

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION ONE
)
)
)
)
)
)
vs.
)
)
)
RALPH M. DIAZ, Secretary,
)
California Department of
)
Corrections and Rehabilitation, )
an individual; and MARCUS )
POLLARD, Warden of Richard )
)
J. Donovan Correctional
)
Facility, an individual,
)
Respondents,
)
)
PEOPLE OF THE STATE OF )
CALIFORNIA, Real Party in )
)
Interest
In Re James R.W. Mitchell
JAMES R.W. MITCHELL,
Petitioner,

Marin County Superior Court
No. SC210551A (habeas case)
First District Court of Appeal,
Division One, No. A133094
(direct appeal)
Marin County Superior Court
No. SC165475A (case of
conviction)

PETITION FOR WRIT OF HABEAS CORPUS
Following the Judgment of the Superior Court
of the State of California for the County of Marin
HONORABLE PAUL M. HAAKENSON, JUDGE
Steven S. Lubliner (State Bar No. 164143)
LAW OFFICES OF STEVEN S. LUBLINER
P.O. Box 750639
Petaluma, CA 94975
Phone: (707) 789-0516
e-mail: sslubliner@comcast.net
Attorney for Petitioner
1

1 App. 82

TABLE OF CONTENTS
PAGE
I. INTRODUCTION

4

II. ALLEGATIONS OF CONFINEMENT

5

III. PROCEDURAL HISTORY

6

A. Statement of Facts from Trial.

6

B. Trial Level Proceedings.

10

C. State Appellate Proceedings.

11

D. State Habeas Proceedings.

12

E. Federal Habeas Proceedings.

13

F. Habeas Proceedings in Superior Court
Underlying this Petition.
G. Allegations of Timeliness.

15
16

H. Other Procedural Requisites.

18

CLAIM FOR RELIEF: Claim 1: Defense Counsel’s
Refusal to Respect Mitchell’s Request that his Defense
be Limited to Complete Innocence and his Concession
During Closing Argument that Mitchell Committed a
Homicide, Considered Separately or Together,
Violated Mitchell’s Right of Client Autonomy Under
the Sixth Amendment to Dictate the Ultimate
Objectives of His Defense. The Error is Structural.
20
PRAYER FOR RELIEF
VERIFICATION

28
30

2

1 App. 83

TABLE OF AUTHORITIES
CASES
Faretta v. California, 422 U.S. 806 (1975) ................................... 14
In re Soderstein (2007) 146 Cal. App. 4th 1163 ............................. 17
McCoy v. Louisiana (2018) 138 S.Ct. 1500 ............. 4, 15, 16, 17, 19
People v. Amezcua and Flores (2019) 6 Cal. 5th 886 ..................... 18
People v. Eddy (2019) 33 Cal. App. 5th 472 ............................... 4, 18
People v. Flores (2019) 34 Cal. 5th 270 .......................................... 18
People v. Flores (2019) 34 Cal. App. 5th 270 ................................... 4
Robinson v. Lewis (2020) 9 Cal. 5th 883 ........................................ 16
STATUTES
California Penal Code § 654 .......................................................... 10
CONSTITUTIONAL PROVISIONS
United States Constitution, 6th Amendment ............................... 13

3

1 App. 84

I. INTRODUCTION
1.

This petition seeks habeas relief based on McCoy v.

Louisiana (2018) 138 S.Ct. 1500, both on its face and as
interpreted by People v. Flores (2019) 34 Cal. App. 5th 270 and
People v. Eddy (2019) 33 Cal. App. 5th 472. Under this authority,
defense counsel violates a defendant’s Sixth Amendment right to
dictate the ultimate goals of his defense when, over the
defendant’s known objections, he concedes to the jury that the
defendant committed the charged crime or the actus reus of a
charged crime or overrides the defendant’s wishes for a defense of
complete innocence. The error is structural. (McCoy v. Louisiana,
supra, 138 S.Ct. at p. 1511.)
2.

Here, defense counsel Hanlon and Rief knew

throughout this first-degree murder case that Mitchell wanted a
defense of complete innocence and did not want any defense
based on mental state that necessarily involved conceding that he
had committed a homicide. They promised Mitchell that his
defense would be so limited. Like the defendant in McCoy,
Mitchell testified in support of his defense of complete innocence,
implicating third parties.
3.

Hanlon first argued for an acquittal. Then, without

having told Mitchell he would do so, he argued at length for a
guilty verdict on a lesser homicide, primarily manslaughter. He
prefaced this by telling the jury that his job was to advocate for
his client even if, impliedly, he disagreed with him. He said that
Mitchell would not agree with the argument he was about to
make, thus telling the jury Mitchell did not know about it. He
4

1 App. 85

then said the record contained evidence that would allow the jury
to conclude that Mitchell was lying. He said his duties as an
officer of the court compelled this admission. Mitchell was
convicted of first-degree murder and related crimes.
II. ALLEGATIONS OF CONFINEMENT
4.

Petitioner/appellant James R.W. Mitchell (“Mitchell”)

is confined in a California state prison serving a sentence of 35
years to life that was imposed on August 16, 2011 by the
Honorable Kelly V. Simmons following Mitchell’s conviction in
Marin County Superior Court case SC165475A of first-degree
murder, kidnapping, corporal injury on a cohabitant, child
abduction, child endangerment, and stalking with weapons use
enhancements. The murder victim was Mitchell’s estranged
girlfriend, who was the mother of his daughter.
5.

Petitioner’s address is James R.W. Mitchell, AI4523,

R.J. Donovan Correctional Facility, 480 Alta Road, San Diego, CA
92179. Petitioner is unlawfully confined and restrained of his
liberty by Ralph M. Diaz, Secretary, California Department of
Corrections and Rehabilitation, and Marcus Pollard, Warden of
R.J. Donovan Correctional Facility.
6.

According to Mitchell’s record on the inmate locator

page of the California Department of Corrections and
Rehabilitations web site, Mitchell will be eligible for parole in
March 2038.

5

1 App. 86

III. PROCEDURAL HISTORY
A. Statement of Facts from Trial1
7.

The murder victim was Mitchell’s girlfriend, D.K.

The kidnapping victim was Mitchell’s daughter with her. Mitchell
began his relationship with D.K. in August 2007. They moved in
together two weeks later.
8.

During the relationship, Mitchell used drugs and

committed acts of domestic violence against D.K. Mitchell was
arrested several times, charges were filed, and restraining orders
were imposed. The couple reunited from time to time, sometimes
at D.K.’s initiation. Beginning in March 2009, Mitchell’s
threatening behavior and drug use increased. He would threaten
D.K., and he once threatened an officer who spoke to him on the
phone from her house. A restraining order against Mitchell was
made permanent on July 7, 2009. Mitchell did not appear at that
hearing, and he denied having received the order before the
incident on July 12, 2009.
9.

Phone records showed that Mitchell made many,

many calls to D.K.’s phone in the weeks preceding her death. He
also called her best friend and said that he knew he had messed
up but would do anything to get back with D.K. and his daughter.
Between June 26 and July 12, he called D.K. 78 times, but she
never answered until July 12. Mitchell made no calls to her after
6:42 p.m. that day.

This Statement of Facts is derived from the state court of
appeal’s opinion. (Exh. M, vol. 2, 347-351.)
1

6

1 App. 87

10.

Shortly before 7:00 p.m. on July 12, 2009, D.K.’s

elderly neighbors, Bessie and Nick, heard her scream. Nick went
outside to check and saw a man repeatedly hitting D.K. on the
head with a baseball bat. Nick went back in the apartment and
told Bessie to call the police “because he’s here.” Bessie called 911
and told the dispatcher that the child’s father was beating D.K.
11.

Bessie then saw a white man run past the window

with a screaming child. The man had a shaved head and wore a
black t-shirt and jeans. Other neighbors also saw the man and
gave descriptions consistent with Mitchell’s—white, bald, heavy
set. There were inconsistencies in the description of the clothing,
with one neighbor saying the man wore a white t-shirt. The
lineup process was inconclusive. Nick picked somebody else out of
a lineup. One neighbor could not pick anyone out of a photo
lineup with Mitchell’s picture in it but did identify Mitchell with
95 percent certainty at a live lineup a week later. Everyone was
consistent that only one person was involved in beating D.K. and
carrying away the child.
12.

D.K. was dead at the scene when police arrived. A

baseball bat was found. The bat had Mitchell’s left index
fingerprint on it near the grip. Mitchell is left-handed.
13.

Both Mitchell’s cousin, John Morgan, and his brother,

Justin Mitchell, got word that D.K. was dead. Both called
Mitchell separately that evening. Morgan said that Mitchell was
crying, and Justin said he was teary and distraught. They could
hear the child in the background. Morgan asked Mitchell if he
knew D.K. was dead. Mitchell said he did. He never denied
7

1 App. 88

killing her. He neither admitted nor denied the killing to Justin.
Morgan told Mitchell to take the child somewhere safe. Mitchell
told both men that he would take the child to Mexico rather than
surrender her. Alternatively, Mitchell told Justin that he might
take her to his mother’s house. Neither man knew Mitchell to
possess a bat or to play baseball or softball.
14.

By tracking Mitchell’s cell phone, it was determined

that he was heading east on Interstate 80. His car was found
parked in Citrus Heights. When officers approached, they found
the minor, alone and unharmed, sleeping in the front seat. A red
substance on her cheek was later tested and determined to be
D.K.’s blood.
15.

Mitchell’s passport was in the center console of the

car. He was found walking around several blocks away and
arrested without incident. He was wearing a red and navy-blue
striped shirt and jeans.
16.

Mitchell’s jeans had blood spatter on the front. The

blood was determined to be D.K.’s blood. Testimony suggested the
spatter pattern was consistent with beating D.K. on the head
from a few feet away while she was on the ground.
17.

The bat was tested for trace DNA, i.e., DNA from a

source other than blood. D.K. was the primary contributor. There
were two other low-level contributors. Neither Mitchell nor the
child could be excluded as sources.
18.

Mitchell testified in his own defense, raising a

defense of mistaken identity. He testified that on July 12, 2009,
D.K. invited him over. He left his home in Pittsburg around 5:00
8

1 App. 89

p.m. and drove over. He was wearing a red and blue striped polo
shirt and jeans. He parked his car and walked towards D.K.’s
duplex.
19.

Passing through the gate, Mitchell heard D.K.

scream for help. He encountered two men, one with a buzzed
head wearing a white shirt, and the other in a black t-shirt.
Mitchell fought with both men. The man in the black shirt hit
him in the back with a baseball bat. Mitchell tried to take it
away. After more fighting, Mitchell chased the men. The man in
the black t-shirt disappeared. The man in the white shirt had the
child. Mitchell confronted him, punched and kicked him, and
demanded the child. The man let him take her and ran away.
20.

Mitchell went back up towards the duplex with the

child. He heard someone say to call 911. Remembering he had a
restraining order, he decided to leave before the police arrived.
21.

Driving north on Highway 101, Mitchell called his

cousins. He planned to go to a cousin’s house to wait to hear from
D.K. He did not want to call her while the police were there.
Mitchell’s mother called him and told him that D.K. was dead
and that it was being said that he killed her. Mitchell said he
needed to talk to his lawyer. By chance, he ran into his attorney,
Terence Hallinan, at a gas station.
22.

Mitchell testified that he did not see anyone hit D.K.

with a bat. He had not known she was dead when he left with the
child. He could not explain how blood spatter got on his jeans. A
urine test done after he was arrested showed he had no alcohol in

9

1 App. 90

his system and a small amount of methamphetamine, indicative
of use within the past five to seven days.
23.

A softball coach testified that the bat might be used

by a high school player or small man or woman. D.K.’s mother
said she had never seen the bat near her home. Her other
children had played baseball and softball; their bats had all been
given away. The county coroner testified that D.K.’s mother had
told him that the bat may have been in the laundry room of the
complex before the murder.
B. Trial Level Proceedings
24.

Petitioner was represented by private counsel at

trial. Petitioner’s counsel were Stuart Hanlon and Sara Rief.
Their address is Law Offices of Hanlon & Rief, 1663 Mission
Street, suite 200, San Francisco, CA 94103.
25.

In Marin County Superior Court case number

SC165475A, Mitchell pled not guilty. He was convicted by a jury
of first-degree murder, kidnapping of a child, stalking, and
related charges, with weapons use enhancements. He was
acquitted of the alleged special circumstance that the murder was
committed for purposes of kidnapping.
26.

On August 16, 2011, Mitchell was sentenced to 35

years to life in state prison. The sentence consisted of 25 to life on
the murder count, plus one consecutive year for the deadly
weapon enhancement, plus the upper term of eight consecutive
years for kidnapping, and one consecutive year for stalking.
Punishment on other counts was imposed but stayed pursuant to
California Penal Code section 654. (Exh. M, vol. 2, 347.)
10

1 App. 91

C. State Appellate Proceedings
27.

Mitchell timely appealed from the judgment and

sentence. The appeal was adjudicated in the First District Court
of Appeal, case number A133094. Through the First District
Appellate Project, Mitchell was represented by court-appointed
counsel, Peter Gold, 5758 Geary Blvd., suite 160, San Francisco,
CA 94107.
28.

Pertinent here, Mitchell raised several claims that

revolved around his entitlement to dictate a defense of complete
innocence. He argued that because Hanlon and Rief concealed
their intention to argue for voluntary manslaughter, Mitchell lost
the chance to replace them with counsel who would follow his
instructions, effectively denying him counsel of his choice, a
structural error. (Exh. L, vol. 2, 273-287.) He argued that the
trial court violated his Sixth Amendment rights by, at points in
the trial when Mitchell had doubts that Hanlon and Rief would
follow his instructions, denying his requests to replace them with
the Public Defender, denying his request for self-representation,
and denying Hanlon and Rief’s requests to withdraw, errors
which are also structural. (Exh. L, vol. 2, 248-272.) He also
argued that his Sixth Amendment right to counsel was violated
when the trial court allowed Hanlon to refuse to participate at
sentencing because he did not want to once again argue against
Mitchell’s wishes. (Exh. L, vol. 2, 292-306.)
29.

Claims not relevant to this petition concern 1) the

trial court’s failure to order a competency investigation; 2) the
trial court’s failure to provide requested investigative funds; 3)
11

1 App. 92

insufficient evidence to sustain the conviction for child
endangerment; and 4) an unauthorized protective order. (Exh. M,
vol. 2, 347.)
30.

On July 28, 2014, the Court of Appeal filed an

unpublished opinion. The Court held that the protective order
issued in favor of Mitchell’s daughter and the victim’s mother
was unauthorized. (Exh. M, vol. 2, 388-389.) It rejected all of
Mitchell’s other claims and affirmed the judgment. As the issue
arose in Mitchell’s various claims, the Court rejected the view
that Mitchell was entitled to dictate a defense of complete
innocence. The decision to concede guilt as appropriate was a
strategic decision left to defense counsel, to be reviewed for
ineffective assistance, which it was not. (Exh. M, vol. 2, 366-367,
369-370, 372, 376.)
31.

Mitchell filed a petition for review in the California

Supreme Court on August 27, 2014. The petition revisited the
claims from the Court of Appeal. (Exh. N, vol. 2, 392-393.) The
Court denied the petition on October 15, 2014 in case number
S220833. (Exh. O, vol. 2, 441.)
D. State Court of Appeal Habeas Proceedings
32.

On March 13, 2017, Mitchell filed a pro se habeas

petition in the First District Court of Appeal. In re James
Mitchell, A150765. The petition, which is unavailable to the
undersigned, apparently challenged his sentence. According to
the online docket, the Court denied the petition on March 22,
2017:

12

1 App. 93

“The petition for writ of habeas corpus is denied.
Petitioner fails to meet his burden of demonstrating
the timeliness of the petition. (In re Robbins (1998)
18 Cal.4th 770, 780.) In addition, the claim raised
herein appears to be one that could have been raised
on direct appeal, and it is therefore not cognizable on
habeas. (In re Dixon (1953) 41 Cal.2d 756, 759.) Even
if the petition is not procedurally barred, it fails to
state a prima facie case for relief. Petitioner received
an eight-year sentence on the kidnapping charge,
which sentence was authorized by statute. (Pen.
Code, § 208, subd. (a); see § 208, subd. (b) [enhanced
penalties of subdivision (b) not applicable to taking of
children by biological parents].)” (Exh. P, vol. 2, 442.)
Mitchell did not file a habeas petition or petition for review
in the California Supreme Court from the above denial.
E. Federal Habeas Proceedings
33.

On October 26, 2015, Mitchell filed a pro se petition

for writ of habeas corpus in the Northern District of California.
Mitchell v. Davey, 15-cv-04919-VC. Mitchell pled all the claims
from his state appeal, including the claims concerning his
attorneys’ disregard of his wishes and the trial court’s handling of
issues concerning his representation. (Exh. Q, vol. 3, 444-450.)
On November 2, 2015, the district court issued an Order to Show
Cause to respondent. On February 19, 2016, respondent filed its
answer, supporting memorandum, and exhibits. On May 5, 2016,
Mitchell filed a traverse. (Exh. S, vol. 3, 462-463.)
34.

On October 18, 2016, the district court denied the

petition and ruled that Mitchell was not entitled to a certificate of
appealability. It entered judgment for respondent that same day.
(Exh. R, vol. 3, 451-460.)
13

1 App. 94

35.

On June 9, 2017, in case number 16-17057, a motions

panel of the U.S. Court of Appeals for the Ninth Circuit granted a
certificate of appealability on the issues of “whether the state
trial court violated appellant’s constitutional rights when it (1)
denied his request for self-representation under Faretta v.
California, 422 U.S. 806 (1975); and (2) denied his motion to
dismiss retained counsel at sentencing, including whether
counsel rendered ineffective assistance at sentencing.” (Exh. T,
vol. 3, 465-466.) The undersigned was appointed to represent
Mitchell in the Ninth Circuit under the Criminal Justice Act.
36.

On July 23, 2018, the undersigned filed Mitchell’s 64-

page opening brief in the Ninth Circuit. In addition to briefing
the two certified issues, the undersigned briefed two uncertified
issues, as the applicable rules of court permit. The uncertified
issues briefed were “Mitchell’s Sixth Amendment Right to
Counsel Was Violated by Defense Counsel’s Overriding of His
Decision Not to Concede Guilt of Any Form of Homicide” and
“The State Court of Appeal’s Conclusion That Mitchell’s Request
for New Counsel a Month Before His Faretta Request Was
Properly Denied Was Unreasonable Because it Unreasonably
Discounts Mitchell’s Purpose of Seeking Counsel Who Would
Limit His Defense to Complete Innocence.” (Exh. U, vol. 3, 469470.)
37.

A central theme of the brief was Mitchell’s

entitlement to insist on a defense of complete innocence. The
brief argues, inter alia, that in rebuffing Mitchell’s attempts to
replace Hanlon and Rief, the trial court unreasonably failed to
14

1 App. 95

consider this important interest. (Exh. U, vol. 3, 484-485, 504,
408-513, 525-526, 528-529.) The May 14, 2018 opinion in McCoy
v. Louisiana (2018) 138 S.Ct. 1500 and predecessor United States
Supreme Court cases, discussed infra, figure in the argument as
they do in the discussion of the uncertified claim that Mitchell’s
Sixth Amendment rights were violated by the concession that he
committed manslaughter. (Exh. U, vol. 3, 509, 525-526.)
38.

Respondent filed a 70-page answering brief in the

Ninth Circuit on February 19, 2019. (Exh. V, vol. 3, 530-599.) As
the rules permit, respondent did not address the two uncertified
claims that were briefed. Addressing McCoy, respondent raised
procedural arguments that the case could not be the basis of
habeas relief because it post-dated Mitchell’s state court appeal
and that because it had not been presented to the state courts of
appeal, any discussion of it was unexhausted. Respondent further
argued that McCoy was distinguishable because Hanlon did not
expressly concede guilt; he simply presented an alternative
defense theory under which Mitchell could be convicted of
manslaughter. (Exh. V, vol. 3, 579-584.)
39.

The reply brief in the Ninth Circuit was not filed. On

July 17, 2019, the Ninth Circuit granted Mitchell’s motion to stay
the Ninth Circuit appeal so that he could seek state habeas relief
premised on McCoy v. Louisiana.
F. Habeas Proceedings in Superior Court Underlying
this Petition.
On October 3, 2019, Mitchell, represented by the
undersigned, filed a petition for writ of habeas corpus in Marin
15

1 App. 96

County Superior Court. (Exh. W, vol. 4, 601-628.) It was
accompanied by a memorandum of points and authorities (Exh.
X, vol. 4, 629-655.) and supporting documents. The petition was
assigned case number SC210551A. Mitchell sought relief based
on McCoy. The Superior Court issued an Order to Show Cause on
November 21, 2019. (Exh. Y, vol. 4, 657.) On May 20, 2020, after
further briefing, the Superior Court denied the petition. The
Court ruled that McCoy was not retroactive and that even if it
was, Mitchell was not entitled to relief on the merits. The court
found no procedural bars. (Exh. Y, vol. 4, 656-691).
G. Allegations of Timeliness.
40.

This petition is being filed within a reasonable time,

three months after the denial in the Superior Court. (See
Robinson v. Lewis (2020) 9 Cal. 5th 883, 901-902 [holding that
California will never consider a habeas petition filed 120 days or
less after the denial by a lower court to be substantially
delayed].)
41.

To the extent further allegations that this petition is

timely are required, the following is alleged. At the time the
petition was denied, the undersigned was occupied with
preparing the opening brief in United States v. Young, et al., 9th
Cir. No. 18-10228, a large-record, multi-defendant RICO
homicide case. The undersigned submitted a 132-page, 27,000word opening brief on June 26, 2020. The Ninth Circuit ordered
the undersigned to cut the brief to 24,000 words. The edited brief
was filed on July 10, 2020. The undersigned had to prepare and
file his taxes by the extended deadline of July 15, 2020 and had
16

1 App. 97

other time-sensitive obligations in state courts of appeal. (See
Declaration of Steven S. Lubliner.)
42.

The petition in the superior court was timely. The

United States Supreme Court decided McCoy v. Louisiana (2018)
138 S.Ct. 1500 on May 14, 2018. The undersigned became aware
of McCoy at some point thereafter while preparing the
substantial opening brief that was filed in the Ninth Circuit on
July 23, 2018. He argued that McCoy was the latest in a line of
U.S. Supreme Court cases recognizing a client’s right to insist on
a defense of complete innocence and that the state courts acted
unreasonably in failing to factor this concern in analyzing the
trial court’s denial of Mitchell’s motion for, variously, selfrepresentation and new counsel. He also cited McCoy in briefing
the uncertified issue that counsel violated McCoy’s Sixth
Amendment rights by conceding his commission of a homicide in
arguing for a conviction of voluntary manslaughter. As noted
above, respondent filed the respondent’s brief on February 19,
2019, dismissing McCoy’s relevance and raising procedural
objections.
43.

The undersigned believed that Mitchell’s claims for

federal habeas relief and a new trial are strong. The decision of
whether to stay the course in the Ninth Circuit or return to state
court to seek relief and face both arguments on the merits and
possible procedural objections was not easy. It could only be made
over time in conjunction with counsel’s other professional and
personal obligations permitted. (See In re Soderstein (2007) 146
Cal. App. 4th 1163, 1221-1222 [counsel have professional
17

1 App. 98

obligations to other clients].) In addition to his professional
obligations, the undersigned had devoted substantial time last
year to dealing with recurring personal and family illness as well
as the ongoing need to advocate for his elderly mother. (See
Declaration of Steven S. Lubliner.) In light of all of the above, the
petition in the superior court was filed within a reasonable time.
44.

As set out in the Lubliner declaration, a number of

favorable developments in California state courts shaped the
decision to return to state court. In his memorandum of points
and authorities below, as here, Mitchell relied on People v.
Amezcua and Flores (2019) 6 Cal. 5th 886, People v. Eddy (2019)
33 Cal. App. 5th 472, and People v. Flores (2019) 34 Cal. 5th 270.
Amezcua and Flores was decided on February 28, 2019, Eddy was
decided on March 26, 2019, and Flores was decided on April 12,
2019. Of these, Eddy is arguably the most important decision. On
July 17, 2019, in case S255600, the California Supreme Court
denied respondent’s petition for review and accompanying
request that the Court of Appeal’s opinion in Eddy be
depublished.2 The petition was filed in superior court within a
reasonable time of these state court developments.
H. Other Procedural Requisites
45.

Apart from the habeas appeal pending in the Ninth

Circuit, which has been stayed pending the outcome of these
proceedings, Mitchell has no other actions, motions, appeals,
applications, or petitions pending in any other court regarding
the judgment under attack.
2

Respondent did not file a petition for review in Flores.
18

1 App. 99

46.

The claim for relief premised squarely on McCoy v.

Louisiana (2018) 138 S.C. 1500 is raised in this petition for the
first time. Because McCoy was decided while Mitchell’s federal
habeas petition was pending in the Ninth Circuit, this claim
could not have been raised on direct appeal or in any other state
proceeding.
47.

To the extent it may be thought otherwise, the failure

to pursue such a claim was the product of ineffective assistance of
trial or appellate counsel and/or Mitchell’s lack of access to
competent counsel to advise regarding postconviction habeas and
discovery.
48.

This petition is necessary because Mitchell has no

other plain, speedy, or adequate remedy at law for the
substantial violations of his federal constitutional rights as set
out in McCoy and subsequent cases construing it.
49.

Mitchell hereby incorporates by reference each and

every paragraph of this petition into each and every claim
presented in this petition as though fully set forth therein.
50.

Each claim is based on a violation of Mitchell’s rights

under the United States Constitution. The arguments in the
memorandum of points and authorities are incorporated herein.
51.

Mitchell is currently represented in this matter by

his Ninth Circuit appellate counsel, Steven S. Lubliner, Law
Offices of Steven S. Lubliner, P.O. Box 750639, Petaluma, CA
94975, who was appointed pursuant to the Criminal Justice Act
due to Mitchell’s indigence. This petition contains a prayer
requesting this court to appoint counsel.
19

1 App. 100

CLAIM FOR RELIEF
Claim 1: Defense Counsel’s Refusal to Respect
Mitchell’s Request that his Defense be Limited to
Complete Innocence and his Concession During Closing
Argument that Mitchell Committed a Homicide,
Considered Separately or Together, Violated Mitchell’s
Right of Client Autonomy Under the Sixth Amendment
to Dictate the Ultimate Objectives of His Defense. The
Error is Structural.
52.

Mitchell’s conviction, confinement, and sentence are

illegal and unconstitutional under the Fifth, Sixth, Eighth, and
Fourteenth Amendments to the United States Constitution,
analogous provisions of the California Constitution, and state
statutory and decisional law because trial counsel Stuart Hanlon,
without authorization and over Mitchell’s repeated and
longstanding objections, 1) refused to confine Mitchell’s defense
to the first-degree murder charge to one of complete innocence; 2)
argued in the alternative for a conviction of lesser degrees of
homicide, primarily voluntary manslaughter; and 3) conceded
that Mitchell had committed a homicide, the actus reus of the
first-degree murder charge.
53.

Mitchell realleges the facts set out elsewhere in this

petition and incorporates them by reference as though fully set
forth herein.
54.

The facts supporting this claim, among others to be

presented after full investigation, discovery, access to this Court’s
subpoena power, and an evidentiary hearing, include, but are not
limited to the following:

20

1 App. 101

55.

On September 1, 2010, the trial court granted a

motion to relieve Mitchell’s counsel Douglas Horngrad. Attorneys
Stuart Hanlon and Sara Rief were appointed. (Exh. A, vol. 1, 832.)
56.

On January 20, 2011, the court held an in camera3

hearing with Mitchell, Hanlon, and Rief. Hanlon represented
that rather than proceed on a heat-of-passion manslaughter
theory, they would present the defense Mitchell wanted, which
was that he “did not commit this crime and that there were other
people who did.” Mitchell would so testify. (Exh. B, vol. 1, 34.)
Hanlon said that to pursue this credibly would require DNA
testing on the bat and Mitchell’s clothes. (Exh. B, vol. 1, 34-37.)
57.

On May 10, 2011, Mitchell asked the court to relieve

Hanlon and Rief. He was considering suing them, so he did not
believe they should be his lawyers. He had no money and wanted
the Public Defender. He hoped to go to trial in three weeks to a
month. He was not interested in delay. (Exh. C, vol. 1, 39-43.) At
this point, some prospective jurors had been summoned, but juror
hardships had not yet begun. (Exh. C, vol. 1, 39, 45.)
58.

Mitchell was concerned that Hanlon was not being

honest with him about the defense that he had been promised.
Hanlon had made no public statements about it. The court opined
On December 10, 2012, in direct appeal case A133094, the Court
of Appeal granted respondent’s motion to unseal all in camera
proceedings. In December 2017, during the pendency of Mitchell’s
Ninth Circuit habeas appeal, this Court granted Mitchell’s
motion, filed by the undersigned, to unseal the in camera
documents for federal habeas purposes.
3

21

1 App. 102

that one would expect defense counsel to remain publicly noncommittal about the defense theory. (Exh. C, vol. 1, 40.)
59.

Mitchell said Hanlon misled him by saying that

things would be done for him and then not doing them. The court
asked Mitchell what he had done to retain new counsel; Mitchell
said he was indigent. (Exh. C, vol. 1, 41-42.) After balancing a
number of factors, the court denied the motion. (Exh. C, vol. 1,
44-45.)
60.

On May 25, 2011, the court held an in camera

hearing on Hanlon’s request for additional defense funds. Hanlon
said that Mitchell would be testifying that he did not commit the
crime. Whether Hanlon actually argued that would be up to him.
(Exh. D, vol. 1, 47.)
61.

Hanlon said there was substantial evidence that

Mitchell suffered from psychiatric problems. When he was
getting involved with the case, he was told that Mitchell had
agreed to present a mitigating mental defense. That turned out
not to be the case. “Mr. Mitchell has consistently told me he
would not go forward with the [mental state] defense.” (Exh. D,
vol. 1, 47-48.)
62.

Hanlon said that his duties to Mitchell extended

beyond just deferring to the defense he wanted to present. He
was uncertain if he could put on a defense that contradicted
Mitchell’s testimony. However, it was necessary to investigate.
(Exh. D, vol. 1, 48-49.) He asked for $25,000 to $30,000. The court
understood that Mitchell was insisting on a defense of complete
innocence, with which Hanlon disagreed. (Exh. D, vol. 1, 50-51.)
22

1 App. 103

It refused to approve so much money for “a conflicting defense
that might not come into play in any event.” (Exh. D, vol. 1, 52.)
63.

On Friday, June 10, 2011, Mitchell asked that he be

granted his Faretta rights to represent himself at trial. He did
not trust or like Hanlon. Hanlon had lied to him, so he expected
him to lie to the jury. (Exh. E, vol. 1, 58.) If he received the files
that day or Saturday, he would be prepared to proceed the
following Tuesday. He was already prepared to argue the motions
that had been filed. (Exh. E, vol. 1, 59-60.)
64.

When Mitchell appeared in court the following

Monday and asked for a continuance, the trial court denied his
Faretta request, deeming it untimely. (Exh. E, vol. 1, 79-82.)
65.

Hanlon then moved to withdraw. (Exh. F, vol. 1, 83-

84.) The court held an in camera hearing with Hanlon, Rief, and
Mitchell. Hanlon said he had recently received two threatening
letters from Mitchell. (Exh. F, vol. 1, 87-90.)
66.

Mitchell acknowledged he was angry because he was

fighting his lawyers, who insisted on a heat-of-passion defense.
After Hanlon and Rief embraced his desired defense, relations
improved. That did not stop him from writing rambling, spur-ofthe-moment letters that he sometimes regretted. (Exh. F, vol. 1,
92-98.) Hanlon said nothing. (Exh. F, vol. 1, 98.)
67.

The court ruled that relieving Hanlon “would cause a

horrible injustice in the handling of the case” and “would require
an undue delay.” It denied the motion on that basis. (Exh. F, vol.
1, 98-99.) Hanlon then said that he would be announcing doubts
about Mitchell’s competency. (Exh. F, vol. 1, 100.)
23

1 App. 104

68.

Back in open court, Hanlon announced his doubts.

(Exh. G, vol. 1, 101-103.) Doubting Hanlon’s credibility, the court
declined to suspend proceedings. (Exh. G, vol. 1, 102, 104, 108109.)
69.

In opening statement, Hanlon said Mitchell would

testify that he was at the homicide scene. He did not say Mitchell
would testify about the two other men. (Exh. H, vol. 1, 110-115.)
70.

Hanlon asked for the manslaughter instructions at

the instructions conference. (Exh. I, vol. 1, 116-122.) The trial
court instructed on two theories of manslaughter as well as on
second-degree murder. (Exh. I, vol. 1, 123-125.)
71.

Hanlon’s closing argument alluded generally to

Mitchell’s innocence. He discussed Mitchell’s likely state of mind
as he drove to see his daughter, the lack of proof that he brought
the bat to the premises, the weakness of the eyewitness
identification, and the inconclusiveness of the blood spatter
evidence and the evidence that Mitchell touched the bat on the
question of what Mitchell actually did. (Exh. J, vol. 1, 137-178.)
72.

Hanlon argued that Mitchell’s testimony about

fighting the two men who really killed D.K. was consistent with
the inconsistent eyewitness testimony about whether the killer
wore a black or a white shirt. Hanlon did not otherwise advocate
for the credibility of Mitchell’s testimony. He said that the
coincidence of Mitchell coming upon two other men doing violence
to D.K. was one the jury would have to grapple with. (Exh. J, vol.
1, 178-180.)

24

1 App. 105

73.

Hanlon then argued for a verdict of guilty on a lesser

homicide, primarily manslaughter. (Exh. J, vol. 1, 180-190.) He
prefaced this by saying that his job was to advocate for his client
even if, impliedly, he disagreed with him. He said that Mitchell
would not agree with the argument he was about to make. (Exh.
J, vol. 1, 180-181.) He said that the jury should not conclude that
he did not believe his client. He believed, however, that the
record contained evidence that Mitchell was lying. (Exh. J, vol. 1,
181-182.)
74.

Hanlon twice told the jury that his duties as “an

officer of the court” required him to argue against Mitchell’s
wishes and undermine Mitchell’s case for innocence. (Exh. J, vol.
1, 180-182.)
75.

The jury convicted Mitchell of first-degree murder,

kidnapping, and related crimes, with weapons-use
enhancements.
76.

At sentencing on August 16, 2011, the court held an

in camera hearing on a mutual request that Hanlon and Rief not
represent Mitchell at sentencing or in connection with a possible
motion for new trial. Mitchell was upset because Hanlon had
argued in the alternative at trial for a heat-of-passion
manslaughter verdict against his express instructions. (Exh. K,
vol. 1, 194.) This strategy had been sprung on him at the last
minute, leaving him no time to find new counsel. Mitchell
thought Hanlon planned it that way. (Exh. K, vol. 1, 194-197.)
77.

Although the issue at sentencing was concurrent vs.

consecutive sentences, Hanlon doubted that he could perform
25

1 App. 106

competently the way he believed Mitchell wanted. He believed
that Mitchell still wanted him to argue that he did not commit
the murder. Although guilt was settled given the verdict, Hanlon
was still unwilling to argue against Mitchell’s wishes. (Exh. K,
vol. 1, 198-201.) “I made that decision once. I’m not going to do it
again.” (Exh. K, vol. 1, 200.) If forced to argue, he would simply
submit the matter. (Exh. K, vol. 1, 200, 202.)
78.

The court ordered Hanlon to explain why he argued

for manslaughter. Hanlon said that he thought it was the only
possible way to save Mitchell from life in prison. He had told
Mitchell at some point that Mitchell had the right to testify
however he wished, but the decision of what to argue was his.
(Exh. K, vol. 1, 200-201.)4
“Mr. Mitchell clearly expressed his desire that I not
do it. I told him—I don’t remember when that
conversation first came up, whether it was before
trial or during the trial, that this was an attorney’s
choice. The decision to testify as to what the truth
was was up to him, but what to argue was up to me.
And he argued with me about that. It’s clear what
he was saying is true, but I made that decision
based on what I saw the evidence to be and what
was in his best interests.” (Exh. K, vol. 1, 201.)
79.

The foregoing establishes that at least as early as

January 2011, and more likely soon after accepting their
appointment in September 2010, Hanlon and Rief knew of

The trial court declined to relieve Hanlon. At sentencing,
Mitchell made a statement reasserting his innocence. Hanlon
said nothing. Mitchell was sentenced.
4

26

1 App. 107

Mitchell’s demand that his defense be confined to complete
innocence, a position from which Mitchell never wavered.
80.

Despite their knowledge of Mitchell’s ultimate

defense objective of complete innocence, Hanlon and Rief went
back on their initial agreement to adhere to this objective.
Instead, as he believed himself entitled to do, Hanlon argued in
the alternative and against Mitchell’s wishes for a guilty verdict
on a lesser homicide, primarily voluntary manslaughter. This
violated Mitchell’s client autonomy rights under the Sixth
Amendment and related authority to dictate the ultimate
objectives of his defense and not have defense counsel concede
guilt over the defendant’s objection.
81.

The error pled in the preceding paragraph is a

structural error requiring reversal without evaluation of the
reasonableness of Hanlon’s actions or a showing of prejudice.
82.

Hanlon so argued after failing to advocate for the

credibility of Mitchell’s testimony about third-party culpability,
emphasizing the coincidence at the heart of Mitchell’s testimony,
telling the jurors that Mitchell would not agree with the
alternative argument—which told the jurors Mitchell did not
know about it and had no say in it—and, finally, telling the
jurors, with the candor required of him as an officer of the court,
that while he did not want them to think he believed Mitchell
was lying, the record supported them drawing that conclusion
themselves.
83.

Hanlon’s thorough undermining of Mitchell’s defense

testimony in service of his unauthorized argument, including his
27

1 App. 108

transparent preface to the argument that told the jury Mitchell
had lied, negated the defense case of complete innocence and
conceded Mitchell’s guilt of homicide, the actus reus of the charge
of first-degree murder. This also violated Mitchell’s client
autonomy rights under the Sixth Amendment and related
authority to dictate the ultimate objectives of his defense and not
have defense counsel concede guilt at trial over his objection.
84.

The error pled in the preceding paragraph is a

structural error requiring reversal without evaluation of the
reasonableness of Hanlon’s actions or a showing of prejudice.
PRAYER FOR RELIEF
WHEREFORE, petitioner prays that this Court:
1.

Take judicial notice of the file in People v. James R.

W. Mitchell, First District Court of Appeal No. A133094;
2.

Order respondent to show cause why petitioner is not

entitled to the relief sought;
3.

Appoint counsel Steven S. Lubliner to represent

petitioner in this matter, nunc pro tunc to July 23, 2020, the date
preparation of this petition began;5
4.

Grant petitioner funds to secure investigation and

expert assistance as necessary;
5.

Permit petitioner to amend his petition to allege any

other basis for his unconstitutional confinement as it is
discovered, further developed, or becomes ripe for habeas review;

The undersigned is a panel attorney on the First District
Appellate Project.
5

28

1 App. 109

6.

Grant petitioner the authority to obtain subpoenas

for witness and documents;
7.

Grant petitioner the right to conduct discovery;

8.

Order an evidentiary hearing at which petitioner will

offer further proof in support of the allegations herein;
9.

After full consideration of the issues raised in this

petition, vacate the judgment and sentence imposed upon
petitioner in Marin County Superior Court Case No. SC165475A
on the charges of first-degree murder, kidnapping, corporal injury
on a cohabitant, and all weapons use enhancements; and
10.

Grant petitioner such further relief as is appropriate

and in the interest of justice.
Respectfully submitted,
Dated: August 21, 2020

s/Steven S. Lubliner
LAW OFFICES OF STEVEN S.
LUBLINER
P.O. Box 750639
Petaluma, CA 94975
Phone: (707) 789-0516
e-mail: sslubliner@comcast.net
Counsel for Petitioner James R.W.
Mitchell

29

1 App. 110

VERIFICATION
I, Steven S. Lubliner, declare as follows:
1.

I am an attorney admitted to practice law before all

courts in the State of California. I represent petitioner herein,
who is confined and restrained of his liberty in the California
Department of Corrections facility at San Diego, California.
2.

I am authorized to file this petition for writ of habeas

corpus on petitioner’s behalf. I make this verification because
petitioner is incarcerated in a county different from that of my
law office. In addition, many of the facts alleged are within my
knowledge as much or more than petitioner’s.
3.

I have read the petition and am personally familiar

with the files and records of this case. I know the allegations in
this petition to be true. The allegations contained in the petition
are based on the record of trial court proceedings that are subject
to judicial notice. They are also based on facts personally known
to me. If called as a witness, I could and would testify thereto.
I declare under penalty of perjury under the laws of the
State of California and the United States of America that the
foregoing is true and correct.
Executed in Petaluma, California on August 21, 2020.

s/Steven S. Lubliner

30

1 App. 111

PROOF OF SERVICE BY ELECTRONIC SERVICE
(Cal. Rules of Court, rules 2.251(i)(1)(A)-(D) & 8.71(f)(1)(A)-(D)
I, Steven S. Lubliner, declare I electronically served from
my electronic service address of sslubliner@comcast.net the
following documents:
PETITION FOR WRIT OF HABEAS CORPUS
MEMORANDUM OF POINTS AND AUTHORITIES IN
SUPPORT OF JAMES R.W. MITCHELL’S PETITION
FOR WRIT OF HABEAS CORPUS
DECLARATION OF STEVEN S. LUBLINER IN
SUPPORT OF JAMES R.W. MITCHELL’S PETITION
FOR WRIT OF HABEAS CORPUS
EXHIBITS IN SUPPORT OF JAMES R.W.
MITCHELL’S PETITION FOR WRIT OF HABEAS
CORPUS (4 VOLUMES)
on August 21, 2020 at 4:00 p.m. to the following persons and
entities:
Office of the Attorney General
sfagdocketing@doj.ca.gov
DECLARATION OF SERVICE
I, the undersigned, declare that I am over 18 years of age,
an attorney and a member in good standing of the State Bar of
California. I am not a party to the within cause. My business
address is P.O. Box 750639, Petaluma, CA 94975. My e-mail
address is sslubliner@comcast.net. I served a true copy of the
above-referenced documents on the following, by placing same in
an envelope(s) addressed as follows:
James R.W. Mitchell, #AI4523
D17-121
R.J. Donovan Correctional Facility
480 Alta Road
San Diego, CA 92179
31

1 App. 112

Each said envelope was then sealed and deposited in the
United States mail at Petaluma, California, the county in which I
am employed, with the postage thereon fully prepaid.
I declare under penalty of perjury under the laws of the
State of California and the United States of America that the
foregoing is true and correct.
Executed on August 21, 2020 at Petaluma, California.
s/Steven S. Lubliner

32

1 App. 113

Court of Appeal, First Appellate District

Court of Appeal, First Appellate District

Charles D. Johnson, Clerk/Executive Officer

Charles D. Johnson, Clerk/Executive Officer

Electronically RECEIVED on 8/21/2020 on 4:16:35 PM

Electronically FILED on 8/21/2020 by R. Neeley, Deputy Clerk
CASE #: A160759, Div: 1

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION ONE
)
)
)
)
)
)
vs.
)
)
)
RALPH M. DIAZ, Secretary,
)
California Department of
)
Corrections and Rehabilitation, )
an individual; and MARCUS )
POLLARD, Warden of Richard )
)
J. Donovan Correctional
)
Facility, an individual,
)
Respondents,
)
)
PEOPLE OF THE STATE OF )
CALIFORNIA, Real Party in )
)
Interest
In Re James R.W. Mitchell
JAMES R.W. MITCHELL,
Petitioner,

Marin County Superior Court
No. SC210551A (habeas case)
First District Court of Appeal,
Division One, No. A133094
(direct appeal)
Marin County Superior Court
No. SC165475A (case of
conviction)

MEMORANDUM OF POINTS AND AUTHORITIES IN
SUPPORT OF PETITION FOR WRIT OF HABEAS
CORPUS
Following the Judgment of the Superior Court
of the State of California for the County of Marin
HONORABLE PAUL M. HAAKENSON, JUDGE
Steven S. Lubliner (State Bar No. 164143)
LAW OFFICES OF STEVEN S. LUBLINER
P.O. Box 750639
Petaluma, CA 94975
Phone: (707) 789-0516
e-mail: sslubliner@comcast.net
Attorney for Petitioner
1

1 App. 114

TABLE OF CONTENTS
PAGE
INTRODUCTION

6

ARGUMENT

7

I. Mitchell’s Sixth Amendment Right of Client
Autonomy, Which Allowed him to Insist on a
Defense of Complete Innocence and not Have
Defense Counsel Concede his Commission of the
Actus Reus of the Charged Crime, was Violated
When Defense Counsel, Knowing of Mitchell’s
Wishes and Knowingly Over his Objection,
Argued in the Alternative that Mitchell Was
Guilty of Lesser Homicides, Primarily
Voluntary Manslaughter.
7
A. Standard of Review

7

B. The Merits

8

C. McCoy v. Louisiana Applies Retroactively to
this Case.

23

1. State Habeas Law Requires the Application
of McCoy to Mitchell’s Petition.
24
2. Even Under Teague v. Lane, McCoy Applies
Retroactively to this Case.
32
D. Mitchell’s Claim is Properly Before this
Court.

33

1. Neither Waltreus nor Dixon Bars
Mitchell’s Claim.

33

2. Even if a Waltreus or Dixon Bar Applies,
Mitchell’s Claim Comes Under the
Exceptions Set out in In re Harris.

35

2

1 App. 115

TABLE OF CONTENTS (cont.)
PAGE
3. This Petition is Timely.

37

CONCLUSION

41

CERTIFICATE OF COMPLIANCE

42

3

1 App. 116

TABLE OF AUTHORITIES
CASES
Brookhart v. Janis (1966) 384 U.S. 1 ........................... 9, 26, 32, 33, 36
Cooke v. State (Del. 2009) 977 A.2d 880 .................................11, 12, 15
Faretta v. California (1975) 422 U.S. 806 ...................................passim
Florida v. Nixon (2004) 543 U.S. 175 ...........................................passim
Garza v. Idaho (2019) 139 S.Ct. 738 .................................................... 18
Gonzalez v. United States (2008) 553 U.S. 242 ................................. 26
Harris v. New York (1971) 401 U.S. 222............................................... 9
In re Arias (1986) 42 Cal. 3d 667 ............................................................ 8
In re Brown (2020) 45 Cal. App. 5th 699 ......................................passim
In re Dixon (1953) 41 Cal. 2d 756 ................................ 34, 35, 36, 37, 41
In re Johnson (1970) 3 Cal. 3d 404 ...............................................passim
In re Large (2007) 41 Cal. 4th 538 ........................................................... 7
In re Martinez (2017) 3 Cal. 5th 1216................................................... 37
In re Milton (2019) 42 Cal. App. 5th 977 ............................................. 31
In re Moore (2007) 133 Cal. App. 4th 68 ................................................ 8
In re Reno (2012) 55 Cal. 4th 428 ..............................................35, 36, 38
In re Resendiz (2001) 25 Cal. 4th 230 ..................................................... 8
In re Robbins (1998) 18 Cal. 4th 770 ........................... 35, 37, 38, 40, 41
In re Ruedas (2018) 23 Cal. App. 5th 777 ................................ 23, 32, 33
In re Sanders (1999) 21 Cal. 4th 697, 703 ........................................... 38
In re Smith (2020) 49 Cal. App. 5th 377 ..............................6, 24, 25, 26
In re Soderstein (2007) 146 Cal. App. 4th 1163.................................. 38
In re Thomas (2018) 30 Cal. App. 5th 744 .................. 23, 25, 26, 27, 32
In re Waltreus (1965) 65 Cal. 2d 218 .......................... 34, 35, 36, 37, 41

4

1 App. 117

Jones v. Barnes (1983) 463 U.S. 745...................................................... 9
Leary v. United States (1969) 395 U.S. 6 ................................ 28, 29, 31
McCoy v. Louisiana (2018) 138 S.Ct. 1500 .................................passim
McKaskle v. Wiggins (1984) 465 U.S. 168 .......................................... 36
Nix v. Whiteside (1986) 475 U.S. 157 ............................................ 20, 21
People v. Alvarado (2006) 141 Cal. App. 4th 1577 ............................ 20
People v. Amezcua and Flores (2019) 6 Cal. 5th 886 ........................ 18
People v. Eddy (2019) 33 Cal. App. 5th 472 ................. 6, 15, 17, 18, 38
People v. Fierro (1991) 1 Cal.4th 173................................................... 20
People v. Flores (2019) 34 Cal. App. 5th 270 .............................6, 17, 18
People v. Gallardo (2017) 4 Cal. 5th 120 ....................................... 29, 30
People v. Guerra (1984) 37 Cal. 3d 385 .............................23, 24, 25, 26
Robinson v. Lewis (2020) 9 Cal. 5th 883 .......................................... 8, 37
Strickland v. Washington (1984) 466 U.S. 668 ...............10, 11, 13, 23
Teague v. Lane (1989) 489 U.S. 288 .........................................23, 32, 33
United States v. Cronic (1984) 466 U.S. 648, .............................. 10, 13
United States v. Gonzalez-Lopez (2006) 548 U.S. 140 ............... 26, 36
Williams v. Taylor (2000) 529 U.S. 362 .............................................. 33
CONSTITUTIONAL PROVISIONS
United States Constitution, 6th Amendment....................................... 6

5

1 App. 118

INTRODUCTION
This petition seeks habeas relief based on the United
States Supreme Court case McCoy v. Louisiana (2018) 138 S.Ct.
1500, both on its face and as interpreted by People v. Flores
(2019) 34 Cal. App. 5th 270 and People v. Eddy (2019) 33 Cal.
App. 5th 472. McCoy applies retroactively on collateral review to
cases that are otherwise final. (In re Smith (2020) 49 Cal. App. 5th
377, 391-392.)
Under McCoy, defense counsel violates a defendant’s Sixth
Amendment right to dictate the ultimate goals of his defense
when, over the defendant’s known objections, he concedes to the
jury that the defendant committed the charged crime or the actus
reus of a charged crime or overrides the defendant’s wishes for a
defense of complete innocence. The error is structural. (McCoy v.
Louisiana, supra, 138 S.Ct. at p. 1511; People v. Flores, supra, 34
Cal. App. 5th at p. 283; People v. Eddy, supra, 33 Cal. App. 5th at
p. 483.)
Here, defense counsel Stuart Hanlon and Sarah Rief knew
throughout their representation of Mitchell in this first-degree
murder case that he wanted a defense of complete innocence and
did not want any defense based on mental state that involved
conceding that he had committed a homicide. They promised
Mitchell that his defense would be so limited. Respondent
disputed none of these facts, and the Superior Court did not find
to the contrary.
Like the defendant in McCoy, Mitchell testified in support
of his defense of complete innocence. Hanlon first argued for an
6

1 App. 119

acquittal. Then, without having told Mitchell he would do so, he
argued at length for a guilty verdict on a lesser degree of
homicide, primarily voluntary manslaughter.
Transitioning into this alternative argument, Hanlon told
the jury that his job was to advocate for his client even if he
disagreed with him. He said Mitchell would not agree with his
alternative argument, which told the jury Mitchell did not know
about it and had not authorized it. He said the evidence would
allow the jury to conclude that Mitchell was lying. He told the
jury his duty as an officer of the court compelled him to admit
this. Mitchell was convicted of first-degree murder. That
conviction and the related convictions and findings must be
reversed.
ARGUMENT
I. Mitchell’s Sixth Amendment Right of Client
Autonomy, Which Allowed him to Insist on a Defense
of Complete Innocence and not Have Defense
Counsel Concede his Commission of the Actus Reus
of the Charged Crime, was Violated When Defense
Counsel, Knowing of Mitchell’s Wishes and
Knowingly Over his Objection, Argued in the
Alternative that Mitchell Was Guilty of Lesser
Homicides, Primarily Voluntary Manslaughter.
A. Standard of Review
Facts entitling a petitioner to relief must be proven by a
preponderance of the evidence. (In re Large (2007) 41 Cal. 4th 538,
549.) A habeas petition filed in a court of appeal after denial in
the superior court invokes the court of appeal’s original
jurisdiction. This Court does not review the superior court’s
decision but independently reviews the record to make its own
7

1 App. 120

findings and legal conclusions. (Robinson v. Lewis (2020) 9 Cal.
5th 883, 895-896; In re Resendiz (2001) 25 Cal. 4th 230, 249,
abrogated in part on other grounds, Padilla v. Kentucky (2010)
559 U.S. 356, 370.)
Factual findings made after an evidentiary hearing are not
binding but may be given great weight. (Robinson v. Lewis,
supra, 9 Cal. 5th at p. 896; In re Resendiz, supra, 25 Cal. 4th at p.
249.) Where the superior court’s findings are not grounded in
credibility determinations made after an evidentiary hearing,
such deference is inappropriate. (In re Resendiz, supra, 25 Cal. 4th
at 249; In re Arias (1986) 42 Cal. 3d 667, 695.) Here, no
evidentiary hearing was necessary. The superior court denied the
petition based on its interpretation of the trial court record. This
Court owes no deference to that decision.
Whether a judicial opinion should be given retroactive
effect is reviewed de novo. (In re Moore (2007) 133 Cal. App. 4th
68, 74.)
B. The Merits
The holding of McCoy v. Louisiana (2018) 138 S.Ct. 1500
is simple. A criminal defendant has a Sixth Amendment right
to dictate the ultimate goals of his defense. When defense
counsel overrides the defendant’s known wishes by, for
example, conceding commission of a homicide when the
defendant wants a defense of complete innocence, the
defendant’s Sixth Amendment rights have been violated. (Id.
at pp. 1508-1509.) The error is structural, requiring reversal
without a showing of prejudice. (Id. at p. 1511.) The
8

1 App. 121

underpinnings of McCoy are set out below. McCoy will then be
discussed at greater length along with California cases that
have granted relief under McCoy in cases similar, if not
identical, to Mitchell’s.
The Sixth Amendment to the United States Constitution
provides, “In all criminal prosecutions, the accused shall enjoy
the right . . . to have the Assistance of Counsel for his
defense.” A defendant also has a Sixth Amendment right to
forgo the assistance of counsel and represent himself. (Faretta
v. California (1975) 422 U.S. 806, 807.) This is because “[t]he
right to defend is personal.” (Id. at p. 834.) “The Sixth
Amendment does not provide merely that a defense shall be
made for the accused; it grants to the accused personally the
right to make his defense.” (Id. at p. 819.)
A defendant who appears with counsel cedes most trial
management decisions to the attorney. (McCoy v. Louisiana,
supra, 138 S.Ct. at p. 1508.) “Some decisions, however, are
reserved for the client—notably, whether to plead guilty,
waive the right to a jury trial, testify in one’s own behalf,[1]
and forego an appeal. See Jones v. Barnes (1983) 463 U.S. 745,
751.)” (Ibid.) In Brookhart v. Janis (1966) 384 U.S. 1, the
Supreme Court held that defense counsel may not force the
defendant, against his wishes, to plead guilty or submit the
case on the state’s prima facie case without contest. The court
reversed without a discussion of prejudice. (Id. at pp. 7-8.)

1

See Harris v. New York (1971) 401 U.S. 222, 225.
9

1 App. 122

The defendant’s known wishes and ultimate goals are
critical. In Florida v. Nixon (2004) 543 U.S. 175, a capital case,
defense counsel believed that it would be beneficial to concede
guilt in hopes of avoiding a death sentence at the penalty
phase. Defense counsel explained this strategy to the
defendant who was unresponsive during the discussions. He
neither consented to the strategy nor affirmatively opposed it.
(Id. at p. 181.) Defense counsel conceded Nixon’s guilt in both
opening statement and closing argument, urging the jury to
focus on the penalty phase. (Id. at pp. 182-183.) Nixon was
convicted and then sentenced to death. (Id. at p. 184.)
On appeal, the issue was whether defense counsel’s
concessions amounted to a failure to subject the prosecution’s
case to meaningful adversarial testing under United States v.
Cronic (1984) 466 U.S. 648, meaning that prejudice was
presumed, or whether they should be analyzed under
Strickland v. Washington (1984) 466 U.S. 668, which would
require a finding of deficient performance and prejudice before
relief could be granted. (Florida v. Nixon, supra, 543 U.S. at p.
185.) The Florida Supreme Court held that while defense
counsel may have acted reasonably, he overstepped because he
never obtained Nixon’s explicit consent to his strategy.
Therefore, Nixon was entitled to a new trial. (Id. at pp. 186187.) The U.S. Supreme Court reversed that decision. (Id. at p.
187.)

10

1 App. 123

In so doing, the Court maintained the distinction
between decisions that the Sixth Amendment leaves to counsel
after consultation and decisions that are the client’s alone.
“But certain decisions regarding the exercise or
waiver of basic trial rights are of such moment that
they cannot be made for the defendant by a
surrogate. A defendant, this Court affirmed, has ‘the
ultimate authority’ to determine ‘whether to plead
guilty, waive a jury, testify in his or her own behalf,
or take an appeal.’ Concerning those decisions, an
attorney must both consult with the defendant and
obtain consent to the recommended course of action.”
(Id. at p. 187.)
In the face of the defendant’s stubborn silence, defense counsel
was not ineffective for conceding guilt at the guilt phase in hopes
of demonstrating a sympathetic case for the penalty phase. (Id. at
p. 189.)
“To summarize, in a capital case, counsel must
consider in conjunction both the guilt and penaltyphases in determining how best to proceed. When
counsel informs the defendant of the strategy counsel
believes to be in the defendant's best interest and the
defendant is unresponsive, counsel's strategic choice
is not impeded by any blanket rule demanding the
defendant's explicit consent. Instead, if counsel's
strategy, given the evidence bearing on the
defendant's guilt, satisfies the Strickland standard,
that is the end of the matter; no tenable claim of
ineffective assistance would remain.” (Id. at p. 192.)
This implies that a contrary conclusion would have been
reached if Nixon had explicitly opposed counsel’s strategy.
Indeed, Nixon has been distinguished on that basis.
“This case is not like Nixon, where the defendant did
not respond to counsel's proposed strategy, and
11

1 App. 124

neither consented nor objected when his counsel
pursued that strategy at trial. In stark contrast to
the defendant's silence in that case, Cooke repeatedly
objected to his counsel's objective of obtaining a
verdict of guilty but mentally ill, and asserted his
factual innocence consistent with his plea of not
guilty. The Court's holding in Nixon that counsel was
not required to acquire the defendant's ‘affirmative,
explicit acceptance’ to a tactical decision to concede
guilt, was expressly qualified as applying only to the
factual scenario in which the defendant is
unresponsive to counsel's proposed strategy.
However, where, as here, the defendant adamantly
objects to counsel's proposed objective to concede guilt
and pursue a verdict of guilty but mentally ill, and
counsel proceeds with that objective anyway, the
defendant is effectively deprived of his constitutional
right to decide personally whether to plead guilty to
the prosecution's case, to testify in his own defense,
and to have a trial by an impartial jury. The right to
make these decisions is nullified if counsel can
override them against the defendant's wishes. In this
case, the trial court's failure to address the
breakdown in the attorney-client relationship allowed
defense counsel to proceed with a trial objective that
Cooke expressly opposed. This deprived Cooke of his
Sixth Amendment right to make fundamental
decisions concerning his case.” (Cooke v. State (Del.
2009) 977 A.2d 880 847 [emphasis in original,
footnotes omitted].)
McCoy cited Cooke as persuasive authority. (McCoy v. Louisiana,
supra, 138 S.Ct. at pp. 1509, 1510, 1511.)
The question under review in McCoy was “whether it is
unconstitutional to allow defense counsel to concede guilt over
the defendant’s intransigent and unambiguous objection.” (Id. at
p. 1507.) In McCoy, the defendant was charged with capital
murder for killing three family members of his estranged wife.
12

1 App. 125

(Id. at pp. 1505-1506.) McCoy was adamant about his innocence.
“Throughout the proceedings, he insistently maintained he was
out of State at the time of the killings and that corrupt police
killed the victims when a drug deal went wrong.” (Id. at p. 1506.)
Two weeks before trial, McCoy’s retained counsel, English,
told him that he intended to concede guilt. McCoy was furious
and told him not to do so. He demanded a defense of innocence. It
was undisputed that defense counsel was aware of McCoy’s
wishes. Both McCoy and English sought to sever the relationship.
The trial court refused to relieve English, telling him that he was
the attorney and the choice of defense, if any, was his. (Ibid.)
During opening statement, English conceded that it was
indisputable that McCoy had caused the victims’ deaths. This
prompted an outburst from McCoy about being sold out for
having “murdered his family.” (Id. at p. 1506-1507.) McCoy
ultimately testified in his own defense, “maintaining his
innocence and pressing an alibi difficult to fathom.” (Id. at p.
1507.) During closing argument, English again conceded that
McCoy was the killer. (Id. at p. 1507.) He argued against a
verdict of first-degree murder on the theory that McCoy lacked
the intent required for that crime. (Id. at p. 1512 [Alito, J.,
dissenting].) McCoy was convicted of first-degree murder and
ultimately sentenced to death. (Id. at p. 1507.)
The U.S. Supreme Court did not apply its ineffective
assistance jurisprudence under either Strickland or Cronic
because the issue was “client autonomy” under the Sixth
Amendment. (Id. at pp. 1510-1511.) Citing Faretta, the Court
13

1 App. 126

emphasized that the right to make a defense under the Sixth
Amendment was “personal.” That is why the Sixth Amendment
speaks of the “assistance” of counsel. (Id. at pp. 1507-1508.)
While most trial management decisions are ceded to defense
counsel, the client retains exclusive control over certain
fundamental decisions. (Id. at p. 1508.)
These fundamental decisions included McCoy’s defense
objective of maintaining complete innocence.
“Autonomy to decide that the objective of the defense
is to assert innocence belongs in this latter category.
Just as a defendant may steadfastly refuse to plead
guilty in the face of overwhelming evidence against
her, or reject the assistance of legal counsel despite
the defendant’s own inexperience and lack of
professional qualifications, so may she insist on
maintaining her innocence at the guilt phase of a
capital trial. These are not strategic choices about
how best to achieve a client’s objectives; they are
choices about what the client’s objectives in fact are.”
(Id. at p. 1508.)
These objectives may not necessarily be sound or realistic, but
that risk is as accepted in this context as it is when defendant
represents himself under Faretta. (Ibid.)
The defendant’s objectives also may not be strictly tethered
to the goal of avoiding a conviction.
“Counsel may reasonably assess a concession of guilt
as best suited to avoiding the death penalty, as
English did in this case. But the client may not share
that objective. He may wish to avoid, above all else,
the opprobrium that comes with admitting he killed
family members. Or he may hold life in prison not
worth living and prefer to risk death for any hope,
however small, of exoneration. (Ibid.)
14

1 App. 127

Such decisions must be honored. “When a client expressly asserts
that the objective of ‘his defence’ is to maintain innocence of the
charged criminal acts, his lawyer must abide by that objective
and may not override it by conceding guilt.” (Id. at p. 1509
[emphasis in original].” Citing Cooke, McCoy held that Nixon did
not dictate a contrary conclusion because McCoy’s express and
adamant objections clearly communicated his defense objectives.
(Id. at p. 1509.) Defense counsel’s failure to abide by the client’s
defense objectives was structural error, requiring reversal
without a showing of prejudice. (Id. at p. 1511.)
Two California cases have applied McCoy in a manner that
should govern this case. In People v. Eddy (2019) 33 Cal. App. 5th
472, the defendant was charged with first-degree murder. (Id. at
p. 475.) Defense counsel urged the defendant’s innocence during
opening statement, focusing on the possibility that a third party
present at the scene stabbed the victim. There was no defense
case. In his closing argument, however, defense counsel conceded
that Eddy was guilty of voluntary manslaughter, but he urged his
innocence of first or second-degree murder. Eddy was convicted of
first-degree murder with a knife use enhancement. (Id. at p. 477.)
The trial court learned of the disagreement during a
Marsden hearing in connection with sentencing and whether or
not a motion for new trial should be filed by new counsel. (Id. at
pp. 477-478.) At the hearing, defense counsel said he knew of
Eddy’s wishes prior to closing argument, though he said Eddy
had “waffled” a bit in insisting on a defense of complete
innocence. (Id. at p. 478.) Eddy was adamant that he had told
15

1 App. 128

defense counsel not to argue for voluntary manslaughter. He also
said that defense counsel refused to let him testify. (Id. at p. 478479.) Defense counsel ultimately admitted he had argued against
his client’s wishes because he thought it was the sounder
strategy. (Id. at p. 479.) The trial court denied the Marsden
motion. (Id. at p. 478.)
The Court of Appeal reversed Eddy’s conviction.
“Here, defendant argues his counsel's concession
during closing arguments that he committed
manslaughter violated his Sixth Amendment right to
maintain his absolute innocence. We agree that
McCoy protects defendant's right to determine that
the objective of his defense is innocence and conclude,
on this record, that the rule announced in McCoy
applies here.” (Id. at p. 481.)
The fact that the defendant had initially waffled a bit was
irrelevant because defense counsel had been instructed not to
argue manslaughter and had not followed the instruction. It did
not matter that Eddy had not brought the issue to the trial
court’s attention before he was convicted. (Id. at pp. 481-482.)
While the trial court’s acquiescence had been part of the
procedural history in McCoy, it was not necessary to establish a
Sixth Amendment violation. (Id. at p. 480, fn. 6.) It also was
unnecessary for Eddy to testify to preserve the claim. (Id. at p.
483.) It also did not matter that Eddy wanted to argue that a
third party at the scene was guilty rather than present an alibi
defense as McCoy had done; both defenses are consistent with
factual innocence. (Id. at p. 483.)

16

1 App. 129

It did not matter that defense counsel acted reasonably.
Authorities suggesting otherwise “miss the mark.” As McCoy had
held, the issue was the defendant’s Sixth Amendment right to
autonomy, not effective assistance. (Id. at p. 483.)
McCoy and Eddy were followed in People v. Flores (2019) 34
Cal. App. 5th 270, which involved two trials. In one case, Flores
was charged with attempted murder with a vehicle. Defense
counsel conceded over objection that Flores was driving but
argued there was no premeditation. (Id. at p. 272.) In the other
case, he was charged with manufacturing an assault weapon and
being a felon in possession of an assault weapon. Defense counsel
conceded, again over Flores’s objection, that Flores possessed the
weapon; he argued that knowledge was not proven. (Id. at pp.
272-273.) Flores’s wishes were apparent by the time of a pre-trial
Marsden hearing. (Id. at p. 275.) Flores was convicted of the
greater charges in both cases. (Id. at p. 276.)
In reversing on McCoy grounds for structural error, (id. at
p. 283,) Flores cited Eddy and an Oregon case to hold that McCoy
was not limited to capital cases. (Id. at pp. 282-283.) It was also
not limited to the Sixth Amendment right to insist on a defense of
innocence to the charged crime. A defendant may insist on a
defense that he did not commit the actus reus of the charged
crime. (Id. at pp. 273, 277, 279-281, 283.) This is the rule even if
doing so is a reasonable path to acquittal of the charged crime or
conviction of a lesser offense. (Id. at pp. 279-281, 283.) Flores
noted that in McCoy, defense counsel had conceded the actus
reus, that McCoy had killed his family, but had argued that
17

1 App. 130

McCoy lacked the mental state required for conviction of firstdegree murder. (Id. at p. 273.) In holding this impermissible,
Flores emphasized the rationale about a defendant not wanting
to commit he had killed his family, or, it necessarily follows,
having committed other serious criminal acts. (Id. at p. 282.)2
McCoy, Eddy, and Flores establish Mitchell’s right to relief.
McCoy holds that a defendant has a Sixth Amendment right to
insist on a defense of complete innocence. Eddy and Flores
confirm this reading and that McCoy is not limited to capital
cases. Eddy holds that a defendant convicted of first-degree
murder is entitled to a new trial when defense counsel, as Hanlon
did, argues for voluntary manslaughter or other lesser degrees of
homicide against the client’s wishes. The fact that this problem
may not have been clear to the trial court until after the
defendant has been convicted does not defeat relief. Flores
clarifies that this right extends to precluding admissions of the
actus reus of the charged crime in service of an acquittal or

Both the U.S. Supreme Court and California Supreme Court
have read McCoy expansively, declining to limit the case and its
rationale to concessions at the guilt phase of capital trials. In
Garza v. Idaho (2019) 139 S.Ct. 738, the U.S. Supreme Court
cited McCoy to hold that defense counsel must file a notice of
appeal at the defendant’s request even in the face of a plea
agreement providing for an appeal waiver. (Id. at p. 746.) The
failure to do so is presumptively prejudicial. (Id. at pp. 749-750.)
The California Supreme Court cited McCoy to reaffirm that a
capital defendant’s decision not to put on a penalty phase case in
mitigation with family members as witnesses must be honored by
counsel and that counsel’s obedience is not ineffective assistance.
(People v. Amezcua and Flores (2019) 6 Cal. 5th 886, 925-926.)
2

18

1 App. 131

conviction of a lesser offense. This, too, precluded Hanlon from
arguing for a verdict of guilty on a lesser degree of homicide such
as voluntary manslaughter.
In addition to disobeying Mitchell’s instructions, Hanlon
conceded Mitchell committed a homicide. He did not defend
Mitchell’s credibility. Rather, he said Mitchell’s testimony about
third parties presented a coincidence that the jury would have to
grapple with. Beginning his argument about manslaughter, he
told the jury that Mitchell would object to his making it, remarks
that told the jury Mitchell did not know about the argument and
had not authorized it. He said the record supported the
conclusion that Mitchell was lying. (Exh. J, vol. 1, 180-182.)
Hanlon’s professed disavowal of not believing his client
actually told the jurors the exact opposite; it told them that they
should not belabor Mitchell’s innocence defense but, rather, focus
on manslaughter.3 Nothing in McCoy suggests that defense
counsel may pay lip service to the defendant’s claims of absolute
innocence and then undermine them in front of the jury because
doing so seems like the sounder strategy. Hanlon’s argument was
clearly impermissible.
Most damningly, Hanlon referred to himself as an officer of
the court. He did this not once, but twice.
“I want to talk to you about an issue that’s very
difficult, not because it’s difficult to talk about, but
Hanlon’s argument involves two rhetorical devices. “Apophasis”
is the practice of bringing up a subject or asserting a point by
claiming not to mention it. “Paralipsis” is the device of
emphasizing a point by claiming it deserves little emphasis.
3

19

1 App. 132

because my job as an attorney is to be an advocate for
my client. I’m also an officer of the court. And I see
my job in closing argument as arguing what I believe
the evidence suggests and have you think about it. . .
.
I don’t—you know, I try never to do that, and that’s
why this is difficult, but it’s something, as an officer
of the court and an advocate for my client, I have to
do, because there certainly is evidence on which you
could conclude, depending on how you understand
the inferences for circumstantial evidence, that Mr.
Mitchell is not being totally honest with you about
what happened.” (Exh. J, vol. 1, 180-182.)
If the jury had misunderstood Hanlon’s ultimate point
amidst his faux equivocal evasions, his invoking his duties as an
officer of the court would have told the jury he knew Mitchell had
lied and that the jury should also so conclude. If a prosecutor had
invoked his duties and ethics to bolster the credibility of a
witness, any defendant would complain about prosecutorial
vouching. (People v. Fierro (1991) 1 Cal.4th 173, 211; People v.
Alvarado (2006) 141 Cal. App. 4th 1577, 1585.) Hanlon also
improperly vouched—for his own client’s guilt.
To Hanlon’s point that conceding Mitchell’s guilt of
homicide was something “I have to do” as an officer of the court,
the response is, “No, you don’t.” Although a defendant’s
constitutional right to testify does not include the right to testify
falsely and his Sixth Amendment right to counsel does not
include having the knowing assistance of counsel in suborning
his perjury, (Nix v. Whiteside (1986) 475 U.S. 157, 173-176,)
nothing in the record here shows that Mitchell had told Hanlon
that his intended testimony was false.
20

1 App. 133

McCoy distinguished the Louisiana Supreme Court’s
reliance on Whiteside on that basis. “But McCoy’s case does not
resemble Nix, where the defendant told his lawyer that he
intended to commit perjury. There was no such avowed perjury
here.” (McCoy v. Louisiana, supra, 138 S.Ct. at p. 1510.) Had
Hanlon so known, his duty would have been not to put Mitchell
on the stand or to withdraw. (Ibid.) Hanlon had no business
putting Mitchell on the stand and then telling the jury that he
lied and thus was guilty of homicide. (Ibid.)
Respondent will undoubtedly rely on McCoy’s statement
that defense counsel “could not interfere with McCoy’s telling the
jury ‘I was not the murderer,’ although counsel could, if
consistent with providing effective assistance, focus his own
collaboration on urging that McCoy’s mental state weighed
against conviction.” (McCoy v. Louisiana, supra, 138 S.Ct. at
1509.) This language does not justify Hanlon’s actions.
First, as noted above, McCoy held that what might be
sound strategy is irrelevant to the issue of client autonomy.
Second, the reference to the defendant’s telling the jury “I was
not the murderer” cannot merely refer, as Hanlon assumed, to
the client taking the stand to tell his story. That right may have
informed McCoy, but it long predated it and has nothing to do
with the question presented there. (Id. at pp. 1513, 1516.)
Rather, “I was not the murderer” must refer to defense
counsel arguing that to the jury on the client’s behalf. The
language that follows about arguing mental state can only be
harmonized with the core holding of McCoy if, unlike what
21

1 App. 134

happened in McCoy, such argument does not undermine the
defendant’s claim of innocence of the actus reus. It is hard to
imagine how that tightrope might successfully be walked in most
cases. It certainly was not in Mitchell’s.
This is not a case where, consistent with McCoy, defense
counsel could argue that whoever committed the crime was not
guilty of the charged crime because of a missing element, e.g., the
absence of force or fear in a petty theft charged as a robbery.
Such an argument would not concede the defendant’s guilt of any
actus reus. It would not link him to a crime against his will and
to his potential embarrassment.
Mitchell’s case is very different. There was no room for
Hanlon to argue Mitchell’s innocence while also arguing that
whoever committed this homicide lacked the required intent or
only committed manslaughter. The only person whose intent we
have circumstantial evidence of was Mitchell. The only person
who could have committed manslaughter “because of a sudden
quarrel or in the heat of passion” and because he “acted rashly
and under the influence of intense emotion that obscured his
reasoning or judgment” was Mitchell. (Exh. I, vol. 1, 124.) The
only person about whom Hanlon could have argued, “What
happened . . . that led to a man beating in the brains of a woman
he loved?” was Mitchell. (Exh. J, vol. 1, 183.)
Hanlon’s argument committed Mitchell to having killed the
mother of his child, an admission McCoy emphasized a defendant
might not wish to make and which Mitchell adamantly and

22

1 App. 135

consistently opposed. Hanlon’s usurpation was structural error.
Mitchell is entitled to a new trial.
C. McCoy Applies Retroactively to this Case.
In determining whether a procedural rule applies
retroactively to cases on collateral review, California courts have
applied the federal test of Teague v. Lane (1989) 489 U.S. 288, the
state tests of In re Johnson (1970) 3 Cal. 3d 404 and People v.
Guerra (1984) 37 Cal. 3d 385, or both. (Cf. In re Ruedas (2018) 23
Cal. App. 5th 777, 793-803 [applying both] & In re Thomas (2018)
30 Cal. App. 5th 744, 759-761 [declining to apply Teague because
it was decided with federal habeas petitions in mind].)
Shortly after the superior court denied relief, Division Two
of the Fourth District held that McCoy was retroactive under
both Teague and California law because, as an extension of
Florida v. Nixon, it did not create a new rule.
“The holding of McCoy extended the precedent under
Nixon, supra, 543 U.S. 175, drawing a conclusion
clearly implied in or anticipated by that opinion.
Nixon established the parameters of a claim of
ineffective assistance of counsel where counsel makes
a strategic decision to concede guilt in order to avoid
harsher consequences where the defendant never
asserted a defense objective of maintaining innocence
and never verbally approved or protested counsel's
proposed approach. McCoy, on the other hand, held
that Nixon and Strickland v. Washington (1984) 466
U.S. 668 [80 L.Ed.2d 674, 104 S.Ct. 2052] do not
apply where counsel's decision overruled the
defendant's unambiguous and intransigent objection
to that admission, usurping the defendant's
prerogative to choose the object of his defense and to
decide whether to maintain his innocence. McCoy
interpreted and extended the rule of Nixon to provide
23

1 App. 136

guidance in situations where the defendant expressly
objects to counsel's strategy of conceding guilt.
Defendant argued on direct appeal that his trial
attorney deprived him of his Sixth Amendment right
to effective assistance of counsel by conceding his
guilt of second-degree murder. In this respect, we
conclude that McCoy did not announce a new rule.
Instead it was foreshadowed by Nixon and is entitled
to retroactive application.” (In re Smith (2020) 49 Cal.
App. 5th 377, 391-392.)4
A finding of retroactivity is required, both on the theory
that McCoy did not announce a new rule and when other
aspects of retroactivity analysis are considered.
1. State Habeas Law Requires the Application of
McCoy to Mitchell’s Petition.
Under People v. Guerra (1984) 37 Cal.3d 385 and In re
Johnson (1970) 3 Cal.3d 404, retroactivity analysis proceeds in
three stages. The first question is whether the new decision
announced a new rule. If it did, the next question is whether the
new rule displaced a previous, contrary rule. If either of these did
not occur, then the decision applies to all cases, including those
already final. “It is only in this ‘narrow class of decisions’ that
there can have been justifiable reliance on an old rule to the
contrary, and hence that the courts may choose to make, on
grounds of policy, an exception to the ordinary assumption of
retrospective operation.” (People v. Guerra, supra, 37 Cal.3d at p.
401.)

4

The Court denied relief on the merits. (Id. at p. 392.)
24

1 App. 137

Thomas elaborated on what constitutes a new rule in a case
concerning the constitutionality of admitting certain types of
hearsay evidence.
“Decisions establish ‘new rules’ when they depart
from clear contrary rules established in prior judicial
decisions. In practice, that means decisions establish
new rules when they (1) explicitly overrule a
precedent of the California Supreme Court, or (2)
disapprove a practice implicitly sanctioned by prior
decisions of the Supreme Court, or (3) disapprove a
long-standing and widespread practice expressly
approved by a near-unanimous body of lower court
authorities. (In re Lucero, supra, 200 Cal. App. 4th at
p. 45, citing Guerra, supra, 37 Cal. 3d at p. 401.) By
contrast, decisions do not establish new rules if they
merely “explain or refine the holding of a prior case,
… apply an existing precedent to a different fact
situation, … draw a conclusion that was clearly
implied in or anticipated by previous opinions,” or
give effect to a statutory rule or existing binding
decision of the United States Supreme Court.
(Guerra, supra, 37 Cal. 3d at p. 399 & fn. 13.)) In
such cases, the rule in question already exists, and
the case law merely applies it or fills out its
boundaries.” (In re Thomas, supra, 30 Cal. App. 5th
at pp. 761-762.)
As Smith held, McCoy did not announce a new rule within
the meaning of the above standards. The outcome was “clearly
implied in or anticipated by previous opinions[.]” McCoy made
clear that its decision flowed from the recognition in Faretta v.
California (1975) 422 U.S. 806 that “the right to defend is
personal” and that the Sixth Amendment’s “grant to the accused
personally the right to make his defense’ ‘speaks of the
‘assistance’ of counsel, and an assistant, however expert, is still
25

1 App. 138

an assistant.” (McCoy, 138 S.Ct. at 1507-08 (brackets and
internal quotations omitted), quoting Faretta, 422 U.S. at 819-20,
834.) The Court also drew from Brookhart v. Janis, supra,
(McCoy, 138 S.Ct. at p. 1516,) and from Justice Scalia’s
concurrence in Gonzalez v. United States (2008) 553 U.S. 242, in
observing that “action taken by counsel over his client’s objection
has the effect of revoking counsel’s agency.” (McCoy, 138 S.Ct. at
1509-10 (brackets, ellipses, and internal quotations omitted),
quoting Gonzalez, 553 U.S. at 254 (Scalia, J., concurring).)
Further, as Smith held, McCoy flows logically and inevitably
from Florida v. Nixon. If Nixon, rather than remaining silent,
had explicitly refused to concede guilt, his conviction would have
been reversed under the Sixth Amendment on client autonomy
principles without regard to whether counsel had rendered
ineffective assistance.
Even if McCoy announced a new rule, it would apply
retroactively if it did not supplant “a prior rule to the contrary.”
The announcement of a new rule does not involve the
displacement of an earlier, contrary rule “when we resolve a
conflict between lower court decisions, or address an issue not
previously presented to the courts.” (People v. Guerra, supra, 37
Cal.3d at pp. 399-400; In re Thomas, supra, 30 Cal. 5th at p. 762.)
McCoy did not overrule any precedent or either the U.S.
Supreme Court or the California Supreme Court. Prior to the
Louisiana Supreme Court’s decision in McCoy, neither U.S.
Supreme Court nor California Supreme Court case law
authorized counsel to violate a defendant’s right to autonomy
26

1 App. 139

under the Sixth Amendment by conceding the defendant’s guilt
or his commission of the actus reus over the defendant’s objection.
As in McCoy itself, decisions holding to the contrary under
ineffective assistance law address a different issue.
Even if McCoy’s holding about client autonomy under the
Sixth Amendment is a new rule that displaced an old rule, it
would still govern this case. In considering whether a new
procedural rule should be given retroactive effect, California
considers three factors: “a) the purpose to be served by the new
standards, (b) the extent of the reliance by law enforcement
authorities on the old standards, and (c) the effect on the
administration of justice of a retroactive application of the new
standards.” (In re Thomas, supra, 30 Cal. App. 5th at p. 756.) The
latter two factors only become relevant if retroactivity is a close
question after consideration of the purpose of the rule. (Ibid.) A
rule related to minimizing the risk of convicting the innocent will
apply retroactively in state habeas cases regardless of reliance
and the effect on the administration of justice. (Id. at p. 757.)
The defendant-client’s right under the Sixth Amendment to
demand a defense of complete innocence and prevent concessions
of guilt is a “pro-defendant” rule. It has nothing to do with
mutual fairness or easing the prosecution’s burden. It prevents
conviction of the innocent by holding the prosecution to its
highest burden. There may be cases where, because of the weight
of the evidence, the defendant whose autonomy is respected loses,
but that does not change the fact that the rule protects the

27

1 App. 140

innocent. Further, when the California Supreme Court referred
to innocence in Johnson, it did not just mean factual innocence.
Johnson had suffered a prior conviction for violating a
federal statute that required anyone who acquired marijuana to
pay a marijuana transfer tax. This conviction was used to
enhance his sentence in a subsequent drug prosecution. (In re
Johnson, supra, 3 Cal. 3d at p. 407.) Under the tax scheme,
whenever the marijuana transfer tax was paid by one not
lawfully registered to possess it or exempt from such registration,
the payor’s information was forwarded to federal and the
applicable state prosecutors’ offices because trafficking in
marijuana was a federal crime and illegal in every state, subject
to limited exceptions. (Id. at p. 409.)
The question was whether Johnson, as a habeas petitioner,
could invalidate the prior conviction finding by relying on Leary
v. United States (1969) 395 U.S. 6. Leary had held that a timely
invocation of the Fifth Amendment’s privilege against selfincrimination was a complete defense to prosecution under the
transfer tax statute. Thus, after Leary, a defendant, practically
speaking, could no longer be convicted of a transfer tax violation
if he claimed the Fifth Amendment. (Id. at pp. 409-410; Leary v.
United States, supra, 395 U.S. at p. 27.)5

Leary did not strike down the transfer tax statute. Although
Johnson suggested that the outcome in Leary was comparable,
(In re Johnson, supra, 3 Cal. 3d at p. 416,) it still analyzed Leary
as a procedural rule.
5

28

1 App. 141

Neither Johnson nor Leary were cases about factually
innocent people. Anyone convicted of violating the transfer tax
statute was guilty two times over, first of not paying the required
tax and second of the true target offense of illegally trafficking in
marijuana. Nonetheless, because compelled self-incrimination
was an unacceptable way of declaring obvious guilt, Leary was a
rule that minimized legally wrongful convictions. Johnson
declared this as important as any hypothetical procedural rule
that might allow some semblance of omniscience about the
defendant’s factual guilt or innocence.
“The overwhelming concern of recent retroactivity
decisions with the relation of the rule in question to
the reliability of the truth-determining process at
trial is but a corollary to the ultimate test of the
integrity of the judicial process: its capacity to ensure
the acquittal of the innocent. Since, under our system
of justice, the significance of innocence does not vary
with its legal cause, the present petitioner is as
entitled to a retroactive application of Leary as others
are entitled to a retrospective right to trial counsel -counsel whose job it is to search for legal as well as
factual defenses for those accused of crime.” (Id. at p.
416.)
The recent case of In re Brown (2020) 45 Cal. App. 5th 699
(rev. granted June 10, 2020) is consistent with this “legal
innocence” aspect of Johnson. At issue was whether People v.
Gallardo (2017) 4 Cal. 5th 120 applied retroactively to cases on
collateral review. (In re Brown, supra, 45 Cal. App. 5th at p. 705.)
Gallardo addressed how to prove prior convictions consistent
with the Sixth Amendment’s right to jury trial. It held that
“when the sentencing court must rely on a finding regarding the
29

1 App. 142

defendant's conduct, but the jury did not necessarily make that
finding (or the defendant did not admit to that fact), the
defendant's Sixth Amendment rights are violated.” (People v.
Gallardo, supra, 4 Cal. 5th at p. 135.)
Brown had been sentenced under the Three Strikes law
based on a juvenile conviction for carjacking that would only
count as a strike if he had been armed with a deadly weapon. (In
re Brown, supra, 45 Cal. App. 5th at p. 713.) Arming had not been
charged, proven, or admitted in juvenile court. (Id. at pp. 707,
709.) The trial court had granted Brown’s habeas petition,
holding Gallardo retroactive and rejecting the prosecution’s
request to rely on the probation report to find that Brown’s
juvenile carjacking involved a deadly weapon. (Id. at p. 713.) The
Court of Appeal affirmed, with one justice dissenting. (Id. at pp.
705, 727.)
Addressing retroactivity, the Court agreed that Gallardo
set out a new procedural rule. (Id. at pp. 716-717.) This rule
satisfied the “innocence” prong of the Johnson test.
“The Gallardo rule thus goes to the integrity of the
factfinding process when the court determines
whether a prior conviction qualifies as a strike. The
primary purpose of the Gallardo rule is to promote
reliable determinations of a defendant's guilt or
innocence in committing underlying acts, apart from
the elements of a conviction, required to impose a
strike. Because the purpose of Gallardo ‘relates to
characteristics of the judicial system which are
essential to minimizing convictions of the innocent’
used to increase a defendant's sentence (In re
Johnson, supra, 3 Cal. 3d. at p. 413), the purpose of
the Gallardo rule weighs heavily in favor of
30

1 App. 143

retroactive application. (In re Johnson, supra, at p.
413; accord, In re Lucero, supra, 200 Cal. App. 4th at
p. 45.) (Id. at p. 718.)”6
Especially pertinent here are the references to “integrity of the
factfinding process,” “characteristics of the judicial system,” and
“adherence to constitutional factfinding procedures.”
The Brown majority disagreed with the opinion of the
dissenting justice and with In re Milton (2019) 42 Cal. App. 5th
977 (rev. granted March 11, 2020), which held that Gallardo was
not retroactive because there was nothing offensive to the truthseeking function about having a judge make findings of fact about
prior conduct from a probation report.
“We recognize that the factfinding process might not
be any less reliable if conducted by the sentencing
judge, and might even be better. We recognize that
applying Gallardo retroactively will be disruptive and
burdensome to the courts. Nevertheless, we conclude
these factors do not outweigh a defendant's
constitutional right to a jury determination of facts
upon which a strike is based when the strike is
founded on a crime statute that does not categorically
match the predicate prior crime.” (In re Brown, supra,
45 Cal. App. 5th at p. 721-722 [emphasis added].)
Like Johnson, Brown stands for the proposition that for a
new procedural rule to serve “the integrity of the factfinding
process,” it does not have to have some omniscient quality to it. It
suffices if it deems certain methods of pronouncing the defendant
guilty to be unacceptable. Leary was retroactive in Johnson
The Court then held that considerations under the second and
third prongs of Johnson did not militate against Gallardo’s
retroactivity. (Id. at pp. 718-719.)
6

31

1 App. 144

because a defendant may not be compelled to pronounce himself
guilty. Gallardo was retroactive in Brown even though the
challenged fact-finding process “might even be better” because
having a judge read a probation report to pronounce a defendant
guilty of prior unadjudicated conduct was unacceptable. Under
McCoy, every defendant gets to say, “My attorney may not
pronounce me guilty against my wishes. Only the jury may do
that.” This favors retroactivity under the first prong of Johnson.
The second and third prongs of the Johnson analysis do not
outweigh this. The prosecution can have no reliance interest in a
conviction where the defendant’s insistence on innocence was
ignored as it was, for example, in Brookhart v. Janis. Concern
about the administration of justice and finality of convictions
does not defeat retroactivity. The appellate process does not give
the defendant a chance to obtain a reversal by establishing
reasonable doubt on some or all elements. His only chance to do
that is at trial, and if his attorney has, over objection, refused to
do that, or has, as Hanlon did here, told the jury to disregard the
case for complete innocence, McCoy entitles him to relief.
2. Under Teague v. Lane, McCoy Applies
Retroactively to this Case.
Although Thomas deemed it inappropriate to do so, some
California courts of appeal have applied the federal standard for
retroactivity set out in Teague v. Lane (1989) 489 U.S. 288. (See,
e.g., In re Ruedas (2018) 23 Cal. App. 5th 777, 793-798.)
“Under Teague, judicial decisions that create a new rule of
law are generally not given retroactive effect to cases on
32

1 App. 145

collateral review that were already final when the rule was
announced.” (In re Ruedas, supra, 23 Cal. App. 5th at p. 793.)7 A
case “announces a new rule when it breaks new ground or
imposes a new obligation on the States or the Federal
Government. (Teague v. Lane, supra, 489 U.S. at 301.) Put
another way, “a case announces a new rule if the result was not
dictated by precedent existing at the time the defendant's
conviction became final.” (Ibid.) “[R]ules of law may be
sufficiently clear for habeas purposes even when they are
expressed in terms of a generalized standard rather than as a
bright-line rule.” (Williams v. Taylor (2000) 529 U.S. 362, 382
(plurality).)
McCoy broke no new ground and imposed no new
obligations under the Sixth Amendment on state or federal
governments. The precedents from which McCoy flowed—Faretta,
Brookhart, and Nixon—were all well-established by the time of
Mitchell’s trial. Because McCoy applied existing rules to a related
situation not previously adjudicated by the U.S. Supreme Court,
it did not announce a new rule. Therefore, it is retroactive under
Teague and cases that apply Teague.
D. Mitchell’s Claim is Properly Before this Court.
1. Neither Waltreus nor Dixon Bars Mitchell’s
Claim.
Generally, claims previously raised and rejected on direct
appeal may not subsequently be pled anew in a state habeas
Teague recognized two exceptions that are not applicable here.
(Ibid.)
7

33

1 App. 146

petition. (In re Waltreus (1965) 65 Cal. 2d 218, 225.) Relatedly,
claims that could have been raised on direct appeal but were not
may not be pled in a state habeas petition. (In re Dixon (1953) 41
Cal. 2d 756, 759.) Neither procedural bar applies in this case.
Though Mitchell advanced a closely related claim, this
claim was not previously raised and rejected on direct appeal. On
direct appeal, Mitchell argued that Hanlon rendered ineffective
assistance in violation of the Sixth Amendment. His malfeasance
lay in concealing his intent to argue for lesser homicides such as
voluntary manslaughter. This prevented Mitchell from obtaining
counsel who would confine the defense to complete innocence,
effectively denying him counsel of his choice, a structural error.
(Exh. L, vol. 2, 273-287.)
Strictly construed, this is a different claim. McCoy held
that client autonomy and the right to dictate a defense of actual
innocence is a separate right under the Sixth Amendment. It is
not part of the Sixth Amendment’s ineffective assistance
jurisprudence. The Court of Appeal held that Mitchell did not
receive ineffective assistance as alleged. (Exh. M, vol. 2, 366-367,
369-370, 372, 376.) Therefore, there can be no Waltreus bar.
Construed more broadly, this claim is also not subject to a
Dixon bar. Although Mitchell spoke of ineffective assistance and
did not expressly invoke the Sixth Amendment right to client
autonomy, his claim arguably amounts to the same thing.
Mitchell argued that Hanlon’s deception deprived him of counsel
of his choice, a structural error. In this context, counsel of choice
does not refer to a particular individual but to anyone who would
34

1 App. 147

have restricted Mitchell’s defense to complete innocence. Thus,
there should be no Dixon bar.
2. Even if a Waltreus or Dixon Bar Applies,
Mitchell’s Claim Comes Under the Exceptions
Set out in In re Harris.8
Four exceptions overcome a Waltreus default: 1) when the
issue constitutes a fundamental constitutional error; 2) when
there has been a change in law affecting the petitioner; 3) when
the trial court lacked fundamental jurisdiction; and 4) when the
trial court acted in excess of its jurisdiction. (In re Harris (1993) 5
Cal. 4th 813, 834-841; accord, In re Reno (2012) 55 Cal. 4th 428,
478.) These exceptions also overcome a Dixon default. (In re
Harris, supra, 5 Cal. 4th at p. 825, fn. 3; In re Reno, supra, 55 Cal.
4th at pp. 490-491; In re Robbins (1998) 18 Cal. 4th 770, 814 fn.
34.) The first and second Harris exceptions apply here.
Harris narrowed the Waltreus/Dixon exception for
fundamental constitutional error because of the increasing
prevalence of litigating the overlooked or mishandled claim of
error via a claim of ineffective assistance of trial or appellate
counsel. (Id. at pp. 831-834.) “Only where the claimed
constitutional error is both clear and fundamental, and strikes at
the heart of the trial process, is an opportunity for a third chance
at judicial review (trial, appeal, post-appeal habeas corpus)

The Superior Court imposed no Dixon, Waltreus, or timeliness
defaults. It suggested, however, that if McCoy was retroactive it
might reach a different conclusion. (Exh. Y, vol. 4, 691.) Because
the court did not consider how In re Harris might excuse any
default, this suggestion is not persuasive.
8

35

1 App. 148

justified.” (Id. at p. 834.) An example of this was cases involving
structural error. (Ibid.) Reno confirmed that structural errors
overcame the state’s interest in finality of judgments under this
exception. (In re Reno, supra, 55 Cal. 4th at p. 487.)
McCoy error is structural error. (McCoy v. Louisiana,
supra, 138 S.Ct. at p. 1511.) The right of client autonomy relates
to other rights, the denial of which are all structural error. Denial
of the “personal” Faretta right of self-representation is structural
error as is denial of the right to counsel of one’s choice. (McKaskle
v. Wiggins (1984) 465 U.S. 168, 177 fn. 8; United States v.
Gonzalez-Lopez (2006) 548 U.S. 140, 150.) In Brookhart v. Janis
(1966) 384 U.S. 1, defense counsel, over the defendant’s
strenuous objection, agreed to submit the case upon presentation
of a prima facie case without confrontation and crossexamination. (Id. at pp. 6-7.) The Court reversed without a
showing of prejudice. (Id. at pp. 7-8.) In Florida v. Nixon, if the
defendant had objected to defense counsel’s strategy of conceding
guilt, the case would have been a client autonomy case, and
defense counsel’s concessions would have been structural error.
(Florida v. Nixon, supra, 543 U.S. at pp. 187, 192.) These
precedents establish the Harris exception for fundamental
constitutional rights.
The Harris exception for “change in the law” also defeats
any Waltreus or Dixon default. The exception applies where the
later decision settles or clarifies a legal point rather than simply
adding to a division of authority. (In re Harris, supra, 5 Cal. 4th at
p. 841.) The later decision must apply retroactively to the
36

1 App. 149

petitioner’s case. (In re Martinez (2017) 3 Cal. 5th 1216, 1222.) To
the extent the question required settling, McCoy established
Mitchell’s entitlement to relief on these facts. The decision
applies retroactively for the reasons set out above.9 For this
reason as well, no Waltreus or Dixon default applies.
3. This Petition is Timely.
This petition is being filed within a reasonable time, three
months after the May 20, 2020 denial in the Superior Court. (See
Robinson v. Lewis (2020) 9 Cal. 5th 883, 901-902 [holding that
California will never consider a habeas petition filed 120 days or
less after the denial by a lower court to be substantially
delayed].) The original petition was timely as well.
To avoid an untimeliness bar, the petitioner must establish,
alternatively, (1) the absence of substantial delay, (2) good cause
for any substantial delay, or (3) that the claim falls with an
exception to the timeliness bar. (In re Robbins (1998) 18 Cal. 4th
770, 780-781.) Substantial delay is measured from the time the
petitioner knew or reasonably should have known of the factual
or legal basis of the claim. (Id. at p. 780.) Exceptions that excuse
the absence of good cause for substantial delay are:
“(i) that error of constitutional magnitude led to a
trial that was so fundamentally unfair that absent
the error no reasonable judge or jury would have
convicted the petitioner; (ii) that the petitioner is
actually innocent of the crime or crimes of which he
There is no inconsistency between saying that 1) a decision is
retroactive because it was anticipated by precedent and,
therefore, is not a new rule and 2) applying the Harris “change in
law” exception to a retroactive decision that clarified the law.
9

37

1 App. 150

or she was convicted; (iii) that the death penalty was
imposed by a sentencing authority that had such a
grossly misleading profile of the petitioner before it
that, absent the trial error or omission, no reasonable
judge or jury would have imposed a sentence of
death; or (iv) that the petitioner was convicted or
sentenced under an invalid statute.” (Id. at p. 780781.)
Although Robbins was a capital case, its timeliness guidelines
also apply to noncapital cases. (In re Reno (2012) 55 Cal. 4th 428,
459-460; In re Sanders (1999) 21 Cal. 4th 697, 703.)
Reno endorsed U.S. Supreme Court cases characterizing
the timeliness standards of Robbins as a general reasonableness
test. (Id. at p. 460.) The petition “should be filed as promptly as
the circumstances allow[.]” (Ibid.) One aspect of good cause for
substantial delay is the investigation of other claims. (In re
Robbins, supra, 18 Cal. 4th at p. 780.) It is also understood that
counsel has professional obligations to other clients. (In re
Soderstein (2007) 146 Cal. App. 4th 1163, 1221-1222.)
Any suggestion that Mitchell should have raised this claim
in 2012 should be rejected as an attempt to backdoor a procedural
default in through a timeliness bar. The petition is also timely
when measured from the date of the McCoy decision.
The petition and supporting declaration of the undersigned
set out how Mitchell became aware of McCoy while litigating
related claims in the Ninth Circuit and the decision process that
led to McCoy relief being pursued in state court in the wake of
favorable California cases interpreting McCoy. This culminated
in the California Supreme Court’s denial of review in Eddy in
38

1 App. 151

July 2019. The superior court petition was filed two months after
that. Thus, the superior court petition was not substantially
delayed, or, alternatively, is excused by good cause.
The case of In re Brown (2020) 45 Cal. App. 5th 699 is
instructive. There, pursuant to a guilty plea that included an
admission to an invalid juvenile strike, the defendant was
sentenced in 2006. (Id. at p.707.) In December 2016, a records
analyst of the Department of Corrections and Rehabilitation
wrote the superior court about possible sentencing errors in
Brown’s judgment. In January 2017, the court declined to amend
the judgment. (Id. at pp. 707-708.) Brown had received the CDCR
letter as well and contacted the Public Defender. (Id. at p. 709.)
In February 2017, the Public Defender’s office reviewed Brown’s
file, concluded that the strike was invalid, and informed Brown of
this. (Id. at pp. 708-709.) At some point thereafter, Brown, with
counsel, moved to modify the sentence. It turned out that the
transcript of his 2006 plea hearing was no longer available. In
July 2017, after numerous continuances, the court and the
parties agreed that Brown should file a writ petition. That
petition was filed in January 2018. This was one month after
Gallardo was decided.10 (Id. at p. 708.)

The petition alleged ineffective assistance of counsel as well as
invalidity of the prior strike. (Id. at p. 708.) Nothing in the record
suggests that the six months between the July 2017 hearing
where it was agreed Brown had to file a writ petition and
January 2018 when he eventually filed it was spent waiting for
the decision in Gallardo.
10

39

1 App. 152

The trial court granted the petition. It rejected the
prosecution’s untimeliness argument, finding no prejudice. (Id. at
p. 711.) The prosecution renewed that argument on appeal,
arguing that they were prejudiced because the plea transcript
was missing and because defense counsel could not remember the
proceedings. (Id. at p. 724.)11 Applying Robbins, the Court of
Appeal held that the 13-month interval between Brown’s
learning that his sentence was unauthorized because of the
invalid strike and his filing of a proper habeas petition was
justified. The Court noted Brown’s efforts via other means and
held, “Under these circumstances, defendant moved reasonably
expeditiously in challenging the juvenile carjacking strike. The
record shows that the significant delay in seeking such collateral
relief was justified.” (Id. at p. 725.)
Here, too, Mitchell was litigating the impact of Hanlon’s
indifference to his wishes on another front, in his Ninth Circuit
habeas appeal. The period of delay is comparable to that in
Brown. Further, although it is not clear in Brown that part of the
delay was spent waiting for Gallardo to be decided, that is a
relevant factor here, where the development and interpretation of
McCoy in California courts ultimately dictated the decision to
stay proceedings in the Ninth Circuit and file this petition.
Finally, if this Court believes the petition was unjustifiably
delayed, it should excuse the delay. Of the four Robbins factors,
the one that most closely applies to this situation is “(i) that error

11

Here, of course, the trial record is complete.
40

1 App. 153

of constitutional magnitude led to a trial that was so
fundamentally unfair that absent the error no reasonable judge
or jury would have convicted the petitioner[.]” Although the first
part about fundamental unfairness clearly applies, this factor as
a whole is not well suited to a claim involving structural error
where prejudice need not be assessed because the defendant did
not have anything that a reviewing court should dignify as a
trial. Discussing structural error for a violation of client
autonomy rights, the Supreme Court said, “[T]he effects of the
admission would be immeasurable, because a jury would almost
certainly be swayed by a lawyer’s concession of his client’s guilt.”
(McCoy v. Louisiana, 138 S.Ct. at p. 1511.) Thus, the error here is
of comparable magnitude to those set out in Robbins. Since a
claim involving structural error excuses Waltreus and Dixon
defaults under Harris, it should excuse any timeliness default as
well.
CONCLUSION
For the foregoing reasons, Mitchell’s petition for writ of
habeas corpus should be granted.
Dated: August 21, 2020
s/Steven S. Lubliner
Steven S. Lubliner
P.O. Box 750639
Petaluma, CA 94975
Phone: (707) 789-0516
e-mail: ssubliner@comcast.net
Counsel for Petitioner James
R.W. Mitchell

41

1 App. 154

CERTIFICATION
Pursuant to Rules 8.384(a)(2) and 8.204(c) of the California
Rules of Court, I hereby certify that the foregoing brief is
produced in a proportional font (Century Schoolbook) of 13-point
type and utilizes 1.5 line spacing, except in footnotes and
extended quotations which are single-spaced. I further certify
that, according to the word count of the word processing system
used to prepare the brief, the brief includes 9,618 words
(exclusive of the table of contents, the table of authorities, the
proof of service and this certificate).
Dated: August 21, 2020

/s/Steven S. Lubliner
STEVEN S. LUBLINER
Attorney for Petitioner
James R.W. Mitchell

42

1 App. 155

PROOF OF SERVICE BY ELECTRONIC SERVICE
(Cal. Rules of Court, rules 2.251(i)(1)(A)-(D) & 8.71(f)(1)(A)-(D)
I, Steven S. Lubliner, declare I electronically served from
my electronic service address of sslubliner@comcast.net the
following documents:
PETITION FOR WRIT OF HABEAS CORPUS
MEMORANDUM OF POINTS AND AUTHORITIES IN
SUPPORT OF JAMES R.W. MITCHELL’S PETITION
FOR WRIT OF HABEAS CORPUS
DECLARATION OF STEVEN S. LUBLINER IN
SUPPORT OF JAMES R.W. MITCHELL’S PETITION
FOR WRIT OF HABEAS CORPUS
EXHIBITS IN SUPPORT OF JAMES R.W.
MITCHELL’S PETITION FOR WRIT OF HABEAS
CORPUS (4 VOLUMES)
on August 21, 2020 at 4:00 p.m. to the following persons and
entities:
Office of the Attorney General
sfagdocketing@doj.ca.gov
DECLARATION OF SERVICE
I, the undersigned, declare that I am over 18 years of age,
an attorney and a member in good standing of the State Bar of
California. I am not a party to the within cause. My business
address is P.O. Box 750639, Petaluma, CA 94975. My e-mail
address is sslubliner@comcast.net. I served a true copy of the
above-mentioned documents on the following, by placing same in
an envelope(s) addressed as follows
James R.W. Mitchell, #AI4523
D17-121
R.J. Donovan Correctional Facility
480 Alta Road
San Diego, CA 92179
43

1 App. 156

Each said envelope was then sealed and deposited in the
United States mail at Petaluma, California, the county in which I
am employed, with the postage thereon fully prepaid.
I declare under penalty of perjury under the laws of the
State of California and the United States of America that the
foregoing is true and correct.
Executed on August 21, 2020 at Petaluma, California.
s/Steven S. Lubliner

44

1 App. 157

Warning
As of: August 19, 2020 11:11 PM Z

People v. Mitchell
Court of Appeal of California, First Appellate District, Division One
July 28, 2014, Opinion Filed
A133094
Reporter
2014 Cal. App. Unpub. LEXIS 5375 *; 2014 WL 3707995

THE PEOPLE, Plaintiff and Respondent, v.
JAMES RAPHAEL WHITTY MITCHELL,
Defendant and Appellant.

Core Terms
sentencing, withdraw, disruption, bat, heat,
passion, ineffective, appointed, murder,
breakdown, irreconcilable, incompetent,
probation, psychological, restraining, jurors,
kidnapping, attorney-client, baseball, blood,
phone, innocence, shirt, mitigation, killed,
psychiatrist, psychiatric, violence, talking,
consecutive

Notice: NOT TO BE PUBLISHED IN
OFFICIAL REPORTS. CALIFORNIA RULES
OF COURT, RULE 8.1115(a), PROHIBITS
COURTS AND PARTIES FROM CITING OR
RELYING ON OPINIONS NOT CERTIFIED
FOR
PUBLICATION
OR
ORDERED
PUBLISHED, EXCEPT AS SPECIFIED BY
RULE 8.1115(b). THIS OPINION HAS NOT
BEEN CERTIFIED FOR PUBLICATION OR
ORDERED
PUBLISHED
FOR
THE Judges: Opinion by Becton, J.*, with
PURPOSES OF RULE 8.1115.
Margulies, Acting P. J., and Dondero, J.,
concurring.

Subsequent History: Related proceeding at
Mitchell v. Hanlon, 2014 Cal. App. Unpub.
LEXIS 5491 (Cal. App. 1st Dist., July 31, 2014)

Opinion by: Becton, J.

Review denied by People v. Mitchell, 2014 Cal. Opinion
LEXIS 9693 (Cal., Oct. 15, 2014)

Prior History: [*1] Superior Court of Marin
County, No. SC165475A.

* Judge

of the Contra Costa County Superior Court, assigned by the
Chief Justice pursuant to article VI, section 6 of the California
Constitution.

STEVEN LUBLINER

1 App. 158

Page 2 of 44
2014 Cal. App. Unpub. LEXIS 5375, *1

BECTON, J.*—Defendant James Raphael
Whitty Mitchell was convicted in a jury trial of
first degree murder (Pen. Code, § 187),
corporal injury on a cohabitant (§ 273.5),1
kidnapping (§ 207), child abduction (§ 278),
child endangerment (§ 273a), and stalking (§
646.9). The jury found defendant personally
used a deadly weapon in counts one and two (§
12022, subd. (b)(1)), and personally inflicted
great bodily injury with respect to count two (§
12022.7). Additionally, there was an allegation
that the homicide occurred with the special
circumstance of kidnapping (§ 190.2, subd.
(a)(17)(B)), which the jury found to be not true.
Defendant was sentenced to imprisonment for
35 years to life.
The following issues are raised on appeal: (1)
whether the trial court erred by refusing to
allow defendant to discharge his retained
attorneys on the eve of trial or permit them to
withdraw; [*2]
(2) whether defendant's
retained
attorneys
provided
ineffective
assistance of counsel before trial or at
sentencing; (3) whether the trial court erred by
denying defendant's motion to appoint new
counsel for purposes of a new trial motion and
sentencing; (4) whether the trial court erred by
refusing to order a competency hearing under
section 1368; (5) whether the trial court
properly handled defendant's request for funds
to retain a psychiatric expert; (6) whether the
evidence was sufficient to sustain the
conviction for child endangerment; and (7)
whether the restraining order issued to protect
members of D.K.'s family was authorized under
section 646.9.

* Judge

of the Contra Costa County Superior Court, assigned by the
Chief Justice pursuant to article VI, section 6 of the California
Constitution.
1 Undesignated

statutory references are to the Penal Code.

We conclude that defendant was not deprived
of his Sixth Amendment right to counsel of his
choice by any of the court's rulings; defendant's
claims of an irreconcilable conflict amounted to
a difference of opinion about defense strategies,
which was a matter exclusively within
counsel's control. The denial of all of the
motions was within the trial court's discretion
due to the lateness of the requests and the
disruption of the proceedings that was sure to
ensue. We also find no evidence of ineffective
assistance of counsel before trial or at
sentencing and, in any event, [*3] could not
find any prejudice from counsel's handling of
this difficult case. The trial court acted within
its discretion in refusing to suspend criminal
proceedings under section 1368 and responded
reasonably to counsel's request for funds for a
psychiatric expert. There was more than
sufficient evidence of child endangerment.
Based on recent authority, however, the
restraining order was not properly issued in
favor of D.K.'s mother and child. We, therefore,
reverse the restraining order, but otherwise
affirm the judgment.
FACTUAL BACKGROUND

The Crimes
Defendant testified at trial, and much of the
following background comes from his
testimony. Defendant and D.K. met at a San
Francisco club in August 2007. They moved in
together about two weeks later. They had a
child together (the minor).
Defendant admitted at trial that he and D.K. got
into fights when one or both was drinking or
taking drugs, with defendant's preferred drugs
being marijuana and methamphetamine.

STEVEN LUBLINER

1 App. 159

Page 3 of 44
2014 Cal. App. Unpub. LEXIS 5375, *3

Although he used methamphetamine a lot when After that probation violation, defendant went
he was younger, he claimed he had used it only to Canada and stayed there in May and June.
two or three times since 2007.
During that time, he spoke with D.K. on the
phone at least once a day.
Defendant admitted he committed several acts
of domestic violence against D.K. before the In June 2009, after he returned from Canada,
crimes alleged in this case. [*4] First, in 2008, defendant began taking methamphetamine
when D.K. was pregnant, defendant slapped her again.
D.K.
caught
him
taking
during an argument in her apartment in San methamphetamine and packed her bags and
Francisco because she would not give him the left. D.K. and the minor moved in with D.K.'s
car keys. Defendant was arrested, pled guilty to mother in Novato.
a domestic violence charge, and was placed on
probation. Second, as they argued in the car On June 26, 2009, defendant went to D.K.'s
while moving possessions from his place to apartment (he testified it was at her invitation)
hers, defendant backhanded D.K. Third, when to see her and the minor. When he arrived,
defendant wanted to leave the apartment during D.K. and her mother did not seem to want him
an argument, he pushed D.K. out of the way. there. Her mother called 911. Defendant was
D.K.'s friend Erica was present on that confused, but left when asked. After a police
occasion. Fourth, defendant took D.K. and her officer responded, a call came in to D.K.'s
sister out to dinner in San Francisco. As he was phone from defendant. The officer took the call
driving them home afterwards, he and D.K. had and asked defendant to turn himself in.
a fight about trying to find drugs for the Defendant said he would "rather go home in a
evening. Defendant slapped D.K. Finally, he hit body bag" and threatened to kill the officer.
D.K. in the face and gave her a bloody nose D.K. [*6] had also obtained a temporary
while she was on the phone with his cousin, restraining order against defendant from the
starting to tell him that defendant was using Family Court in Marin County, in late March
drugs. She was holding the minor when he hit 2009. The temporary order was scheduled to be
her.
made permanent at a hearing on July 7, 2009.
Defendant and D.K. reunited after the incidents
of violence, sometimes at the initiative of D.K.,
despite stay-away orders. In March 2009,
however, defendant was arrested for a
probation violation based on D.K.'s allegation
that he had violated the San Francisco
restraining order. [*5] D.K.'s testimony from
that proceeding was read into the record. She
claimed defendant owned a gun in November
2007 and had pointed it at her before, and now
he told her he could easily get a gun within two
hours. Defendant was arrested, but released
after spending three or four days in jail, and his
probation was modified.

Neither defendant nor his attorney appeared for
the hearing, and a copy of the order was mailed
to him on July 10, 2009. Defendant denied
having received that order.
Phone records showed the many phone calls
defendant had made to D.K.'s phone in the
weeks preceding her death, including 92 calls
between June 16, 2009 and June 25, 2009, and
40 calls on June 26 alone. He twice called
D.K.'s best friend, Erica, once on July 5 (when
he left a message asking her to intercede on his
behalf with D.K.) and again on July 11 (the day
before the murder), when she accepted his call
directly. He admitted he had "fucked up," but

STEVEN LUBLINER

1 App. 160

Page 4 of 44
2014 Cal. App. Unpub. LEXIS 5375, *6

would do anything necessary to get back
together with D.K. and the minor. Defendant
said he missed the minor, but was not going to
"do anything stupid or crazy." He said, "I don't
know what to do anymore," and if D.K. just
told him she was in love with someone else,
"that'd be like a lot easier than just messin'
around with my emotions all the time."
Defendant called [*7] D.K. 78 times between
June 26 and July 12, 2009, but D.K. never
answered until July 12.
Vasiliki (Bessie) and Nicholas Tzafopoulos
(Nick), who was 80 at the time of trial, lived in
the downstairs unit of a duplex in Novato,
while D.K. and the minor lived with D.K.'s
mother in the upstairs unit. Shortly before 7:00
p.m. on July 12, 2009, Bessie heard a scream
and thought D.K. may have fallen down the
stairs with her child. Bessie looked out of her
living room window, but did not see anything.

were able to describe the man said he was
white, bald or having a shaved head, about six
feet tall, and "built up" or "heavyset," which
matched defendant's description.
The descriptions of the clothing worn by the
man were not consistent, however, and there
were weaknesses in the identification. One
neighbor thought the man carrying the child
was wearing a big, white T-shirt. Nick picked
the wrong man at a live lineup. The neighbor
who said the assailant was wearing a white Tshirt could not identify anyone in a photo
lineup that night, but he did identify defendant
with "95 percent" certainty at a live lineup a
week later. The neighbors testified to seeing
only one man involved in the altercation and
kidnapping. Nick testified the man he saw
hitting D.K. was the same man who ran off
with the child.
When police arrived they found D.K. on the
side of the residence, lying on her side with
multiple fractures to the back of her head and a
large amount of blood pooling around her head.
The officer [*9] checked for a pulse and
breathing, but found nothing. D.K. died on the
spot from blunt force trauma. D.K.'s keys were
found in her left hand. A black baseball bat lay
about two feet from her leg. Later examination
would show the bat had defendant's left index
fingerprint on it near the grip. Defendant is left
handed.

About the same time, Nick heard a thumping
sound and went outside to investigate. In the
side yard, from a distance of about 15 feet, he
saw a man repeatedly hitting D.K. on the head
with a baseball bat. Afraid for his personal
safety, Nick stepped back into the apartment
and told Bessie to call the police "because he's
here." Bessie called 911 and told the dispatcher
it was the child's father who was beating D.K.
Nick continued to hear the thumping noise as
he stood in the house. Nick was screaming at
the top of his lungs and said the man was using
John Morgan (Morgan), a close cousin of
a bat.
defendant, testified that he got a message from
Bessie then saw a white man run past the D.K.'s mother that evening saying defendant
window with a screaming child under his left had killed D.K. and taken the minor. Morgan
arm. The man had a shaved head and wore a called defendant and could hear the minor in
black T-shirt and [*8] jeans. Nick also saw a the background screaming. Morgan asked
man wearing dark clothes run away with a defendant if he knew D.K. was dead, and
child, down the dead-end court into a car. Two defendant said he did. Both men were crying.
other neighbors also saw a man running away Morgan tried to get defendant to take the minor
carrying a screaming child. The witnesses who someplace safe. Defendant said he was going to
STEVEN LUBLINER

1 App. 161

Page 5 of 44
2014 Cal. App. Unpub. LEXIS 5375, *9

Mexico, and authorities "would have to pry [the
minor] out of his dead, dying arms." Defendant
did not deny or admit killing D.K. Morgan
testified on cross-examination that he had never
seen defendant with a baseball bat and had
never seen a baseball bat at defendant's house,
even though he sometimes stayed in a room
there and had helped defendant move several
times. He did not recognize the bat that killed
D.K.
Defendant's brother, Justin [*10] Mitchell
(Justin), also received word that D.K. was dead
that evening and called defendant's cell phone.
It sounded like defendant was driving, and
Justin heard the minor in the background.
Defendant was teary and distraught. He said he
was taking the minor to Mexico. Defendant
talked about how much he loved the minor and
said he wanted to see her grow up and did not
want to be apart from her. Defendant also
mentioned he might take the minor to his own
mother. Defendant then said he had to go and
hung up. He neither admitted nor denied killing
D.K. Justin, too, had never seen defendant with
a baseball bat and had not known him to play
baseball or softball as an adult.

found in the trunk. Defendant was located
walking on a street several blocks from the car.
He did not resist arrest. He was wearing a red
and navy blue striped shirt and jeans.
Aside from the above testimony, there was
physical evidence that the front of defendant's
jeans had D.K.'s blood spatter on them, and the
pattern was consistent with the victim having
received blows to the head with the bat while
she was on the ground. The fine blood spatter
suggested defendant was only a few feet from
the source of the blood, probably less than five
feet away when D.K. was being bludgeoned
with the bat. The blood was all on the front of
his pants; no blood spatter appeared on the back
of them or on the shirt defendant was wearing
when he was arrested.

The prosecution had the bat tested for trace
DNA (i.e., not from blood). The primary
contributor was D.K., but defendant could not
be excluded as a low-level trace DNA
contributor, nor could the minor. If defendant
was a low-level contributor, then there was
another low-level contributor of trace DNA on
the bat, since the DNA sample included an
allele foreign to [*12] both D.K. and
Novato police called AT&T to track defendant.
defendant's cell phone and found he was
heading east on Interstate 80. They tracked him Phone records showed that defendant called
as far as Auburn, east of Sacramento. The car D.K. 19 times on July 12, but made no calls to
stopped in a residential location in Citrus her after 6:42 p.m.
Heights. Citrus Heights Police were notified,
and a perimeter was set up. When officers The Defense
approached the car they found the minor alone,
sleeping in the front seat. The minor was Defendant testified on his own behalf, raising a
unharmed, but she had a dried red substance on defense of mistaken identity. He claimed he did
her cheek and shoe that proved to be D.K.'s not kill D.K., but tried to raise a suspicion that
blood.
two other unidentified men may have. He
testified that on July 12, 2009, D.K. invited him
Defendant's passport was found in the [*11] over to her house. He left his home in Pittsburg
center console of the car, and a temporary sometime after 5:00 p.m. and drove to D.K.'s
restraining order dated March 20, 2009 was
STEVEN LUBLINER

1 App. 162

Page 6 of 44
2014 Cal. App. Unpub. LEXIS 5375, *12

apartment. He was wearing a red and blue
striped polo shirt and jeans. Defendant parked
at the base of the court and walked toward the
duplex.

call her while the police were there. Then his
mother called and told him D.K. was dead, and
D.K.'s mother was saying that defendant had
killed her. Defendant told his mother he could
not talk any longer because he had to talk to his
As he walked through the front gate, he heard lawyer [*14] right away.
D.K. yell, "help." He jogged around the corner
of the duplex and immediately became By chance, he ran into his attorney, Terrence
"engaged" with a man in a white shirt. The man Hallinan, at a gas station in Auburn that night.
had a "buzzed head" and "very light sky blue" He had run out of gas, and he left the minor in
eyes and bad breath. The two began pushing the car in order to separate himself from her
each other. As the two fought, out of the corner because he was afraid of what the police might
of his eye defendant saw a man in a black T- do if they caught up to his car.
shirt running past him. As he struggled with the
man in the white shirt, he was hit in the back Defendant testified he did not see anyone hit
with a baseball bat. He turned around and saw D.K. with a baseball bat, did not know she was
the guy in the black T-shirt and struggled with dead when he left with the minor, and did not
him. The man was a little taller [*13] than even see D.K. at all that day. He could not
defendant, well built, with hairy arms and gray explain how the blood spatter got on his jeans.
or brown eyes. Defendant tried to take the bat The defense presented testimony of the head
away from the man, and then re-engaged with coach of women's softball at San Francisco
the man in the white shirt. The man in the white State College that the softball bat used in the
shirt then knocked defendant down. He assault was the kind that would be used by a
immediately hopped back up and then ran high school or small college man or woman.
down the cul-de-sac because he heard the D.K.'s mother, called by the defense, denied
minor screaming.
having seen the bat around her home. She
testified that her other children played baseball
or softball as children, but D.K. did not. She
claimed the children's bats had been given
away to Goodwill. D.K.'s mother was
impeached by the county coroner, who testified
that on the day after the murder, she told him
the bat may have been in the laundry room of
As defendant started to head back to D.K.'s her apartment prior to the murder.
apartment, he heard someone say, "call 9-1-1."
Defendant then remembered he had a The defense also presented testimony [*15]
restraining order and decided to leave before that a urine test done after defendant's arrest
showed he had no alcohol in his system and a
the police arrived.
small amount of methamphetamine tending to
Defendant drove north on Highway 101. He indicate defendant had used methamphetamine
called his cousins. He planned to go to his within the past five days, or if he was a chronic
cousin's house to wait for D.K. to call him. He user, it may have been detectable for up to
did not call D.K. because he did not want to seven days.
Defendant chased the man in the black T-shirt,
who had the minor. Defendant caught up to the
man and faced him. He told the man to give
him the minor, and then batted him on the
cheek and kicked him in the shin. The man let
defendant grab the minor and then ran away.

STEVEN LUBLINER

1 App. 163

Page 7 of 44
2014 Cal. App. Unpub. LEXIS 5375, *15

Defense Counsel's Closing Argument
In closing argument to the jury, Stuart Hanlon,
who represented defendant at trial, first
suggested it was not unbelievable that D.K. had
invited defendant over to her house since she
had previously initiated contact with him
despite restraining orders. This, he argued, was
also consistent with the testimony of a domestic
violence expert who acknowledged couples
have trouble separating, even in abusive
relationships. Having adduced evidence tending
to show the baseball bat belonged to D.K., not
defendant, Hanlon argued that defendant did
not bring the bat with him and, thus, there was
insufficient evidence of premeditation and
deliberation. He also noted that defendant did
not bring with him the things he would have
wanted if he had been planning to kidnap the
minor, such as diapers and bottles. Using this
evidence, he argued against a first degree
murder conviction based [*16] on either
premeditation and deliberation or felony
murder, as well as arguing against the
kidnapping special circumstance.

he argued that defendant must have been
"locked in" on the man in the white shirt, with
whom he was fighting, so that he did not notice
D.K. being murdered. He argued that
defendant's fingerprint could have got on the
bat when he struggled with the man in the black
T-shirt over the bat.

Finally, near the end of his argument, Hanlon
explained—if the jury did not believe
defendant's version of the events—still, the
crime [*17] most likely occurred in an
"explosion of anger," and in the "heat of
passion." He pointed out the coincidence of the
date with defendant's father's death, which
tended to suggest that some kind of
psychological factors may have been at work.
He argued that defendant's phone calls to D.K.
had not been threatening, but rather sad and
"pathetic" pleas to get back together with her.
And he recited that Erica testified defendant did
not sound angry and she believed he was
sincere in wanting to change his ways when she
talked to him on July 11. None of this pointed
to a premeditated murder. Hanlon theorized
that D.K. must have said something, such as
telling defendant he could not see the minor,
Hanlon then argued the believability of that made him snap, and the killing occurred in
defendant's testimony as best he could. He a fit of rage.
pointed out weaknesses in the witness
identifications, and reminded the jury that other
witnesses had testified about both a man in a PROCEDURAL HISTORY
black T-shirt and a man in a white T-shirt,
which was consistent with defendant's
testimony about the two other men with whom
he claimed he had a confrontation. Defendant, Continuances to Change Counsel
on the other hand, wore a blue and red striped
We now turn to the lengthy procedural history
shirt, and the prosecution never presented
in this case. On December 4, 2009, the
evidence that he changed his shirt after the
information was filed, and defendant appeared
crime.
for arraignment with attorney Hallinan. The
Hanlon admitted defendant must have been court tentatively set jury selection for May 27,
near D.K. when she was beaten to death 2010. On February 24, 2010, the parties
because of the blood spatter on his jeans. But appeared and Hallinan informed the court that
STEVEN LUBLINER

1 App. 164

Page 8 of 44
2014 Cal. App. Unpub. LEXIS 5375, *17

he had been fired by defendant.

bond." Horngrad said he had been very clear
with Hanlon that the trial dates could not be
On March 11, 2010, Hallinan appeared along moved, and Hanlon had agreed to them.
with Douglas [*18] Horngrad, who announced
his intention to substitute in as defendant's The judge reconvened in open court where Rief
retained attorney. Horngrad said he had just stated they "were ready and available for the
been retained that week, and he would need a dates that this Court has previously set." The
60-day continuance because it was a "huge court said it would allow defendant to change
case." The trial court expressed concern about a counsel, but only if new counsel were prepared
substantial continuance.
to "take on the trial date." The judge stressed
that the trial date had already been continued
The prosecution indicated it had no objection to from October to January, and the court was
a continuance for trial until September of 2010. "not inclined to start shifting lawyers again just
The prosecutor stressed the People's right to a to continue the trial date." Horngrad said his
speedy trial, and pointed out that two of the trial preparation in the case was very complete
witnesses were very elderly. The court allowed and he would give his files to Hanlon.
a substitution on Horngrad's assurance he could
begin the trial on October 21, 2010.
On December 16, 2010, both sides agreed to a
two-week continuance because of issues with
On August 8, 2010, Horngrad requested transportation [*20] of the bat to a defense
another continuance of about four months laboratory. The trial was reset for February 3,
based on problems with the processing of the 2011.
DNA evidence. The court continued the trial to
January 20, 2011 for jury selection.
On January 20, 2011, defense counsel raised
more issues with regard to DNA testing and
On September 1, 2010, Horngrad appeared and sought a continuance of trial to mid-March. The
moved to withdraw as counsel, telling the court court affirmed its belief that both sides were
that Hanlon and his associate, Sara Rief, would working diligently, but stressed that the case
be substituting in. At a closed hearing, counsel was nearing two years old and "I can't just
explained that he and defendant had a ignore that." The court continued the trial date
disagreement about defense strategy, and "it to June 17. Jurors would be summoned on May
was communicated to me both directly and 9, juror questionnaires would be provided, and
indirectly that there are concerns regarding my hardship requests would be discussed. A jury
physical safety that should compel [*19] me to would be selected beginning June 14. Opening
adhere to [defendant's] strategies . . . rather than statements were to commence on June 17, with
the strategies that I believe were legally sound." presentation of evidence to begin on June 21.
The court expressed concern whether such
problems might occur with "any defense
attorney," making clear it did not want to have
the next counsel come in and say there was a
similar problem. Horngrad assured the court
that Hanlon "is a terrific attorney" and "an
extremely gifted lawyer . . . whose word is his

Defendant's Request to Remove Retained
Attorneys and Substitute the Public Defender
On May 10, 2011, at the commencement of
jury selection, defendant moved to relieve his
attorneys and to have the case turned over to

STEVEN LUBLINER

1 App. 165

Page 9 of 44
2014 Cal. App. Unpub. LEXIS 5375, *20

the public defender due to his indigence. He
complained that "trust issues" had arisen
between him, Hanlon and Rief. He said his
defense attorneys were just telling him what he
wanted to hear, but were not being forthright
with him. Defendant informed the court he was
going to sue his attorneys and asked, "So,
why [*21] am I going to . . . sit with counsel
who I'm possibly going to sue?" Defendant did
not question counsel's competence—especially
after the court told him there were "no more
competent lawyers than the ones you've had,"
and that "the reputation of . . . the lawyers you
have now is just extraordinary." But he did
question their honesty.
The court denied the motion due to the
imminence of trial, the fact that jurors had
already appeared for hardship excusals,
witnesses had been subpoenaed, and granting
the motion would cause an inevitable delay in
and disruption of the trial. It then proceeded to
convene groups of jurors and required them to
fill out juror questionnaires. Over the course of
the next month, the court and counsel
adjudicated the numerous hardship and cause
challenges.
Defense Counsel's Request for Funds for a
Psychiatric Examination
At an ex parte hearing on May 25, 2011, which
defendant did not attend, Hanlon requested
$20,000 to $30,000 from the court for a
forensic psychiatric examination of defendant.
Hanlon told the court there was much evidence
that defendant possibly had psychological
problems. Hanlon confirmed defendant would
testify he did not commit the murder,
and [*22] said there was some evidence
supporting that theory. But, he added,
"[w]hether I argue that or not will be up to me."
Hanlon suggested that, based on interviews

with family members, defendant had "a history
of . . . mental issues." And despite defendant's
strong wishes to the contrary, "I have an
obligation to explore as best I can all avenues
of defense." We shall discuss the record of this
colloquy in more detail in section V, below.
Defendant's Request to Represent Himself
On Friday, June 10, 2011, in open court while
discussing juror issues, defendant said he
wanted to represent himself, and there would be
no disturbances or delays. Defendant explained:
"It's really a personal problem, and I don't trust
him. I don't like him. I don't want anything to
do with them. They've been way too disruptive.
Like if they're going to lie to me, I can only
imagine that they're going to lie to a jury. This
man wants to do that to a jury, I can only
imagine the blowback and the effect that it's
going to have on me as a defendant in this case.
And like I said if we want to discuss it further,
we could discuss it under seal. But other than
that, it's my right. [¶] I've done the research. I
can go [pro. per.] [*23] any time I wish or any
time that I see. I have to say I'm very competent
in the case. I know the information. The only
thing I'd ask the Court to do is order present
counsel I do have right now to turn over all
documents, all—like all investigations, like,
you know, all experts, like everything, all the
trial books, everything that they have done thus
far and then turn it over to me here in the jail.
And our next court date is June 14th, right? [¶] .
. . [¶] We're dark on Mondays. I'll be ready to
go on Tuesday. If they turn everything over to
me today or Saturday, I'll be ready to go on
Tuesday." Defendant assured the court he was
ready to proceed on the pending motions "right
now." The court stated, "Well, it sounds as
though you know what you're doing and that
you want to make this decision."

STEVEN LUBLINER

1 App. 166

Page 10 of 44
2014 Cal. App. Unpub. LEXIS 5375, *23

In response to an inquiry from the court,
Hanlon said: "My understanding of the law is
Mr. Mitchell, if he's prepared to go on Tuesday,
he has an absolute right to represent himself.
For what it's worth, he's intelligent. He
understands the facts of the case, which I've
discussed at length with him. He understands
the issues. He's been able to communicate with
me about these matters. [¶] On [*24] that
basis—I'm not commenting on what he said or
why he wants to do this, but if I had any doubts
about his competency, I would say. In terms of
being able to understand the issues and the law,
my discussion with him for the last period of
time however long it's been since I've been his
lawyer, he does have that ability, and he
understands. He certainly understands the
issues in the case, discussed the legal concepts
with me at length. That—that's my only real
comment."
The court continued the trial until Monday, and
ordered Hanlon to produce the entire file to
defendant over the weekend. The court
concluded by assuring defendant that he had
the right to represent himself.
On Monday, June 13, 2011, defendant
acknowledged receipt of the files and still
wanted to represent himself. Defendant then
produced a list of requests to the court,
including the need to procure counsel's "case
law studies . . . from Westlaw," to confer with
Hanlon's investigator, to have the court order
the jail to allow him out of his cell for four or
five hours a day, to receive a copy of the
Evidence Code, and finally, he said he needed
time to interview witnesses. Defendant said
under current conditions, with [*25] only one
to two hours a day out of his cell, he could be
ready to proceed to trial "in four weeks, and
this is like after we do voir dire . . . ." He
indicated that if he could get out of the cell

more, for four or five hours a day, he could be
ready by June 28. The prosecution objected to
the continuance.
The court reminded defendant he had earlier
stated he would be able to go to trial without a
continuance. In light of defendant's need for
another continuance, the court noted its
decision was "discretionary." It made a detailed
ruling denying defendant's request, including
that jury selection had already been underway
for a month, in limine motions had been
adjudicated, prior continuances had been
granted to accommodate defendant's changes of
counsel, and "most importantly," defendant
would need "at least four weeks" to get ready to
go to trial.
Retained Counsel's Request to Withdraw
Immediately after that ruling, Hanlon moved to
withdraw as counsel. The court convened a
closed hearing with Hanlon, Rief and
defendant. Hanlon told the court defendant had
threatened him and Rief, and they had concerns
for their safety. Hanlon said he was afraid to sit
at the counsel table with defendant [*26]
because he might "get a pencil in [his] face."
He also said he could no longer communicate
with defendant and could not act competently
as counsel because he no longer felt a sufficient
commitment to his client. He said he had two
letters he considered threatening, but he would
not show them to the court based on attorneyclient privilege.
The court noted this was a "discretionary"
ruling and was "similar analysis" to the "[pro.
per.] request." The judge looked at whether the
withdrawal would "work an injustice in the
handling of the case" or would "cause a delay,"
concluding that if counsel were to be relieved
"it would cause a horrible injustice in the

STEVEN LUBLINER

1 App. 167

Page 11 of 44
2014 Cal. App. Unpub. LEXIS 5375, *26

handling of the case" and would "require an
undue delay." The judge complimented Hanlon
and Rief, saying they were "two of the most
competent lawyers" to appear in her court, were
always "thorough, . . . competent, . . . [and]
ready to go," and had provided defendant with
"excellent representation" so far.

Opening statements were made on June 21,
2011. Evidence was taken from June 21
through July 6. The jury began deliberating on
July 8 and returned its verdicts [*28] on the
next court date, July 12.
Posttrial Proceedings

Defendant denied any such threats were
"imminent" or "dangerous." He said his letters
to counsel were a product of his frustration and
anger with being locked up "23 hours a day."
He said he "like[d]" Hanlon and Rief and
would not harm "people [*27] who he care[d]
about."
Based on the timing and other factors it
considered in denying the pro. per. request, the
court also denied counsel's request to withdraw.
Counsel Expresses a Doubt as to Defendant's
Competency
When the matter was reconvened in open court,
Hanlon expressed doubt as to defendant's
competence. The court declined to suspend
criminal proceedings to hold a section 1368
hearing based in part on the court's own
discussions with defendant in the course of his
Faretta motion and Hanlon's motion to
withdraw, in part on Hanlon's contradictory
statements about defendant's competency to
represent himself, and based on the fact that
Hanlon had represented defendant for nine
months without expressing a doubt about his
competency. The court noted that the
expression of doubt came on the heels of the
denial of Hanlon's motion to withdraw, and the
"timing is suspicious." The next day Hanlon
filed a declaration supplementing the factual
basis for his doubt about defendant's
competency, but the court again declined to
initiate a competency hearing.

The court scheduled the sentencing hearing for
August 16, 2011, taking into account Hanlon's
scheduling conflicts that would prevent his
availability from early September to October.
On August 8, Hanlon filed "Defendant's
Request to Relieve Present Counsel and
Request for Appointment of New Counsel for
Purposes of Sentencing and Motion for New
Trial." In the motion, Hanlon stated that
defendant wished to have new counsel
appointed to pursue a new trial motion based on
Hanlon's purported ineffective assistance at
trial. Hanlon expressed his disagreement that he
had rendered ineffective assistance. Hanlon
also requested to withdraw for purposes of
sentencing because of defendant's "lack of
faith." The prosecution filed a written
opposition.
At the commencement of the August 16
hearing, the trial court brought up the motion,
and the parties agreed that a hearing out of the
presence of the prosecutor was appropriate. At
that hearing, the trial court asked defendant to
explain why he believed Hanlon had been
ineffective at trial. The reasons included most
prominently Hanlon's raising a heat of passion
defense in closing argument, which [*29]
defendant believed was inconsistent with his
testimony.
After hearing defendant's complaints, the trial
court denied the motions, finding no evidence
of ineffective assistance by Hanlon. In fact, the
court believed Hanlon's representation had been

STEVEN LUBLINER

1 App. 168

Page 12 of 44
2014 Cal. App. Unpub. LEXIS 5375, *29

"excellent," and his handling of the inconsistent In denying the substitution, the judge said, "Of
defenses was "sort of a brilliant argument."
course, I have to consider the defendant's
request, which is that he have counsel of his
Sentencing went forward on August 16, with choosing." Nevertheless, she noted that Hanlon
defendant receiving a 35 to life prison sentence, and Rief were defendant's third set of attorneys,
consisting of a 25 to life sentence for the and they were "very competent, experienced,
murder of D.K. with one consecutive year for excellent lawyers." The court reminded
the deadly weapon enhancement, the defendant that the trial had been continued
aggravated term of eight consecutive years for several times at his request, mostly to get new
kidnapping, and one consecutive year for counsel ready. Further, the court again
stalking. Sentences for the remaining crimes remarked that the case was two years old,
and enhancements were imposed, but stayed motions in limine had been completed, the
under section 654.
current date was the day set to hear juror
hardships, and the court was only informed of
defendant's request the previous day.
DISCUSSION
"We have 65 witnesses approximately under
subpoena, 800 jurors have been summoned, a
hundred of them for today, and [*31] they're
I. Issues Relating to Legal Representation at upstairs. And I think that any further delay
Trial
would result in a complete disruption of an
orderly and just process. There's not another
counsel here ready to go. The only way that
Mr. Mitchell could have what he wants was if I
A. Motion to Discharge Retained Attorneys
discharged counsel, reset the case again, reand Substitute in the Public Defender
subpoenaed witnesses, re-summoned jurors,
When defendant made his first motion to and then gave counsel additional time to
discharge Hanlon and Rief and substitute in the prepare. And then if there's a discontent
public defender, jury selection was about to between that attorney and this defendant, I'm
begin. Defendant explained his "trust issues" not sure where we would be. Seems that
with counsel as follows: "I have letters written perhaps that's a common thread. In any event,
from them, like, you know, from their office it's the 11th hour. We've already proceeded
saying like we're going to help you with with in limines, jurors are upstairs. I'm denying
this, [*30] and we're going to do whatever. the request on balance pursuant to" People v.
And then I learn[ed] like two weeks before jury Keshishian (2008) 162 Cal.App.4th 425, 75
hardships that's not the case, that it's completely Cal. Rptr. 3d 539 (Keshishian).
like, you know, it's like, you know, they're not
going to do it whatsoever." Defendant said he Both an indigent and a nonindigent criminal
wished he had learned "this" four months ago, defendant have the right to discharge a retained
instead of "now." Defendant concluded it "kind attorney with or without cause. "A nonindigent
of raises an alarm in me—it alarms me what defendant's right to discharge his retained
else are they not telling me and what else are counsel, however, is not absolute. The trial
court, in its discretion, may deny such a motion
they misleading me on."
STEVEN LUBLINER

1 App. 169

Page 13 of 44
2014 Cal. App. Unpub. LEXIS 5375, *31

if discharge will result in 'significant prejudice'
to the defendant [citation], or if it is not timely,
i.e., if it will result in 'disruption of the orderly
processes of justice' [citations]. . . . [T]he 'fair
opportunity' to secure counsel of choice [*32]
provided by the Sixth Amendment 'is
necessarily [limited by] . . . the interest in
proceeding with prosecutions on an orderly and
expeditious basis, taking into account the
practical difficulties of "assembling the
witnesses, lawyers, and jurors at the same place
at the same time."' The trial court, however,
must exercise its discretion reasonably: 'a
myopic insistence upon expeditiousness in the
face of a justifiable request for delay can render
the right to defend with counsel an empty
formality.' [Citation.]" (People v. Ortiz (1990)
51 Cal.3d 975, 983-984, 275 Cal. Rptr. 191,
800 P.2d 547 (Ortiz).)
In the case of an untimely motion to discharge
retained counsel, we apply the abuse of
discretion standard on appeal. (See, e.g., People
v. Lara (2001) 86 Cal.App.4th 139, 153-155,
165-166, 103 Cal. Rptr. 2d 201.) "A trial
court's exercise of discretion will not be
disturbed unless it appears that the resulting
injury is sufficiently grave to manifest a
miscarriage of justice. [Citation.] In other
words, discretion is abused only if the court
exceeds the bounds of reason, all of the
circumstances being considered." (People v.
Stewart (1985) 171 Cal.App.3d 59, 65, 215 Cal.
Rptr. 716.)
There is no question in the present case that
denial of the May 10, 2011 motion was
justified. In balancing defendant's request
against the disruption of the trial process, the
trial court was expressly guided by Keshishian,
supra, 162 Cal.App.4th 425, which held:
"Because the right [*33] to discharge retained
counsel is broader than the right to discharge

appointed counsel, a Marsden-type hearing2 at
which the court determines whether counsel is
providing adequate representation or is tangled
in irreconcilable differences with the defendant
is '"[an] inappropriate vehicle in which to
consider [the defendant's] complaints against
his retained counsel."' [Citations.] Instead,
under the applicable test for retained counsel,
the court should 'balance the defendant's
interest in new counsel against the disruption, if
any, flowing from the substitution.' [Citation.]"
(Keshishian, supra, at p. 429.) Indeed it has
been recognized that a motion to substitute
counsel may be denied as untimely, especially
when made during jury selection. (People v.
Williamson (1985) 172 Cal.App.3d 737, 745,
218 Cal. Rptr. 550 [motion to substitute
appointed counsel]; People v. Molina (1977) 74
Cal.App.3d 544, 547-548, 141 Cal. Rptr. 533
[request for continuance to retain counsel in
lieu of appointed counsel]; see also People v.
Turner (1992) 7 Cal.App.4th 913, 918-919, 9
Cal. Rptr. 2d 388 [denial of substitution on day
of hearing on probation revocation where
defendant represented by staff attorney at legal
services clinic].)
More recently, in People v. Maciel (2013) 57
Cal.4th 482, 160 Cal. Rptr. 3d 305, 304 P.3d
983 (Maciel), the Supreme Court encountered a
multiple-defendant death penalty case in which
the defendant, whose trial had been severed,
sought to discharge retained counsel
approximately six [*34] weeks before the case
was called for trial. (Id. at pp. 510-513.) The
trial court denied the motion and the Supreme
Court affirmed: "We conclude that the trial
court acted within its discretion in denying
defendant's motion to discharge counsel. At the
time the motion was made, the case had been

2 People

v. Marsden (1970) 2 Cal.3d 118, 84 Cal. Rptr. 156, 465

P.2d 44.

STEVEN LUBLINER

1 App. 170

Page 14 of 44
2014 Cal. App. Unpub. LEXIS 5375, *34

pending for two years. Trial was imminent and,
in fact, began about six weeks later. Defendant
had no substitute counsel in mind; rather, he
requested that the court appoint counsel. New
counsel would have had to study the records in
each former codefendant's trial as well as in this
case, resulting in significant delays. In
evaluating timeliness, the trial court properly
considered the long delay that would have
resulted from changing counsel in this case."
(Id. at pp. 512-513.)
Here, as in Maciel, the predictable disruption
was great, as articulated by the trial court and
quoted above. The case had already been
pending for nearly two years. Jurors had been
summoned and witnesses subpoenaed. Two
important witnesses were elderly, the only
eyewitness to the beating being 80 years old. It
is undeniable that substituting in the public
defender at that late date would have required a
substantial delay. Denial of defendant's
motion [*35] was directly tied to the delay and
disruption that inevitably would have flowed
from granting it. The court did not abuse its
discretion. (See People v. Turner, supra, 7
Cal.App.4th at pp. 915-916, 918-919 [court's
denial of belated request to discharge counsel
proper because the request was unduly
disruptive
to
"witnesses
and
other
participants"]; People v. Lau (1986) 177
Cal.App.3d 473, 477-479, 223 Cal. Rptr. 48
[denial of substitution based on disagreement
between counsel and client regarding
defendant's guilt or innocence, though resulting
in a loss of trust on the part of the client and
anger on the part of the attorney, was justified
by the lateness of the request].)
Defendant attempts to distinguish Keshishian
because in that case the client had simply "lost
confidence" in his attorneys. (Keshishian,
supra, 162 Cal.App.4th at p. 428.) But we find

defendant's complaint of "trust" issues to be
very close on its facts. In Keshishian, as here,
the defendant was charged with murder. As
here, the defendant appeared with retained
counsel on "the day the matter was called for
trial." (Id. at p. 427.) Both cases had been
pending for a long time: nearly two years in our
case and two and a half years in Keshishian.
(Id. at p. 428.) Previous continuances had been
granted in both cases at the defense's request.
(Ibid.) The Court of Appeal noted in
Keshishian
that
"[a]n
indefinite
continuance [*36] would have been necessary,
as [defendant] had neither identified nor
retained new counsel." (Id. at p. 429.) True
here also. And in both cases the courts held
retained defense counsel in high regard, and
both counsel appeared ready for trial. (Compare
Keshishian, supra, at p. 428 ["some of the best
attorneys in all of Southern California"] with
our case ["two of the most competent lawyers"
to appear in her court].) "Witnesses whose
appearances had already been scheduled would
have been further inconvenienced by an
indefinite delay." (Id. at p. 429.) So, too, here.
On these very similar facts Keshishian held:
"'"The right to counsel cannot mean that a
defendant may continually delay his day of
judgment by discharging prior counsel,"' and
the court is within its discretion to deny a lastminute motion for continuance to secure new
counsel." (Keshishian, supra, 162 Cal.App.4th
at p. 429.) Under Maciel and Keshishian, we
find there was no abuse of discretion in denying
the substitution motion.
Defendant insists, however, he had an actual
conflict of interest with Hanlon because he had
a potential lawsuit against him, which he claims
required the court to allow him to replace
Hanlon with new counsel, citing U.S. v. Moore
(9th Cir. 1998) 159 F.3d 1154, 1158-1160

STEVEN LUBLINER

1 App. 171

Page 15 of 44
2014 Cal. App. Unpub. LEXIS 5375, *36

(Moore). Moore involved a federal prosecution
for conspiracy to distribute cocaine [*37] and
possession for distribution. (Id. at p. 1155.)
Moore wanted to put on a defense of
withdrawal from the conspiracy, but his
counsel disagreed. (Id. at p. 1156.) However,
Moore differed from our case in that Moore's
attorney failed to communicate to Moore a plea
bargain offer until it was too late to respond.
(Id. at p. 1158.) Moore, in response, threatened
to sue him and reacted so badly that his
attorney felt physically threatened. (Id. at p.
1159.) Moore's counsel moved to withdraw at
Moore's request. (Ibid.) The Ninth Circuit
concluded that defendant and his attorney had
"no actual conflict because Moore's threat to
sue [his attorney] for ineffective assistance was
not inconsistent with [the attorney's] goal of
rendering effective assistance." (Id. at p. 1158.)

collapses" that the courts must be concerned
about violation of the Sixth Amendment right to
counsel. Having found a complete breakdown
in the relationship, the court did not require a
showing of prejudice. "A defendant need not
show prejudice when the breakdown of a
relationship between attorney and client from
irreconcilable differences results in the
complete denial of counsel." (Moore, supra,
159 F.3d at p. 1158, italics added.) The factors
considered by the court in assessing whether
there was an irreconcilable conflict were: "(1)
the extent of the conflict; (2) the adequacy of
the inquiry; and (3) the timeliness of the
motion." (Id. at pp. 1158-1159.)
The extent of the conflict was more serious in
Moore, where the court found the defendant
had valid grievances against counsel, including
failure to [*39] timely inform him of plea
negotiations and failure to prepare for trial.
(Moore, supra, 159 F.3d at p. 1159.) Here, by
contrast, we see no likelihood that the
difficulties in the relationship resulted from
Hanlon's negligence or lack of preparation. The
underlying dispute was essentially one of
tactics. Defense counsel were not refusing to
put on a defense that defendant wanted to
assert, but rather were considering putting on
an additional and alternative "defense" of
mitigated culpability. There was never any
claim that Hanlon was unprepared for trial or
had blown his client's chance to get a favorable
plea bargain.

Thus, Moore is not favorable to defendant's
position on conflict of interest: "Although a
lawsuit between defendant and counsel can
potentially create an actual conflict of interest,
we do not find that Moore's threat actually
resulted in a conflict in this case. . . . Moore's
threat of a malpractice suit never went beyond
the threat to file a claim against [his attorney].
Despite Moore's assurances that he had a valid
claim for malpractice, finding an actual conflict
from a mere threat would [*38] allow
defendants to manufacture a conflict in any
case. We decline to adopt such an unbounded
rule. While Moore's threat is evidence of the
breakdown of the attorney-client relationship,
we agree with the district court that it was Moore's attempts to substitute counsel were
insufficient to create an actual conflict of also more timely than defendant's. Moore
brought the problems to the court's attention
interest." (Moore, supra, 159 F.3d at p. 1158.)
four times before trial, nearly a month before
The Moore court went on to find an the trial was scheduled to begin and six weeks
irreconcilable breakdown between Moore and before it actually began. He raised the issue at
counsel, noting it is only "if the relationship the first opportunity following his explosive
between lawyer and client completely meeting with counsel in which he learned that
STEVEN LUBLINER

1 App. 172

Page 16 of 44
2014 Cal. App. Unpub. LEXIS 5375, *39

the plea bargain was no longer available.
(Moore, supra, 159 F.3d at pp. 1158-1159.)
Even Moore's final attempt to obtain substitute
counsel was made two weeks before trial and
was deemed timely. (Id. at p. 1161.) We also
note that Moore's case had been pending for a
far shorter time than the present [*40] case,
there was no mention in Moore of any previous
attempts by the defendant to change counsel
(and the timing of events suggests there had
been none), and the opinion does not disclose
whether as lengthy a trial was required.
Moore was also backed up by his counsel
throughout the substitution motions in
affirming there had been a breakdown (Moore,
supra, 159 F.3d at pp. 1156, 1158, 1161),
whereas Hanlon did not move to withdraw or
bring the purported threats to the court's
attention until more than a month after
defendant's May 10 motion, when jury
selection had been underway for more than a
month. The Ninth Circuit in Moore found no
continuance would have been necessary had the
motion been granted when the attorney-client
discord first was brought to its attention. (Id. at
p. 1161.) The same is not true here.
In Moore, as here, the court learned more as
time progressed, and by two weeks or more
before trial actually commenced, the court in
Moore was aware the attorney felt physically
threatened by the defendant. (Id. at pp. 11591160.) In Moore, the Ninth Circuit held the
district court largely to blame for the way the
facts trickled in, finding the district court's
initial inquiries to have been "minimal." (Id. at
p. 1160.) We do not find the same defect in the
proceedings [*41] below.
In our case, defendant mentioned primarily
"trust issues" in his May 10, 2011 motion.
Defendant seems to argue on appeal that there

had been a complete and irreconcilable
breakdown of the attorney-client relationship
even as of May 10, claiming that view is
supported by Hanlon's request to withdraw on
June 13. But at the time of defendant's May 10
motion, defense counsel did not represent to the
judge there was any desire by the attorneys to
withdraw. Rief, who appeared with defendant
that day, was invited to speak, but did not voice
any comment at all. She did not, as defendant
seems to contend, inform the court there had
been an irreconcilable breakdown in the
attorney-client relationship, nor did she inform
the court of any threats. (People v. Sanchez
(1995) 12 Cal.4th 1, 37, 47 Cal. Rptr. 2d 843,
906 P.2d 1129 ["In reviewing denial of motion
to substitute attorneys, the court 'focuses on the
ruling itself and the record on which it is made.
It does not look to subsequent matters . . . .'"].)
Defendant also cites cases involving counsel
with conflicting loyalties due to representation
of other clients involved in some manner in the
defendant's case. Leversen v. Superior Court
(1983) 34 Cal.3d 530, 533-535, 538-540, 194
Cal. Rptr. 448, 668 P.2d 755, in which defense
counsel discovered at trial that his firm had
formerly represented a trial witness [*42] and
cosuspect in different proceedings, held
counsel's motion to withdraw was improperly
denied. In Uhl v. Municipal Court (1974) 37
Cal.App.3d 526, 112 Cal. Rptr. 478, the
superior court ordered the municipal court to
allow a public defender to withdraw as counsel
based on an asserted conflict of interest with
another of the office's clients in a different
proceeding, without requiring the attorney to
provide further details. Because the claim of a
potential conflict was within the realm of
"informed speculation," and because it would
have violated the public defender's ethical
duties to represent conflicting interests, the
order was upheld on appeal. (Id. at pp. 529,

STEVEN LUBLINER

1 App. 173

Page 17 of 44
2014 Cal. App. Unpub. LEXIS 5375, *42

532, 535-536.) We cannot equate defendant's
dispute with Hanlon over strategy with an
actual
conflict
resulting
from
dual
representation of clients with adverse interests.
(Cf. Glasser v. United States (1942) 315 U.S.
60, 69-70, 62 S. Ct. 457, 86 L. Ed. 680
[attorney hired by one defendant in conspiracy
trial appointed to simultaneously represent
codefendant who had inconsistent interests].)
In U.S. v. Adelzo-Gonzalez (9th Cir. 2001) 268
F.3d 772, an irreparable breakdown had
occurred where appointed counsel argued
vigorously against a defendant's substitution
motion, called defendant a "liar," and according
to the defendant, threatened to testify against
him at trial and to "sink him for 105 years." (Id.
at pp. 778-779.) The Ninth Circuit found the
extent of [*43] the conflict "prevented the
attorney
from
providing
adequate
representation." (Id. at p. 781.) No such open
antagonism was displayed in the present case.
The
case
is
both
nonbinding
and
distinguishable.
Only in the most extreme circumstances have
the
courts
found
a
breakdown
in
communication sufficient to establish a Sixth
Amendment violation. (See, e.g., Frazer v. U.S.
(9th Cir. 1994) 18 F.3d 778, 780 [appointed
attorney called his client a "'stupid nigger son
of a bitch,'" and said he hoped defendant would
"'get life,'" and said if defendant continued "'to
insist on going to trial,'" counsel would prove to
be "'very ineffective'"]; United States v.
Williams (9th Cir. 1979) 594 F.2d 1258, 1260
[where attorney-client relationship had for
some time been "stormy," with "quarrels, bad
language, threats, and counter-threats," court
erred in summarily denying substitution motion
made a month before trial].) In U.S. v. Nguyen
(9th Cir. 2001) 262 F.3d 998, 1004-1005, it
was primarily the district court's failure to

conduct an adequate inquiry that led to the
reversal of the defendant's conviction on
grounds that a substitution motion had been
improperly denied.
Additional cases cited by defendant are not
helpful to his position. People v. Abilez (2007)
41 Cal.4th 472, 488, 61 Cal. Rptr. 3d 526, 161
P.3d 58, involved a Marsden motion by a
defendant charged with sodomizing and
murdering his mother. He claimed his attorney
(1)
was
"overly
concerned
with
convincing [*44] defendant to accept a plea
bargain"; (2) "discussed the case with his
(counsel's) teenage son"; (3) "was disrespectful
and sarcastic"; and (4) "had not discussed the
defense witnesses with him." (Id. at pp. 485486.) The Supreme Court found no error in the
court's denial of the motion because the
defendant did not claim any lack of preparation
by defense counsel, and counsel explained the
other accusations. (Id. at pp. 486-490.)
Likewise, Manfredi & Levine v. Superior Court
(1998) 66 Cal.App.4th 1128, 78 Cal. Rptr. 2d
494 (Manfredi), involved an attorney's motion
to withdraw due to an ethical conflict, while he
refused to divulge any details about the
conflict. The Court of Appeal upheld the trial
court's denial of the motion. (Id. at pp. 11351136; see also People v. Horton (1995) 11
Cal.4th 1068, 1105-1107, 47 Cal. Rptr. 2d 516,
906 P.2d 478 [denial of counsel's motion to
withdraw upheld on appeal where client had
filed malpractice action against counsel, but
dismissed it during jury selection and court
concluded the lawsuit had no merit].) These
cases do not advance defendant's cause.
Based on the foregoing authorities, we
conclude the trial court's ruling on the first
motion to substitute counsel was not an abuse
of discretion.

STEVEN LUBLINER

1 App. 174

Page 18 of 44
2014 Cal. App. Unpub. LEXIS 5375, *44

B. Defendant's June 10, 2011 Request to
Dismiss Counsel and Represent Himself
Next, on June 10, 2011, after the court and
counsel had gone through a month of hardship
challenges, [*45] defense counsel announced
that defendant wished to dismiss counsel and
proceed in pro. per. (Faretta v. California
(1975) 422 U.S. 806, 95 S. Ct. 2525, 45 L. Ed.
2d 562 (Faretta).) As detailed above, defendant
said he did not like or trust defense counsel and
insisted he would be ready to begin trial on the
next court date (Tuesday, June 14). Hanlon
supported defendant's motion, stressing that he
had thoroughly discussed the law and facts with
defendant and had no doubt as to his
competence.

motion.'" (Id. at p. 722, fn. 10, quoting
Windham, supra, at p. 128.)
All of those grounds argued in favor of denying
the motion. Defense counsel were prepared to
go to trial and were known to the court to be
excellent attorneys. With regard to the length
and stage of the proceedings, the trial court
recited that defendant had delayed his request
to go pro. per. until opening statements were
about to begin, the parties had sorted out
hardship
and
cause
challenges
for
"approximately 1000" potential jurors, "90
percent" of the in limine motions had been
ruled on "several weeks ago," the case was two
years old, and several continuances had already
been granted at defense request, in part to allow
defendant to change lawyers. But clearly, the
court's biggest concern was the four-week
continuance that defendant would have needed
to prepare. The court did not abuse its
discretion in denying defendant's belated
Faretta motion.

The trial court agreed that, despite the timing of
the request, defendant had the near-absolute
right to represent himself, absent a request for a
continuance. However, when defendant
returned to court the next Monday, he told the
court he would need a month to prepare. The
court considered the continuance request, C. Defense Counsel's Request to Withdraw on
among other factors, and denied the motion.
June 13, 2011
A Faretta motion may be denied if it is
untimely. (People v. Lynch (2010) 50 Cal.4th
693, 721-722, 114 Cal. Rptr. 3d 63, 237 P.3d
416 (Lynch); People v. Windham (1977) 19
Cal.3d 121, 127-128, 137 Cal. Rptr. 8, 560
P.2d 1187 (Windham).) A Faretta motion
brought on the "eve of trial" is untimely.
(Lynch, supra, at pp. 722-723.) In assessing an
untimely motion for self-representation, the
trial court considers factors such as "'the quality
of counsel's representation of the defendant, the
defendant's prior proclivity to substitute
counsel, the reasons for the request, the length
and stage of the proceedings, [*46] and the
disruption or delay which might reasonably be
expected to follow the granting of such a

Immediately after the denial of defendant's
Faretta motion, defense counsel moved to
withdraw. The trial court convened a hearing
out of the presence of the prosecutor [*47] to
discuss the issues. After Hanlon explained his
fears to the court, defendant addressed the court
at some length and denied that any threats to
Hanlon and Rief were "imminent" or
"dangerous," claiming he "really liked" Hanlon
and Rief, and did not want to hurt them. He
said, "I do get angry sometimes. But it's not to
the level or to the gravity or to the effect of like
me actually carrying anything out or following
anything through because I would never do
anything to Mr. Hanlon. I would never do
anything to Mrs. Rief because I care about

STEVEN LUBLINER

1 App. 175

Page 19 of 44
2014 Cal. App. Unpub. LEXIS 5375, *47

them." He said the letters should be seen as
coming from "an upset client who is locked up
in jail for 23 hours a day and has . . . no
intention of . . . ever really hurting the people
who he cares about."

be "serious and credible" by trial court, and
refusal to discharge retained counsel and
appoint counsel upheld on appeal]; In re Z.N.
(2009) 181 Cal. App. 4th 282, 289, 294, 104
Cal. Rptr. 3d 247 [threatening phone calls from
client did not require granting a belated
The trial court denied Hanlon's motion. It noted Marsden motion].)
that defendant's last counsel, Horngrad, "was
removed for the same reason [Mr. Hanlon and Defendant cites Aceves, supra, 51 Cal.App.4th
Ms. Rief] are commenting upon. And it makes 584, an opinion issued over a strong dissent.
me wonder, . . . a defendant cannot excuse The appellate court in Aceves issued a writ of
lawyers forever by issuing a threat, otherwise mandate requiring [*49] the superior court to
those people will never have a lawyer. And it vacate its denial of counsel's motion to
happened once before. It appears to be withdraw where a deputy public defender told
happening again. I don't know if it's—I the court, the conflict "(1) was confined to [the
certainly don't know if it's something that is defendant] and the office of the public
purposefully [*48] occurring in an attempt to defender, (2) did not involve threats to
have new counsel." The court applied the same witnesses or third parties, (3) did not relate to
factors that entered into its decision to deny the other cases, and (4) had resulted in a complete
Faretta request.
breakdown in the attorney-client relationship: it
was as such a classic conflict where duty of
Defendant argues that—at any stage of the
loyalty to the client is compromised by the
proceedings—if "the defendant and the attorney
attorney's own interests." (Id. at p. 592.) The
have become embroiled in such an
attorney further represented as an officer of the
irreconcilable
conflict
that
ineffective
court he could say no more about the conflict
representation is likely to result," the defendant
"without violating the [attorney-client]
must be given new counsel. (People v. Smith
privilege or breaching ethical duties," and the
(1993) 6 Cal.4th 684, 696, 25 Cal. Rptr. 2d
trial court did not doubt the attorney's
122, 863 P.2d 192 (Smith).) We do not
representations. (Ibid.) But Aceves relied in part
disagree, but the trial court is not required to
on the fact that the deputy himself did not make
"'rubber stamp' counsel's request to withdraw."
the final call as to whether a conflict existed;
(Aceves v. Superior Court (1996) 51
rather, the issue was reviewed through
Cal.App.4th 584, 592, 59 Cal. Rptr. 2d 280
superiors in the public defender's office. (Id. at
(Aceves).) Defendant insists that we must find
pp. 594-595.) Moreover, the trial court in
there was an irreconcilable conflict between
Aceves expressly stated it did not doubt
him and Hanlon and Rief by June 13, 2011,
counsel's representations. (Id. at p. 592.) And
based on the attorneys' fear of defendant's
counsel's representations included the opinion
threats. But the trial court impliedly found
that it was unlikely there would be a conflict
otherwise and we see no basis for overturning
should new counsel appear on [*50] the
that finding. (Cf. People v. Verdugo (2010) 50
defendant's behalf. (Id. at p. 589.)
Cal.4th 263, 310, 113 Cal. Rptr. 3d 803, 236
P.3d 1035 [threats allegedly made against Our case is different. The court here never
counsel by defendant's father were found not to stated that it believed Hanlon's description of
STEVEN LUBLINER

1 App. 176

Page 20 of 44
2014 Cal. App. Unpub. LEXIS 5375, *50

the seriousness of the threats, and it did express
its concern that the same type of conflict had
arisen before and might arise again if
withdrawal were allowed. The risk of a
"perpetual cycle of eleventh hour motions to
withdraw" was one ground upon which
Manfredi, supra, 66 Cal.App.4th at page 1136,
distinguished and refused to follow Aceves,
supra, 51 Cal.App.4th 584.
By the conclusion of the in camera hearing, the
court had acquired enough information from
Hanlon and from defendant to assess for itself
whether an irremediable breakdown had
occurred. In fact, it was evidently defendant's
own statements reassuring the court that he
meant Hanlon and Rief no harm that swayed
the court to believe no grounds for withdrawal
existed. In light of the conflicting reports of the
nature of the threats, the trial court was free to
resolve the credibility question, and we defer to
such findings. (See Smith, supra, 6 Cal.4th at p.
696 [in Marsden hearing, trial court may
resolve credibility issues].) The court implicitly
concluded, as proved to be true, the threats
were the product of a heated disagreement
about defense strategy, but did not amount to a
risk of actual danger to Hanlon [*51] or Rief
and did not truly threaten to result in ineffective
assistance of counsel. The exchange of heated
words does not necessarily reflect an
irreconcilable conflict. (Ibid.; see also Miller v.
Blacketter (9th Cir. 2008) 525 F.3d 890, 897.)
We refuse to find, as defendant urges us to do,
that the court actually believed Hanlon was in
true danger and yet sent him back into the
courtroom with defendant without any
protection, such that it affected counsel's ability
to perform effectively at trial. Defendant
acknowledges in his reply brief that shackling
defendant would have been an alternative
satisfactory resolution to the problem. Yet,

Hanlon did not ask to have defendant
shackled—and specifically rejected any such
remedy—which casts doubt on how seriously
he took the threats.3
Defendant points to nothing in the record
suggesting Hanlon's performance as an
advocate at trial actually was affected by the
purported threats. From our review of the
record, it appears he performed as a
conscientious advocate for his client, crossexamining the prosecution's witnesses, [*52]
putting on defense witnesses, making
appropriate objections, and taking care that his
client not be prejudiced before the jury (e.g.,
making sure D.K.'s mother was not allowed to
make faces or otherwise react inappropriately
while in the courtroom). Hanlon also
mentioned talking to his client in jail, so it
appears his fear did not prevent him from
consulting with defendant during trial. In open
court, outside the presence of the jury, Hanlon
said he wanted to be in court with defendant at
the end of each day when the jury was excused
for the evening. These do not appear to be the
reactions of a frightened man, nor have we
detected anything in counsel's performance that
shows he was less than a zealous advocate both
before and at trial. Counsel ultimately did
present the heat of passion mitigation argument
he thought appropriate, despite defendant's
opposition and despite the purported threats,
both by requesting jury instructions and by
arguing to the jury.
It is evident from the record that the court had
great confidence in Hanlon's professionalism
and his ability to conduct the best defense
possible in these difficult circumstances,
despite defendant's purported threats. The
3 Before

defendant testified, the court instructed Hanlon that
defendant was not to be given any sticks or bats during the
examination. Hanlon initially objected to that restriction.

STEVEN LUBLINER

1 App. 177

Page 21 of 44
2014 Cal. App. Unpub. LEXIS 5375, *52

record [*53] of the trial seems to bear out the
judge's faith in this experienced attorney, who
appears to have avoided any departure from
prevailing norms of effective representation.
The court cited Lempert v. Superior Court
(2003) 112 Cal.App.4th 1161, 5 Cal. Rptr. 3d
700 (Lempert) and Mandell v. Superior Court
(1977) 67 Cal.App.3d 1, 136 Cal. Rptr. 354
(Mandell). While both of those cases reversed
the trial court's denial of a motion to withdraw,4
both held the decision lay in the sound
discretion of the trial court, "having in mind
whether such withdrawal might work an
injustice in the handling of the case," and also
whether the withdrawal would "cause undue
delay in the proceeding." (Lempert, supra, at p.
1173; Mandell, supra, at p. 4.) These are
precisely the considerations the trial court
relied upon, finding that counsel's withdrawal
"would cause a horrible injustice in the
handling of the case," and would "require an
undue delay."
The gist of defendant's complaint about Hanlon
and Rief, as it ultimately emerged, was that he
did not want them to present a defense or an
argument based on any theory other than pure
innocence. Although this was only spelled out
for the court clearly after trial, we think the
judge would have had a strong inkling that this
was behind all of the representation issues
based on what she could glean from
conversations with defendant, Hanlon and

4 Specifically,

those cases dealt with attorneys who sought to
withdraw as counsel because their fees were not being paid.
(Lempert, supra, at pp. 1165-1166; Mandell, supra, 67 Cal.App.3d at
p. 4.) The attorney in Lempert told the court "it bordered on
involuntary servitude . . . to mandate continued representation," and
that he "could not afford to represent defendant through trial without
compensation." (Lempert, supra, at p. 1167.) Because the attorney's
livelihood was threatened in those cases, an actual financial conflict
of interest existed that likely [*54] would have affected counsel's
performance at trial.

Horngrad. But sharp disagreements as to
strategy do not create an actual conflict, nor do
they necessarily signify a complete breakdown
in the attorney-client relationship. Similar
complaints with counsel have frequently been
rejected as a justification for a last minute
substitution of counsel. (See People v. Lau,
supra, 177 Cal.App.3d at pp. 478-479 [retained
counsel not substituted where defense counsel
believed defendant was guilty and should enter
a plea]; Plumlee v. Masto (9th Cir. 2008) 512
F.3d 1204, 1211 ["Plumlee has cited no
Supreme Court case—and we are not aware of
any—that stands for the proposition that the
Sixth Amendment is violated when a defendant
is represented by a lawyer free of actual
conflicts of interest, but with whom the
defendant refuses to cooperate because of
dislike or distrust. [*55] Indeed, Morris v.
Slappy [(1983) 461 U.S. 1, 103 S. Ct. 1610, 75
L. Ed. 2d 610] is to the contrary"].) The fact
that defendant carried his disagreement with
counsel to the point of making colorable, but
nonserious threats does not change the
outcome.
Fundamentally, "[i]t is well established that an
attorney representing a criminal defendant has
the power to control the court proceedings."
(People v. Floyd (1970) 1 Cal.3d 694, 704, 83
Cal. Rptr. 608, 464 P.2d 64; accord, People v.
Moore (1983) 140 Cal.App.3d 508, 513-514,
189 Cal. Rptr. 487 [whether to request a
mistrial in counsel's control]; People v.
Williams (1987) 194 Cal.App.3d 124, 130, 239
Cal. Rptr. 375.) We reject defendant's claim
that the foregoing rule applies only to
appointed attorneys. Rather, the cases are
unconditional in their statement that "[a]
criminal accused has only two constitutional
rights with respect to his legal representation,
and they are mutually exclusive. He may
choose to be represented by professional

STEVEN LUBLINER

1 App. 178

Page 22 of 44
2014 Cal. App. Unpub. LEXIS 5375, *55

counsel, or he may knowingly and intelligently
elect to assume his own representation. [¶] . . .
[¶] [¶] [W]hen the accused exercises his
constitutional right to representation by
professional counsel, it is counsel, not
defendant, who is in charge of the case. By
choosing professional representation, the
accused surrenders all but a handful of
'fundamental' personal rights to counsel's
complete control of defense strategies and
tactics."5 (People v. Hamilton (1989) 48 Cal.3d
1142, 1162-1163, 259 Cal. Rptr. 701, 774 P.2d
730 (Hamilton); see also People v. Jones
(1991) 53 Cal.3d 1115, 1139, 282 Cal. Rptr.
465, 811 P.2d 757 [retained attorney].)
Where, [*56] as here, the untimeliness of the
request removed the absolute right to proceed
in pro. per., defendant had no right to insist on
his choice of legal strategy. (Hamilton, supra,
at p. 1163.)
This case is similar to People v. Welch (1999)
20 Cal.4th 701, 85 Cal. Rptr. 2d 203, 976 P.2d
754 (Welch), in which "defendant wanted a
defense of actual innocence and mistaken
identity, whereas counsel pursued the defense
that defendant . . . lacked premeditation and
deliberation." (Id. at p. 728.) "A defendant does
not have the right to present a defense of his
own choosing, but merely the right to an
adequate and competent defense. (See
[Hamilton, supra, 48 Cal.3d at p. 1162].)
Tactical disagreements between the defendant
and his attorney do not by themselves
constitute an 'irreconcilable conflict.' 'When a
defendant chooses to be represented by
professional counsel, that counsel is "captain of

the ship" and can make all but a few
fundamental decisions for the defendant.'" (Id.
at pp. 728-729.) "A defendant who does not
qualify under Faretta for self-representation
does not have the right to dictate strategy [*57]
to his counsel. (See People v. Hamilton, supra,
48 Cal.3d at p. 1162.)" (Welch, supra, at p.
736.)
Likewise, a "defendant may not force the
substitution of counsel by his own conduct that
manufactures a conflict." (Smith, supra, 6
Cal.4th at p. 696; see also Miller v. Blacketter,
supra, 525 F.3d at p. 897.) A "trial court is not
required to conclude that an irreconcilable
conflict exists if the defendant has not made a
sustained good faith effort to work out any
disagreements with counsel." (People v. Myles
(2012) 53 Cal.4th 1181, 1207, 139 Cal. Rptr.
3d 786, 274 P.3d 413.) A defendant's "frequent
repetitive attempts to replace" his attorney may
reasonably suggest he has "made insufficient
efforts to resolve his disagreements" with
counsel, making "any breakdown in his
relationship with counsel . . . attributable to his
own attitude and refusal to cooperate."6 (Clark,
supra, 52 Cal.4th at p. 913.) The same was true
here, as evidenced by defendant's replacement
of two previous attorneys, seemingly on similar
grounds.7
6 Defendant

attempts to distinguish People v. Clark (2011) 52
Cal.4th 856, 131 Cal. Rptr. 3d 225, 261 P.3d 243 (Clark) on the
basis that counsel in that case assured the court that she would "fight
hard" for the defendant, whereas no such express assurance was
given in this case. We find the distinction unpersuasive, as the court
repeatedly recognized the excellent representation Hanlon had so far
provided. The court impliedly found Hanlon would "fight" for
defendant, despite their differences.
7 Horngrad

5A

criminal defendant does have limited specific rights to override
counsel's decisions. For instance, a defendant undoubtedly has the
right to insist on testifying, even if counsel disagrees. (People v.
Robles (1970) 2 Cal.3d 205, 215, 85 Cal. Rptr. 166, 466 P.2d 710;
see Hamilton, supra, 48 Cal.3d at pp. 1162-1163 [listing a
defendant's limited rights to overrule counsel].)

told [*58] the court that he and defendant disagreed
about "strategies" and that defendant had threatened him if he failed
to carry out defendant's preferred strategy. Defendant told the court
he parted ways with Horngrad because Horngrad wanted him to take
a 12-year plea bargain. He also complained about a lawyer, inferably
Hallinan, who "told the papers that it's a crime of passion, when in
reality I [told] him something completely different."

STEVEN LUBLINER

1 App. 179

Page 23 of 44
2014 Cal. App. Unpub. LEXIS 5375, *58

Defendant stresses Hanlon's statement on June
13, 2011 that "he and I no longer communicate.
I feel sometimes we're talking at opposite
universes or different universes." This
statement conflicted with Hanlon's earlier
statements that he and defendant had
communicated thoroughly, including that
Hanlon had read 500 to 1,000 pages of letters
from defendant. We trust defendant could have
communicated his thoughts about the defense
in such abundant correspondence during the
nine months Hanlon had represented him. Even
if the lines of communication had recently
broken down, Hanlon never claimed that his
client had been so uncommunicative that
Hanlon could not prepare a defense.
This record contains substantial evidence to
support the court's implied finding [*59] that
counsel had no reason to fear physical harm
such that his performance at trial would be
affected, and that defendant had no legally
cognizable reason to disapprove of counsel's
performance. Accordingly, no breakdown in
the attorney-client relationship had occurred.
The court acted within its discretion in denying
counsel's motion to withdraw.
II. Ineffective Assistance of Counsel Before
Trial and at Sentencing
Defendant next raises claims of ineffective
assistance of trial counsel before trial, at trial,
and at sentencing. First, he claims counsel
failed to keep him promptly informed of the
legal defenses to be raised at trial and this
prevented him from hiring new counsel to take
over the defense who would pursue only the
identification defense. Second, he claims he
was denied effective assistance of counsel
based on Hanlon's "abandonment" of him at
sentencing. We also perceive a third claim of
ineffective assistance of counsel based on

counsel's having argued a heat of passion
defense without having presented medical
evidence to support it.
A. The Law
A defendant claiming ineffective assistance of
counsel must demonstrate both deficient
performance
and
resulting
prejudice.
(Strickland v. Washington (1984) 466 U.S. 668,
687, 691-692, 104 S. Ct. 2052, 80 L. Ed. 2d 674
(Strickland [*60] ).) The burden is on defendant
to show, first, that trial counsel failed to act in a
manner to be expected of reasonably competent
attorneys. (People v. Lewis (1990) 50 Cal.3d
262, 288, 266 Cal. Rptr. 834, 786 P.2d 892
(Lewis); Strickland, supra, at p. 687.) Where a
defendant cannot make such a showing,
including cases where the record is not clear,
we will affirm. (Lewis, supra, at p. 288.) On the
first prong, a defendant must show that
"counsel's representation fell below an
objective standard of reasonableness . . . under
prevailing professional norms." (Strickland,
supra, at p. 688.) Under the second prong, he
must show that in the absence of the error it is
reasonably probable that a result more
favorable to him would have been obtained. "A
reasonable probability is a probability sufficient
to undermine confidence in the outcome." (Id.
at p. 694.)
We further note that claims of ineffective
assistance most often must be raised on a
petition for writ of habeas corpus. Raising the
issue on appeal is appropriate only if there was
no conceivable legitimate basis for counsel's
challenged conduct, or if he was asked for an
explanation and failed to provide one. (People
v. Mai (2013) 57 Cal.4th 986, 1009, 161 Cal.
Rptr. 3d 1, 305 P.3d 1175; Lewis, supra, 50
Cal.3d at p. 288; People v. Mendoza Tello

STEVEN LUBLINER

1 App. 180

Page 24 of 44
2014 Cal. App. Unpub. LEXIS 5375, *60

(1997) 15 Cal.4th 264, 266-267, 62 Cal. Rptr.
2d 437, 933 P.2d 1134.) Here, defendant has
chosen to rely on the appellate record which, as
we shall discuss, is insufficient to entitle him to
relief.
Finally, as discussed above, it is well settled
that counsel [*61] retains decision-making
power with respect to trial strategy. (E.g.,
Hamilton, supra, 48 Cal.3d at p. 1163.) We
also must avoid second-guessing trial counsel
in hindsight and must apply a "highly
deferential" review to counsel's performance.
(Strickland, supra, 466 U.S. at p. 689.)
B. Timing of Defense Counsel's Decision to
Argue Heat of Passion
The record here does not clearly disclose when
counsel made his decision to argue the lesser
included offenses of second degree murder and
voluntary manslaughter to the jury, nor does it
establish what communication occurred about
raising such issues. Defendant claims that
Hanlon and Rief "agreed" when they were
retained that they would only present a defense
based on mistaken identity, and would forgo
any argument based on heat of passion. We
find it unlikely that competent counsel would
ever agree to such an inflexible strategy and, in
any case, find insufficient support in the record
to justify relief on appeal. At the very least,
such an argument would have to be raised by a
petition for writ of habeas corpus to have even
a colorable chance of success.

. . . [¶] [¶] But the issue of heat of passion. So
we're not going forward on that, we're going on
the defense that Mr. Mitchell did not do this
and he will testify." These statements were
made in the context of a request for a
continuance for further DNA testing on the
baseball bat, in hopes that "we will find DNA
of unknown persons on it," or perhaps some
other individuals' fingerprints. Hanlon also
said, "we believe further testing will support his
defense that other people did this act,"
immediately adding that if the court would not
allow such testing, "it would be very difficult to
go forward, if we will become barred it
becomes a more complex defense. [¶] So given
the defense we're going to use these tests are
mandatory."
These statements do not manifest a final
decision—much less a binding commitment—
to adhere to a particular trial strategy, and
rather reflect that the investigation was
ongoing. They also do not show what Hanlon
and defendant had discussed about a heat of
passion theory. Ultimately, the defense lab's
DNA [*63] test results apparently provided no
support for defendant's third party culpability
defense. Understanding the strength of the
evidence against defendant, naturally counsel
would consider an alternative defense strategy.
Likewise, at the hearing on May 10, 2011,
defendant's statement that "trust issues" had
developed was too general to clarify what
Hanlon had told defendant about using or not
using a heat of passion defense or when that
information was conveyed. From defendant's
statement the most we can glean is that some
significant discussion occurred "two weeks"
earlier, presumably after the DNA test results
came back from the lab.

It is true, as defendant points out, that on
January 20, 2011, Hanlon stated to the court
that he intended to pursue the theory that "Mr.
Mitchell did not commit [*62] this crime and
that there were other people who did. [¶] That
as a defense I will work with him on [it] and I Next, defendant points out that on May 25,
believe him and we will go forward on that. [¶] 2011, counsel requested funds for a psychiatric
STEVEN LUBLINER

1 App. 181

Page 25 of 44
2014 Cal. App. Unpub. LEXIS 5375, *63

examination of defendant. The record of that
hearing tends to show that counsel was still
investigating and deliberating about which
defenses to raise at trial. It provides no factual
basis for defendant's claim that defense counsel
withheld a final decision from him.

defendant's assertion that presenting conflicting
defenses is categorically incompetent. (Id. at
pp. 1138-1139; see also People v. McPeters
(1992) 2 Cal.4th 1148, 1186-1187, 9 Cal. Rptr.
2d 834, 832 P.2d 146 [where counsel conceded
facts contrary to defendant's testimony, the
court ruled: "we cannot say counsel was
On June 21, 2011, defense counsel filed a constitutionally ineffective in his attempt to
request for jury instructions, including an make the best of a bad situation"].)
instruction on heat of passion voluntary
manslaughter (CALCRIM No. 570). The court Defendant tries to distinguish these authorities
ultimately did instruct the jury on that on the basis that the defendants in those cases
theory, [*64] as well as on provocation claimed counsel was ineffective for presenting
reducing a murder to second degree. This, we a particular defense at trial, whereas, he claims
conclude, is the first objective sign in the counsel's ineffectiveness occurred before trial
record that Hanlon had decided to argue a heat when he failed to communicate his defense
of passion defense.
strategy to defendant in a timely way. Had he
been informed earlier of counsel's intentions,
What emerges from the foregoing excerpts is defendant claims he could have simply hired
the undeniable impression that Hanlon was another lawyer who would present his
wrestling through much of the pretrial period misidentification defense without a heat of
with the question of how to best present a passion argument.
defense for this difficult client. On this record,
we cannot conclude that Hanlon willfully Besides taking us outside the record,
withheld important information or strategy defendant's argument also rests on the implicit
decisions from defendant. Defendant has not assumption that he could have found another
carried his burden of showing that counsel competent attorney who would have actually
made a decision earlier and withheld it from allowed him to dictate which defense theories
him until the very last minute, even assuming would be raised and which would not. Given
such conduct would be considered incompetent. that Horngrad and Hanlon both refused to be
Nor has he convinced us that counsel "agreed" dominated in such a way by this client, it is
in advance not to use a heat of passion unlikely he could have [*66] found another
argument.
competent attorney willing to cede to defendant
the role of "captain of the ship."
As noted above, the choice of a defense was
always Hanlon's. In Jones, supra, 53 Cal.3d And even assuming Hanlon's conduct fell
1115, the defendant was represented by below professional standards, defendant has not
retained counsel who "argued that because of satisfied the prejudice prong of Strickland.
defendant's mental state the jury should find There is no reason whatsoever to think that a
him guilty only of the lesser included offense of misidentification defense alone would have
voluntary manslaughter. . . . [Counsel made this been more successful.
argument] over the objection of defendant, who
The evidence showing the falsity of defendant's
insisted on proclaiming his innocence . . . ." (Id.
testimony was overwhelming. The physical
at p. 1139.) Jones [*65] rejected the
STEVEN LUBLINER

1 App. 182

Page 26 of 44
2014 Cal. App. Unpub. LEXIS 5375, *66

evidence showed that defendant was present at
the scene and touched the bat, leaving his
fingerprint. Defense counsel's argument that the
fingerprint could have been the result of a
struggle over the bat was probably the best
explanation available from a defense
standpoint. But two prosecution experts agreed
that the blood spatter on defendant's pant legs
meant he was within five feet of D.K. when the
blows were struck. This not only tended to
incriminate defendant, but also belied his claim
that he did not see anyone hitting the victim,
and in fact did not see the victim at all when he
came into her yard. Hanlon's suggestion that he
was so "locked in" on his own fight that he did
not realize D.K. was being bludgeoned to death
less than five feet away—while perhaps [*67]
the best available argument consistent with
defendant's testimony—was a long stretch at
best.
Moreover, the jury knew about defendant's
previous domestic attacks on D.K., about
D.K.'s having cut defendant off from her and
the minor because of his drug use, and about
the flurry of phone calls made by defendant to
D.K. in the days before the attack. From the
evidence it may be inferred that defendant
began beating the victim on sight, while she
still held her car keys in one hand and the
minor in the other. Thus, a trial strategy based
solely on defendant's testimony was doomed.

defendant years in prison. Defendant has not
shown that Hanlon was ineffective before trial
either in deciding to argue heat of passion or in
failing to communicate his choice [*68] of
defense strategy to defendant in a timely way.
C. Presentation of Heat of Passion Argument
at Trial
Defendant also argues counsel was ineffective
when he presented the lesser included offense
theory only in closing argument, without
calling experts or other witnesses to support it.
Once again, defendant fails to carry his burden
on the first prong of Strickland. To begin with,
defendant fails to enlighten us as to what those
experts would have established by their
testimony or what other witnesses should have
been called.
Hanlon's heat of passion theory was not
altogether unsupported by the evidence. The
jury had heard testimony about the coincidence
of the anniversary of the death of defendant's
father and the minor's birth, both falling on the
day of the murder. There was evidence to show
how distraught he was over his estrangement
from D.K. and his inability to see the minor.
Thus, there was some evidentiary basis for the
subjective element of a crime of passion
argument, which requires no medical
testimony. (People v. Steele (2002) 27 Cal.4th
1230, 1253, 120 Cal. Rptr. 2d 432, 47 P.3d 225
(Steele); People v. Mercado (2013) 216
Cal.App.4th 67, 81-82, 156 Cal. Rptr. 3d 804
(Mercado).) A doctor's evaluation of
defendant's mental state or psychological
makeup would not have been necessary in
presenting this aspect of the theory to the [*69]
jury.

While Hanlon's heat of passion argument was
also unsuccessful, he did manage to convince
the jury that the prosecution had not proved
defendant had formed the intent to kidnap the
minor before he killed D.K., thus avoiding a
life sentence without parole. And although a
theory of heat of passion was unlikely to
succeed due to lack of proof of provocation, we
cannot fault Hanlon for attempting to argue a
What was, in fact, missing was evidence on the
theory that could potentially have saved
objective prong of heat of passion analysis—
STEVEN LUBLINER

1 App. 183

Page 27 of 44
2014 Cal. App. Unpub. LEXIS 5375, *69

evidence of provocation. The heat of passion
theory is ultimately judged by an objective
standard of provocation such as would incite a
reasonable person. (Steele, supra, 27 Cal.4th at
p. 1253; Mercado, supra, 216 Cal.App.4th at
pp. 81-82.) But defendant was the only person
who could have provided such evidence (if it
existed), and he insisted on sticking to his story
about his confrontation with two other men.
When the court, while hearing defendant's
motion for new counsel to present a motion for
new trial, ordered Hanlon to explain why he
decided to argue mitigation at trial, the
following colloquy ensued: "MR. HANLON:
Because I felt the jury—the evidence was
overwhelming, and the only way to save him
from life in prison was to make that argument,
even though for reasons that I don't think I have
to answer . . . your question, I didn't have
witnesses to support that. But I felt that I had
to. I felt Mr. Mitchell's view and the jury's read
of his testimony would be correct. He thought
they were behind him and thought he was
innocent. I did not see it that way. I thought the
evidence was overwhelming, as it was from the
beginning, and I felt I had to do that to
try [*70] to save him from life in prison
without a chance of parole. That was my
choice. [¶] Mr. Mitchell clearly expressed his
desire that I not do it. I told him—I don't know
when that conversation first came up, whether
it was before the trial or during the trial, that
this was an attorney's choice. The decision to
testify as to what the truth was was up to him,
but what to argue was up to me. And he argued
with me about that. It's clear what he's saying is
true, but I made that decision based on what I
saw the evidence to be and what was in his best
interests. And I tried to make it, you know, it—
it was a difficult situation, but, yes, there was a
reason why I did it, and that's what it was."

Being appropriately deferential to counsel's
tactical decisions, we cannot say Hanlon's
reasoning was beyond the realm of competent
lawyering. We conceive of counsel's argument
on heat of passion not as a contradictory theory,
but rather a backup argument, in recognition by
counsel that the jurors would likely reject
defendant's far-fetched testimony.
Nor can we say Hanlon's strategic decision
proved to be prejudicial under the second prong
of the Strickland test. Hanlon did not altogether
abandon defendant's [*71] favored theory of
defense. In fact, he spent most of his closing
argument attempting to support the theory to
which defendant had testified. The problem that
defendant fails to come to grips with is that his
testimony was wholly unbelievable in light of
the other evidence, and the evidence of guilt
was, in fact, overwhelming. Based on this
record, counsel's argument on heat of passion
clearly was aimed at making the best of a bad
situation and cannot fairly be deemed either
incompetent or prejudicial.
D. Sentencing Hearing
Defendant also argues defense counsel was
incompetent at the sentencing hearing because
he "abandoned" defendant and basically stood
by as a "body," without making any argument
on defendant's behalf. At the outset of the
August 16, 2011 hearing set for sentencing, the
court noted defendant had filed a written
request to relieve Hanlon as his attorney for
purposes of sentencing and filing a new trial
motion.
At a closed hearing, counsel explained there
were only two arguments he could make at
sentencing. First, he could argue in line with
defendant's testimony that defendant was
innocent. Counsel rejected that course, saying

STEVEN LUBLINER

1 App. 184

Page 28 of 44
2014 Cal. App. Unpub. LEXIS 5375, *71

"[t]o argue to the court at sentencing he
didn't [*72] do it, given the jury verdict, is
meaningless." Counsel argued that the other
possibility, to argue that defendant was guilty,
but that his crime was mitigated "flies in the
face of what he wants, and I—I made that
decision once. I'm not going to do it again."
"THE COURT: If we were to proceed to
sentencing and thinking in that same vein,
couldn't you then make the argument that
you're talking to me about as far as concurrent
versus consecutive sentences? [¶] MR.
HANLON: I'm not prepared to do it again. I'm
not prepared to fly in the face of what my client
wants. It's his life. I've done my best for him,
and I've done my best as an officer of the court.
I'm not going to continue in that vein. It's
contradictory to what I believe my job is. So,
Mr. Mitchell makes this call. He clearly doesn't
want me to—he doesn't want me to be his
lawyer at sentencing. But if I am, I'm not going
to argue against what he believes are the facts.
I'm just not prepared to do it again regardless
I—with all due respect regarding the order, you
can't order me to argue. [¶] THE COURT:
Sure. [¶] MR. HANLON: You know, so I
would probably submit it and just let the
prosecution put on their evidence, and Mr.
Mitchell [*73] wants to make a statement, he
can argue his own view of the evidence. I'm not
going to argue at sentencing under these
circumstances." Defendant, in fact, wished to
replace Hanlon precisely for the reason that he
wished his attorney not to state any facts
contradicting his own profession of complete
innocence.
Defendant's preferred argument did not go
unexpressed at sentencing. Defendant spoke at
length on his own behalf. The court appears to
have listened attentively and allowed him to
continue speaking even when the prosecutor
objected to his calling D.K.'s mother "a drunk."

He maintained his absolute innocence, but was
also allowed to argue his complaints about
counsel, his opinion of D.K.'s mother, and his
view of the criminal justice system and the
press.
And despite his arguments to the contrary,
defendant was not deprived of counsel entirely
at the hearing. We do not view Hanlon's
presence at sentencing as being nothing more
than a "body." Although Hanlon did not make a
statement on defendant's behalf at sentencing,
he was a legally-trained representative, fully
familiar with the facts of the case, who had
reviewed the probation report. We are
confident, given counsel's otherwise [*74]
vigorous representation, if the probation report
had recommended an unauthorized sentence or
had failed to take account of relevant
sentencing factors, counsel would have pointed
that out. Appellate counsel has specified no
sentencing error. Defendant fails to show that
Hanlon's assessment of the pros and cons of
arguing at sentencing constituted ineffective
assistance.
Hanlon could reasonably have believed arguing
for a lesser sentence based on heat of passion or
lack of planning would be pointless, or maybe
even an affront to the court, given the jury's
rejection of the lesser included offenses.
Moreover, defendant perceived such arguments
as tantamount to calling him a liar and arguing
along those lines could have triggered an
outburst from defendant that would have only
made things worse for him. Counsel may also
have perceived that the trial court would have
been unreceptive to arguments based on
psychological factors, as it had been when
counsel made the section 1368 request. Nor has
defendant pointed to any helpful medical
evidence that could have been presented.

STEVEN LUBLINER

1 App. 185

Page 29 of 44
2014 Cal. App. Unpub. LEXIS 5375, *74

We apply the usual Strickland standard of
prejudice and see no reasonable likelihood that
counsel's failure to argue at sentencing [*75]
had a negative impact on the sentence imposed.
Indeed, the court had limited sentencing
discretion. The sentence for first degree murder
is statutorily set at a minimum of 25 years to
life. (§ 190.) To that extent, as the court noted,
the sentence was "mandatory." Thus, the chief
issues for decision by the court were whether to
impose the aggravated term of eight years on
the kidnapping count, as recommended by
probation, and whether to impose the sentences
concurrently or consecutively. Given the
narrow issues at stake, there was little counsel
could have done to influence the court's
decision.
The probation report recommended an upper
term on the kidnapping count. The identified
factors in aggravation overwhelmingly
outweighed the circumstances in mitigation,
including the violence, viciousness, cruelty and
callousness of the beating of D.K. with the
minor in close proximity, the use of a deadly
weapon, the vulnerability of the victim the
minor, the planning and almost "military
precision" with which the crime was carried
out, and defendant's violation of the trust and
confidence of his estranged girlfriend and the
minor. With respect to defendant himself, the
probation report noted defendant's [*76]
violence and danger to society with reference
not only to the current crimes, but to the fact
that his siblings had previously obtained a
restraining order against him, not to mention
the history of domestic violence against D.K.
(Cal. Rules of Court, rule 4.421.) His prior
convictions were "just entering the level
considered numerous," defendant was on
probation when the crime was committed, and
his performance on probation was, of course,
unsatisfactory.

Only one factor in mitigation was identified
and that was defendant's history of
methamphetamine abuse, which the probation
officer noted could have "permanently affected
his mental health." (Cal. Rules of Court, rule
4.423.) However, the report concluded "little
weight" should be given to this factor, as
defendant was not under the influence of drugs
at the time of the offense, and claimed that he
had not used any controlled substances for a
week prior to the instant offense. The court
reviewed and considered the probation officer's
analysis of this mitigating factor, but concluded
that it did not significantly mitigate defendant's
crimes.
Although Hanlon had at one point suggested
that defendant did have a diagnosed mental
health issue (which Hanlon believed was
posttraumatic stress disorder, [*77] with
possible bipolar features), the record sheds no
light on whether such a diagnosis would have
constituted helpful mitigation evidence.
Significantly, defendant does not contend that
counsel was ineffective for failing to develop
medical evidence for presentation at sentencing
or failing to argue existing medical evidence.
(See section V, post.) In fact, he makes no
suggestion about what Hanlon actually should
have done at sentencing that he did not do.
The probation report also recommended the
sentence on the kidnapping count be imposed
consecutively to the 25 to life sentence for the
murder because it involved a different victim
from the murder. (Cal. Rules of Court, rule
4.425.) The report further recommended that
the sentence on the stalking count also be
imposed consecutively because it had occurred
over a long period of time and had kept D.K.
perpetually in fear. It did correctly recommend,
however, that the sentences on counts two, four
and five be stayed under section 654. The

STEVEN LUBLINER

1 App. 186

Page 30 of 44
2014 Cal. App. Unpub. LEXIS 5375, *77

report recommended an aggregate term of 35 In arguing the first [*79] point, defendant
years to life.
seizes on the trial court's brief reference to
Marsden in deciding how to approach
We see little that counsel could have done to defendant's motion. At the outset of the
advocate for a more favorable outcome. The proceedings on August 16, 2011, the trial court
reasons for imposing the aggravated terms and asked counsel whether they thought it
consecutive sentences were well articulated in appropriate to hold a hearing outside of the
the [*78] probation report and would have prosecutor's presence, "sort of in accordance
been difficult to refute. Given defendant's with the Marsden case . . . ." The prosecutor
insistence that he was innocent of D.K.'s agreed he should not be present at the hearing,
murder and had actually rescued the minor "[j]ust like a Marsden." It is not clear from the
from being kidnapped by the men in the black remarks whether the court believed the
and white shirts, remorse certainly could not substantive standards of Marsden would apply
have been argued to soften the court's view of in such a hearing, or whether it simply intended
the offenses. In sum, defendant has failed to to hold the hearing without the prosecutor.
meet his burden of showing any ineffectiveness These remarks alone do not clearly establish
in Hanlon's representation of him at the whether counsel and the court understood this
sentencing hearing, much less resulting was not strictly a Marsden motion, given that
prejudice.
Hanlon was retained counsel.
III. Posttrial Motions Relating to New
Counsel for Motion for New Trial and for
Sentencing

A. New Counsel for a New Trial Motion and
Sentencing
Defendant claims the court erred in denying his
motion for new counsel to make a new trial
motion, first, by applying the Marsden
standard, requiring a showing of cause. He
contends that because Hanlon was retained, not
appointed, that standard was inappropriate.
Second, he claims any delay in the proceedings
that would have occurred by granting the
motion would have been minimally disruptive
and would have been outweighed by
defendant's right to counsel of his choice, given
the irreconcilable breakdown in the relationship
between Hanlon and defendant.

We do note that in opposition to the
substitution request the prosecution had filed a
written response arguing that a Marsden-type
hearing was required and that substitution
should be allowed only if defendant could show
"failure to replace counsel would substantially
impair the defendant's right to assistance of
counsel
based
on
either
inadequate
representation or an irreconcilable conflict
between [*80] counsel and the defendant,"
citing Marsden. Defendant argues this standard
was incorrect, citing cases such as People v.
Munoz (2006) 138 Cal.App.4th 860, 866-867,
41 Cal. Rptr. 3d 842 (Munoz) [requesting
substitution for a new trial motion] and People
v. Lara, supra, 86 Cal.App.4th at page 155
[motion as trial commenced]. As we have
discussed, a request to discharge retained
counsel is not governed by the same standard as
a motion to substitute appointed counsel. We
agree with defendant that holding him to a
Marsden substantive standard would not have
been appropriate in the context of relieving

STEVEN LUBLINER

1 App. 187

Page 31 of 44
2014 Cal. App. Unpub. LEXIS 5375, *80

retained counsel, and we believe the
prosecutor's response to defendant's posttrial
substitution motion was misleading in that
respect.
The question is whether the court actually
followed the prosecutor's advice on this point,
or whether it correctly judged the substitution
motion by the standard set forth in Keshishian,
supra, 162 Cal.App.4th 425, denying the
motion because it would result in undue delay
and disruption of the proceedings. We think the
latter is more likely, or at least it cannot be
ruled out.
The court held a closed hearing, allowing
defendant to state at length the reasons why he
believed Hanlon had been ineffective at trial
and why new counsel should be appointed to
pursue a new trial motion, which would have
necessitated putting [*81] over the sentencing
hearing. Defendant outlined his complaints,
including Hanlon's arguing of the heat of
passion defense in closing argument, Hanlon's
failure to produce doctors or witnesses to
support that defense, and Hanlon's purportedly
waiting until the last minute to inform
defendant he intended to argue the lesser
included
offenses
(thereby
preventing
defendant from getting another attorney).
Defendant also disputed Hanlon's interpretation
of the evidence in statements to the jury.8
After hearing defendant's complaints, the trial
court invited Hanlon to respond and he
declined. The court asked him whether he could
provide "good service" to defendant if

8 Specifically,

defendant complained that although he testified he
was hit in the back with a baseball bat during his confrontation with
the men in the black and white shirts, Hanlon contradicted that
testimony in his argument to the jury, saying, "Mr. Mitchell never
said he got hit in the back with a bat." Defendant said he could
"continue to count the ways" in which Hanlon had contradicted his
testimony.

sentencing went forward as scheduled that day.
We have reviewed in section II.C., the colloquy
that followed, with Hanlon telling [*82] the
court he refused to argue that defendant did not
commit the murder, given the jury's verdict,
and also refused to argue mitigation because
that argument "flies in the face of what
[defendant] wants . . . ." Indeed, defendant
made it clear he wanted to continue to assert his
innocence at sentencing and would not accept
Hanlon's advice that the jury's guilty verdicts
had foreclosed those arguments. The court, too,
tried to explain, "He can't argue to me right
now that you didn't do it because the jurors
found that you did. [¶] So, it's like we're past
that point."
The court denied the motion, expressing its
belief that Hanlon's handling of the inconsistent
defenses was "the best argument . . . someone
could make" on defendant's behalf, "sort of a
brilliant argument because it gave jurors two
reasons not to find you guilty of first degree
murder." The court concluded, "I thought all of
the attorneys in the case were excellent . . .
your attorney included." The court denied the
motion for new counsel and counsel's request to
withdraw.
The judge offered to give defendant time to
consult with Hanlon before the sentencing
continued. Defendant responded, "I'm already
suing him for malpractice, [*83] Your Honor. I
have nothing to discuss with my lawyer." The
court then asked whether defendant wanted to
make his own statement at sentencing, and
defendant responded that he would if the court
was "going to take away [his] counsel." The
court pointed out, "there's a very good attorney
sitting right next to you," to which defendant
responded by calling Hanlon "pathetic." The
court then said it would deny the motion and
would give defendant an opportunity to speak

STEVEN LUBLINER

1 App. 188

Page 32 of 44
2014 Cal. App. Unpub. LEXIS 5375, *83

at sentencing, including giving him "a few
minutes to think about if you want to say
anything or if you want to talk to Mr. Hanlon . .
. ."
The Attorney General insists that the trial court
did not apply the wrong standard, noting that
"the trial court is presumed to have known and
applied the correct statutory and case law in the
exercise of its official duties." (People v. Mack
(1986) 178 Cal.App.3d 1026, 1032, 224 Cal.
Rptr. 208; Evid. Code § 664.) The record
certainly shows the court knew that attempts to
replace retained counsel stood on a different
footing from attempts to replace appointed
counsel when the issue arose at the start of trial,
having expressly cited Keshishian, supra, 162
Cal.App.4th 425 at an earlier hearing. As
discussed in section I.A. above, Keshishian
held the discharge of retained counsel may be
executed at any time, [*84] for any reason or
no reason, provided the discharge does not
result in "'disruption of the orderly processes of
justice.'" (Keshishian, supra, at p. 428.) The
question is whether, as defendant posits, the
court failed to recognize the Keshishian
standard was also correct in the posttrial
context.
Given the trial court's demonstrated knowledge
of Keshishian, supra, 162 Cal.App.4th 425, it
may be that the court denied the posttrial
motion to substitute because it believed, on
balance, that the denial was necessary to avoid
disruption of an orderly judicial process. The
court did not expressly cite delay and
disruption as the reasons for denying the
motion, but if the denial was premised on such
factors, we could not disturb that ruling as an
abuse of discretion.

of the sentencing hearing. Several witnesses
had planned to and did attend the August 16,
2011 sentencing. Appointment of new counsel
undoubtedly would have disrupted the
proceedings, inconvenienced witnesses, and
caused a substantial delay while transcripts
were prepared and new counsel familiarized
himself or herself with the case. We cannot
believe, as [*85] defendant tries to convince
us, that these factors were not taken into
account by the court in ruling on the motion.
Of the cases cited by defendant, Munoz, supra,
138 Cal.App.4th 860 is the closest to our facts.
There, the defendant filed a posttrial motion to
relieve retained counsel and have new counsel
appointed for a motion for a new trial. The
substitution motion was filed 40 days after he
was convicted and nine days before the
scheduled sentencing. (Id. at p. 864.) The court,
as here, initially addressed the issue on the date
set for sentencing. (Ibid.) It made it very clear,
however, that it was applying a Marsden
standard to the request, stating, "We're in a
unique situation in that there is one set of rules
when you are seeking substitution of counsel
prior to a verdict and there is a different set of
rules when you are seeking substitution of
counsel after a verdict." (Ibid.) The trial court
informed the defendant that he was not
automatically entitled to a new attorney, and
that he would have to show a conflict of
interest or incompetent representation. (Ibid.)
The court did not, however, rule on the motion
on the date set for sentencing. Instead, it trailed
the sentencing hearing for a week to give the
defendant a [*86] further chance to express his
complaints about counsel, which he did in a
six-page letter. (Id. at pp. 864-865.)

When the hearing resumed a week later,
Here, the motion to substitute counsel was filed retained counsel expressed the opinion that,
just eight days before the sentencing hearing because he was retained, the defendant could
was scheduled and was heard at the beginning
STEVEN LUBLINER

1 App. 189

Page 33 of 44
2014 Cal. App. Unpub. LEXIS 5375, *86

discharge him "at any time on any quantum of
proof . . . ." (Munoz, supra, 138 Cal.App.4th at
p. 865.) The court responded: "'I believe that
what you are suggesting is true prior to trial, or
prior to a retrial. . . . [¶] I truly believe that this
is a different setting. . . . [W]ere the rule to be
that he could discharge you at this point, it
would be an automatic situation where there
would be a substantial delay in the
administration of justice because any new
lawyer who came in would only be competent
if transcripts were prepared, the entire trial was
reviewed, and then a decision was made about
that. [¶] I do not believe that that is the state of
the law that exists now, so if he had wished to
discharge your services prior to trial, I agree
with you. But just as if he wanted to discharge
your services mid trial, I think it would be a
discretionary call on my part and there would
have to be a showing. The court believes that
the same would occur now.'" (Ibid.) It then
considered the defendant's request [*87] for
new counsel under a Marsden standard and
denied the request.9
Relying on People v. Ortiz, supra, 51 Cal.3d at
pages 982-987, the Court of Appeal reversed
the order denying appointment of new counsel
and remanded the cause to allow defendant to
9 Similar

to Munoz, supra, 138 Cal.App.4th 860, 41 Cal. Rptr. 3d
842, U.S. v. Rivera-Corona (9th Cir. 2010) 618 F.3d 976 (RiveraCorona), vacated the trial court's denial of a motion to replace
retained counsel with appointed counsel after defendant's guilty plea
and before sentencing because the district court used the wrong
standard—requiring "'a complete and utter breakdown' in the
attorney-client relationship"—when it denied the defendant's motion.
(Rivera-Corona, supra, at p. 978.) The defendant told the court he
had entered his plea because counsel had demanded $5,000 more to
take the case to trial and had threatened to "prosecute [his] family" if
he could not pay, which "scared" him into entering a guilty plea.
(Ibid.) The Ninth Circuit vacated the sentence and remanded the case
to the district court, requiring it to "appoint counsel if Rivera-Corona
is financially eligible, and make appropriate factual inquiries into
Rivera-Corona's allegations concerning the circumstances underlying
his guilty plea if there is a formal motion to set aside the plea." (Id.
at p. 983.)

discharge his retained attorney. (Munoz, supra,
138 Cal.App.4th at pp. 866, 871.) The court
held that an automatic [*88] retrial was not
required. Instead, "[o]nce new counsel is
appointed, the case shall proceed anew from the
point defendant originally sought to discharge
his attorney." (Id. at p. 871.)
Defendant argues that the court in this case, as
in Munoz, incorrectly applied a Marsden
standard in ruling on defendant's motion.
Defendant asks for the same remedy here, with
new counsel being appointed to consider filing
a new trial motion and, if no such motion were
to be filed, to appear at resentencing on his
behalf.
We find two significant points of distinction
that persuade us such a remedy is unnecessary
in this case. First, the prospect of delay and
disruption in the proceedings in Munoz was
much less obvious and less severe than in the
present case. The crime there was a stabbing
during an attempted carjacking that had
required only a two-day trial, in which the key
witness's testimony had been previously
transcribed on a conditional examination.
(Munoz, supra, 138 Cal.App.4th at p. 868.)
Thus, very little time would have been required
to allow newly appointed counsel to determine
whether to file a motion for a new trial. (Ibid.)
There was also no mention in Munoz that
witnesses had appeared to speak at sentencing
who would be inconvenienced by the [*89]
delay. Delay and disruption of the orderly
process of justice, therefore, constitutes a much
stronger reason for denying the motion in this
case than it did in Munoz.
Munoz itself observed: "Most trials will not be
as easily reviewed as this one, so delay and
public expense will often be the primary
reasons for denying motions to replace counsel
[posttrial]. The defendant must always be

STEVEN LUBLINER

1 App. 190

Page 34 of 44
2014 Cal. App. Unpub. LEXIS 5375, *89

required to justify this additional expense to the
satisfaction of the trial court, and such calls will
always be within its broad discretion. Delay
and public expense will militate for denial and
we do not envision either a spate of such
motions or a plethora of successful ones."
(Munoz, supra, 138 Cal.App.4th at p. 868.)
The trial in the present case and its record were
unusually lengthy and complex. It likely would
have taken months to secure the transcripts and
bring new counsel up to speed so that he or she
could draft a new trial motion. If Munoz was at
the low end of the spectrum of disruption, this
case was certainly near the high end. "[D]elay
and public expense" justified the court's ruling
in this case. (Munoz, supra, 138 Cal.App.4th at
p. 869.) Several witnesses had appeared to
speak at defendant's sentencing. The Court of
Appeal implicitly found that delay, disruption
and [*90] public expense did not justify a
denial of the defendant's motion in Munoz,
whereas we find the opposite is true here.
The crime victim's family also had rights to a
speedy resolution of the case that weighed
heavily against a substitution of counsel on the
day set for sentencing. Article 1, section 28 of
the California Constitution provides in part:
"(a) The People of the State of California find
and declare all of the following: [¶] . . . [¶] [¶]
(6) Victims of crime are entitled to finality in
their criminal cases. [¶] . . . [¶] [¶] (b) In order
to preserve and protect a victim's rights to
justice and due process, a victim shall be
entitled to the following rights: [¶] . . . [¶] [¶]
(8) To be heard, upon request, at any
proceeding, including any . . . sentencing. . . .
[¶] (9) To a speedy trial and a prompt and final
conclusion of the case and any related postjudgment proceedings."

Munoz is that it was very clear that the court
applied the wrong standard in Munoz, whereas
the record in our case is more ambiguous.
Arguably, the trial court understood and
applied the proper standard, but inquired into
defendant's dissatisfaction with Hanlon to
determine whether an irreconcilable conflict
existed [*91] that would justify relieving
counsel regardless of the delay and disruption
it would obviously entail. Read in that light, the
court may have simply been assuring itself that
it could safely deny the motion on grounds of
delay and disruption without violating
defendant's Sixth Amendment rights.
Once again, Maciel, supra, 57 Cal.4th 482 is
instructive, and we think dispositive. There, as
here, the defendant argued that the court
improperly applied a Marsden standard to a
motion to discharge retained counsel and
appoint counsel in his stead. (Maciel, supra, at
p. 513.) There, as here, the defendant rested his
argument on the fact that the court inquired into
the defendant's dissatisfaction with counsel and
also used the word "Marsden" in referring to
the motion. (Id. at pp. 513-514.) The Supreme
Court rejected his argument that the court had
improperly held him to the Marsden standard
of good cause, a more difficult standard to meet
than should have been required under Ortiz,
supra, 51 Cal.3d 975.

In upholding the trial court's ruling, Maciel
said: "Contrary to defendant's assertion, the
trial court did not deny the motion merely
because defendant had failed to demonstrate
that counsel was incompetent or had abandoned
him or that there was an irreconcilable conflict
between defendant and counsel. [*92] In
evaluating whether a motion to discharge
retained counsel is 'timely, i.e., if it will result
in "disruption of the orderly processes of
A second distinction between this case and justice"' (Ortiz, supra, 51 Cal.3d at p. 983), the
STEVEN LUBLINER

1 App. 191

Page 35 of 44
2014 Cal. App. Unpub. LEXIS 5375, *92

trial court considers the totality of the
circumstances (see United States v. GonzalezLopez [(2006)] 548 U.S. [140,] 152, 126 S. Ct.
2557, 165 L. Ed. 2d 409; Verdugo, supra, 50
Cal.4th at p. 311). Although a defendant
seeking to discharge his retained attorney is not
required
to
demonstrate
inadequate
representation or an irreconcilable conflict, this
does not mean that the trial court cannot
properly consider the absence of such
circumstances in deciding whether discharging
counsel would result in disruption of the
orderly processes of justice. Here, defendant
raised numerous concerns about retained
counsel in his declaration filed in support of the
motion to discharge counsel, and the trial court
did nothing improper in discussing those
concerns with defendant at the hearing."
(Maciel, supra, 57 Cal.4th at pp. 513-514.)
Defendant does not dispute that the court could
properly have denied the motion based on delay
and disruption alone, but contends the court did
not expressly mention those factors in denying
the motion and, therefore, must be found to
have held him to the higher Marsden standard.
We cannot accept defendant's argument.
Although the judge never said expressly that
granting the motion [*93] would disrupt the
administration of justice, such a consideration
was implicit in the circumstances. The motion
was being heard on the date set for sentencing,
with the probation officer in court, as well as
family and friends of D.K. who had appeared to
speak at sentencing. We will not entertain the
unrealistic supposition that delay and disruption
played no role in the judge's ruling. It is
defendant's burden to show error on appeal
(e.g., People v. Green (1979) 95 Cal.App.3d
991, 1001, 157 Cal. Rptr. 520), and we are not
convinced that the court improperly applied the
Marsden standard.

B. Hanlon's Motion to Withdraw for
Sentencing
With respect to the court's refusal to allow
Hanlon to withdraw for purposes of sentencing,
defendant's argument fares no better. We
conclude the court was within its discretion in
denying the motion, in part because defendant
would have been prejudiced at sentencing if he
had been forced to appear with no counsel at
all. The court was faced with either allowing
counsel to withdraw with no substitution,
which would have violated his right to counsel
at sentencing (Gardner v. Florida (1977) 430
U.S. 349, 358, 97 S. Ct. 1197, 51 L. Ed. 2d 393;
Mempa v. Rhay (1967) 389 U.S. 128, 134, 137,
88 S. Ct. 254, 19 L. Ed. 2d 336), or else
allowing the withdrawal, but continuing the
sentencing hearing, resulting in the disruption
of the proceedings that we have already
concluded constituted [*94] reason enough for
denying defendant's substitution motion. The
court did not abuse its discretion in denying
counsel's request to withdraw. (People v.
Sanchez, supra, 12 Cal.4th at p. 37; Manfredi,
supra, 66 Cal.App.4th 1128, 1133.)
IV. The Court's Refusal to Order a Section
1368 Evaluation

A. Factual Background
As discussed above, Hanlon unsuccessfully
moved to withdraw as counsel on June 13,
2011. Only upon the denial of the motion to
withdraw did he for the first time raise a doubt
as to defendant's competence under section
1368. And only the next day did Hanlon
produce his declaration claiming he had
harbored longstanding doubts as to defendant's

STEVEN LUBLINER

1 App. 192

Page 36 of 44
2014 Cal. App. Unpub. LEXIS 5375, *94

competence. That declaration of course flatly
contradicted Hanlon's statement to the court
just a few days earlier that he had no doubts
about defendant's competence in the context of
defendant's Faretta motion.

he stated that he had sought the advice of two
forensic psychiatrists, but neither would [*96]
express an opinion without interviewing
defendant, who refused to be interviewed.
Hanlon claimed he had not pushed the issue
earlier so as to avoid causing a "total and
irreversible breakdown of the attorney-client
relationship." When he told the court on Friday,
June 10, 2011, that defendant was competent,
he did so despite "grave doubts as to his
competency to communicate in a meaningful
way with me." Hanlon conceded he had made a
"mistake" in vouching for defendant's
competency, and that "my judgment may have
been effected [sic] by the recent threats of
violence he had made against me, the
breakdown of our attorney-client relationship,
and my knowledge that I felt I could no longer
continue in my representation of him." In
recent weeks, defendant had become resistant
to talking about the facts of the case, becoming
agitated and angry when Hanlon pressed him
on facts of his defense.

Hanlon argued that his declaration of a doubt as
to the defendant's competency was based on his
inability to communicate with defendant "in
any meaningful way," as well as defendant's
"inability to communicate" with him. Hanlon
told the court, "there are things that are
approaching delusional comments . . . ." The
court noted it had spoken at length to defendant
that day at the closed hearing, as well as the
preceding Friday, and found him [*95] fully
able to communicate. The court found
defendant "to be competent," and to have "the
ability to communicate with counsel if he
chooses to do so." Hanlon said, based on his
greater familiarity with defendant, he believed
"things are going on in [defendant's] head that
are not real." He felt he had watched a
"breakdown occur" with "delusional things"
becoming more and more common.
Hanlon declared that prosecution and defense
interviews with family members and others
The court noted that in nine months Hanlon had showed defendant had a long history of
been representing defendant he had never psychological problems, learning disabilities,
previously stated a doubt about defendant's and bizarre behavior, and that his delusional
competence. In fact, the previous week, when thinking had existed since childhood. Hanlon
defendant requested to represent himself, said a psychiatrist retained by Hallinan [*97]
Hanlon "made a record indicating [he] felt he had diagnosed defendant with "a recognizable
was competent to do so." The court noted mental illness that included delusional
Hanlon expressed a doubt about defendant's ideation."
competency only after his motion to withdraw
had been denied, and "the timing is suspicious." The declaration listed several statements made
The court concluded, "[t]here's not a doubt in by defendant that Hanlon believed were
my mind as it relates to the competency of the delusional because, after investigation, he
defendant. So I'm not going to suspend criminal concluded they were untrue. These included
proceedings."
defendant's claim he had been visited in jail by
famous people, had been part of a secret
The following day Hanlon filed a declaration military force, had had sexual relations with
under seal providing more details to support his well-known women, had been a bodyguard for
doubt about defendant's competency, in which
STEVEN LUBLINER

1 App. 193

Page 37 of 44
2014 Cal. App. Unpub. LEXIS 5375, *97

a famous musician and had been shot while
protecting him. It is difficult to tell from
Hanlon's declaration whether all of these
statements had been investigated and found to
be untrue. We note that because defendant was
a member of a well-known family in the world
of adult entertainment, his claims of consorting
with well-known people cannot be rejected as
delusional quite as readily as they might be in
some other cases.10
After reviewing Hanlon's declaration, the court
noted in particular that after defendant made his
Faretta motion and had been given his
attorneys' files over the weekend, he came into
court and made a "very rational," "very
reasonable," "very intelligent" and "very
coherent" presentation to the court about the
materials he had reviewed and his reasons for
and estimate of needing more time to prepare.
He was also able to explain at the in camera
hearing on Hanlon's motion to withdraw both
his
own
emotional
state
and
his
communications with his attorneys, as well as
describing his stresses in jail and his defense
strategy in a manner the court described as
"coherent and reasonable." The court stressed
that it found defendant's discussion during the
hearing to be "[v]ery reasonable, very
intelligent, and very thoughtful." The court
acknowledged that defendant and his attorneys
"have some disagreements," "[b]ut I . . . don't
think that that makes Mr. Mitchell
incompetent." The court again noted that it
considered the timing of the motion "a little
suspect," and felt "very strongly" there was
"not substantial evidence . . . that would

10 Defendant

is the son of one of the Mitchell Brothers, rather wellknown producers of pornography. Defendant himself had worked at
the O'Farrell Theater in San Francisco, a family-owned business,
which he described as a "strip club." It is, therefore, not
inconceivable that defendant would have known "famous" people or
slept with [*98] "well-known" women.

suggest that Mr. Mitchell is incompetent."
It, [*99] therefore, denied the renewed motion.
Under settled law, that ruling was within the
court's discretion.
B. The Law
"A defendant is presumed competent unless it
is proved otherwise by a preponderance of the
evidence. . . . [¶] If a defendant presents
substantial evidence of his lack of competence
and is unable to assist counsel in the conduct of
a defense in a rational manner during the legal
proceedings, the court must stop the
proceedings and order a hearing on the
competence issue. [(Pate [v. Robinson (1966)
383] U.S. [375,] 384-386.)] [Citation.] In this
context, substantial evidence means evidence
that raises a reasonable doubt about the
defendant's ability to stand trial. [Citation.] The
substantiality of the evidence is determined
when the competence issue arises at any point
in the proceedings. [Citation.] The court's
decision whether to grant a competency hearing
is reviewed under an abuse of discretion
standard." (People v. Ramos (2004) 34 Cal.4th
494, 507, 21 Cal. Rptr. 3d 575, 101 P.3d 478
(Ramos).)
"Substantial evidence of incompetence may
arise from separate sources, including the
defendant's own behavior. For example, if a
psychiatrist or psychologist 'who has had
sufficient opportunity to examine the accused,
states under oath with particularity [*100] that
in his professional opinion the accused is,
because of mental illness, incapable of
understanding the purpose or nature of the
criminal proceedings being taken against him
or is incapable of assisting in his defense or
cooperating with counsel, the substantialevidence test is satisfied.' [Citation.] If a

STEVEN LUBLINER

1 App. 194

Page 38 of 44
2014 Cal. App. Unpub. LEXIS 5375, *100

defendant presents merely 'a litany of facts,
none of which actually related to his
competence at the time of sentencing to
understand the nature of that proceeding or to
rationally assist his counsel at that proceeding,'
the evidence will be inadequate to support
holding a competency hearing. [Citation.] In
other words, a defendant must exhibit more
than bizarre, paranoid behavior, strange words,
or a preexisting psychiatric condition that has
little bearing on the question of whether the
defendant can assist his defense counsel."
(Ramos, supra, 34 Cal.4th at pp. 507-508.)
"When the evidence casting doubt on an
accused's present competence is less than
substantial, the following rules govern the
application of section 1368. It is within the
discretion of the trial judge whether to order a
competence hearing. When the trial court's
declaration of a doubt is discretionary, it is
clear that 'more is required to raise a doubt
than [*101] mere bizarre actions . . . or bizarre
statements . . . or statements of defense counsel
that defendant is incapable of cooperating in his
defense . . . or psychiatric testimony that
defendant
is
immature,
dangerous,
psychopathic, or homicidal or such diagnosis
with little reference to defendant's ability to
assist in his own defense . . . ." (Welch, supra,
20 Cal.4th at p. 742.)
C. Analysis
The reliability of Hanlon's assertion of a doubt
as to defendant's competency was severely
undercut by words from Hanlon's own mouth
just days earlier. In order to credibly assert a
doubt about his client's competence, Hanlon
had to account for the fact that on the preceding
Friday, he told the court he had no doubt
whatsoever as to defendant's competency, and

by June 14, 2011, he claimed to have had a
doubt of long standing.
Despite Hanlon's efforts to distance himself
from his earlier comments, the court was not
obligated to accept his explanations and could,
based on its own observation of defendant,
place more credence in counsel's initial
expression of confidence in defendant's
competence. Accordingly, the court, in its
reasoned discretion, was justified in finding
Hanlon's declaration was not substantial
evidence of defendant's [*102] incompetence.
Ramos made clear that a defendant's demeanor
during court appearances could be used in
determining competency. "Although a court
may not rely solely on its observations of a
defendant in the courtroom if there is
substantial evidence of incompetence, the
court's observations and objective opinion do
become important when no substantial
evidence exists that the defendant is less than
competent to plead guilty or stand trial.
[Citation.] When a defendant has not presented
substantial evidence to indicate he was
incompetent, and the court's declaration of a
doubt is therefore discretionary, its brief
reference to the defendant's demeanor is not
error." (Ramos, supra, 34 Cal.4th at p. 509,
italics added; see also People v. Rogers (2006)
39 Cal.4th 826, 849-850, 48 Cal. Rptr. 3d 1,
141 P.3d 135 ["psychiatric testimony . . . with
little reference to defendant's ability to assist in
his own defense" not sufficient]; People v.
Blair (2005) 36 Cal.4th 686, 714, 31 Cal. Rptr.
3d 485, 115 P.3d 1145 [preexisting mental
condition not sufficient].)
Thus, Hanlon's assertion that defendant had a
"long history . . . of psychological problems . . .
and bizarre behavior" did not amount to
substantial evidence that he was incompetent to
go to trial. Defendant's purported past mental

STEVEN LUBLINER

1 App. 195

Page 39 of 44
2014 Cal. App. Unpub. LEXIS 5375, *102

problems were remote in time, did not come in
the form of expert opinions, and were
insufficiently [*103] connected to defendant's
current health status and ability to assist in his
defense at trial.

suggest that it found defendant's problem to be
of the latter type rather than the former. In these
circumstances, no competency hearing was
required." (People v. Lewis (2008) 43 Cal.4th
415, 525-526, 75 Cal. Rptr. 3d 588, 181 P.3d
947, italics added; see also Welch, supra, 20
Cal.4th at p. 742 [defendant's disagreement
with counsel about "which defense to employ,"
even when accompanied by "paranoid distrust"
of the legal system and his lawyer, did not
require competency hearing].) The court in our
case came expressly to the same conclusion.
The trial court acted within its discretion in
determining Hanlon's evidence of defendant's
incompetence was insubstantial and declining
to order a hearing under section 1368.

Likewise, Hanlon's litany of facts purportedly
leading to a conclusion of incompetency (such
as delusional statements) did not relate those
facts to an inability to aid in his own defense.
Although defendant might have been
uncooperative in executing Hanlon's strategy,
there is no reason to believe his behavior was
due to mental problems rather than sheer
stubborn insistence on his innocence. The court
was within its discretion in declining to
convene competency proceedings, bolstered by
its lengthy and detailed colloquies with
defendant before trial.
V. Refusal to Grant Counsel's Request for
Funds for Psychological Expert
"[A]n uncooperative attitude is not, in and of
itself, substantial evidence of incompetence."
(People v. Mai, supra, 57 Cal.4th at p. 1034.)
And "although a defense counsel's opinion that A. Factual Background
his client is incompetent is entitled to some
weight, such an opinion alone does not compel On May 25, 2011, during jury selection,
the trial court to hold a competency hearing defense [*105] counsel requested an ex parte
unless the court itself has expressed a doubt as hearing with the judge without his client's
to the defendant's competence. [Citation.] Here, presence, during which he reviewed with the
the trial court entertained no such doubt. [¶] . . . court the history of his representation of
[¶] [¶] Defendant further faults the trial court defendant. Counsel reported that defendant
for concluding defendant's unwillingness to flatly refused counsel's repeated advice that
cooperate with his counsel did [*104] not they should pursue a psychological defense.
equate with an inability to assist counsel. But Counsel said there were past psychological
we have recognized a similar distinction. reports, and reports from family and friends,
[Citation.] If there is testimony from a qualified that defendant may have had some past
expert that, because of a mental disorder, a psychological issues. He pointed out the bizarre
defendant truly lacks the ability to cooperate coincidence that defendant's father had killed
with counsel, a competency hearing is required. his brother (defendant's uncle) on July 12,
[Citation.] Here, however, there was no 1991. Defendant's father had died on July 12,
substantial evidence that defendant's lack of 2007. Defendant's minor child was born on July
cooperation stemmed from inability rather than 12, and the murder of D.K. occurred on July
unwillingness, and the trial court's comments 12, 2009. Hanlon thought this pointed to a
STEVEN LUBLINER

1 App. 196

Page 40 of 44
2014 Cal. App. Unpub. LEXIS 5375, *105

"perfect storm" of psychological stressors that initial work seemed to call for further
could have triggered the crime.
investigation. "If you don't think that's going to
be enough money for you to look into this
Hanlon believed he needed to investigate such alternative defense, then I decline to provide
a defense, but because defendant would not additional funds." Defendant points to no
cooperate
with
an
examination,
the further discussion of the topic, nor are we
psychological expert could only review aware of any.
defendant's medical records and watch him
testify. If "that doctor came to the conclusion
that he did suffer from a disease that affected B. The Law
either his ability to testify, or in fact, what
happened," the defense "would call [*106] that "An indigent defendant has a statutory and
person." Counsel estimated that such an expert constitutional right to ancillary services
would charge $300 to $500 per hour, and reasonably necessary to prepare a defense. (§
987.9, subd. (a); [Corenevsky v. Superior Court
would cost $20,000 to $30,000.
(1984) 36 Cal.3d 307, 319-320, 204 Cal. Rptr.
The court carefully considered counsel's 165, 682 P.2d 360].) The defendant has the
request, noting "the Court has already provided burden of demonstrating the need for the
funds for Mr. Mitchell's defense, and for the requested services. [Citation.] The trial court
defense he wants." Counsel conceded that the should view a motion for assistance with
trial court had been "generous" in funding the considerable liberality, but it should also order
defense investigation. As for a psychiatrist who the requested services only upon a showing
would merely watch defendant testify, the court they are reasonably necessary. . . . On appeal, a
said: "I don't even know if that would trial court's order on a motion for ancillary
necessarily be admissible evidence, which is services is reviewed for abuse of discretion."
something I think I need to consider, especially (People v. Guerra (2006) 37 Cal.4th 1067,
since it's a large amount of money that is being 1085, 40 Cal. Rptr. 3d 118, 129 P.3d 321; see
requested." Of course, the court pointed out that also People v. Gonzales and Soliz (2011) 52
the request was on the eve of trial, which would Cal.4th 254, 286, 128 Cal. Rptr. 3d 417, 256
cause a problem of notice to the prosecution. P.3d 543 [where "defendant failed to carry his
But the court said, "the most important thing" burden to show that additional funding was
was that defendant's due process rights be reasonably necessary, . . . the trial court
guarded. The court concluded it would not be properly exercised its discretion to deny the
prudent to give counsel "such an exorbitant motion"]; People v. Beardslee (1991) 53 Cal.3d
amount of money for a conflicting defense that 68, 100, 279 Cal. Rptr. 276, 806 P.2d 1311
might not come into play in any event."
[defendant "had the burden of showing
that [*108] the investigative services were
However, the court did not entirely deny
reasonably necessary by reference to the
counsel's request. Instead, if counsel thought "a
general lines of inquiry he wished to pursue,
psychiatrist or psychologist could review any
being as specific as possible. [Citation.]
prior medical records and [*107] enter an
Although a motion for assistance should be
opinion that you're wanting, with a dollar figure
viewed with considerable liberality . . . , on
of [$2,000]"; Hanlon was encouraged to "look
appeal the trial court's order is presumed
into that" and to "ask me again" if the expert's
STEVEN LUBLINER

1 App. 197

Page 41 of 44
2014 Cal. App. Unpub. LEXIS 5375, *108

correct. Error must be affirmatively shown"].)
C. Analysis
We think it is significant that the trial court did
not deny defendant's request outright, but rather
conditionally granted counsel a disbursement of
$2,000 to look into the psychological defense.
The trial court acted reasonably and within its
discretion in authorizing a smaller amount for a
preliminary investigation. Counsel's preferred
psychiatrist would have charged $300 to $500
per hour, and he said he needed $20,000 to
$30,000 in total. Mathematically, this suggests
he was estimating 40 to 100 hours of expert
psychiatric work, which inferably included the
time the psychiatrist would have spent in court
observing defendant's testimony and demeanor.
Hanlon made no record below why, perhaps at
a more modest hourly rate, he could not have
secured the services of a competent
psychologist or psychiatrist to conduct a
preliminary review [*109] of defendant's
medical records in far less time and for far less
money.11
In fact, there is no indication in the record that
defense counsel actually requested the $2,000
offered by the court. Defendant, therefore,
arguably forfeited the claim he now raises. (Cf.
People v. Ervin (2000) 22 Cal.4th 48, 68, 91
Cal. Rptr. 2d 623, 990 P.2d 506 [where
circumstances changed, failure to renew
severance motion forfeited issue on appeal];
People v. Davenport (1995) 11 Cal.4th 1171,
1195, 47 Cal. Rptr. 2d 800, 906 P.2d 1068
[same, motion challenging jury composition].)

11 An

indigent defendant does not have a constitutional right to
choose a psychiatrist "of his personal liking," but rather, only has a
right to a "competent psychiatrist." (Ake v. Oklahoma (1985) 470
U.S. 68, 83, 105 S. Ct. 1087, 84 L. Ed. 2d 53.)

Finally, as to prejudice, defendant makes no
reasonable argument that his trial was rendered
unfair or that he otherwise suffered prejudice
because of the failure of the trial court to offer
more than the preliminary $2,000. (See People
v. Guerra, supra, 37 Cal.4th at p. 1086.)
Defendant has failed to identify any mental
defect or disease that he was suffering from, to
explain the effect any such psychological
problem had on his mental state at the time of
the murder, or to make any showing or even
any argument as to what a psychologist or
psychiatrist would have reported if funds had
been granted. Given defendant's resistance, it
was not reasonably likely that counsel [*110]
would have put on any actual evidence of a
psychological defense. And though defendant
seems to believe medical testimony was
necessary to support a heat of passion defense,
that clearly is not the case. As discussed above,
psychological evidence could have contributed
to the subjective element of heat of passion (for
which there was already evidence), but would
have been irrelevant to the objective element.
(Steele, supra, 27 Cal.4th at p. 1253; Mercado,
supra, 216 Cal.App.4th at pp. 81-82.)
Moreover, as discussed above, the evidence of
guilt was overwhelming. Consequently,
defendant has not shown that the trial court's
ruling on his request for $20,000 to $30,000
had any negative effect on his defense.
VI. Sufficiency of Evidence of Child
Endangerment
Defendant next challenges the sufficiency of
the evidence for the jury's verdict on count five,
felony child endangerment under section 273a,
subdivision (a). The standard of review is the
familiar
substantial
evidence
standard.
"Substantial evidence is 'evidence which is
reasonable, credible, and of solid value.'"

STEVEN LUBLINER

1 App. 198

Page 42 of 44
2014 Cal. App. Unpub. LEXIS 5375, *110

(People v. Morales (2008) 168 Cal.App.4th
1075, 1083-1084, 85 Cal. Rptr. 3d 873
(Morales).) The question is whether any
reasonable trier of fact could have found
defendant guilty beyond a reasonable doubt.
(Jackson v. Virginia (1979) 443 U.S. 307, 319,
99 S. Ct. 2781, 61 L. Ed. 2d 560.)
Defendant argues that the evidence was
insufficient to prove the child endangerment
charge because [*111] he took good care of the
minor, and that he did not expose her to
conditions likely to cause her great bodily
harm. Defendant argues that he first assumed
custody of the minor when he grabbed her from
the man in the black T-shirt. He then carried
her to his car. He cites Nick's testimony that he
took "good care of the [minor]" when he placed
the minor in his car. He claims from that point
forward there was no evidence that he placed
the minor in danger.
But in making this argument, defendant
analogizes to kidnapping cases and other cases
in which the defendant had no clear legal duty
to care for the child. "Section 273a does not
require that a defendant be related to a child. . .
. '[T]he relevant question in a situation
involving an individual who does not otherwise
have a duty imposed by law or formalized
agreement to care for a child (as in the case of
parents or babysitters), is whether the
individual in question can be found to have
undertaken the attendant responsibilities at all.'"
(Morales, supra, 168 Cal.App.4th at pp. 10831084, italics added, fn. omitted [defendant
kidnapper assumed caregiving responsibilities
when he kidnapped victim and endangered her
by taking her as a passenger in his speeding
car]; see also People v. Perez (2008) 164
Cal.App.4th 1462, 1471, 80 Cal. Rptr. 3d 500
[defendant properly convicted [*112] under §
273a for having heroin and heroin-filled

syringe in home he shared with his sister,
whose granddaughter sometimes stayed there
while defendant was the only awake adult in
the home]; People v. Malfavon (2002) 102
Cal.App.4th 727, 731, 734, 737, 125 Cal. Rptr.
2d 618 [defendant shook to death his
girlfriend's seven-month-old baby while left to
watch her briefly]; People v. Culuko (2000) 78
Cal.App.4th 307, 313, 335, 92 Cal. Rptr. 2d
789 [man who had lived with baby's mother for
two months properly convicted, along with
mother, under § 273a, where baby died from
being punched in the stomach and showed
signs of past abuse]; People v. Cochran (1998)
62 Cal.App.4th 826, 833, 73 Cal. Rptr. 2d 257
[defendant's conviction sustained where he
allowed child to live in his house and acted as
"surrogate father"].) Before he ever took the
minor from her mother, defendant had a
preexisting fundamental legal duty of care as
the minor's father.12 Hence, we find his cases
inapposite.
As the prosecutor argued, it could be inferred
from the evidence that D.K. held the minor in
her arms when the attack began. Thus, the
minor was endangered in various ways: the
minor could have been dropped by D.K., D.K.
could have fallen on top of the minor, and of
course, the minor could have been hit by the

12 "[P]arents

have a duty 'to exercise reasonable care, supervision,
protection, and control over their minor child[ren].' (§ 272, subd.
(a)(2).)" (People v. Swanson-Birabent (2003) 114 Cal.App.4th 733,
746, 7 Cal. Rptr. 3d 744.) "'It is the right and duty of parents under
the law of nature as well as the common law and the statutes of many
states to protect their children, to care for them in sickness and in
health, and to do whatever may be necessary for their care,
maintenance, and preservation.'" (Lipscomb By And Through DeFehr
v. Simmons (9th Cir. 1992) 962 F.2d 1374, 1386, fn. 2; Williams v.
Garcetti (1993) 5 Cal.4th 561, 570, 20 Cal. Rptr. 2d 341, 853 P.2d
507 [parents' legal responsibilities for care and protection of
their [*113] children are well established and defined]; People v.
Burden (1977) 72 Cal.App.3d 603, 606, 615-616, 618-621, 140 Cal.
Rptr. 282 [death of baby by starvation was murder because
defendant father had common law duty to care for him].)

STEVEN LUBLINER

1 App. 199

Page 43 of 44
2014 Cal. App. Unpub. LEXIS 5375, *113

baseball bat. That the minor was spattered with
D.K.'s blood gave rise to a legitimate inference
that the minor had been close to D.K. during
the attack and, therefore, in danger. In fact, the
prosecutor's theory was that the minor was
actually trapped under D.K.'s body as defendant
beat D.K. to death.13

that may be valid for up to 10 years, as
determined by the court. It is the intent of the
Legislature that the length of any restraining
order be based upon [*115] the seriousness of
the facts before the court, the probability of
future violations, and the safety of the victim
and his or her immediate family."

Moreover, there can be no doubt that once
defendant took the minor away in his car he
had assumed care and custody of her.
Rather [*114]
than
taking
appropriate
precaution, defendant put her in the front seat
of his car and drove at highway speeds with the
minor protected, at most, with an adult seat
belt. A patrol officer from the Citrus Heights
Police Department testified that a front seat belt
is not a safe method to restrain a child of the
minor's size and would not "provide [the minor]
any safety if there was a collision." By leaving
the minor alone in the car at night defendant
added another layer of danger. Based on all of
these facts, the jury had ample evidence on
which to base its verdict.

We are faced with two conflicting opinions
construing this language and the very similar
language of section 136.2, subdivision (i)(1).14
People v. Clayburg (2012) 211 Cal.App.4th 86,
88, 149 Cal. Rptr. 3d 414 (Clayburg) expressly
authorized a restraining order to protect
immediate family members who "suffer[]
emotional harm" under section 646.9, while
People v. Delarosarauda (2014) 227
Cal.App.4th 205, 211-213, 173 Cal. Rptr. 3d
512 (Delarosarauda) disagreed with the
Clayburg majority and held that family
members are not "victims" under the similarly
worded section 136.2.

VII. Restraining Order Under Section 646.9
Finally, defendant argues the trial court
exceeded its authority at sentencing when it
issued an order under the stalking statute (§
646.9) restraining defendant from having
contact with the minor or D.K.'s mother for 10
years because they were not the named victims
of the stalking offense. The operative language
of section 646.9, subdivision (k)(1), is as
follows: "The sentencing court also shall
consider issuing an order restraining the
defendant from any contact with the victim,
13 D.K.

had been face down during the beating, but she was on her
side when the police arrived. Nick did not see or hear the minor
during the beating. The prosecutor theorized that the minor was lying
under D.K. when she was murdered and that defendant turned her on
her side as he snatched the minor from her arms.

The majority opinion in Clayburg, supra, 211
Cal.App.4th 86, held the reference to
"immediate family" in the second sentence of
the statute expands the class of "victims" on
whose behalf a protective order [*116] may be
issued. (Id. at pp. 90-92.) A dissenting opinion
by Justice Perren interpreted section 646.9,
subdivision (k)(1) as authorizing a protective
order only for the named victim of the stalking
offense, and expressed the view that the
reference to "immediate family" in the second
sentence above was intended only to make the

14 Section

136.2, subdivision (i)(1) provides in relevant part: "[T]he
court, at the time of sentencing, shall consider issuing an order
restraining the defendant from any contact with the victim. The order
may be valid for up to 10 years, as determined by the court. . . . It is
the intent of the Legislature in enacting this subdivision that the
duration of any restraining order issued by the court be based upon
the seriousness of the facts before the court, the probability of future
violations, and the safety of the victim and his or her immediate
family."

STEVEN LUBLINER

1 App. 200

Page 44 of 44
2014 Cal. App. Unpub. LEXIS 5375, *116

safety of such individuals a factor to be
considered in setting the duration of the
protective order. (Clayburg, supra, at p. 95.)
Delarosarauda agreed with the construction
advocated by Justice Perren and interpreted
section 136.2, subdivision (i)(1) as authorizing
protective orders only on behalf of named
victims of domestic violence.
As a matter of statutory interpretation, we agree
with the reasoning of Delarosarauda and the
Clayburg dissent. We do not believe the second
sentence of section 646.9, subdivision (k)(1)
modifies the definition of "victim" in the first
sentence. We therefore reverse the protective
order issued under section 646.9.
DISPOSITION
The order restraining defendant from having
contact with the minor and D.K.'s mother is
reversed. In all other respects the judgment is
affirmed.
Margulies, Acting P. J., and Dondero, J.,
concurred.
End of Document

STEVEN LUBLINER

1 App. 201

Case 3:15-cv-04919-VC Document 22 Filed 10/18/16 Page 1 of 10

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA

JAMES R.W. MITCHELL,
Petitioner,
v.

Case No. 15-cv-04919-VC (PR)
ORDER DENYING PETITION FOR
WRIT OF HABEAS CORPUS;
DENYING CERTIFICATE OF
APPEALABILITY

CSP-CORCORAN, et al.,
Respondents.

James R.W. Mitchell has filed a pro se petition for a writ of habeas corpus challenging
the validity of his state criminal conviction. Mitchell seeks habeas relief based on the following
claims: (i) the trial court erred by denying Mitchell’s motion to replace his third set of retained
attorneys with the public defender, his motion to dismiss his attorneys and proceed in pro per,
and his attorneys’ motion to withdraw; (ii) ineffective assistance of counsel when counsel did not
promptly inform Mitchell of the defenses he would argue at trial and when counsel abandoned
Mitchell at sentencing; (iii) the trial court erred by denying Mitchell’s motion to appoint new
counsel to submit a motion for a new trial and to represent him at sentencing; (iv) the trial court
erred by failing to order a pretrial competency evaluation; and (v) the trial court erred in its
handling of counsel’s request for funds to hire a psychological expert. Because the claims lack
merit, the petition is denied.
PROCEDURAL BACKGROUND
On July 12, 2011, Mitchell was convicted by a jury of first degree murder, corporal injury
on a cohabitant, kidnapping, child abduction, child endangerment and stalking. 8 Clerk’s

1 App. 202

Case 3:15-cv-04919-VC Document 22 Filed 10/18/16 Page 2 of 10

Transcript (“CT”) 1583-84; ECF No. 14-18 at 147-48. The jury found that Mitchell personally
used a deadly weapon in counts one and two and personally inflicted great bodily injury with
respect to count two. Id. The jury found the allegation that the homicide occurred with the
special circumstances of kidnapping to be false. Id. On August 16, 2011, the trial court
sentenced Mitchell to thirty-five years to life in prison. 8 CT 1655-58; ECF No. 14-19 at 35-43.
On July 28, 2014, the California Court of Appeal affirmed the judgment. See People v.
Mitchell, 2014 WL 3707995 (Cal. Ct. App. Jul 28, 2014) (unpublished). On October 15, 2014,
the California Supreme Court denied Mitchell’s petition for review.
STANDARD OF REVIEW
A federal court may entertain a habeas petition from a state prisoner “only on the ground
that he is in custody in violation of the Constitution or laws or treaties of the United States.” 28
U.S.C. § 2254(a). Under the Antiterrorism and Effective Death Penalty Act of 1996
(“AEDPA”), a district court may not grant habeas relief unless the state court’s adjudication of
the claim: “(1) resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme Court of the
United States; or (2) resulted in a decision that was based on an unreasonable determination of
the facts in light of the evidence presented in the State court proceeding.” 28 U.S.C. § 2254(d);
Williams v. Taylor, 529 U.S. 362, 412 (2000).1 This is a highly deferential standard for
evaluating state court rulings: “As a condition for obtaining habeas corpus from a federal court, a
state prisoner must show that the state court’s ruling on the claim being presented in federal court
was so lacking in justification that there was an error well understood and comprehended in
existing law beyond any possibility for fairminded disagreement.” Harrington v. Richter, 562
U.S. 86, 103 (2011). Additionally, habeas relief is warranted only if the constitutional error at
issue “‘had substantial and injurious effect or influence in determining the jury’s verdict.’”
1

Mitchell argues AEDPA does not apply to him because he is not a terrorist and has not been
sentenced to death. Although AEDPA’s name suggests it only applies to terrorism and death
penalty cases, the above authority substantiates that it applies to all federal petitions for a writ of
habeas corpus.

2

1 App. 203

Case 3:15-cv-04919-VC Document 22 Filed 10/18/16 Page 3 of 10

Penry v. Johnson, 532 U.S. 782, 795 (2001) (quoting Brecht v. Abrahamson, 507 U.S. 619, 637
(1993)).
When there is no reasoned opinion from the highest state court to consider the
petitioner’s claims, the court looks to the last reasoned opinion of the highest court to analyze
whether the state judgment was erroneous under the standard of § 2254(d). Ylst v. Nunnemaker,
501 U.S. 797, 801-06 (1991). In this case, the California Court of Appeal is the highest court to
issue a reasoned decision on Mitchell’s claims.
DISCUSSION
The trial proceedings and the evidence presented against Mitchell are described
thoroughly by the California Court of Appeal in its opinion upholding the conviction. See
Mitchell, 2014 WL 3707995 at *1-6. This Court now rules as follows on the claims presented by
the habeas petition:


Mitchell claims the trial court erred by denying his motion to substitute his third set of
retained attorneys with a public defender. Although the Sixth Amendment grants
criminal defendants who can afford counsel a right to hire counsel of their choice, see
Wheat v. United States, 486 U.S. 153, 159, 164 (1988), the right is qualified when the
proposed choice will interfere with the integrity of the proceeding, see United States v.
Stites, 56 F.3d 1020, 2014, 1026 (9th Cir. 1995); see also United States v. GonzalezLopez, 548 U.S. 140, 152 (2006) (trial court has wide latitude in balancing right to
counsel of choice with needs of fairness and demands of its calendar).
As articulated by both the trial court and the Court of Appeal, at the time Mitchell
made his motion to substitute counsel, the case was nearly two years old, hundreds of
potential jurors had been summoned, sixty-five witnesses had been subpoenaed, and two
important witnesses were elderly. See Mitchell, 2014 WL 3707995 at *12. Because
granting the motion would require substantial delay and disruption, the Court of Appeal’s
rejection of this claim was not an unreasonable application of Supreme Court authority or
an unreasonable determination of the facts in light of the state record.

3

1 App. 204

Case 3:15-cv-04919-VC Document 22 Filed 10/18/16 Page 4 of 10

Mitchell’s argument that there was an irreconcilable conflict with his counsel was
also reasonably rejected by the Court of Appeal. See Stenson v. Lambert, 504 F.3d 873,
886 (9th Cir. 2007) (irreconcilable conflict occurs only where there is a complete
breakdown in communication between attorney and client). As the court found, the only
evidence Mitchell presented of a conflict was his own threat to sue his attorney which
was based on an underlying dispute involving a disagreement about trial tactics.
Furthermore, counsel were not refusing to put on Mitchell’s preferred mistaken identity
defense, as he claimed, but rather were considering putting on an additional and
alternative defense of mitigated culpability. Mitchell, 2014 WL 3707995 at *12-13; see
Stenson, 504 F.3d at 886 (disagreements over trial strategy or tactical decisions do not
rise to level of complete breakdown in communication). Therefore, Mitchell did not
receive ineffective assistance of counsel based on an irreconcilable conflict.


Mitchell claims the trial court’s denial of his motion to represent himself violated his
Sixth Amendment rights. Although a criminal defendant has a Sixth Amendment right to
self-representation, Faretta v. California, 422 U.S. 806, 832 (1975), such a motion may
be denied if it is untimely, see Marshall v. Taylor, 395 F.3d 1058, 1061 (9th Cir. 2005)
(denial of Faretta motion made on first day of trial before jury selection as untimely not
contrary to clearly established federal law). The trial court noted that Mitchell had
delayed his Faretta request until opening statements were about to begin, the parties had
sorted out hardship and cause challenges for approximately 1000 potential jurors, most of
the in limine motions had been ruled on, the case was two years old, and several
continuances had been granted at defense request, in part to allow Mitchell to change
attorneys. Mitchell, 2014 WL 3707995, at *14-15. The trial court denied the motion
only after Mitchell stated that he would need a month to prepare. Given the delay and
disruption that would result if the motion were granted, the denial of this claim was not
contrary to or an unreasonable application of Supreme Court authority.



After the denial of Mitchell’s Faretta motion, defense counsel filed a motion to withdraw

4

1 App. 205

Case 3:15-cv-04919-VC Document 22 Filed 10/18/16 Page 5 of 10

on the ground that Mitchell had threatened him, which the trial court denied. Mitchell
argues that an irreconcilable conflict existed between himself and counsel at that time
based on counsel’s fear of Mitchell’s threats which resulted in ineffective assistance.
However, at the hearing before the trial court, Mitchell denied that any threats to his
counsel were “imminent” or “dangerous,” that he liked his two attorneys and would not
harm them. Id. at *15. As reasonably found by the Court of Appeal, after an in camera
hearing on the motion, the trial court “implicitly concluded . . . the threats were the
product of a heated disagreement about defense strategy, but did not amount to a risk of
actual danger to the attorneys and did not threaten to result in ineffective assistance of
counsel.” Id. at 16. Furthermore, the Court of Appeal’s review of the record showed
that, after the denial of this motion, defense counsel provided effective assistance by
conscientiously advocating for his client, “cross-examining prosecution’s witnesses,
putting on defense witnesses, making appropriate objections, and taking care that his
client not be prejudiced before the jury.” Id. at 17. The Court of Appeal’s denial of this
claim was not contrary to or an unreasonable application of federal authority or an
unreasonable determination of the facts. See Stenson, 504 F. 3d at 886 (irreconcilable
conflict only occurs where there is a complete breakdown in attorney-client
communication and the breakdown prevents effective assistance; disagreements over trial
strategy do not rise to level of complete breakdown in communications).


The Court of Appeal reasonably denied Mitchell’s claims of ineffective assistance of
counsel. See Harrington v. Richter, 562 U.S. 86, 105 (2011) (doubly deferential standard
used on federal habeas review of ineffective assistance of counsel claims). Counsel’s
decision to pursue a heat of passion defense in addition to Mitchell’s mistaken identity
defense did not constitute ineffective assistance because defense strategies are controlled
by counsel, not by the client. See Brookhart v. Janis, 384 U.S. 1, 9 (1966) (attorney may
properly make strategy decision about how to run a trial even if client disapproves);
United States v. Mayo, 646 F.2d 369, 375 (9th Cir. 1981) (difference of opinion as to trial

5

1 App. 206

Case 3:15-cv-04919-VC Document 22 Filed 10/18/16 Page 6 of 10

tactics does not constitute denial of effective assistance). The Court of Appeal’s review
of the record showed that counsel “was wrestling through much of the pretrial period
with the question of how to best present a defense for this difficult client” and, on this
basis, reasonably concluded that counsel did not willfully withhold important information
or strategic decisions from Mitchell. Mitchell, 2014 WL 3707995, at *20. Furthermore,
contrary to Mitchell’s assertions, counsel did not abandon Mitchell’s mistaken identity
defense but presented the heat of passion defense as a backup argument, recognizing that
the jury would likely reject Mitchell’s “far-fetched” testimony that he was not the person
who hit the victim with a baseball bat. Id. at *22-23. Counsel cannot be faulted for
presenting both defenses, satisfying Mitchell by arguing mistaken identity and presenting
a backup mitigating defense because he believed the evidence would not support a
defense of mistaken identity. See Gerlaugh v. Stewart, 129 F.3d 1027, 1033 (9th Cir.
1997) (counsel’s performance was not deficient where “he did what he could with what
he had to work with, which was not much.”). Furthermore, because counsel presented
Mitchell’s desired mistaken identity defense, Mitchell cannot show prejudice. See
Strickland v. Washington, 466 U.S. 668, 687-88 (1984) (petitioner bears burden not only
of showing counsel’s performance was deficient but that it also caused him prejudice);
see also DePasquale v. McDaniel, 2011 WL 841419, *10 (D. Nev. Mar. 7, 2011)
(presentation of two defenses not unreasonable and did not prejudice petitioner).


Mitchell fails to show that counsel’s performance was deficient at the sentencing hearing
or that it caused prejudice. At an in–camera hearing, counsel thoroughly explained his
reasons for remaining silent at Mitchell’s sentencing hearing. Mitchell, 2014 WL
3707995, at *23. He stated that he could argue, in line with Mitchell’s testimony, that
Mitchell was innocent, but rejected this in light of the jury’s verdict; his only other
alternative was to argue that Mitchell was guilty, with mitigating factors, but because
Mitchell disapproved of this counsel would not argue it. Id. At the sentencing hearing,
counsel was silent and Mitchell spoke at length about his innocence. Id.

6

1 App. 207

Case 3:15-cv-04919-VC Document 22 Filed 10/18/16 Page 7 of 10

Given counsel’s strategic decision for his silence at Mitchell’s sentencing hearing,
Mitchell has failed to show deficient performance. Furthermore, the Court of Appeal
reasonably found that, even though counsel was silent, he provided effective assistance
because, given counsel’s otherwise vigorous representation of Mitchell, had the probation
report recommended an unauthorized sentence or failed to take account of relevant
sentencing factors, counsel would have pointed it out to the court. Id. In light of the fact
that Mitchell’s argument for his innocence was heard by the court and that the trial court
had limited sentencing discretion based upon Mitchell’s convictions, see id. at *24,
Mitchell has also failed to show prejudice.


Mitchell claims the trial court erred in denying his motion to substitute an attorney to file
a motion for a new trial and for sentencing. The Court of Appeal reasonably determined
that the trial court understood the applicable law and properly based its decision on the
disruption and delay that would result from granting Mitchell’s motion given that the
motion was heard on the date set for sentencing and that friends and family of the victim
were in court to speak at the sentencing hearing. Id. at *29. This Court must defer to this
ruling. See Woodford v. Visciotti, 537 U.S. 19, 24 (2002) (on habeas review, a federal
court must presume that state courts know and follow the law and must follow
§ 2254(d)’s “highly deferential standard for evaluating state-court rulings”).



The Court of Appeal’s decision to reject Mitchell’s claim that the trial court erred in
denying his counsel’s motion to withdraw for sentencing was reasonably based on its
determination that the trial court was faced with either allowing counsel to withdraw with
no substitution, which would have violated Mitchell’s right to counsel at sentencing, or to
allow the withdrawal, but continuing the sentencing hearing, which would have resulted
in delay and disruption of the proceedings. Mitchell, 2014 WL 3707995, at *30. This
Court defers to this ruling. Visciotti, 537 U.S. at 24.



Mitchell claims the trial court erred by refusing to order a competency hearing. The
conviction of a defendant while legally incompetent violates due process. Pate v.

7

1 App. 208

Case 3:15-cv-04919-VC Document 22 Filed 10/18/16 Page 8 of 10

Robinson, 383 U.S. 375, 378 (1966). The test for competence to stand trial is whether the
defendant demonstrates the ability “to consult with his lawyer with a reasonable degree
of rational understanding” and a “rational as well as factual understanding of the
proceedings against him.” Godinez v. Moran, 509 U.S. 389, 396 (1993). The question
“is not whether mental illness substantially affects a decision, but whether a mental
disease, disorder or defect substantially affects the prisoner’s capacity to appreciate his
options and make a rational choice.” Dennis v. Budge, 378 F.3d 880, 890 (9th Cir. 2004)
(emphasis in original). Due process requires a trial court to order a psychiatric evaluation
or conduct a competency hearing sua sponte if the court has a good faith doubt
concerning the defendant's competence. Pate v. Robinson, 383 U.S. 375, 385 (1966)
(only when evidence raises a bona fide doubt about competency must trial court conduct
a hearing). On habeas review, the state court’s determination that the evidence did not
require a competency hearing is a factual determination requiring deference unless it is
unreasonable. Torres v. Prunty, 223 F.3d 1103, 1105 (9th Cir. 2000).
The issue of Mitchell’s competency was raised by his defense counsel. However,
counsel made contradictory statements: he first asserted he had no doubts about
Mitchell’s competency and then, four days later, after it became apparent that Mitchell’s
Faretta motion and counsel’s motion to withdraw would be denied, he asserted he had
longstanding doubts about Mitchell’s competency. Mitchell, 2014 WL 3707995, at *32.
Under these circumstances, counsel’s credibility was put in question and the trial court
was entitled to discount counsel’s second statement. Id. Furthermore, the trial court had
several lengthy discussions with Mitchell about his motions to substitute counsel and
concluded that Mitchell made rational, reasonable, intelligent and coherent arguments in
support of his motions. Id. at *31. Finally, the Court of Appeal found no evidence
supported Mitchell’s argument that his lack of cooperation with his attorneys stemmed
from inability; instead, the Court of Appeal reasonably found that the evidence showed
that his lack of cooperation stemmed from unwillingness. Id. at *33. Given these factual

8

1 App. 209

Case 3:15-cv-04919-VC Document 22 Filed 10/18/16 Page 9 of 10

findings, to which this Court must defer, it was objectively reasonable for the Court of
Appeal to conclude that the denial of a competency hearing did not violate Mitchell’s due
process rights.


Mitchell argues the trial court improperly denied counsel’s pretrial request for $20,000 to
hire a psychological expert to pursue a mental defect defense. However, at the time
counsel made this request, Mitchell refused to be examined by a psychologist, therefore,
counsel could only request an expert to review Mitchell’s records and watch him testify.
Id. at *33. The trial court did not deny the request but granted an amount of $2,000 for
counsel to “look into” such a defense and to ask the court again if the expert’s initial
work called for further investigation. Id. at *34. Nothing in the record indicates that
counsel requested the $2,000. Id. at *35. The Court of Appeal reasonably found the trial
court’s authorization of a smaller amount than counsel requested for a preliminary
investigation was proper. Id. at *34 (citing Ake v. Oklahoma, 470 U.S. 68, 83 (1985)
(when defendant demonstrates to trial court that his sanity will be a significant factor at
trial, state must assure access to a competent psychiatrist; however, defendant does not
have a constitutional right to a psychiatrist of his own choosing or to receive funds to hire
his own)). Furthermore, the denial of the $20,000 did not have a substantial or injurious
effect or influence on the verdict because Mitchell failed to identify any mental defect he
was suffering from or to explain how such a defect affected his mental state at the time of
the murder or to show what the expert might have reported had the funds been granted.
Id. at *35; see Brecht, 507 U.S. at 637.
CONCLUSION
Based on the foregoing, the Court orders as follows:
1. Mitchell’s petition for a writ of habeas corpus is denied. A certificate of appealability

will not issue. See 28 U.S.C. § 2253(c). This is not a case in which “reasonable jurists would
find the district court’s assessment of the constitutional claims debatable or wrong.” Slack v.
McDaniel, 529 U.S. 473, 484 (2000).

9

1 App. 210

Case 3:15-cv-04919-VC Document 22 Filed 10/18/16 Page 10 of 10

2. The Clerk shall enter judgment in favor of respondent and close the file.
IT IS SO ORDERED.
Dated: October 18, 2016
______________________________________
VINCE CHHABRIA
United States District Judge

10

1 App. 211

(1 of 33)
Case: 16-17057, 07/12/2019, ID: 11362288, DktEntry: 62-1, Page 1 of 6

IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

JAMES R.W. MITCHELL

)
)
Petitioner/Appellant
)
)
v.
)
)
CSP CORCORAN; DAVEY, Warden )
)
Respondent-Appellee.
)
)

No. 16-17057

DC # 3:15-cv-04919-VC

___________________________________
MOTION TO STAY APPELLATE PROCEEDINGS OR, IN THE
ALTERNATIVE, FOR AN EXTENSION OF TIME IN WHICH TO
FILE THE REPLY BRIEF
___________________________________
APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA
HONORABLE VINCE CHHABRIA
United States District Judge
Steven S. Lubliner (CA SBN 164143)
Law Offices of Steven S. Lubliner
P.O. Box 750639
Petaluma, California 94975
Telephone (707) 789-0516
Attorney for Petitioner-Appellant
JAMES R.W. MITCHELL

1 App. 212

(2 of 33)
Case: 16-17057, 07/12/2019, ID: 11362288, DktEntry: 62-1, Page 2 of 6

Petitioner/appellant James R.W. Mitchell (“Mitchell”) respectfully
moves this Court to stay this appeal pending the outcome of anticipated
habeas proceedings in California state court that may render this appeal
moot. Mitchell requests to return to state court to seek habeas relief
predicated squarely on the U.S. Supreme Court’s opinion in McCoy v.
Louisiana, 138 S.Ct. 1500 (2018), which was decided after his direct appeal
became final and while his habeas appeal was pending in this Court. Counsel
for respondent has expressed no objection to this request. (Lubliner Decl., ¶
8.) This Court has granted similar stays in Hanafi v. Katavich, No. 16-55256
and Maldonado v. Fox, No. 17-56933. (Lubliner Decl., ¶ 6-7, exhs. A-D.)
Should this Court deny a stay, Mitchell requests that the due date for
the reply brief, which is currently July 16, 2019, be extended to August 6,
2019. Counsel for respondent has expressed no objection to this request.
(Lubliner Decl., ¶ 8.)
Mitchell is presently confined in a California state prison serving a
sentence of 35 years to life that was imposed following his conviction in
2011 of the murder of his estranged girlfriend, kidnapping of his child, and
related offenses. This appeal is from the district court’s denial of appellant’s
petition for writ of habeas corpus on October 18, 2016.

1

1 App. 213

(3 of 33)
Case: 16-17057, 07/12/2019, ID: 11362288, DktEntry: 62-1, Page 3 of 6

This Court granted a certificate of appealability on two issues:
“whether the state trial court violated appellant’s constitutional rights when
it (1) denied his request for self-representation under Faretta v. California,
422 U.S. 806 (1975); and (2) denied his motion to dismiss retained counsel
at sentencing, including whether counsel rendered ineffective assistance at
sentencing.” On July 23, 2018, Mitchell filed a 64-page opening brief.
Mitchell briefed the certified issues and two uncertified issues: “(1)
Mitchell’s Sixth Amendment Right to Counsel Was Violated by Defense
Counsel’s Overriding of His Decision Not to Concede Guilt of Any Form of
Homicide; and (2) The State Court of Appeal’s Conclusion That Mitchell’s
Request for New Counsel a Month Before His Faretta Request Was
Properly Denied Was Unreasonable Because it Unreasonably Discounts
Mitchell’s Purpose of Seeking Counsel Who Would Limit His Defense to
Complete Innocence.” On February 19, 2019, respondent filed a 70-page
answering brief. Respondent did not address the uncertified issues.
Central to the substitution claims is the argument that Mitchell had a
Sixth Amendment right to insist on a defense of complete innocence and that
the trial court acted unreasonably in not giving that preeminent consideration
when he asked to represent himself and/or substitute counsel. Mitchell
argued that this right flowed from Florida v. Nixon, 543 U.S. 175 (2004) and

2

1 App. 214

(4 of 33)
Case: 16-17057, 07/12/2019, ID: 11362288, DktEntry: 62-1, Page 4 of 6

predecessor U.S. Supreme Court cases that predated his trial. Mitchell
further argued that the 2018 U.S. Supreme Court opinion in McCoy v.
Louisiana (2018) 138 S.Ct. 1500 confirmed this. McCoy held that defense
counsel may not, in the face of the client's known objections, concede guilt
or override the client's desire to maintain a defense of complete innocence.
The error is structural. Id. at p. 1511.
The respondent’s brief argues that McCoy is irrelevant because it was
decided after Mitchell’s direct appeal was final, any argument grounded in
McCoy is unexhausted, and the case is distinguishable because Mitchell’s
defense counsel argued alternative theories of innocence and guilt of the
lesser crime of voluntary manslaughter. Mitchell believes that recent
opinions in the California courts of appeal favor his position. People v.
Flores, 34 Cal. App. 5th 270 (2019); People v. Eddy, 33 Cal. App. 5th 472.
Further, both the United States Supreme Court and the California Supreme
Court have read McCoy expansively to inform other contexts.
The undersigned believes that McCoy is simply an inevitable
extension of Nixon, Faretta, and other U.S. Supreme Court cases so as to
govern this Ninth Circuit appeal and entitle Mitchell to habeas relief under
AEDPA. However, while it initially seemed in Mitchell’s interest to see the
case through in this Court, the undersigned has concluded that prudence

3

1 App. 215

(5 of 33)
Case: 16-17057, 07/12/2019, ID: 11362288, DktEntry: 62-1, Page 5 of 6

dictates that Mitchell return to state court and litigate his McCoy claim
squarely there. This is particularly true given the recent favorable case law.
(Lubliner Decl., ¶ 4.)
A state habeas petition is in progress. It should be filed in two to three
weeks. (Lubliner Decl., ¶ 5.) This Court granted the stay in Maldonado v.
Fox, 17-56933, based on counsel’s representation that a habeas petition was
being prepared. (Lubliner Decl., ¶ 7, exh. C, pp. 4-5.)
Proceeding in this manner will conserve the judicial resources of this
Court. If the state court grants relief, then the habeas appeal pending in this
Court would be moot and could be dismissed. There would be no need for
further briefing, oral argument, or the petitions for rehearing and en banc
review that the losing party would inevitably file on the Faretta and
Nixon/McCoy issues at the heart of the case.
For the foregoing reasons, Mitchell’s request to stay this appeal
should be granted. Alternatively, the due date for the reply brief should be
extended to August 6, 2019.
Dated: July 12, 2019

/s/Steven S. Lubliner_______
STEVEN S. LUBLINER
Attorney for Appellant
James Mitchell
4

1 App. 216

(6 of 33)
Case: 16-17057, 07/12/2019, ID: 11362288, DktEntry: 62-1, Page 6 of 6

PROOF OF SERVICE

I, Steven S. Lubliner, certify and declare under penalty of perjury that
I: am a citizen of the United States; am over the age of 18 years; am in
practice at the address indicated; am a member of the State Bar of California
and the Bar of this Court; am not a party to or interested in the cause entitled
upon the document to which this Proof of Service is affixed; and that I
caused to be served a true and correct copy of the following document(s) in
the manner indicated below:
MOTION TO STAY APPELLATE PROCEEDINGS OR, IN
THE ALTERNATIVE, FOR AN EXTENSION OF TIME IN
WHICH TO FILE THE REPLY BRIEF
DECLARATION OF STEVEN S. LUBLINER IN SUPPORT OF
MOTION TO STAY APPELLATE PROCEEDINGS OR, IN
THE ALTERNATIVE, FOR AN EXTENSION OF TIME IN
WHICH TO FILE THE REPLY BRIEF
(X) by today e-filing, at Petaluma, California, the said document(s)
in the Ninth Circuit e-filing system to parties registered to receive e-filings
in this case.
David Rose, Esq.
Office of the Attorney General
11th Floor
455 Golden Gate Avenue
San Francisco, CA 94102
Executed in Petaluma, California on July 12, 2019

/s/Steven S. Lubliner

5

1 App. 217

(7 of 33)
Case: 16-17057, 07/12/2019, ID: 11362288, DktEntry: 62-2, Page 1 of 27

IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

JAMES R.W. MITCHELL

)
)
Petitioner/Appellant
)
)
v.
)
)
CSP CORPORAN; DAVEY, Warden )
)
Respondent-Appellee.
)
)

No. 16-17057

DC # 3:15-cv-04919-VC

___________________________________
DECLARATION OF STEVEN S. LUBLINER IN SUPPORT OF
MOTION TO STAY APPELLATE PROCEEDINGS OR, IN THE
ALTERNATIVE, FOR AN EXTENSION OF TIME IN WHICH TO
FILE THE REPLY BRIEF
___________________________________
APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA
HONORABLE VINCE CHHABRIA
United States District Judge
Steven S. Lubliner (SBN 164143)
Law Offices of Steven S. Lubliner
P.O. Box 750639
Petaluma, California 94975
Telephone (707) 789-0516
Attorney for Petitioner-Appellant
JAMES R.W. MITCHELL

1 App. 218

(8 of 33)
Case: 16-17057, 07/12/2019, ID: 11362288, DktEntry: 62-2, Page 2 of 27

I, Steven S. Lubliner, declare as follows:
1.

I am counsel of record for appellant James R. W. Mitchell

(“Mitchell”) in this appeal. I have personal knowledge of all matters stated
herein and, if called as a witness, could and would testify competently
thereto.
2.

I received my order of appointment on August 14, 2017. I filed

the 64-page opening brief on July 23, 2018. Respondent’s 70-page
answering brief was filed on February 19, 2019.
3.

The certified issues in this case are “whether the state trial court

violated appellant’s constitutional rights when it (1) denied his request for
self-representation under Faretta v. California, 422 U.S. 806 (1975) and (1)
denied his motion to dismiss retained counsel at sentencing, including
whether counsel rendered ineffective assistance at sentencing.” I briefed
these issues and two uncertified issues. A common theme to the arguments
was Mitchell’s Sixth Amendment right to dictate the goals of his defense
and not have defense counsel knowingly override his wishes for a defense of
complete innocence. I have cited McCoy v. Louisiana, 138 S.Ct. 1500
(2018) and predecessor cases decided prior to Mitchell’s trial in support of
this position.

1

1 App. 219

(9 of 33)
Case: 16-17057, 07/12/2019, ID: 11362288, DktEntry: 62-2, Page 3 of 27

4.

Although I disagree with respondent’s arguments in the

answering brief on the irrelevance of McCoy and predecessor cases, after
considering the matter and consulting with other attorneys I have now
concluded that it is in Mitchell’s best interest to have this appeal stayed to
seek habeas relief in California state court on a claim premised squarely on
McCoy. My decision has been informed by holdings of the California courts
of appeal in March and April of this year that appear to strongly favor
Mitchell’s position.
5.

I have made substantial progress on drafting a state habeas

petition. I estimate the petition will be filed in two to three weeks.
6.

Attached respectively as exhibits A and B to this declaration are

true and correct copies of the stay motion and order in Hanafi v. Katavich,
No. 16-55256.
7.

Attached respectively as exhibits C and D to this declaration are

true and correct copies of the stay motion and order in Maldonado v. Fox,
No. 17-56933.
8.

Yesterday, July 11, 2019, in an exchange of e-mails, I informed

David Rose, counsel for respondent/appellee that I would be filing this
motion. He expressed no objection.

2

1 App. 220

(10 of 33)
Case: 16-17057, 07/12/2019, ID: 11362288, DktEntry: 62-2, Page 4 of 27

I declare under penalty of perjury under the laws of the United States
of America that the foregoing is true and correct.
Executed in Petaluma, California on July 12, 2019

/s/Steven S. Lubliner
STEVEN S. LUBLINER
Attorney for Appellant

3

1 App. 221

(33 of 33)
Case: 16-17057, 07/12/2019, ID: 11362288, DktEntry: 62-2, Page 27 of 27

PROOF OF SERVICE
I, Steven S. Lubliner, certify and declare under penalty of perjury that
I: am a citizen of the United States; am over the age of 18 years; am in
practice at the address indicated; am a member of the State Bar of California
and the Bar of this Court; am not a party to or interested in the cause entitled
upon the document to which this Proof of Service is affixed; and that I
caused to be served a true and correct copy of the following document(s) in
the manner indicated below:
MOTION TO STAY APPELLATE PROCEEDINGS OR, IN
THE ALTERNATIVE, FOR AN EXTENSION OF TIME IN
WHICH TO FILE THE REPLY BRIEF
DECLARATION OF STEVEN S. LUBLINER IN SUPPORT OF
MOTION TO STAY APPELLATE PROCEEDINGS OR, IN
THE ALTERNATIVE, FOR AN EXTENSION OF TIME IN
WHICH TO FILE THE REPLY BRIEF
(X) by today e-filing, at Petaluma, California, the said document(s)
in the Ninth Circuit e-filing system to parties registered to receive e-filings
in this case.
David Rose, Esq.
Office of the Attorney General
11th Floor
455 Golden Gate Avenue
San Francisco, CA 94102
Executed in Petaluma, California on July 12, 2019

/s/Steven S. Lubliner

4

1 App. 222

Case: 16-17057, 07/17/2019, ID: 11366242, DktEntry: 63, Page 1 of 2

FILED
JUL 17 2019

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

JAMES R. W. MITCHELL,

No.

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

16-17057

v.

D.C. No. 3:15-cv-04919-VC
Northern District of California,
San Francisco

CSP CORCORAN; DAVE DAVEY,
Warden,

ORDER

Petitioner-Appellant,

Respondents-Appellees.

The appellant’s motion (Docket Entry No. 62) to stay appellate proceedings
is granted. The previously established briefing schedule is vacated.
Appellate proceedings are stayed pending resolution of state court
proceedings or until further order of the court.
Appellant shall file a status report on October 14, 2019, and every 90 days
thereafter while the state habeas petition is pending. Status reports should include
any change in the status of the state court case and the estimated date of resolution
of appellant’s state habeas petition, if known.
Appellant shall notify the court by filing a status report within 7 days of the
resolution of appellant’s state habeas petition proceedings.
Failure to file a status report will terminate the stay of appellate proceedings.

1 App. 223

Case: 16-17057, 07/17/2019, ID: 11366242, DktEntry: 63, Page 2 of 2

The briefing schedule will be reset in a future order.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT

By: Wendy Lam
Deputy Clerk
Ninth Circuit Rule 27-7

2

1 App. 224

Case 3:15-cv-04919-VC Document 33 Filed 08/15/17 Page 1 of 1
1
2
3
4

UNITED STATES DISTRICT COURT

5

NORTHERN DISTRICT OF CALIFORNIA

6
7

JAMES R.W. MITCHELL

8

Petitioner,

9
10

United States District Court
Northern District of California

11

vs
CSP CORCORAN and DAVEY,
Respondent.

12

)
)
)
)
)
)
)
)
)

U.S.C.A. No.: 16-17057
U.S.D.C. No.: CV-15-04919-VC
ORDER RE: CJA APPOINTMENT
OF AND AUTHORITY TO PAY
COURT APPOINTED COUNSEL
ON APPEAL

13
14

The individual named above as appellant, having testified under oath or having

15

otherwise satisfied this court that he or she (1) is financially unable to employ counsel and (2)

16

does not wish to waive counsel, and, because the interests of justice so require, the Court finds

17

that the appellant is indigent, therefore;

18
19
20
21
22
23

IT IS ORDERED that the attorney whose name and contact information are
listed below is appointed to represent the above appellant.
Steven S. Lubliner
P.O. Box 750639
Petaluma, CA 94975
707-789-0516
sslubliner@comcast.net

24
25

Appointing Judge: Hon . Judge Chhabria
26
27

August 15, 2017
Date of Order

August 14, 2017
Nunc Pro Tunc Date

28

1 App. 225

